<html>
<title> - TO REVIEW FEDERAL AND STATE OVERSIGHT OF CHILD WELFARE PROGRAMS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





    TO REVIEW FEDERAL AND STATE OVERSIGHT OF CHILD WELFARE PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2004

                               __________

                           Serial No. 108-30

                               __________

         Printed for the use of the Committee on Ways and Means



                    U.S. GOVERNMENT PRINTING OFFICE
92-984                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
SCOTT MCINNIS, Colorado              FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               SANDER M. LEVIN, Michigan
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
PHIL ENGLISH, Pennsylvania           CHARLES B. RANGEL, New York
RON LEWIS, Kentucky
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also, published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page
Advisory of January 21, 2004, announcing the hearing.............     2

                               WITNESSES

U.S. Department of Health and Human Services, Hon. Wade F. Horn, 
  Ph.D., Assistant Secretary for Children and Families...........     8
U.S. General Accounting Office, Cornelia M. Ashby, Director, 
  Education, Workforce, and Income Security Issues...............    18

                                 ______

Alliance for Children and Families, Curtis C. Mooney.............    93
Association on American Indian Affairs, Jack F. Trope............   105
Atwood, Thomas C., National Council For Adoption.................    82
Bell, William C., New York City Administration for Children's 
  Services.......................................................    43
Bilchik, Shay, Child Welfare League of America...................    73
Birch, Thomas L., National Child Abuse Coalition.................    97
Burge, Cathy, Naples, FL.........................................   122
Catholic Charities, Archdiocese of New York, Monsignor Kevin 
  Sullivan.......................................................    80
Child Welfare League of America, Shay Bilchik....................    73
DePelchin Children's Center, Curtis C. Mooney....................    93
Frenzel, Hon. William, Pew Commission on Children in Foster Care.    70
Gladwell, Lisa E., River Edge, NJ................................   125
Holden, Courteney Anne, Voice For Adoption.......................   102
Home School Legal Defense Association, Christopher J. Klicka.....   109
Iowa Department of Human Services, Division of Behavioral, 
  Developmental, and Protective Services for Families, Adults, 
  and Children, Mary J. Nelson...................................    32
Klicka, Christopher J., Home School Legal Defense Association....   109
Mooney, Curtis C., Alliance for Children and Families, and 
  DePelchin Children's Center....................................    93
National Association of Foster Care Reviewers, Bill Stanton......    56
National Association of Public Child Welfare Administrators, Mary 
  J. Nelson......................................................    32
National Child Abuse Coalition, Thomas L. Birch..................    97
National Council For Adoption, Thomas C. Atwood..................    82
Nelson, Mary J., National Association of Public Child Welfare 
  Administrators, and Iowa Department of Human Services, Division 
  of Behavioral, Developmental, and Protective Services for 
  Families, Adults, and Children.................................    32
New York City Administration for Children's Services, William C. 
  Bell...........................................................    43
O'Hara, Marie C., Barnegat, NJ...................................   130
Pennsylvania Department of Public Welfare, Office of Children, 
  Youth, and Families, Wayne T. Stevenson........................    53
Pew Commission on Children in Foster Care, Hon. William Frenzel..    70
Stanton, Bill, National Association of Foster Care Reviewers, and 
  Phoenix Administrative Office of the Courts, Dependent 
  Children's Services Division...................................    56
Stevenson, Wayne T., Pennsylvania Department of Public Welfare, 
  Office of Children, Youth, and Families........................    53
Sullivan, Monsignor Kevin, Catholic Charities, Archdiocese of New 
  York...........................................................    80
Trope, Jack F., Association on American Indian Affairs...........   105
Voice For Adoption, Courteney Anne Holden........................   102

                       SUBMISSIONS FOR THE RECORD

Beauchamp, Edith J., Greenbelt, MD, statement....................   137
de Santos, Patricia, Claremont, CA, statement....................   144
Evans-Baxter, Judith G., Pompano Beach, FL, letter...............   147
Voice Application Specialists International, Inc., Woodstock, GA, 
  Maricriz Nolan, letter.........................................   148

 
    TO REVIEW FEDERAL AND STATE OVERSIGHT OF CHILD WELFARE PROGRAMS

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2004

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:32 a.m., in 
room B-318, Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                  CONTACT: 202-225-1721
FOR IMMEDIATE RELEASE
January 21, 2004
HR-7

Herger Announces Hearing to Review Federal and State Oversight of Child 
                            Welfare Programs

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to review Federal and State oversight 
of child welfare programs. The hearing will take place on Wednesday, 
January 28, 2004, in room B-318 Rayburn House Office Building, 
beginning at 10:30 a.m.
      
    Oral testimony at this hearing will be from both invited and public 
witnesses. Invited witnesses will include Federal and State officials 
and other experts familiar with child welfare programs. Any individual 
or organization not scheduled for an oral appearance may submit a 
written statement for consideration by the Subcommittee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    On November 6, 2003, the Subcommittee held a hearing to examine a 
case in New Jersey involving four boys who were apparently starved 
while in the care of their adoptive parents. This neglect escaped the 
attention of caseworkers who made numerous visits to the home, and 
instead was first reported by a neighbor who found one of the boys 
rooting through the trash in search of food. The Federal Government 
provides approximately $7 billion to the States to operate foster care 
and adoption assistance programs intended to protect children. However, 
this case as well as others involving the death or abuse of children 
involved with the child welfare system raise questions about whether 
more needs to be done to ensure that children are protected and reside 
in safe environments rather than continuing to be subjected to abuse 
and neglect.
      
    On November 19, 2003, the Subcommittee held a hearing to examine 
improved monitoring of children in care by focusing on the information 
systems designed to track and protect these vulnerable children from 
abuse and neglect. Government officials and outside experts testified 
at this hearing that effective data systems are necessary to keep 
children safe. Quality information systems can provide crucial 
information to monitor these children and help to ensure State 
accountability for their well-being, but for this to happen States must 
effectively use the data they collect to protect and track these 
children. The Subcommittee's third hearing in this series, to be held 
on January 28, 2004, will review Federal and State oversight systems 
designed to prevent abuse and neglect of children, including those 
under State protection.
      
    In announcing the hearing, Chairman Herger stated, ``It is critical 
that we do all we can to ensure the safety of children. When the very 
systems intended to protect these children fail to defend them from 
continued abuse or neglect, we must ask hard questions about what more 
needs to be done. This hearing will give us the opportunity to learn 
what Federal, State, and local officials should be doing to ensure that 
children are in safe, loving environments.
      

FOCUS OF THE HEARING:

      
    The hearing will focus on what Federal, State, and local officials 
can do and should be doing to ensure the safety, permanency, and well-
being of children.
      

DETAILS FOR SUBMISSIONS OF REQUESTS TO BE HEARD:

      
    Requests to be heard at the hearing must be made by telephone to 
Peter Sloan or Kevin Herms at (202) 225-1721 no later than 5:00 p.m. on 
Friday, January 23, 2004. The telephone request should be followed by a 
formal written request faxed to Allison Giles, Chief of Staff, 
Committee on Ways and Means, U.S. House of Representatives, 1102 
Longworth House Office Building, Washington, D.C. 20515, at (202) 225-
2610. The staff of the Subcommittee will notify by telephone those 
scheduled to appear as soon as possible after the filing deadline. Any 
questions concerning a scheduled appearance should be directed to the 
Subcommittee staff at (202) 225-1025.
      
    In view of the limited time available to hear witnesses, the 
Subcommittee may not be able to accommodate all requests to be heard. 
Those persons and organizations not scheduled for an oral appearance 
are encouraged to submit written statements for the record of the 
hearing in lieu of a personal appearance. All persons requesting to be 
heard, whether they are scheduled for oral testimony or not, will be 
notified as soon as possible after the filing deadline.
      
    Witnesses scheduled to present oral testimony are required to 
summarize briefly their written statements in no more than five 
minutes. THE FIVE-MINUTE RULE WILL BE STRICTLY ENFORCED. The full 
written statement of each witness will be included in the printed 
record, in accordance with House Rules.
      
    In order to assure the most productive use of the limited amount of 
time available to question witnesses, all witnesses scheduled to appear 
before the Subcommittee are required to submit 200 copies, along with 
an IBM compatible 3.5-inch diskette in WordPerfect or MS Word format, 
of their prepared statement for review by Members prior to the hearing. 
Testimony should arrive at the Subcommittee office, B-317 Rayburn House 
Office Building, no later than 1:00 p.m. on Monday, January 26, 2004. 
The 200 copies can be delivered to the Subcommittee staff in one of two 
ways: (1) Government agency employees can deliver their copies to B-317 
Rayburn House Office Building in an open and searchable box, but must 
carry with them their respective government issued identification to 
show the U.S. Capitol Police, or (2) for non-government officials, the 
copies must be sent to the new Congressional Courier Acceptance Site at 
the location of 2nd and D Streets, N.E., at least 48 hours prior to the 
hearing date. Please ensure that you have the address of the 
Subcommittee, B-317 Rayburn House Office Building, on your package, and 
contact the staff of the Subcommittee at (202) 225-1025 of its 
impending arrival. Due to new House mailing procedures, please avoid 
using mail couriers such as the U.S. Postal Service, UPS, and FedEx. 
When a couriered item arrives at this facility, it will be opened, 
screened, and then delivered to the Subcommittee office, within one of 
the following two time frames: (1) expected or confirmed deliveries 
will be delivered in approximately 2 to 3 hours, and (2) unexpected 
items, or items not approved by the Subcommittee office, will be 
delivered the morning of the next business day. The U.S. Capitol Police 
will refuse all non-governmental courier deliveries to all House Office 
Buildings.
      

WRITTEN STATEMENTS IN LIEU OF PERSONAL APPEARANCE:

      
    Please Note: Any person or organization wishing to submit a written 
statement for the printed record of the hearing must send it 
electronically to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adc5c8ccdfc4c3cacec1c8dfc6de83daccd4deccc3c9c0c8ccc3deedc0ccc4c183c5c2d8dec883cac2db">[email&#160;protected]</a>, along with 
a fax copy to (202) 225-2610, by the close of business Wednesday, 
February 11, 2004. In the immediate future, the Committee website will 
allow for electronic submissions to be included in the printed record. 
Before submitting your comments, check to see if this function is 
available. Finally, those filing written statements who wish to have 
their statements distributed to the press and interested public at the 
hearing can follow the same procedure listed above for those who are 
testifying and making an oral presentation. Please directly follow 
these guidelines to ensure that each statement is included in the 
record.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b3dbd6d2c1daddd4d0dfd6c1d8c09dc4d2cac0d2ddd7ded6d2ddc0f3ded2dadf9ddbdcc6c0d69dd4dcc5">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in WordPerfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. Good morning. I would invite everyone to 
take their seats, please. Welcome to today's hearing. The 
purpose of this hearing is to continue our efforts to review 
and understand how well our Nation's child welfare programs are 
protecting vulnerable children. Last November, the case of four 
boys apparently starved by their adopted parents in New Jersey 
came to the attention of the Nation. Many of us were shocked to 
learn that the alleged abuse and neglect of these boys had for 
so long escaped the attention of so many individuals, including 
child welfare workers who repeatedly visited their homes. We 
held our first hearing, learning what happened in this specific 
case, and learning how the boys were doing. Two months later, I 
understand that the boys continue to make progress in their new 
environments.
    Our second hearing looked at routine but important 
questions surrounding the data States collect to monitor kids 
in their care. Witnesses told us that good information systems 
play a vital role in helping States protect kids in care. We 
also learned that a number of States lack the capacity to use 
the data they collect to help ensure safe and permanent 
placements for kids. Today's hearing will review Federal and 
State oversight of child welfare programs. The basic questions 
today are simple, but I expect that the answers may not be so 
simple. What do we do at the Federal, State, and local level to 
ensure that children are safe and placed with loving families? 
Are current measures working to protect children? What more 
should we be doing to protect children in foster or adoptive 
families?
    We know the foster care system includes many thousands of 
loving families who provide safe, nurturing homes to vulnerable 
children. Without them, these children would grow up without a 
family or a place to call home. We commend them, and thank them 
for their dedication to these children. However, we also know 
that the case in New Jersey is not an isolated incident. Every 
one of our States has witnessed shocking stories of children 
whose abuse slipped through the cracks--of children missing 
from care, or even children who died while in State custody.
    We have asked representatives from the Federal Government, 
State and local government, and child welfare organizations to 
join us to discuss whether Federal and State protections are 
working. I am also pleased that a number of organizations and 
individuals have responded to our request for additional input. 
Finally, we are joined by several parents who have been 
involved with the child welfare system, and who will offer us 
their personal perspective. I thank all of our witnesses for 
joining us today. We tried to accommodate everyone who 
submitted a request to testify that met the Committee's 
requirements and was related to the topic of today's hearing. 
We look forward to hearing from all of our witnesses about ways 
to better promote safety for children in foster and adoptive 
families. Without objection, each Member will have the 
opportunity to submit a written statement and have it included 
in the record at this point. Mr. Cardin, would you like to make 
an opening statement?
    [The opening statement of Chairman Herger follows:]

Opening Statement of the Honorable Wally Herger, Chairman, Subcommittee 
on Human Resources, and a Representative in Congress from the State of 
                               California

    Good morning and welcome to today's hearing. The purpose of this 
hearing is to continue our efforts to review and understand how well 
our nation's child welfare programs are protecting vulnerable children.
    Last November the case of four boys apparently starved by their 
adoptive parents in New Jersey came to the attention of the Nation. 
Many of us were shocked to learn that the alleged abuse and neglect of 
these boys had for so long escaped the attention of so many 
individuals, including child welfare workers who repeatedly visited 
their home. We held our first hearing to learn what happened in this 
specific case and to learn how the boys were doing. Two months later, I 
understand that the boys continue to make progress in their new 
environments.
    Our second hearing looked at routine but important questions 
surrounding the data States collect to monitor kids in their care. 
Witnesses told us good information systems play a vital role in helping 
States protect kids in care. We also learned that a number of States 
lack the capacity to use data they collect to help ensure safe and 
permanent placements for kids.
    Today's hearing will review Federal and State oversight of child 
welfare programs. The basic questions today are simple, but I expect 
the answers may not be so simple. What do we do at the Federal, State, 
and local level to ensure children are safe and placed with loving 
families? Are current measures working to protect children? And what 
more should we be doing to protect children in foster or adoptive 
families?
    We know the foster care system includes thousands of loving 
families who provide safe, nurturing homes to vulnerable children. 
Without them, these children would grow up without a family or a place 
to call home. We commend them and thank them for their dedication to 
these children.
    However, we also know that the case in New Jersey is not an 
isolated incident. Every one of our States has witnessed shocking 
stories of children whose abuse slipped through the cracks, of children 
missing from care or even children who died while in State custody.
    We've asked representatives from the Federal Government, State and 
local government, and child welfare organizations to join us to discuss 
whether Federal and State protections are working. I'm also pleased 
that a number of organizations and individuals have responded to our 
request for additional input. Finally, we are joined by several parents 
who have been involved with the child welfare system, who will offer us 
their personal perspective. We look forward to hearing from all of our 
witnesses today about ways to better promote safety for children in 
foster and adoptive families.

                                 <F-dash>

    Mr. CARDIN. Thank you very much, Mr. Chairman. I very much 
appreciate your leadership in putting together this hearing. I 
think this is a very important hearing for us. It is not our 
first in the area of child welfare or protecting our children; 
we have had several other hearings. Yet this hearing is 
particularly meaningful because of the wide diversity of the 
panels that will be appearing before us, and their expertise in 
this area. We should be able to get the perspective from just 
about every one of the stakeholders in our child welfare 
system, and I thank you very much for convening this hearing.
    None of us will forget the hearing we had in regard to the 
case in New Jersey that you mentioned, where four children were 
literally being starved. Yet we don't have to go to New Jersey. 
I think we can look in each one of our States and find that 
there is a lot more that needs to be done to protect the 
welfare of children. I notice in my own State of Maryland that 
there is a highly profiled case that is currently going on 
about a child who was beaten to death. So, each of us need to 
really scrutinize what is happening in our own individual 
States and look--and I particularly appreciate Dr. Wade Horn 
being here--look at what we can do at the national level to 
provide the right structure to protect our children.
    Let me make a couple of observations. First, there is the 
issue of funding. I think we have to adequately fund the 
programs in this area. I do have concerns about the open-ended 
funding for children that are placed out of home--but that we 
have a capped funding source for preventive services in order 
to keep our children safe and healthy. I think we need to take 
a look at that as we review the budget of this country. Second, 
the child welfare system is only as good as the people that are 
in the system who provide the leadership. When we look at the 
turnover, particularly of caseworkers--they are the frontline 
people--we know that we have a problem here of how to attract 
and retain the best people to stay in this very difficult 
arena, so that they can provide the leadership and experience 
necessary to protect our children. Third, there is the issue of 
what the Federal role should be. I know that we are all 
struggling with providing the flexibility to local government. 
We want to do the best we can to allow the locals to do what 
they think is right, and I support that. I support the 
flexibility. Yet there needs to be Federal accountability. We 
need a Federal system that says that every child is precious, 
and that we need to protect vulnerable children.
    During past hearings, I have expressed concern about the 
Bush Administration's child welfare proposals--that they fail 
to adequately address these three core issues that I mentioned. 
I am concerned about the President's budget, as to whether it 
will be adequate to meet these objectives. I know that the 
Administration has proposed the block granting of child welfare 
dollars. That gives me a great deal of concern, because I see 
in every case that we have gone to block grants, it is followed 
with a reduction of the Federal Government's role in meeting 
these needs. Look at the Social Services Block Grant program 
(title XX of the Social Security Act, Omnibus Budget 
Reconciliation Act 1987, P.L. 100-203) that was at one time 
funded at $2.8 billion. Its funding is now down to $1.7 
billion. Look at the Temporary Assistance for Needy Families 
(TANF) reauthorization. The TANF program has not kept up with 
inflation, and the chances of this Congress approving a TANF 
reauthorization that will reflect inflation--buying the same 
amount for the dollars that are being made available--is not 
very likely. So, we have seen that when the Federal Government 
goes from a guaranteed funding program to a block grant funding 
program, it is usually followed by less Federal funds.
    Nevertheless, I remain hopeful that we can work together, 
Mr. Chairman, because this is an area for which we all share 
the same objective. We all want to make sure that America's 
children are protected--particularly the most vulnerable. So, 
on behalf of the Democratic Members, we want to continue to 
work without party distinction here. We want to be able to 
develop a national commitment to our vulnerable children. We 
want to improve our current system and make it accountable. We 
want to provide the resources that are necessary, so that we 
can truly protect our children, and so we don't have to read in 
the paper about these horrible abuse cases that should have 
been corrected. I look forward to hearing from our witnesses.
    [The opening statement of Mr. Cardin follows:]

Opening Statement of the Honorable Benjamin L. Cardin, a Representative 
                 in Congress from the State of Maryland

    Mr. Chairman, I am glad we are here today to continue a series of 
hearings on our Nation's child welfare system. These discussions may 
not get reported on the front pages of any newspaper, but they are 
vitally important to the nearly one million children who are victims of 
abuse and/or neglect every year, and to the half million children who 
now reside in foster care.
    The written testimony provided today in combination with the 
comments we have heard in our past hearings appears to illustrate a 
growing consensus on a few key issues.
    First, the current child welfare system grossly under-funds 
services designed to prevent child abuse by strengthening families. 
Experts, administrators, and advocates alike have repeatedly pointed 
out that the Federal Government provides open-ended funding for out-of-
home care, while providing only limited, capped funds for preventive 
services.
    Second, the child welfare system is only as good those who run it--
from the top all the way down to the frontline caseworker. To make real 
improvements, sufficient political will has to exist within those 
making policy decisions, and adequate experience and training is needed 
by those making the hard decisions every day about how to care for 
children in troubled homes. Regrettably, we know that low pay, high 
caseloads and inadequate training has led to rapid turnover for child 
welfare caseworkers--with their average tenure lasting less than two 
years.
    Third, the results of the recent Child and Family Service Reviews, 
past and current litigation revolving around the child welfare system, 
and recent reports on specific child abuse cases (including the 
disturbing story about an adoptive family in New Jersey), all 
illustrate the clear need for a strong Federal presence in ensuring the 
safety of our most vulnerable children.
    This does not mean we cannot provide flexibility to our States and 
communities--because we can and should. But it does mean the Federal 
Government must demand better outcomes for abused children, while 
providing the necessary resources to promote that goal.
    During past hearings, I have expressed concern that the Bush 
Administration's child welfare proposal fails to adequately address 
these three core issues. The President's plan is designed to be budget 
neutral, indicating a belief that no new resources are needed to 
provide protection and permanency for at-risk children.
    I do not think the evidence before us supports such a conclusion.
    I also have grave doubts about the long-term impact of effectively 
block-granting nearly all child welfare funding. Beyond the question of 
what happens if caseloads go up, I am concerned about the Federal 
financial commitment over time. The Social Services Block Grant, which 
among other things funds child protective services, has been cut from 
$2.8 billion a year in 1996 to $1.7 billion today. Furthermore, the 
TANF block grant is not keeping up with inflation, meaning it is set to 
lose about a quarter of it purchasing power over the next five years. 
In short, block grants too often lead to spending cuts.
    Nevertheless, I remain hopeful that we can work together on a 
comprehensive solution to the problems now confronting our child 
welfare system. We all agree there is a problem, and I think there is a 
fair amount of consensus about what is causing that problem. That is an 
important first step towards moving to a meaningful solution. I look 
forward to taking the next step so that we can better protect our most 
vulnerable children. Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Cardin. Before we move on 
to our testimony, I want to remind our witnesses to limit their 
oral statement to 5 minutes. However, without objection, all 
the written testimony will be made a part of the permanent 
record. As you will note from the witness list, we have a 
number of individuals scheduled to testify today. We expect to 
receive testimony from Dr. Wade Horn and the first panel before 
breaking for lunch. Then we expect to return for the remaining 
witnesses, starting at approximately 1:30 p.m. We appreciate 
everyone's patience in allowing us to hear from so many 
witnesses on such an important topic today. To begin, I would 
like to welcome Dr. Wade Horn, Assistant Secretary for Children 
and Families at the U.S. Department of Health and Human 
Services (HHS). Dr. Horn has been before the Subcommittee on a 
number of occasions, and I thank him for appearing before us 
today. Dr. Horn to testify.

   STATEMENT OF THE HONORABLE WADE F. HORN, PH.D., ASSISTANT 
SECRETARY FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH 
                       AND HUMAN SERVICES

    Dr. HORN. Thank you, Mr. Chairman, and Members of the 
Subcommittee. I want to thank you for the opportunity to appear 
before you today to discuss Federal child welfare oversight 
activities, and to share with you initiatives we are 
undertaking to further strengthen child welfare services in 
America. The Administration for Children and Families uses 
several mechanisms to work with States to assess State and 
local child welfare systems, to measure compliance with Federal 
laws, and to hold States accountable, both for meeting Federal 
requirements, and, more importantly, for achieving positive 
outcomes for children and families. We also use information 
gathered from our various reviews to provide targeted technical 
assistance that is responsive to individual State needs, in an 
effort to help improve their systems and services.
    The principal mechanisms for Federal oversight include 
title IV-E eligibility reviews, reviews of the Adoption and 
Foster Care Analysis and Reporting System (AFCARS), reviews of 
the statewide Automated Child Welfare Information System 
(SACWIS), and the Child and Family Services Review (CFSR). The 
CFSRs are the cornerstone of our efforts to review State 
performance, and ensure a State's compliance with key 
provisions of Federal law. It is also our means to partner with 
the States in identifying areas that need improvement, and 
working to bring about those improvements. The CFSRs began in 
fiscal year 2001, and to date, we have completed 48 of them.
    The CFSRs cover all areas of child welfare services, from 
child protection and family preservation, to adoption and 
positive youth development. The review itself includes a self-
assessment phase, followed by an intensive on-site review in 
which we pair teams of Federal and State staff to review cases 
and interview children, parents, foster parents, and 
stakeholders, to identify areas of strength in each State, and 
areas that require improvement. When weaknesses are identified, 
States enter into a Program Improvement Plan (PIP) to address 
the areas where we find deficiencies. To date, 31 PIPs have 
been approved. After the PIP period ends, States will undergo a 
second review--and we continue this process until the State 
comes into compliance on all of the 14 areas under review. If a 
State fails to carry out provisions of this PIP, or fails to 
achieve its goals, we will begin imposing applicable penalties.
    We recognize that providing quality technical assistance is 
critical to helping States get the most out of the review 
process and to bring about needed change. Therefore, the 
Administration provides over $8 million annually to support 10 
national resource centers, whose role is to build the capacity 
of State, local, tribal, and other publicly administered and 
supported child welfare agencies. The national resource centers 
are providing technical assistance to States in different 
stages of the CFSR process. These reviews are beginning to make 
a significant contribution to improving child welfare services 
across the country. However, we know we must do more in order 
to better protect children, support families, and promote 
timely permanency. Therefore, last year, the President unveiled 
a bold new proposal--the Child Welfare Program Option--that 
would allow States to choose a flexible alternative funding 
structure, to design more effective ways to strengthen services 
to vulnerable children and families. States that choose the 
program option would be able to use funds for foster care 
payments, as well as other child welfare services, such as 
prevention activities and case management. While States that 
choose this option would have much greater flexibility in how 
they use title IV-E funds, they would continue to be required 
to maintain the child safety protections under current law.
    We believe that this option would offer a powerful new 
means for States to structure their child welfare services 
programs in a way that supports the goals of safety, timely 
permanency, and enhanced well-being for children and families, 
while relieving them of significant administrative burdens. We 
appreciate the Committee's support in working with us on 
crafting legislative language to make this proposal a reality. 
Finally, I would like to mention another Presidential priority 
that speaks to a concern Mr. Cardin brought up in his opening 
comments, and which directly supports State efforts to provide 
needed services to children and families. The Promoting Safe 
and Stable Families amendments of 2001 (P.L. 107-133) fund 
family support, family preservation, time-limited 
reunification, adoption promotion, and support services, and 
provides funding for the Court Improvement Program.
    The President, as you know, has proposed an increase of $1 
billion in this program over 5 years. Thus far, Congress has 
appropriated approximately half that amount. The President is 
firm in his commitment to continue to seek and secure full 
funding--$505 million a year--for this important program. We 
ask for your continued support of this vital investment in our 
Nation's children and families. We have made great strides in 
the field of child welfare, but the work of assuring the 
safety, permanency, and well-being of every child who comes to 
the attention of a child welfare agency or court remains a 
tremendously challenging task. We are committed to working with 
the States, Members of Congress, community-based organizations, 
and concerned citizens to continuously strive for better 
outcomes for all of these children. Thank you, and I would be 
pleased to answer any questions you may have.
    [The prepared statement of Dr. Horn follows:]

Statement of the Honorable Wade F. Horn, Ph.D., Assistant Secretary for 
  Children and Families, U.S. Department of Health and Human Services

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you to discuss issues related to Federal 
child welfare oversight and the President's commitment to improving the 
lives of vulnerable children and families. Through the development of 
national outcome measures, and the implementation of the results-
oriented Child and Family Services Review process, we have built a 
national consensus on the key goals for child welfare: assuring 
children's safety, meeting children's needs for timely permanency in a 
loving and stable family, and promoting child and family well-being. I 
am pleased to have this opportunity to provide a brief overview of our 
Federal oversight activities and to share with you initiatives we are 
undertaking to further strengthen child welfare services.

Overview of Child Welfare Oversight
    The role of Federal child welfare oversight is to monitor States 
and federally recognized Tribes to ensure they are meeting their 
responsibilities of protecting our nation's most vulnerable children 
and providing effective services to at-risk families. The 
Administration for Children and Families (ACF) uses several mechanisms 
to work with the States to assess State and local child welfare 
systems, to measure compliance with Federal laws and to hold States 
accountable both for meeting Federal requirements and, more 
importantly, for achieving positive outcomes for children and families. 
We also use information gathered from our various reviews to provide 
targeted technical assistance that is responsive to individual State 
needs in an effort to help them improve their systems and services. We 
urge States to collect and analyze information in a manner that 
promotes a culture of continuous assessment and improvement, rather 
than waiting for the next tragedy to call for reform.
    The following are the principle mechanisms for Federal oversight of 
child welfare systems:

    <bullet>  Title IV-E Eligibility Reviews--Title IV-E reviews focus 
on whether a child meets the statutory eligibility requirements for 
foster care maintenance payments. Federal funds are disallowed for 
cases that fail to meet these requirements. If a State fails in more 
than a specific percentage of cases, it is considered to be out of 
compliance with the Federal foster care program requirements. Most of 
the States reviewed to date were in substantial compliance with the 
eligibility requirements and most of the remainder are in the process 
of implementing corrective action plans.
    <bullet>  The Adoption and Foster Care Analysis and Reporting 
System (AFCARS)--AFCARS collects case level information on all children 
under the care of the State in foster care and those children adopted 
from the State public child welfare system. It also includes 
information on adoptive and foster parents. The AFCARS review 
encompasses assessing the ability of a State's automated information 
system to gather, extract and submit the correct AFCARS data 
accurately. The review process is a rigorous evaluation of the State's 
system and allows the review team to identify problems, investigate the 
causes, and suggest solutions during the review.
    <bullet>  Statewide Automated Child Welfare Information System 
(SACWIS)--Through these reviews we assess and inspect the planning, 
design, and operation of SACWIS systems to determine how such systems 
meet the requirements imposed in the law, regulations, guidelines, and 
in the State's unique business plan. ACF evaluates all mandatory 
functional components (e.g. intake, screening, assessment, and 
investigations) and all the optional components the State elected to 
include in the system design (e.g. court processing and contract 
monitoring). The SACWIS can function as a ``case management'' system 
that serves as the electronic case file for children and families 
served by the States' child welfare programs. Twenty-nine States now 
have operational systems that are comprehensive and capable of 
supporting both improved case management and required data reporting.
    <bullet>  Child and Family Services Review--The CFS Review is 
designed to ensure that State child welfare agency practices are in 
conformity with Federal child welfare requirements, to determine what 
is actually happening to children and families as they are engaged in 
State child welfare services, and to assist States with enhancing their 
capacity to help children and families involved with the child welfare 
system achieve positive outcomes.

    The CFS Review is the most comprehensive Federal child welfare 
monitoring tool we have and is the focus of my testimony today.
Child and Family Services Reviews
    The Child and Family Services Review is the cornerstone of our 
efforts to review State performance and ensure compliance with key 
provisions of law. It also is our means to partner with the States in 
identifying areas that need improvement and in working with them to 
bring about those improvements. I would like to take a few moments to 
describe the reviews and what we are learning from them.
    The CFS Review began in FY 2001 and to date we have completed 48 
reviews including 46 States, Puerto Rico, and the District of Columbia. 
Only 4 reviews remain: Mississippi, Rhode Island, Nevada, and New 
Jersey. These reviews will be completed by the end of March 2004.
    The CFS Review covers all areas of child welfare services, from 
child protection and family preservation, to adoption and positive 
youth development. The review requires that State child welfare 
agencies, in collaboration with a range of other State and local 
representatives, engage in an intense self-examination of their 
practices and analyze detailed data profiles that the Federal 
Government provides from our national databases on child welfare.
    We follow the self-assessment phase of the review with an intense 
onsite review--in which we pair teams of Federal and State staff to 
review cases and interview children, parents, and foster parents--to 
identify areas of strength in State child welfare programs and areas 
that require improvement. This joint approach to reviewing States has 
had the effect of not only engaging States in identifying their own 
strengths and weaknesses, but also in building the commitment of States 
to make needed improvements and strengthen their capacity to self-
monitor between Federal reviews.
    When weaknesses are identified, States enter into Program 
Improvement Plans (PIP) to address any of the areas where we find 
deficiencies. The PIP must be submitted for approval within 90 days of 
the completion of their final report. To date, 31 Program Improvement 
Plans have been approved.
    We recognize that providing quality technical assistance is 
critical to helping States get the most out of the review process and 
bring about needed change. Therefore, the Administration provides over 
$8 million annually for 10 national resource centers whose role is to 
build the capacity of State, local, tribal and other publicly 
administered or supported child welfare agencies. These resource 
centers are organized around subject areas including: Family-Centered 
Practice; Organizational Improvement; Foster Care and Permanency 
Planning; Information Technology in Child Welfare; Special Needs 
Adoption; Youth Services; Child Maltreatment; Abandoned Infants; 
Community-Based Family Resource and Support Programs; and Legal and 
Judicial Issues. In addition to these ACF-funded resources centers, we 
also are partnering with the Substance Abuse and Mental Health 
Administration in supporting a National Center on Substance Abuse and 
Child Welfare.
    The national resource centers are providing technical assistance to 
States in different stages of the CFS Review process. For example, the 
National Resource Center for Organizational Improvement has guided many 
States in developing work plans for the statewide assessment portion of 
the review and other resource centers have assisted States in 
developing their Program Improvement Plans.
    After the Program Improvement period ends, States will undergo a 
second review, and will continue this process until they come into 
compliance on all of the 14 areas under review.
    We hold the States accountable for achieving the provisions of 
their Program Improvement Plans but, in order to assist them in making 
needed improvements, we suspend Federal penalties while a State is 
implementing its plan. If a State fails to carry out the provisions of 
its Program Improvement Plan or fails to achieve its goals, we will 
begin imposing applicable penalties.
    Among the most significant findings across the 46 States, Puerto 
Rico, and the District of Columbia are the following:

    <bullet>  States are performing somewhat better on safety outcomes 
for children than on permanency and well-being. Overall, States are 
responding to reports of abuse and neglect in a timely manner, and are 
providing services to prevent out-of-home placement when appropriate.
    <bullet>  States need to work on preventing repeat abuse and 
neglect of children and need to improve the level of services provided 
to families to reduce the risk of future harm, including monitoring 
families' participation in services.
    <bullet>  The timely achievement of permanency outcomes, especially 
adoption, for children in foster care is one of the weakest areas of 
State performance.
    <bullet>  Most of the States need to make significant improvements 
in their judicial processes for monitoring children in foster care, 
such as assuring timely court hearings and increasing their attention 
to timely termination of parental rights, where appropriate.
    <bullet>  There is a strong correlation between frequent caseworker 
visits with children and positive findings in other areas, such as 
timely permanency achievement (which is one of the most difficult areas 
for States to address effectively) and indicators of child well-being.
    <bullet>  In the area of well being, States are strongest in 
meeting the educational needs of children, followed by physical health, 
and then mental health. States need to improve the way in which they 
assess the needs of family members and provide services, and the way in 
which they engage parents and children in developing case plans. In 
particular, States need to focus on their work with fathers, including 
identifying fathers and engaging them in services.
    <bullet>  There are important differences in the level of services 
provided to intact families, as opposed to families whose children are 
in foster care, often with less attention to the intact families. We 
believe that many States need to strengthen the up-front preventive 
services they provide to intact families if they are to be successful 
in preventing the unnecessary break-up of families and in protecting 
those children who remain at home rather than being placed in foster 
care.

    The Child and Family Services Review is making a significant 
contribution to improving child welfare services across the country, 
but there is still much work to be done. We know that we must do more 
in order to better protect children, support families and promote 
timely permanency. Therefore, the President has put forth a bold new 
Child Welfare Financing proposal that would strengthen State child 
welfare systems and help States better meet the needs of America's most 
vulnerable children and families.

Child Welfare Program Option
    In FY 2004, the President unveiled a new proposal, the Child 
Welfare Program Option that would allow States to choose a flexible, 
alternative financing structure over the current title IV-E foster care 
entitlement program. Over the years, we consistently have heard from 
States that the title IV-E foster care program is too restrictive 
because it only provides funds for the poorest children who have been 
removed from the home.
    The program also has been criticized for failing to support the 
goal of permanency. While reimbursement for foster care and related 
case management services is open-ended, title IV-E funds may not be 
used for other types of services that could prevent a child from 
needing to be placed in care in the first place, or that would 
facilitate a child's returning home, or moving to another permanent 
placement.
    Under the President's proposal, States could choose to administer 
their foster care program more flexibly, with a fixed allocation of 
funds over a five year period, should this approach better support 
their unique child welfare needs. States that choose not to receive 
funding provided by this option would continue operating under the 
current title IV-E entitlement program.
    The Program Option provides States with more flexibility so they 
can design more effective ways to strengthen services to vulnerable 
children and families. States that choose the Program Option would be 
able to use funds for foster care payments, prevention activities, 
permanency efforts (including subsidized guardianships), case 
management, administrative activities (including developing and 
operating State information systems), training for child welfare staff 
and other such service related child welfare activities. States would 
be able to develop innovative and effective systems for preventing 
child abuse and neglect, keeping families and children safely together, 
and moving children toward adoption and permanency quickly.
    While States that choose this option would have much greater 
flexibility in how they use funds, they would continue to be required 
to maintain the child safety protections under current law, including 
requirements for conducting criminal background checks and licensing 
foster care providers, obtaining judicial oversight over decisions 
related to a child's removal and permanency, meeting permanency 
timelines, developing case plans for all children in foster care, and 
prohibiting race-based discrimination in foster and adoptive 
placements. The proposal also includes maintenance of effort 
requirement to ensure that States selecting the new option maintain 
their existing level of investment in the program.
    In addition to providing a new option for States, the President's 
proposal includes a $30 million set-aside for federally recognized 
Indian Tribes or consortia that can demonstrate the capacity to operate 
a title IV-E program. Currently Tribes are not eligible to receive 
title IV-E funding, although some Tribes are able to access funds 
through agreements with States. This proposal would open the 
possibility for federally recognized Tribes to receive direct title IV-
E funding. We believe this proposal will result in the development of 
innovative child welfare programs that ultimately will better serve 
vulnerable children.
    We believe that this option would offer a powerful new means for 
States to structure their child welfare services program in a way that 
supports the goals of safety, timely permanency and enhanced well-being 
for children and families, while relieving them of administrative 
burdens. Given the continuing problems faced by States in managing 
their child welfare programs, we all must think about more creative 
ways to strengthen these programs. We appreciate the support of this 
Committee as demonstrated by holding hearings such as this and in 
working with the Administration on creating legislative language to 
make this proposal a reality.
    Finally, I would like to mention another Presidential priority that 
directly supports State efforts to provide needed services to children 
and families. As discussed earlier, the Child and Family Services 
Review points to States ongoing struggle with providing services to 
children remaining in their own home as well as the need for 
improvements in State judicial processes relating to child welfare. The 
Promoting Safe and Stable Families Program funds family support, family 
preservation, time-limited reunification, and adoption promotion and 
support services and provides funding for the Court Improvement 
Program. The President is deeply committed to securing full funding, 
$505 million, for this important program and we ask for your support of 
this vital investment in our Nation's families.

Conclusion
    We have made great strides in the field of child welfare, but the 
work of assuring the safety, permanency and well-being of every child 
who comes to the attention of a child welfare agency or court in this 
country remains a tremendously challenging task. We are committed to 
working with the States, Members of Congress, community-based 
organizations and concerned citizens to continuously strive for better 
outcomes for all of these children.
    I would like to thank the Committee for the opportunity to discuss 
our ongoing efforts to monitor the child welfare system through the 
Child and Family Services Review. More than any recent initiative of 
the Federal Government, the Child and Family Services Review has 
captured the attention of State child welfare agencies. It also has 
gained the attention of the media, State legislatures, and others who 
know that changing complex child welfare systems will not be fast or 
easy. We, in the Administration for Children and Families, are 
committed to working with States, and to using the knowledge that we 
are gaining through the review to support States in improving the 
outcomes of child welfare services for the children and families they 
serve.
    I also would like to thank the Committee for the opportunity to 
highlight the President's bold new vision for strengthening the child 
welfare system through the Child Welfare Program Option. We are proud 
of the progress we have made to-date in providing more resources to 
States to support children, youth and families and look forward to 
working closely with you on the President's Child Welfare Option 
Proposal.
    I would be pleased to answer any questions.

                                 <F-dash>

    Chairman HERGER. Thank you, Dr. Horn, for your testimony. 
First to inquire is the gentleman from Kentucky, Mr. Lewis.
    Mr. LEWIS. Thank you, Mr. Chairman. Dr. Horn, I note that 
the CFSRs are key to Federal oversight of the child welfare 
programs. What lessons have we learned from these reviews, and 
what, if any, changes in practice have resulted from these 
reviews?
    Dr. HORN. The primary thing we have learned is that every 
State we have reviewed so far--and we have reviewed all but 
four at this point--have areas of strength, and areas that 
require improvement. What we are doing is working with each 
individual State to develop a plan that is consistent with our 
findings from the CFSR to improve the child welfare system in 
that State. We know we set the bar high when it comes to 
passing each of the elements within the CFSR. We did that on 
purpose because we want to use it as a way to drive 
improvements in the system, not simply to create a system that 
validates what States are already doing in child welfare. We 
feel that this is a very critical review process, which will 
allow us to help each individual State improve their systems.
    Mr. LEWIS. Thank you. While States are implementing their 
PIPs, of course, as they are required to by these reviews, any 
financial penalties they may incur are waived. Do you ever 
foresee a time when these reviews may become more stringent, 
for example, by linking Federal funding to achievement of 
expected standards?
    Dr. HORN. It is my personal hope that we will not ever 
impose a penalty, because States will have adequately 
implemented their PIPs and met the goals that are outlined in 
the PIPs. The goal of the penalties is not to recoup Federal 
dollars, but rather to drive improvements in the system. The 
hope is that through this process, every State will have an 
improved child welfare system, in order to better ensure the 
safety, permanency, and well-being of children that interact 
with the system. However, if in the course of implementing the 
PIP, a State either does not do it adequately, or does not meet 
the goals that they set in their PIP, we certainly stand ready 
to impose penalties. We are in the process now of going back to 
the States that have started to implement their PIPs, and we 
look forward to determining how much progress has been made.
    Mr. LEWIS. Thank you.
    Chairman HERGER. Thank you, Mr. Lewis. The Ranking Member, 
the gentleman from Maryland, Mr. Cardin, to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. Dr. Horn, it is always 
a pleasure to have you before our Committee. We thank you for 
your commitment in this area. There is one area that we may 
agree on--the funding for the Promoting Safe and Stable 
Families program--which you would like to see in the 
Administration's request for full funding. You are right, 
Congress has not approved that. Wouldn't it be easier if we 
just made that mandatory funding? That way, you wouldn't have 
to worry about a fickle Congress. I certainly would be willing 
to support that. If we could get some Administration support, 
maybe we could get it done on the mandatory side.
    Dr. HORN. The President is committed to----
    Mr. CARDIN. Good.
    [Laughter.]
    Dr. HORN. To securing full funding for his request. At the 
end of the day, a dollar out of discretionary funds is equal to 
the same dollar out of mandatory spending, in terms of 
purchasing power at the State level.
    Mr. CARDIN. It is not the same here on Capitol Hill. You 
pay a price on the discretionary side, whereas the mandatory 
side speaks to priorities. I agree with you that this is a 
program that is working, and would provide us additional help 
with regard to the concerns of today's hearing. So, I would 
just urge you--this may be one area on which we could reach 
bipartisan agreement, and not have to confront the 
appropriators every year. The U.S. General Accounting Office 
(GAO) will testify a little bit later about workforce 
deficiencies, talking about the high turnover issue that is not 
a surprise to any of us, since caseworkers are given a large 
number of children that they must monitor. That is 
unacceptable. Is HHS looking at coming in with some Federal 
guidelines as to what is the appropriate caseload for 
caseworkers, or other ways to try to deal with the problem of 
high turnover, inadequate training, and inadequate pay for 
caseworkers?
    Dr. HORN. Certainly, this is something that we look at when 
we go out and do the CFSRs. One of the things that we try to 
take a look at in the cases that we review, for example, is 
whether there are timely visits to foster homes. If you are 
struggling with 120 cases per caseworker, it is harder to visit 
a foster home on a monthly basis than if you have a more 
reasonable caseload. I worked in the child welfare system 
myself. In fact, my first internship when I was in graduate 
school was as a caseworker in Child and Family Services in 
Southern Illinois, and I can speak from personal experience 
that it is harder to do your job when you have high caseloads 
versus lower caseloads. I think one of the difficulties that 
States face in this area is the categorical nature of the 
funding streams that come from the Federal Government to the 
States. One of the things that we would like to see happen with 
the President's flexible funding proposal, is to break down 
those categorical walls and allow States, if they feel that one 
of the problems they are experiencing is caseloads that are too 
high, to use those funds not just to support kids in terms of 
maintenance payments in foster care, but to hire more 
caseworkers, if that is what they need.
    Mr. CARDIN. My concern with that is, I think perhaps just 
the opposite will happen. I know the pressures that State 
governments are facing today. I know what is happening in the 
State of Maryland during the legislative sessions. We just got 
the Governor's budget. It is not balanced very well at all, and 
the prognosis for next year is even worse. All of the programs 
in regard to this area are under constant attack, and caseload 
is one of the areas that they fudge. I would think that unless 
there is some direct guidance from the Federal Government, 
either a carrot or stick, it is unlikely that Maryland, even 
though it wants to make progress in this area, could make 
progress in this area.
    I would just suggest two things. One is to set up Federal 
guidelines as to what is acceptable. Perhaps offer incentive 
bonuses for States that achieve certain levels on training, 
retention, and caseload numbers. That might be a way in which 
federalism could truly work--where we offer encouragement to 
the States. We could offer the States additional incentives 
through bonus payments, and then see how they respond to it. I 
think just giving States a block grant, hoping that they will 
hire more people, in today's environment, is a little bit too 
much trust with regard to the political realities they are 
confronting. I would just mention one more thing because my 
time is running out, and that is, we have gotten word that some 
States, rather than comply with the review requirements of law, 
may very well just take the Federal penalties, because it is 
just too costly for them to do the reviews. Have you heard 
this? Are you concerned that you might, in fact, find States 
prepared to incur the Federal penalties rather than make 
improvements on the CFSRs that we think are so important to 
understanding what is going on in our States?
    Dr. HORN. I would hope not. I have not heard that any 
specific State has taken that position. The penalties are 
escalating, so they can become quite significant. As I 
indicated in my response to Congressman Lewis, our perspective 
is not that this is a system to recoup Federal dollars, but 
rather to drive improvement in State systems. As I also 
mentioned, we are using our network of national resource 
centers to help States figure out how to make the improvements 
that are required in their system. I do believe that part of 
the problem, again, is the categorical nature of the funding 
streams. I appreciate your passion on this issue, and your 
longstanding interest in improving the child welfare system. I 
would, however, respectfully challenge your description of the 
President's proposal as a block grant, precisely because a 
block grant is one in which the money goes out in one form to 
all the States. If a State chooses to continue to have an open-
ended entitlement program, they can continue to do that under 
the President's proposal.
    Mr. CARDIN. The problem is that, because it is budget 
neutral, if the caseload goes up in a particular State, they 
are going to lose money from this program that they would have 
otherwise received.
    Dr. HORN. Yes.
    Mr. CARDIN. So, it is capping the dollars that are going 
into the program.
    Dr. HORN. We have heard that. First of all, I don't deny 
that there would be anxiety about this at the State level. We 
heard the same argument in 1996 when Aid to Families with 
Dependent Children (AFDC) was replaced with the TANF program. 
We have recently done an analysis of the amount of money a 
State would have had under AFDC over the last 6 years if the 
caseloads had declined as they had under TANF--if it is true 
that the TANF declines are all due to the economy, versus what 
they actually got under the TANF program. In contrast to your 
opening statement, suggesting that block grants inevitably lead 
to fewer dollars, our analysis showed that States got $54 
billion more over the last 6 years under TANF than if they had 
the AFDC program.
    Mr. CARDIN. That is based on the fact that AFDC was a cash 
assistance program. On the other hand, TANF is a program whose 
support extends beyond cash assistance. The program is working, 
but I think it is unfair to say that the States would have 
gotten less money. The truth is that we probably would have 
developed other initiatives to deal with the related programs 
other than cash assistance. So, I understand what you are 
saying and I think you can make that argument, but I also think 
that when you look at the total services that are now being 
provided, which are much more comprehensive than this cash 
assistance, it is working. It is doing exactly what Congress 
said. States don't have as much money as they had in 1996. They 
can't buy as much today as they could in 1996.
    Dr. HORN. One of our concerns, Congressman, is that the 
percentage of children in foster care who are eligible is 
declining. We think it is declining, at least in part, because 
of the link back to the AFDC program. We have had to readjust 
our baseline estimates downward each of the last 3 years. If 
you were to lock in the amount of money that is available under 
the current baseline projections, you actually get a good deal 
by capturing the money now rather than seeing the amount of 
money available ratchet down over the next 5 years.
    Mr. CARDIN. We are in agreement on that point. I just wish 
that all States could get away from the look back provision.
    Chairman HERGER. Thank you. Dr. Horn, you have read about, 
as virtually all of us have, the New Jersey starvation case 
involving the Jackson family. In your opinion, how could that 
situation escape the notice of so many people, neighbors, 
fellow worshipers, and others, for so long, and are there 
specific changes that this case suggests we should be making on 
the national level?
    Dr. HORN. I am not familiar with all the details of that 
particular case, but I am as incredulous as others with the 
details that I do know--that this could have possibly escaped 
the notice of caseworkers, who apparently came into the home 
because of other children that they were either monitoring, or 
thinking about placing in that home. At the same time, I would 
say that I think it is not possible to expect the Federal 
Government to be able to assure that every single case at the 
local level is being appropriately managed. The best that the 
Federal Government can do is look at trends, and look at 
systemic factors within a child welfare system, to determine 
whether there is something wrong with the system as a whole, 
not at each individual case level. Otherwise, every single case 
would have to be reviewed by a Federal employee or staff member 
for every child in foster care, a task that there simply is not 
enough money in even a perfect world to be able to do.
    One of the problems in the New Jersey case, is that there 
isn't enough money available currently, nor enough flexibility 
in the current system to provide the kinds of post-adoption 
services that I think are necessary to ensure that once a child 
is adopted, the family has the resources and the skills 
necessary to be able to deal with whatever post-adoption 
circumstances come up. Under the President's proposals, both 
the Promoting Safe and Stable Families program, and the 
flexible funding proposal, there would be more money available 
to provide post-adoption services if that is an issue that 
needs to be addressed within an individual State. We think that 
the way we can help situations such as the one in New Jersey 
is, A, by having more resources available for adoption 
services; and B, by giving more flexibility to the States to 
target the resources they have in ways that fit the needs of 
the children who interact with the child welfare system in that 
State--whether they are post-adoption services at the back end, 
or prevention services at the front end.
    Chairman HERGER. Thank you, Dr. Horn, for your testimony. 
With that, I would like to call up our first panel: Cornelia 
Ashby, Director of Education, Workforce, and Income Security 
Issues for the U.S. General Accounting Office; Mary Nelson, 
President of the National Association of Public Child Welfare 
Administrators; William Bell, Commissioner of the New York City 
Administration for Children's Services (ACS); Wayne Stevenson, 
Deputy Secretary for Children, Youth, and Families for the 
Commonwealth of Pennsylvania; and Bill Stanton, President of 
the National Association of Foster Care Reviewers. Ms. Ashby?

STATEMENT OF CORNELIA M. ASHBY, DIRECTOR, EDUCATION, WORKFORCE, 
   AND INCOME SECURITY ISSUES, U.S. GENERAL ACCOUNTING OFFICE

    Ms. ASHBY. Mr. Chairman, Mr. Cardin, thank you for inviting 
me here today to discuss several issues related to the 
oversight of child welfare programs. My testimony will focus on 
three key issues: States' use of funds authorized by title IV-B 
of the Social Security Act to prevent abuse and neglect in 
foster care placements, as well as provide other child welfare 
services; factors that hinder States' ability to protect 
children from abuse and neglect; and HHS's role in helping 
States overcome these factors. My comments are based primarily 
on the findings from three reports we issued last year. Title 
IV-B, which has two parts, is the primary source of Federal 
funding for services to help families address problems that 
lead to child abuse and neglect, and prevent the unnecessary 
separation of children from their families. Relatively few 
subpart 1 dollars are used to provide family support and family 
preservation services, while the majority of subpart 2 funds 
are used for these services.
    We found that States most frequently use subpart 1 funds to 
fund staff salaries, administration and management expenses, 
child protective services, and foster care maintenance 
payments. In contrast, States spent half of their subpart 2 
funds on family support or prevention programs, and another 12 
percent on family preservation services. However, the results 
for the past 2 years of HHS's formal process for assessing 
States' child welfare systems, known as the CFSR, indicate that 
States have not performed strongly in terms of assessing the 
services that families need, and providing those services. When 
HHS reviewed case files, it determined that 31 of the 32 States 
that had a CFSR in 2001 or 2002 needed improvement in this 
area.
    Child welfare agencies face a number of issues relating to 
staffing and data management that impair their ability to 
protect children from abuse and neglect. In particular, low 
salaries hinder agencies' ability to attract potential child 
welfare workers, and to retain those already in the profession. 
Additionally, large caseloads, administrative burdens, limited 
supervision, and insufficient training reduce the appeal of 
child welfare work. Our analysis of the CFSRs in 27 States 
indicated that large workloads and worker turnover delay the 
timelines of investigations, and limit the frequency of worker 
visits with children, hampering agencies' attainment of some 
key Federal safety and permanency outcomes. Furthermore, States 
face challenges developing a SACWIS to track abuse and neglect 
reports and monitor children in foster care, with many States 
reporting development delays. Most States responding to our 
survey faced challenges to SACWIS development, such as 
obtaining State funding, and developing a system that met child 
welfare agencies' needs statewide.
    In addition, several factors affect the States' ability to 
collect and report reliable adoption, foster care, and child 
abuse and neglect data, including insufficient caseworker 
training, inaccurate and incomplete data entry, and technical 
challenges reporting the data. Of course, HHS plays a role in 
helping States implement their child welfare programs, but in 
some cases, additional Federal oversight or technical 
assistance could help States provide more effective services. 
For example, HHS's oversight of title IV-B focuses primarily on 
States' overall child welfare systems and outcomes, but the 
agency provides relatively little oversight specific to the 
services provided under title IV-B, subpart 1. The role of HHS 
in assisting States to overcome child welfare workforce 
challenges, is limited to partial Federal reimbursement for 
training expenses, and management of discretionary grant 
programs that fund State child welfare improvements. The agency 
monitors SACWIS development and data reporting, and provides 
assistance to States. However, States reported ongoing 
challenges, such as the lack of clear and documented guidance 
on how to report child welfare data, despite the availability 
of this assistance.
    In each of the three reports upon which this testimony is 
based, we made recommendations to the Secretary of HHS. We 
recommended that HHS provide the data necessary to ensure that 
regional offices monitor States' use of title IV-B, subpart 1 
funds, and consider gathering additional information on their 
use. We also recommended that HHS take actions that may help 
child welfare agencies address recruitment and retention 
challenges, and that HHS consider ways to enhance the guidance 
and assistance offered to help States overcome key data 
challenges. We found that HHS generally agreed with our 
recommendations, except that it noted that its level of 
oversight of title IV-B was commensurate with the program's 
scope and intent. Mr. Chairman, this concludes my prepared 
statement. I would be pleased to answer any questions.
    [The prepared statement of Ms. Ashby follows:]

  Statement of Cornelia M. Ashby, Director, Education, Workforce, and 
         Income Security Issues, U.S. General Accounting Office

    Thank you for inviting me here today to discuss several issues 
related to the oversight of child welfare programs across the nation. 
As you are aware, state child welfare agencies determined that over 
900,000 children had been the victims of abuse or neglect by their 
parents or other caretakers in 2001. Additionally, more than 800,000 
children are estimated to spend some time in foster care each year, 
with the Federal Government allocating approximately $7 billion each 
year to investigate abuse and neglect, provide placements to children 
outside their homes, and deliver services to help keep families 
together. Title IV-B of the Social Security Act, comprised of two 
subparts, is the primary source of federal funding for services to help 
families address problems that lead to child abuse and neglect and to 
prevent the unnecessary separation of children from their families. 
Funding under Title IV-E of the Social Security Act is used primarily 
to pay for the room and board of children in foster care. Since 1994, 
designated federal matching funds have been available to states to 
develop and implement comprehensive case management systems--statewide 
automated child welfare information systems (SACWIS)--to manage their 
child welfare cases as well as to report child abuse and neglect, 
foster care, and adoption information to the Federal Government.
    In addition to this funding, the Department of Health and Human 
Services' (HHS) Administration for Children and Families (ACF) monitors 
states' compliance with key federal goals, specified in part by the 
Adoption and Safe Families Act (ASFA) of 1997, to keep children safe 
and ensure their placement in stable and permanent homes. Through its 
formal review process, known as the Child and Family Services Review 
(CFSR), HHS uses specific assessment measures, such as agencies' 
ability to conduct timely abuse and neglect investigations and 
regularly visit children in their homes, to assess the performance of 
states' child welfare systems.
    My testimony today will focus on three key issues: (1) states' use 
of Title IV-B funds in providing a wide array of services to prevent 
the occurrence of abuse, neglect, and foster care placements, as well 
as other child welfare services; (2) factors that hinder states' 
ability to protect children from abuse and neglect; and (3) HHS's role 
in helping states to overcome the challenges they face in protecting 
children from abuse and neglect. My comments are based primarily on the 
findings from three reports: <SUP>[1]</SUP> U.S. General Accounting 
Office, Child Welfare: HHS Could Play a Greater Role in Helping Child 
Welfare Agencies Recruit and Retain Staff. GAO-03-357. Washington, 
D.C.: March 31, 2003; Child Welfare: Most States Are Developing 
Statewide Information Systems, but the Reliability of Child Welfare 
Data Could Be Improved. GAO-03-809. Washington, D.C.: July 31, 2003; 
and Child Welfare: Enhanced Federal Oversight of Title IV-B Could 
Provide States Additional Information to Improve Services. GAO-03-956. 
Washington, D.C.: September 12, 2003. Those findings were based on 
multiple methodologies, including a survey of child welfare directors 
on states' use of Title IV-B funds; an analysis of 600 exit interview 
documents completed by staff who severed their employment from 17 
state, 40 county, and 19 private child welfare agencies; and a survey 
of all 50 states and the District of Columbia regarding their 
experiences in developing and using information systems and their 
ability to report data to HHS. In each case, we supplemented these 
surveys and analyses by conducting multiple site visits to selected 
states and by interviewing child welfare experts and HHS headquarters 
and regional officials.
---------------------------------------------------------------------------
    \[1]\ We also recently testified on one of these reports. See U.S. 
General Accounting Office, Child Welfare: States Face Challenges in 
Developing Information Systems and Reporting Reliable Child Welfare 
Data. GAO-04-267T. (Washington, D.C.: Nov. 19, 2003).
---------------------------------------------------------------------------
    In summary, we found that states use Title IV-B funds to provide a 
wide variety of services to prevent the occurrence of abuse, neglect, 
and foster care placements, as well as to provide other child welfare 
services. Subpart 1 dollars were most frequently used to fund staff 
salaries, with almost half of these funds designated for the salaries 
of child protective services (CPS) <SUP>[2]</SUP> social workers. In 
comparison, states spent half of their subpart 2 funds on family 
support or prevention programs and another 12 percent on family 
preservation services. CFSR results for the past 2 years, however, 
indicate that states have not performed strongly in terms of assessing 
the services families need and providing those services. Child welfare 
agencies face a number of issues related to staffing and data 
management that impair their ability to protect children from abuse and 
neglect. In particular, low salaries hinder agencies' ability to 
attract potential child welfare workers and to retain those already in 
the profession. Our analysis of CFSRs in 27 states indicated that large 
caseloads and worker turnover delay the timeliness of investigations 
and limit the frequency of worker visits with children, hampering 
agencies' attainment of some key federal safety and permanency 
outcomes. Furthermore, states face challenges developing appropriate 
information systems needed to track abuse or neglect reports and 
monitor children in foster care, with many states reporting development 
delays. In addition, several factors affect the states' ability to 
collect and report reliable adoption, foster care, and child abuse and 
neglect data, including insufficient caseworker training, inaccurate 
and incomplete data entry, and technical challenges reporting the data. 
Although HHS plays a role in monitoring child welfare programs, 
additional oversight or technical assistance could assist states in 
meeting the needs of children served by child welfare agencies. For 
example, HHS's oversight of Title IV-B focuses primarily on states' 
overall child welfare systems and outcomes, but the agency provides 
relatively little oversight specific to the services provided under 
Title IV-B subpart 1.<SUP>[3]</SUP> In addition, HHS plays a limited 
role in states' workforce activities by offering partial reimbursement 
for training expenses and managing discretionary grant programs. The 
agency monitors SACWIS development and data reporting, but despite the 
availability of technical assistance, states reported ongoing 
challenges reporting reliable data.
---------------------------------------------------------------------------
    \[2]\ Child protective services activities typically include 
reviewing reports of alleged child abuse and neglect, investigating 
those that meet the state's criteria as a potential incident of abuse 
or neglect to determine if the alleged incident occurred, and, in some 
cases, referring families to needed services and removing the child 
from the home, if necessary.
    \[3]\ Our September 2003 report on Title IV-B focused primarily on 
subpart 1 because little, if any, research has been conducted on how 
subpart 1 funds have been spent on child welfare services. In contrast, 
a number of studies have been conducted on the services provided under 
subpart 2.
---------------------------------------------------------------------------
Background
    ACF is responsible for the administration and oversight of federal 
funding to states for child welfare services under Titles IV-B and IV-
E. HHS headquarters staff are responsible for developing appropriate 
policies and procedures for states to follow in terms of obtaining and 
using federal child welfare funds, while staff in HHS's 10 regional 
offices and 10 national resource centers provide guidance and technical 
assistance to improve child welfare services nationwide. HHS compiles 
state-reported child welfare data in two databases: the Adoption and 
Foster Care Analysis and Reporting System (AFCARS) and the National 
Child Abuse and Neglect Data System (NCANDS). HHS relies on the 
information available in its databases to analyze and track children's 
experiences in the child welfare system, to determine states' 
performance on federal child welfare outcome measures, and to report to 
Congress on children's well being and child welfare experiences. 
However, the monitoring of children served by state child welfare 
agencies is the responsibility of the state agencies that provide the 
services to these children and their families. Child welfare 
caseworkers at the county or local level are the key personnel 
responsible for documenting the wide range of services offered to 
children and families, such as investigations of abuse and neglect; 
treatment services offered to families to keep them intact and prevent 
the need for foster care; and arrangements made for permanent or 
adoptive placements when children must be removed from their homes. 
Most states and counties provide some child welfare services directly 
and provide others through contracts with private agencies. National 
survey data confirm that both state and private child welfare agencies 
are experiencing similar challenges recruiting and retaining qualified 
caseworkers. For instance, turnover of child welfare staff has been 
estimated at between 30 percent and 40 percent annually nationwide, 
with the average tenure for child welfare workers being less than 2 
years.
    In 2000, HHS established a new federal review system to monitor 
state compliance with federal child welfare laws. One component of this 
system is the CFSR, which assesses state performance in achieving 
safety and permanency for children, along with well-being for children 
and families. The CFSR process includes a self-assessment by the state, 
an analysis of state performance in meeting national standards 
established by HHS, and an on-site review by a joint team of federal 
and state officials. Based on the results of this process, HHS 
determines whether a state achieved substantial conformity with (1) 
outcomes related to safety, permanency, and well-being, such as keeping 
children protected from abuse and neglect and achieving permanent and 
stable living situations for children and (2) key systemic factors, 
such as having an adequate case review system and an adequate array of 
services. States are required to develop program improvement plans to 
address all areas of nonconformity.
Federal Funding of Child Welfare Services and Programs
    Two titles of the Social Security Act provide federal funding 
targeted specifically to foster care and related child welfare 
services.<SUP>[4]</SUP> Title IV-E<SUP>[5]</SUP> provides an open-ended 
individual entitlement for foster care maintenance payments to cover a 
portion of the food, housing, and incidental expenses for all foster 
children whose parents meet certain federal eligibility 
criteria.<SUP>[6]</SUP> Title IV-E also provides payments to adoptive 
parents of eligible foster children with special needs.<SUP>[7]</SUP> 
To qualify for federal IV-E funding for SACWIS, states must prepare and 
submit an advance planning document (APD) to ACF's Children's Bureau, 
in which they describe the state's plan for managing the design, 
development, implementation, and operation of a SACWIS that meets 
federal requirements and state needs in an efficient, comprehensive, 
and cost-effective manner. Since the administration and structure of 
state child welfare agencies vary across the nation, states can design 
their SACWIS to meet their state needs, as long as states meet certain 
federal requirements.
---------------------------------------------------------------------------
    \[4]\ In addition, Title XX provides funds under the social 
services block grant that may be used for many purposes, including 
child welfare.
    \[5]\ In fiscal year 2002, total Title IV-E spending was 
approximately $6.1 billion. The state matching rate for these payments 
is based on a state's per capita income and ranges from 50 percent to 
83 percent.
    \[6]\ States are entitled to Title IV-E reimbursement on behalf of 
children who would have been eligible for Aid to Families with 
Dependent Children (AFDC) (as AFDC existed on July 16, 1996), but for 
the fact that they were removed from the home of certain specified 
relatives. While the AFDC program was replaced by the Temporary 
Assistance for Needy Families Program in 1996, eligibility for Title 
IV-E payments remains tied to the income eligibility requirements of 
the now defunct AFDC program. In addition, certain judicial findings 
must be present, and all other requirements included in section 472 (a) 
and (b) of the Social Security Act must be met, in order for the child 
to be eligible for Title IV-E foster care maintenance payments.
    \[7]\ Special needs are characteristics that can make it difficult 
for a child to be adopted and may include emotional, physical, or 
mental disabilities, emotional disturbance, age, or being a member of a 
minority race. To qualify for an adoption subsidy under Title IV-E, a 
state must determine that the child cannot or should not return home; a 
state must make a reasonable, but unsuccessful effort to place the 
child without the subsidy; and a specific factor or condition must 
exist that makes it difficult to place the child without a subsidy.
---------------------------------------------------------------------------
    Title IV-B of the Social Security Act, established in 1935, 
authorizes funds to states to provide a wide array of services to 
prevent the occurrence of abuse, neglect, and foster care 
placements.<SUP>[8]</SUP> In 1993, the Congress created a new program 
as subpart 2 of Title IV-B (now known as Promoting Safe and Stable 
Families), which funds similar types of services but is more 
prescriptive in how states can spend the funds.<SUP>[9]</SUP> No 
federal eligibility criteria apply to the children and families 
receiving services funded by Title IV-B.
---------------------------------------------------------------------------
    \[8]\ In fiscal year 2003, the Congress appropriated $292 million 
for subpart 1 and $405 million for subpart 2. These federal funds cover 
75 percent of states' total Title IV-B expenditures because states must 
provide an additional 25 percent using nonfederal dollars.
    \[9]\ States must spend a ``significant portion'' of their subpart 
2 funds on each of the four service categories. HHS program 
instructions require states to spend at least 20 percent of their 
subpart 2 funds on each of the four service categories, unless a state 
has a strong rationale for some other spending pattern.
---------------------------------------------------------------------------
    Title IV-B subpart 1 provides grants to states for child welfare 
services, which are broadly defined. Subpart 1 funds are intended for 
services that are directed toward the accomplishment of the following 
purposes: (1) protect and promote the welfare of all children; (2) 
prevent or remedy problems that may result in the abuse or neglect of 
children; (3) prevent the unnecessary separation of children from their 
families by helping families address problems that can lead to out-of-
home placements; (4) reunite children with their families; (5) place 
children in appropriate adoptive homes when reunification is not 
possible; and (6) ensure adequate care to children away from their 
homes in cases in which the child cannot be returned home or cannot be 
placed for adoption.
    In 1980, the Congress enacted legislation that limited the total 
subpart 1 funds states could use for three categories of services: 
foster care maintenance payments, adoption assistance payments, and 
child care related to a parent's employment or training.<SUP>[10]</SUP> 
The total of subpart 1 funds used for these purposes cannot exceed a 
state's total 1979 subpart 1 expenditures for all types of services. 
The intent of this restriction, according to a congressional document, 
was to encourage states to devote increases in subpart 1 funding as 
much as possible to supportive services that could prevent the need for 
out-of-home placements.<SUP>[11]</SUP> However, this restriction 
applies only to the federal portion of subpart 1 expenditures, as the 
law notes that states may use any or all of their state matching funds 
for foster care maintenance payments.
---------------------------------------------------------------------------
    \[10]\ For our September 2003 report on Title IV-B and in this 
testimony, we mention only foster care maintenance and adoption 
assistance payments when referring to subpart 1 limits, although we did 
include planned spending on child care in our analyses of states' 
planned subpart 1 spending.
    \[11]\ Staff of the House Committee on Ways and Means, 106th 
Congress, Background Material and Data on Programs Within the 
Jurisdiction of the Committee on Ways and Means (Comm. Print 2000).
---------------------------------------------------------------------------
    Subpart 2 authorizes grants to states to provide four categories of 
services, which are defined below:

    <bullet>  Family preservation services: Services designed to help 
families at risk or in crisis, including services to (1) help reunify 
children with their families when safe and appropriate; (2) place 
children in permanent homes through adoption, guardianship, or some 
other permanent living arrangement; (3) help children at risk of foster 
care placement remain safely with their families; (4) provide follow-up 
assistance to families when a child has been returned after a foster 
care placement; (5) provide temporary respite care; and (6) improve 
parenting skills.
    <bullet>  Family support services: Community-based services to 
promote the safety and well-being of children and families designed to 
increase the strength and stability of families, to increase parental 
competence, to provide children a safe and supportive family 
environment, to strengthen parental relationships, and to enhance child 
development. Examples of such services include parenting skills 
training and home visiting programs for first time parents of newborns.
    <bullet>  Time-limited family reunification services: Services 
provided to a child placed in foster care and to the parents of the 
child in order to facilitate the safe reunification of the child within 
15 months of placement. These services include: counseling, substance 
abuse treatment services, mental health services, and assistance to 
address domestic violence.
    <bullet>  Adoption promotion and support services: Services 
designed to encourage more adoptions of children in foster care when 
adoption is in the best interest of the child, including services to 
expedite the adoption process and support adoptive families.

States Spend IV-B Funds on A Variety of Services, With Subpart 2 
        Focusing More on Prevention
    In our September 2003 report on Title IV-B, we found that states 
use these funds to provide a wide variety of services to prevent the 
occurrence of abuse, neglect, and foster care placements, as well as 
services to help children in foster care and their parents; however, 
relatively few subpart 1 dollars are used to provide family support and 
family preservation services, while the majority of subpart 2 funds are 
used for these purposes. According to our survey data for fiscal year 
2002,<SUP>[12]</SUP> states spent subpart 1 funds most frequently on 
the salaries of child welfare agency staff, administration and 
management expenses, CPS services, and foster care maintenance 
payments. In comparison, states spent half of their subpart 2 funds on 
family support or prevention programs and another 12 percent on family 
preservation services. CFSR results for the past 2 years, however, 
indicate that states have not performed strongly in terms of assessing 
the services families need and providing those services.
---------------------------------------------------------------------------
    \[12]\ To obtain a breakdown of state spending for subparts 1 and 2 
for the Title IV-B report, we sent a survey to all 50 states and the 
District of Columbia and received responses from 47 states.
---------------------------------------------------------------------------
States Use Subpart 1 Funds Primarily for Staff Salaries
    Relatively few subpart 1 dollars were used for family support or 
family preservation services; instead, they were most frequently used 
to fund staff salaries, with almost half of these funds designated for 
the salaries of CPS social workers. Another 20 percent of these funds 
were used for the salaries of other social workers.<SUP>[13]</SUP> 
During a site visit to the state of Washington for the Title IV-B 
report,<SUP>[14]</SUP> child welfare officials told us that they used 
over 50 percent of the state's subpart 1 funds for salaries of staff 
providing direct services, including CPS social workers, other types of 
social workers, social work supervisors, and clerical support staff. 
Administration and management comprised the second largest category of 
service, accounting for almost 17 percent of subpart 1 dollars. This 
category included rent and utilities for office space, travel expenses 
for agency staff, and staff training.<SUP>[15]</SUP>
---------------------------------------------------------------------------
    \[13]\ The survey data reported in this category reflect the 
salaries of staff affiliated with the child welfare agency. These 
figures do not include the salaries of child welfare agency staff 
dedicated to a specific program, which may be embedded within some of 
the other direct service categories, such as family support and family 
preservation. In addition, a state may use Title IV-B funds to contract 
with an organization to provide a particular program, which may include 
salary expenses as well as direct service expenditures.
    \[14]\ For the Title IV-B report, we conducted site visits in 
California, New Jersey, Ohio, and Washington to obtain more in-depth 
information on the services provided and the types of children and 
families served. These states represent both geographic diversity and 
diversity in how states used subpart 1 funds.
    \[15]\ This amount may be underestimated, since some states may not 
have separately reported administrative expenses associated with a 
specific program. For example, officials in one state reported that the 
total spending for a family support program included salaries for 
agency staff, overhead expenses, and related staff travel.
---------------------------------------------------------------------------
    CPS represents the third largest category of services that states 
funded with subpart 1. States used about 16 percent of their subpart 1 
funds to provide a variety of CPS services, such as telephone hotlines 
for the public to report instances of child abuse and neglect, 
emergency shelters for children who needed to be removed from their 
homes, and investigative services. During our site visit to California, 
for example, officials reported using about 40 percent of their subpart 
1 dollars to fund staff salaries and operating expenses associated with 
a variety of shelter care services provided by counties, such as 
emergency shelters and foster homes. A child is placed in one of these 
shelters when no other placement option is immediately available--for 
example, when an investigation in the middle of the night determines 
that the child is at immediate risk of harm. States also used nearly 11 
percent of their subpart 1 funds to make recurring payments for the 
room and board of foster children who are not eligible for 
reimbursement through Title IV-E. About 10 percent of subpart 1 dollars 
were used to provide family support and family preservation services.

Subpart 2 Most Frequently Funds Family Support and Family Preservation 
        Services
    In contrast to subpart 1, states used over 80 percent of their 
subpart 2 dollars to fund services in its four mandated service 
categories--family support, family preservation, family reunification, 
and adoption promotion and support services (see app. I for additional 
information on states' comparative expenditures on subparts 1 and 2). 
For example, states reported using half of their subpart 2 dollars to 
fund family support and prevention services. These services included 
mentoring programs to help pregnant adolescents learn to be self-
sufficient; financial assistance to low-income families to help with 
rent and utility payments; and parenting classes, child care, and 
support groups provided by a community-based resource center. 
Washington funded a network of public health nurses and social service 
agencies to provide support services to families that are the subject 
of a report of abuse or neglect--these services are provided in lieu 
of, or following, a formal investigation when the level of risk to the 
child is not considered high.
    Family preservation services--designed to keep families together 
and prevent the need to place a child in foster care--represented the 
second largest service category funded by subpart 2. Washington used 
subpart 2 funds for its statewide family preservation program, which 
offers counseling and parent training services for up to 6 months to 
families with children who are at risk of being placed in foster care.
    In addition, states reported using about 11 percent of their 
subpart 2 funds for adoption support and preservation services. With 
these funds, states provided services such as counseling for children 
who are going to be adopted, family preservation services to adoptive 
families, and respite care <SUP>[16]</SUP> for adoptive families. 
Officials in Ohio reported using almost half of its subpart 2 dollars 
for adoption services, including post adoption services and services to 
recruit families for children in need of adoptive homes.
---------------------------------------------------------------------------
    \[16]\ Respite care refers to the temporary care of children that 
can provide a break for the families from the daily demands of caring 
for their children or respite during times of emergencies.
---------------------------------------------------------------------------
    Finally, states spent about 9 percent of their subpart 2 dollars on 
family reunification services. States funded a diverse array of family 
reunification programs, such as supervised visitation centers for 
parents to visit with their children and coordinators for alcohol and 
drug treatment services for families whose primary barrier to 
reunification is substance abuse. New Jersey funded a supervised 
visitation program that offers parenting education, counseling, 
transportation, and support groups and is located in a private home, 
allowing families to visit together in a homelike setting and engage in 
more natural interactions.

CFSRs Find States Are Weak in Assessing Families' Service Needs
    While states are using Title IV-B funds to provide this array of 
services, CFSR results for the past 2 years indicate that states have 
not performed strongly in terms of assessing the services families need 
and providing those services. When HHS reviewed case files it 
determined that 31 of the 32 states that underwent a CFSR in 2001 or 
2002 needed improvement in terms of assessing family needs and 
providing services to meet those needs. While 21 of the 32 states were 
considered to have an appropriate array of services for families, HHS 
found that the accessibility of services was a particular weakness in 
that many services were either not available statewide or had long 
waiting lists or other barriers to accessibility.

Staff and Data Issues Affect States' Ability to Protect Children From 
        Abuse and Neglect
    Child welfare agencies face a number of issues related to staffing 
and data management that impair their ability to protect children from 
abuse and neglect. In particular, low salaries hinder agencies' ability 
to attract potential child welfare workers and to retain those already 
in the profession. Additionally, caseworkers in the four states we 
visited for the March 2003 child welfare workforce report 
<SUP>[17]</SUP> cited high caseloads and a lack of supervisory support 
as issues impacting their ability to work effectively. According to 
these caseworkers, high turnover rates and staffing shortages leave 
remaining staff with insufficient time to establish relationships with 
children and families and make the necessary decisions to ensure safe 
and stable permanent placements. Furthermore, our July 2003 report 
found that states face challenges developing appropriate information 
systems needed to track abuse or neglect reports and monitor children 
in foster care. While 47 states are developing or operating a SACWIS, 
many states <SUP>[18]</SUP> reported that the development of their 
SACWIS is delayed. Most states responding to our survey faced 
challenges to SACWIS development, such as obtaining state funding and 
developing a system that met the child welfare agency's needs 
statewide. In addition, several factors affect states' ability to 
collect and report reliable adoption, foster care, and child abuse and 
neglect data, including insufficient caseworker training, inaccurate 
and incomplete data entry, and technical challenges reporting the data.
---------------------------------------------------------------------------
    \[17]\ For this report, we conducted site visits in California, 
Illinois, Kentucky, and Texas to obtain more in-depth information on 
workforce issues and their effect on children's safety and permanency 
outcomes. Among other factors, these states represent geographic 
diversity and diversity in the practices they have implemented to 
address their recruitment and retention challenges.
    \[18]\ These reports were obtained through both site visit 
interviews and survey responses. For the child welfare information 
systems and data report, we conducted site visits in Colorado, Iowa, 
New York, North Carolina, and Oklahoma to obtain more in-depth 
information on states' experiences developing SACWIS and reporting data 
to HHS. These states represent both geographic diversity and different 
stages of SACWIS implementation. In addition, we surveyed all 50 states 
and the District of Columbia regarding their experiences in developing 
and using information systems and their ability to report data to HHS. 
We received responses from 49 states and the District of Columbia, 
although some states did not respond to every question. Forty-six of 
these states reported that they are developing or operating a SACWIS. 
Nevada, which HHS reported has an operational SACWIS, did not respond 
to our survey. Throughout this testimony, references to state survey 
responses for our July 2003 report include the District of Columbia.
---------------------------------------------------------------------------
Recruitment and Retention Challenges May Hamper Agencies' Attainment of 
        Federal Child Welfare Outcomes
    In our report on the child welfare workforce, we found that public 
and private child welfare agencies face a number of challenges 
recruiting and retaining qualified caseworkers and supervisors. Low 
salaries, in particular, hinder agencies' ability to attract potential 
staff and to retain those already in the profession. For example, 
caseworkers in each of the four states we visited said that many of 
their former child welfare colleagues pursued positions in the 
education field where they could not only make more money but also work 
with children without risking their own safety. For example, the Bureau 
of Labor Statistics' national wages survey <SUP>[19]</SUP> reports that 
elementary and middle school teachers earn, on average, about $42,000 
annually while social workers earn about $33,000.<SUP>[20]</SUP>
---------------------------------------------------------------------------
    \[19]\ U.S. Department of Labor, Bureau of Labor Statistics, 2000 
National Occupational Employment and Wage Estimates.
    \[20]\ This amount is specific to child, family, and school social 
workers (the occupation under which caseworkers would likely be 
classified).
---------------------------------------------------------------------------
    Additionally, high caseloads, administrative burdens, limited 
supervision, and insufficient training reduce the appeal of child 
welfare work. Caseworkers and supervisors in all four states we visited 
cited demanding and complex caseloads and related administrative 
requirements, such as casework documentation, as factors affecting 
retention. Some of the caseworkers we interviewed handled double the 
number of cases recommended by advocacy organizations,<SUP>[21]</SUP> 
and one study found that caseloads for individual child welfare workers 
ranged from 10 to 110 children,<SUP>[22]</SUP> with workers handling an 
average of about 24 to 31 children each. Furthermore, some of the 
caseworkers we interviewed told us that they spent between 50 and 80 
percent of their time completing paperwork, thereby limiting their time 
to assist children and families.
---------------------------------------------------------------------------
    \[21]\ The Child Welfare League of America suggests a caseload 
ratio of 12 to 15 children per caseworker, and the Council on 
Accreditation for Children and Family Services suggests that caseloads 
not exceed 18 children per caseworker.
    \[22]\ American Public Human Services Association, Report from the 
Child Welfare Workforce Survey: State and County Data and Findings, May 
2001.
---------------------------------------------------------------------------
    Caseworkers told us that their desire to stay in the child welfare 
profession was influenced by high-quality supervision and adequate on-
the-job training; however, these elements were often lacking. According 
to supervisors in one city we visited, about half of new trainees left 
their jobs before completing 1 year, in part, because these newly hired 
caseworkers were not sufficiently trained to do their jobs. 
Furthermore, some newly promoted supervisors have requested demotions 
because they felt unprepared to meet job demands, and the caseworkers 
they supervised complained of poor management and insufficient support.
    There is some evidence to suggest how recruitment and retention 
challenges affect the safety and permanency of children in care, but 
the magnitude of this effect is unknown. Caseworkers in the four states 
that we visited said that high turnover rates and staffing shortages 
leave remaining staff with insufficient time to conduct the types of 
home visits necessary to assess children's safety and to make well-
supported decisions to ensure safe and stable permanent placements. For 
example, when staff change, caseworkers may have to reestablish 
information to update the case record and families may become hesitant 
to work with unfamiliar caseworkers, making it difficult to learn the 
history of the case. Worker turnover also disrupts the continuity of 
services, particularly when newly assigned caseworkers have to conduct 
or reevaluate educational, health, and safety assessments due to poor 
or insufficient information in case files left behind by others. 
Furthermore, caseworkers explained that high caseloads require them to 
limit the number and quality of the home visits they conduct, forcing 
them to focus only on the most serious circumstances of abuse and 
neglect. One caseworker in Texas noted that when she does make a home 
visit, the visit is quick and does not enable her to identify subtle or 
potential risks to the child's well-being.
    Our analysis of federal CFSRs corroborated caseworker 
accounts,<SUP>[23]</SUP> showing that large caseloads and worker 
turnover delay the timeliness of investigations and limit the frequency 
of worker visits with children, thereby hampering agencies' attainment 
of some key federal safety and permanency goals. Although identifying 
workforce deficiencies is not an objective of the CFSR process, in all 
27 CFSRs we analyzed, HHS explicitly cited workforce deficiencies--high 
caseloads, training deficiencies, and staffing shortages--that affected 
the attainment of at least one assessment measure. While the number of 
affected assessment measures varied by state, we found that HHS cited 
these factors for an average of nine assessment measures per state, 
with more than half of the 27 states exceeding this average. For 
example, in New Mexico's CFSR, reviewers cited staff turnover and 
vacancies as impairing workers' ability to investigate child 
maltreatment reports, provide appropriate services for families, and 
establish timely permanency goals. Furthermore, the District of 
Columbia's CFSR describes heavy workloads, high staff turnover, and a 
climate in which supervisors often call new workers out of training to 
handle ongoing caseload activities.
---------------------------------------------------------------------------
    \[23]\ At the time of the original study, CFSR final reports were 
available for only 27 states; as of January 28, 2004, HHS had released 
reports for an additional 14 states.
---------------------------------------------------------------------------
Delays in SACWIS Completion and Challenges with Data Collection Affect 
        States' Ability to Ensure Reliable Data on Children's 
        Experiences
    In addition to performing a wide range of services to protect 
children, child welfare caseworkers are the key personnel who collect 
and document information on children and families served by children 
welfare agencies. Case file documentation is generally captured in 
state computer systems. In our July 2003 report, HHS reported that 47 
states are using targeted federal funds to develop or operate their 
child welfare computer systems--known as SACWIS--but many continue to 
face challenges completing their systems. In our November 2003 
testimony on SACWIS,<SUP>[24]</SUP> we reported on the costs associated 
with developing SACWIS and the associated barriers, such as development 
delays and difficulties in receiving state funding approval, creating a 
system that reflects child welfare work processes, and securing 
contractors knowledgeable about child welfare. Many state officials 
said that they recognize the benefit their state will achieve by 
developing SACWIS, such as contributing to the timeliness of child 
abuse and neglect investigations. In Oklahoma, for example, caseworkers 
and state officials noted that they believe their children are safer 
since the implementation of SACWIS simply because the information on 
the children is easily accessible to the caseworkers and their 
supervisors. According to our survey results, automated systems 
provided easier access to data and allowed caseworkers to better 
monitor children in their care, which may contribute to additional 
child welfare and administrative benefits, such as decreased incidences 
of child abuse and neglect, shortened length of time to achieve 
adoption, timeliness of payments to foster families, and timeliness of 
payments to foster facilities.
---------------------------------------------------------------------------
    \[24]\ See U.S. General Accounting Office, Child Welfare: States 
Face Challenges in Developing Information Systems and Reporting 
Reliable Child Welfare Data, GAO-04-267T (Washington, D.C.: Nov. 19, 
2003).
---------------------------------------------------------------------------
    Some of the data captured in case file records are reported to two 
HHS databases that compile child welfare data--AFCARS and NCANDS. We 
found that several factors affect states' ability to collect and report 
reliable data to HHS on children served by state child welfare 
agencies. Almost all of the states responding to our survey 
<SUP>[25]</SUP> reported that insufficient caseworker training and 
inaccurate and incomplete data entry into their information system 
affect the quality of AFCARS and NCANDS data. Although most states 
reported these as separate factors, HHS and the states we visited found 
that insufficient training and inaccurate and incomplete data entry are 
often linked. Caseworkers, supervisors, and managers in the five states 
that we visited reported that additional factors, such as difficulties 
balancing data entry with the time that they spend with the families 
and children, contributed to inaccurate or incomplete data entry. 
Supervisors in Iowa explained that since caseworkers are responsible 
for ensuring that children and their families receive the services they 
need, the caseworkers tend to initially limit data entry to the 
information that is necessary to ensure timely payment to foster care 
providers, and complete all other data elements when the caseworkers 
have time. In addition, caseworkers in Colorado said that they are 
between 30 and 60 days behind in their data entry, so the information 
in the automated system may not accurately reflect the current 
circumstances of children in care.
---------------------------------------------------------------------------
    \[25]\ The analysis of survey responses about reporting data to HHS 
is based on responses from 49 states and the District of Columbia. All 
states, regardless of SACWIS development, were asked to complete these 
questions.
---------------------------------------------------------------------------
    We also reported in our July 2003 report and November 2003 
testimony that many states experienced technical challenges reporting 
their data to HHS. The problems reported by states are typically a 
result of challenges associated with data ``mapping''--matching state 
data elements to the federal data elements. For example, 36 states 
reported in our survey that matching their state-defined data to HHS's 
definitions affected the quality of the data reported to NCANDS and 
AFCARS. In addition to the challenges reported in our survey, HHS 
reported that transferring data from older data systems into SACWIS 
affects the quality of the data reported to AFCARS and NCANDS.

Improvements in HHS's Oversight of Child Welfare Programs Could Help 
        States Overcome Some Challenges
    HHS plays a role in helping states implement their child welfare 
programs, but in some cases, additional federal oversight or technical 
assistance could help states provide more effective services. In terms 
of child welfare funding, HHS focuses its programmatic oversight on the 
overall child welfare system in each state and provides relatively 
little oversight specific to Title IV-B subpart 1. HHS's role in 
assisting states overcome the child welfare workforce challenges is 
limited to partial federal reimbursement for training expenses and 
management of discretionary grant programs, such as the Child Welfare 
Training Program. HHS also monitors SACWIS development and data 
reporting and provides assistance to states to address some of the 
associated challenges; however, states reported ongoing challenges, 
such as the lack of clear and documented guidance on how to report 
child welfare data, despite the availability of this assistance.

HHS Focuses Oversight on the Overall Child Welfare System, but Has 
        Limited Knowledge about States' Use of Subpart 1 Funds
    HHS focuses much of its programmatic oversight on the overall child 
welfare system in each state, rather than focusing specifically on 
subpart 1 or any other federal funding source. A major component of 
HHS's subpart 1 oversight is having the regional offices actively work 
with states to develop appropriate goals for their child welfare 
systems and ensure that available funds are used to support those 
goals. To receive Title IV-B funding, HHS requires states to submit a 
Child and Family Services Plan, which covers a 5-year period and 
describes the state's goals and objectives toward improving outcomes 
related to the safety, permanency, and well-being of children and 
families, as well as the services and programs the state will pursue to 
achieve these goals. In addition to the 5-year plan, HHS requires 
states to submit an update each year to discuss their progress in 
meeting the goals outlined in their plans. Some regional officials 
noted that states are still struggling to use these documents 
appropriately for planning purposes and frequently just describe their 
current programs, rather than focusing on outcomes and collecting data 
to measure progress toward those outcomes.
    The CFSR process is an additional tool HHS uses to ensure that 
states conform to federal child welfare requirements and to help states 
improve their child welfare services. Staff at one regional office 
described the CFSR as a thorough review of the services funded by 
different federal programs, such as Title IV-B, providing an 
opportunity to determine whether states are providing the services they 
report in their planning documents and whether those services are 
adequate and appropriate to meet the needs of the state's children and 
families. When asked about HHS's role in guiding states' use of subpart 
1 funds to address weaknesses identified by the CFSRs, an HHS official 
told us that the agency provides technical assistance to states to help 
them determine the most effective use of their resources, while giving 
states much latitude to determine the most appropriate use of their 
subpart 1 funds.
    HHS does not require states to provide any data about their use of 
subpart 1 funds, such as their subpart 1 expenditures for specific 
services.<SUP>[26]</SUP> As a result, several regional offices noted 
that they have no way of knowing how states actually spend their 
subpart 1 funds. Instead, HHS requires states to submit annual 
estimates of the amount of subpart 1, subpart 2, and other federal 
funds the state plans to spend in the upcoming year on different 
categories of services (such as family support or CPS). However, these 
estimates may not provide reliable data as to how states are using 
subpart 1 funds. HHS officials explained that states' actual 
expenditures may vary from these estimates, as they address unforeseen 
circumstances. In addition, HHS requires states to submit their 
estimates before the final spending amounts have been 
appropriated.<SUP>[27]</SUP>
---------------------------------------------------------------------------
    \[26]\ States are required to submit general reports on their total 
subpart 1 expenditures, but these provide no data on how the funds are 
actually used. Per instructions from the Office of Management and 
Budget, agencies must require states receiving federal grants to 
complete a financial status report (SF 269), providing general 
information on state expenditures. For example, the form might indicate 
that a state spent $10 million in subpart 1 funds in a specific fiscal 
quarter, but it provides no details on how the $10 million was used.
    \[27]\ HHS requires states to submit their annual estimates for the 
upcoming fiscal year on a form CFS-101. For example, for fiscal year 
2002, the CFS-101 was due by June 30, 2001. Because they are submitted 
before final appropriations have been enacted, a state might not 
request the full amount of funds to which it is entitled, if the final 
appropriation is greater than the state's initial estimate. States must 
submit a revised CFS-101 by June 30, 2002, to request any additional 
fiscal year 2002 Title IV-B funds that might be available to them once 
appropriations are finalized. In addition, states can request 
additional Title IV-B funds if other states do not use the total funds 
to which they are entitled.
---------------------------------------------------------------------------
    The descriptions provided by regional office staff of their review 
of these estimates indicate that they review them for relatively 
limited purposes. As a result, most HHS regional offices do not review 
the annual estimates for compliance with the statutory limits. In 
addition, HHS's annual program instruction, which details what 
information states must include in their estimates and serves as the 
basis for the regional offices' review of subpart 1 spending, does not 
mention the subpart 1 limits. Five regional offices were unaware that 
any limits on the use of subpart 1 funds existed. Four other regional 
offices were aware of the limits, but did not ensure that states 
complied with the limits.
    This lack of review led HHS to approve spending plans for 15 states 
that reported fiscal year 2002 planned subpart 1 expenditures for 
foster care maintenance and adoption assistance payments that exceeded 
the statutory limits.<SUP>[28]</SUP> The dollar amounts by which the 
subpart 1 spending estimates surpassed the limits were small in some 
cases, but large in others. For example, Georgia reported that it 
planned to spend $1,497,000 of subpart 1 funds for these purposes in 
2002, which would exceed its statutory limit by $1,558. At the other 
extreme, Florida's estimate indicated that it planned to spend over $9 
million, which was more than $7 million over the maximum allowable 
spending of $1.9 million. In total, these 15 states submitted planned 
subpart 1 spending estimates for foster care maintenance and adoption 
assistance payments that would exceed the statutory limits by over $30 
million.
---------------------------------------------------------------------------
    \[28]\ In most cases, we reviewed the final revised CFS-101 
approved by HHS. For 1 state, however, we used the initial CFS-101 
approved by HHS because it included planned subpart 1 expenditures that 
exceeded the limits for foster care and adoption assistance payments. 
Although the revised CFS-101 did not show that the state planned to 
exceed the limit, we used the initial CFS-101 to show that HHS had 
previously approved a spending plan that did not comply with the 
statutory limits.
---------------------------------------------------------------------------
    Several regional offices said that they are not concerned about a 
state planning to spend significant proportions of its subpart 1 funds 
on foster care maintenance and adoption assistance payments if they 
believed the state had a strong child welfare system with an 
appropriate array of services. Regional office staff said that they 
would, however, ask a state to reconsider its funding strategy if the 
state were performing poorly. However, many of the states with approved 
subpart 1 estimates above the statutory ceilings did not achieve strong 
outcomes on their CFSR evaluations with regard to providing needed 
services and having an appropriate array of services. HHS has conducted 
CFSRs on 13 of the 15 states with approved annual estimates over the 
subpart 1 spending limits and determined that appropriately assessing 
family needs and providing services to address those needs was an area 
needing improvement in 12 of the 13 states. In addition, 7 of the 13 
states were also determined to need improvement in terms of having an 
appropriate array of services to meet the needs of families in the 
state.<SUP>[29]</SUP>
---------------------------------------------------------------------------
    \[29]\ Ten of the 13 states were also cited as needing improvement 
in ensuring that needed services are accessible to families in all 
areas of the state and 9 of the 13 states were categorized as needing 
improvement in terms of individualizing services to meet the unique 
needs of individual families.
---------------------------------------------------------------------------
    In discussing the current structure of Title IV-B, officials in all 
of HHS's regional offices told us that they believe states need some 
flexibility to use Title IV-B funds to address state-specific child 
welfare needs as is currently the case under subpart 1. At the same 
time, officials in 8 of HHS's 10 regional offices also stressed the 
importance of subpart 2 to ensure that states use some funds on family 
support services and prevention activities to help preserve families 
and keep children from entering foster care. Several regional offices 
expressed concern that, in the absence of the minimum spending 
requirements outlined in subpart 2, states would neglect preventive 
services, while using Title IV-B funds for more urgent services, such 
as CPS or foster care. State and local child welfare officials in one 
state we visited, along with officials at 2 HHS regional offices, said 
that states need more federal funds to provide services to prevent 
foster care placements, such as an increase in funds available under 
Title IV-B or more flexibility to use Title IV-E funds to provide 
services. HHS is currently developing a legislative proposal to give 
states more flexibility in using Title IV-E foster care funds for such 
preventive services.<SUP>[30]</SUP>
---------------------------------------------------------------------------
    \[30]\ Under this new proposal, states could voluntarily choose to 
receive a fixed IV-E foster care allocation, which could be used for 
any services provided under Titles IV-B and IV-E.
---------------------------------------------------------------------------
HHS's Involvement with States' Child Welfare Workforce Is Limited
    HHS's primary connection to the child welfare workforce has been 
through partial federal reimbursement--75 percent--of states' training 
funds to implement educational programs for current child welfare staff 
and to enhance the child welfare curriculum of undergraduate and 
graduate social work programs to better educate and prepare potential 
caseworkers.<SUP>[31]</SUP> This funding may also be used for 
curriculum development, materials and books, support for current 
workers to obtain a social work degree, and incentives to induce entry 
to the child welfare field. During fiscal year 2002, 49 states received 
$286 million in title IV-E training reimbursements.<SUP>[32]</SUP> 
These reimbursements ranged from a low of approximately $10,400 in 
Alaska to a high of more than $79 million in California, with the 
median reimbursement approximating $2.7 million.
---------------------------------------------------------------------------
    \[31]\ As authorized under Title IV-E of the Social Security Act, 
the Federal Government reimburses 75 percent of states' training 
expenditures related to foster care and adoption services. States 
providing training for contracted private agency staff can receive 50 
percent federal reimbursement for this purpose.
    \[32]\ Fiscal year 2002 data are the most recent data available at 
the time of this testimony. The District of Columbia, Massachusetts, 
and Puerto Rico have not participated in title IV-E reimbursements for 
the last three fiscal years.
---------------------------------------------------------------------------
    In addition, ACF's Children's Bureau manages six discretionary 
grant programs through which it funds various activities related to 
improvements in the child welfare system. One of these programs--the 
Child Welfare Training Program, authorized by Section 426 of Title IV 
of the Social Security Act--awards grants to public and private 
nonprofit institutions of higher learning to develop and improve the 
education, training, and resources available for child welfare service 
providers.<SUP>[33]</SUP> This is the only program of the six with a 
specific emphasis on staff training;<SUP>[34]</SUP> however, in fiscal 
year 2003, it received the second smallest share--8 percent--of the 
Children's Bureau's total discretionary funds.
---------------------------------------------------------------------------
    \[33]\ In fiscal year 2003, among other child welfare training 
project activities, HHS awarded grants to eight recipients for 
developing models of effective child welfare staff recruitment and 
retention training.
    \[34]\ Although the other discretionary grant programs fund 
initiatives that can involve caseworker training, caseworker training 
and development is not their primary focus.
---------------------------------------------------------------------------
    According to HHS officials, HHS has no authority to require states 
to address caseload issues in their CFSR-related program improvement 
plans or to enforce any caseload standards. Furthermore, HHS officials 
said that states have made few requests of HHS's national resource 
centers for assistance with child welfare staff recruitment and 
retention. Although HHS officials told us that they plan to examine the 
CFSRs to better understand the relationship between recruitment and 
retention and safety and permanency outcomes across the states, the 
agency is still conducting these reviews and is not expected to 
complete them until March 2004.

HHS Offers Assistance to Help States Develop SACWIS and Improve Their 
        Data, but States Report Ongoing Challenges with Some of HHS's 
        Efforts
    In response to some of the challenges states face in developing 
SACWIS and collecting and reporting child welfare data, HHS has 
conducted on-site reviews of information systems and provided technical 
assistance from a variety of sources. For example, at the time of our 
review, HHS had conducted on-site reviews in 26 states with operational 
SACWIS to ensure that the systems met all federal requirements and to 
offer assistance to states that faced challenges completing the 
development of their SACWIS. Few systems have been determined complete 
after an on-site review because of unresolved issues, such as not being 
able to build links to other state information systems or not 
implementing certain eligibility determination functions. To help 
states address some of these development challenges, the SACWIS review 
team provides the state with recommendations for complying with SACWIS 
requirements and schedules a conference call with the state officials 
to walk through the system's deficiencies and offer guidance on how the 
state can move forward. In addition, in an attempt to help states 
comply with the reporting standards and address some of the factors 
that contribute to data quality problems, HHS performs comprehensive 
reviews of state information systems' ability to capture AFCARS data to 
identify problems associated with data collection and reporting and to 
ensure that the information in the automated system correctly reflects 
children's experiences in care.
    Other technical assistance is available to states in a variety of 
formats. HHS facilitates the sharing of information between states 
developing SACWIS through an automated system users' group that allows 
state and federal officials to exchange information, ideas, and 
concerns. In addition to the users' group, HHS officials sponsor a 
Listserv--an electronic mailing list--that allows state officials to 
exchange information, a monthly conference call with state information 
technology directors,<SUP>[35]</SUP> an annual technical assistance 
meeting, and an NCANDS state advisory group. The National Resource 
Center for Information Technology in Child Welfare, which opened in 
1999, also provides assistance to states on SACWIS development and data 
issues.
---------------------------------------------------------------------------
    \[35]\ In commenting on a draft of the July 2003 report, HHS 
indicated that a Web resource is available to states interested in 
learning about other states' efforts to develop human services--child 
welfare, food stamps, Temporary Assistance to Needy Families, child 
care, and child support enforcement--information systems at http://
www.acf.hhs.gov/nhsitrc.
---------------------------------------------------------------------------
    HHS has also made available to states the software it uses to 
examine states' AFCARS and NCANDS submissions for inconsistencies and 
invalid data. Officials in all the states that we visited said that 
they regularly use this software, and an HHS official said that nearly 
every state has used the software at least once. HHS officials reported 
that these tests help them to identify some data quality errors, such 
as missing data, and said that they believe that, in general, data have 
improved in recent years. However, the officials indicated that the 
tests cannot pinpoint the underlying problems contributing to these 
errors. Furthermore, one official reported that no specific efforts 
have been conducted to track the individual data elements and, 
therefore, HHS cannot report on how data quality has changed over time.
    Although the states we visited appreciated some of HHS's efforts to 
assist with improving state data quality, they and most states 
responding to our survey agreed that the assistance is not always 
consistent or easily accessible. The primary concerns reported by the 
states we visited were delays in receiving clear written guidance on 
defining and reporting certain data elements and the lack of state 
input in suggesting changes to AFCARS. Despite the written guidance 
available to states in the form of regulations and an online policy 
manual, states reported that the variation in state policies and 
practices makes it difficult to interpret how to apply the general 
guidance. As a result, states consult with HHS to ensure they are 
applying the regulations appropriately. However, in commenting on a 
draft of the July 2003 report, officials in Oklahoma told us that a 
common concern among the states is the lack of timely response from HHS 
when seeking guidance on how to report data. In commenting on a draft 
of the same report, HHS explained that it first refers states to its 
Web site for information and believes that the available guidance 
addresses states' concerns in most instances. In addition, the states 
that have had an AFCARS review experienced delays in obtaining guidance 
on how to proceed following the on-site review. An HHS official told us 
that since the review process is relatively new, the agency is still 
developing a process to respond to the states and recognizes that it 
has not been responsive to the states already reviewed. In addition, 
HHS is taking steps to gather feedback from states and other users of 
AFCARS data to determine how to improve the system to make the data 
more accurate and usable. As a part of these efforts, HHS has published 
a Federal Register notice soliciting comments and held focus group 
meetings at national conferences. The difficulties states face in 
receiving federal guidance and assistance, as well as the other 
challenges they face in reporting data, may negatively affect the 
reliability of the data available in AFCARS and NCANDS.

Concluding Observations
    Despite its relatively small funding level compared to other 
funding sources for child welfare services, Title IV-B represents an 
important federal commitment to states' efforts to protect children 
from abuse and neglect. However, HHS does not provide in-depth 
oversight specific to Title IV-B subpart 1. Two key issues further 
compound states' ability to prevent abuse and neglect. For example, 
given the difficulties that public and private child welfare agencies 
are experiencing in hiring, training, and retaining their work forces, 
these agencies' ability to provide services to children is threatened. 
In addition, states face challenges in completing their SACWIS systems 
and in ensuring that caseworkers input complete and accurate case data 
in a timely manner.
    We recommended in our September 2003 report on Title IV-B that the 
Secretary of HHS provide the necessary guidance to ensure that HHS 
regional offices monitor states' use of Title IV-B subpart 1 funds for 
compliance with statutory restrictions on the use of these funds. We 
also recommended that the Secretary consider the feasibility of 
collecting basic data on states' use of these funds to facilitate its 
oversight of the program and to provide guidance to help states 
determine appropriate services to fund. In commenting on a draft of 
that report, HHS agreed with our first recommendation but noted that 
the statutory limitations on Title IV-B funds no longer serve a useful 
purpose and are incompatible with its current proposal to offer states 
much more flexibility in using other federal child welfare dollars. HHS 
disagreed with our second recommendation, stating that it believes that 
its level of oversight is commensurate with the scope and intent of the 
program and minimizes states' reporting requirements.
    We recommended in our March 2003 report on child welfare worker 
recruitment and retention that, because of the reported impact staffing 
shortages and high caseloads have on the attainment of federal outcome 
measures, that the Secretary of HHS take actions that may help child 
welfare agencies address the recruitment and retention challenges they 
face. In commenting on a draft of that report, HHS generally agreed 
with our findings and concurred with our recommendation, saying that it 
has begun to explore the effectiveness of child welfare training 
programs, with an emphasis on lessons learned and best practices. 
However, HHS stressed that it has no authority to require states to 
address caseload issues in their CFSR program improvement plans or to 
enforce any caseload standard.
    To improve the reliability of state-reported child welfare data, we 
recommended in our July 2003 SACWIS report that the Secretary of HHS 
consider, in addition to HHS's recent efforts to improve AFCARS data, 
ways to enhance the guidance and assistance offered to states to help 
them overcome the key challenges in collecting and reporting child 
welfare data. HHS generally agreed with our findings and, in response 
to our recommendation, noted that the data definitions need to be 
updated and revised and said it is currently in the process of revising 
the AFCARS regulations to further standardize the information states 
are to report. More recently, HHS said that it would be creating policy 
guidance that will delineate what will happen if a state fails to 
complete its SACWIS within a reasonable time frame.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other members of the 
Subcommittee may have.
                                 ______
                                 
               Appendix I: Subparts 1 and 2 Expenditures

                 Table 1: Fiscal Year 2002 Expenditures for Subparts 1 and 2 Service Categories

                                                  Subpart 1                              Subpart 2

                                                                                                      Percentage
         Service category           Number of     Amout of     Percentage  Number of     Amout of     of subpart
                                      States      subpart 1    of subpart    States      subpart 2     2 funding
                                                  funding a     1 funding                funding a         b

Staff positions...................         25     $70,965,578        27.6         17      $6,229,058         2.4
Administration and management.....         16      43,143,097        16.8         18      11,614,667         4.5
Child protective services.........         17      40,543,000        15.8          5       2,248,690         0.9
Foster care maintenance payments..         17      27,890,783        10.8          2         647,154         0.3
Multiple responsesc...............          8      25,806,347        10.0          4       3,503,585         1.4
Family support/prevention.........         17      19,840,891         7.7         28     127,430,496        49.8
Counseling and mental health                2       8,350,562         3.2          5       1,354,763         0.5
 services.........................
Family preservation...............          7       5,986,045         2.3         23      30,308,896        11.8
Adoption subsidy payments.........          7       4,657,546         1.8          2         737,412         0.3
Family reunification..............          4       2,446,570         1.0         26      23,625,973         9.2
Recruitment and training for                9       2,260,061         0.9         16       6,828,885         2.7
 foster/adoptive parents..........
Adoption support and preservation           2         446,877         0.2         27      28,481,585        11.1
 services.........................
Other.............................         11       4,817,180         1.9         15      12,795,915         5.0
Totald............................               $257,154,537       100.0               $255,807,079       100.0

Source: GAO survey.
Notes: Percentages do not always total to 100 due to rounding.
Data on subpart 1 expenditures are based on survey responses from 46 states and data on subpart 2 expenditures
  are based on survey responses from 44 states. While Pennsylvania responded to our survey, it did not provide
  expenditure data for subparts 1 or 2.
a When providing data for our survey, states were asked to indicate the single service category that best
  described the type of program funded by subparts 1 and 2. Thus, programs that fall into multiple service
  categories may not be fully captured. For example, one state indicated it funded a family support program,
  which includes some family preservation and reunification services. In addition, states may not have been
  consistent in categorizing services. For example, several HHS officials told us that the delineation between
  family support and family preservation services is not clear, so that two states providing the same services
  to the same types of families may report them in different categories. Inconsistencies such as these could
  have an effect on any measured differences among service categories.
b States may spend less than 20 percent of their subpart 2 funds on any of the required service categories if
  they have a strong rationale. Some HHS regional officials said that they approve exceptions to the 20 percent
  requirement if a state is spending a significant amount of nonfederal funds on a subpart 2 service category.
c Although states were asked to indicate the single service category that best described the type of program
  funded by subparts 1 and 2, several states selected multiple program categories when responding to our survey.
  For example, Rhode Island reported that it funded a home visitation program and indicated that this program
  includes family support, health, and family reunification services. Thus, the responses from states that
  reported multiple categories for a program are represented by this category.
d The aggregate dollars reported in the service categories do not match the total allocations for subparts 1 and
  2 in fiscal year 2002. States have 2 years to spend their Title IV-B allocations; as a result, expenditures in
  fiscal year 2002 may include dollars from a state's fiscal year 2001 Title IV-B allocation, as well as its
  fiscal year 2002 Title IV-B allocation. Similarly, some fiscal year 2002 allocations may not have been spent
  until fiscal year 2003.


                                 <F-dash>

    Chairman HERGER. Thank you. Ms. Nelson?

    STATEMENT OF MARY J. NELSON, ADMINISTRATOR, DIVISION OF 
    BEHAVIORAL, DEVELOPMENTAL, AND PROTECTIVE SERVICES FOR 
   FAMILIES, ADULTS, AND CHILDREN, IOWA DEPARTMENT OF HUMAN 
 SERVICES, AND PRESIDENT, NATIONAL ASSOCIATION OF PUBLIC CHILD 
                     WELFARE ADMINISTRATORS

    Ms. NELSON. Good morning, Chairman Herger, and Ranking 
Member Cardin. My name is Mary Nelson and I serve as Iowa's 
Child Welfare Administrator, and President of the National 
Association of Public Child Welfare Administrators. Thank you 
for the opportunity to relate some of the challenges we face, 
the strategies we employ, and the goals we have set to improve 
outcomes for the children and families we serve. From the time 
someone contacts our agency with reason to suspect that a child 
is abused or neglected, to well beyond case closure, no other 
decision looms as large as child safety. An enormous 
responsibility is placed in the hands of caseworkers as they 
make multiple decisions that have the power to change a child's 
life. Their judgment can determine whether a child is kept 
safe, or put at risk. We struggle to recruit, retain, and 
reward these dedicated professionals. Pay is low, work is 
demanding, caseloads are high, and tight budgets limit access 
to much-needed training and supervision. A stable and tenured 
workforce is critical to the work we do.
    In Iowa, the number of reports of suspected child 
maltreatment reached an all-time high in 2001, and has declined 
slightly in recent years. Still, our rate of child abuse is 
higher than the national average, with child neglect accounting 
for 66 percent of our cases. The use of methamphetamines has 
become a central driver of Iowa's child protective caseloads. 
For example, in the Council Bluffs service area, almost half of 
the children come from homes where caretakers are involved with 
methamphetamines. The prevalence is even higher in some 
individual counties. With respect to child safety, Iowa has 
adopted aggressive timeframes for responding to reports of 
maltreatment. A report involving an immediate threat or high 
risk to the child receives a response within 1 hour, reports 
absent an immediate threat within 24 hours, and all other 
reports in 96 hours. Iowa investigates all reports screened for 
action.
    We have strengthened training on intake and screening. We 
have implemented structured risk and safety assessment tools. 
We have a new 30-hour training curriculum for new foster and 
adoptive parents that incorporates the Adoption and Safe 
Families Act (ASFA, P.L. 105-89) and CFSR outcomes and 
expectations. However, time and budget constraints prevent us 
from providing training in these areas as extensively as we 
would like. Ongoing measurement of State performance is 
integral to our work. Long before the Federal CFSR, many States 
developed quality assurance systems to evaluate, monitor, and 
improve practice. States identify conditions that both enhance 
and limit the ability to achieve good outcomes. Some States 
have embraced structured decisionmaking that has reduced 
recidivism--reabuse or neglect--and that has lessened time in 
care. In Iowa, we have established a framework for quality 
assurance, placing a strong focus on child safety, permanency, 
and well-being, which incorporates data from our SACWIS and in-
depth reviews of individual cases.
    As you know, States are engaged in measuring child welfare 
system performance through the CFSR and PIP. Iowa's CFSR found 
that we met two of seven outcomes, and three of seven systemic 
factors. While we were pleased with some of these results, we 
acknowledge that we have a great deal of work to do to improve 
performance in the areas where we did not achieve substantial 
conformity. The challenge is great. State child welfare workers 
are engaged in ongoing work with families, as well as the 
oversight and improvement of our agencies. With respect to the 
Federal role in oversight, it has been greatly enhanced through 
the CFSR and PIP. All States are engaged in this effort to set 
baselines so that we can measure progress. Beyond setting 
goals, States need the tools to achieve them. That is why we 
believe that Congress must reform title IV-E funding. It is too 
limited in its definition, and no longer in step with the work 
of our agencies. It cannot be used to support the most basic 
responsibilities of our agencies, such as investigating charges 
of abuse and neglect; nor can it be used to fund the 
initiatives contained in our PIP, such as expanding services to 
prevent placement.
    The American Public Human Services Association (APHSA) has 
long supported the de-linking of title IV-E eligibility from 
AFDC, and expanded waiver authority--and continues to do so. We 
know Congress is exploring new funding options, as well. We 
believe Congress should consider a policy change that would 
permit States to use Federal dollars for any purpose set forth 
in the PIP. Given the rigor of the approval process, the 
Federal Government would have all the tools necessary to ensure 
that State initiatives relate directly to specific outcomes. In 
the coming months, APHSA plans to further refine this idea. We 
believe that it is not enough to identify goals and initiatives 
in a PIP. Resources must also be available. Thank you for the 
opportunity to testify, and I would be happy to answer any 
questions you have.
    [The prepared statement of Ms. Nelson follows:]

  Statement of Mary J. Nelson, Administrator, Division of Behavioral, 
   Developmental, and Protective Services for Families, Adults, and 
 Children, Iowa Department of Human Services, and President, National 
           Association of Public Child Welfare Administrators

INTRODUCTION
    Good morning, Chairman Herger and Members of the Subcommittee. I am 
Mary Nelson, administrator of the Division of Behavioral, Developmental 
and Protective Services for the Iowa Department of Human Services. In 
this position, I have responsibility for program and policy in child 
protection, foster care, permanency, and adoptions as well as child 
care regulation, juvenile institutions, delinquency programs, dependent 
adult protection, mental health and developmental disability services 
for adults and children, family planning, and teen pregnancy 
prevention. I am also the current president of the National Association 
of Public Child Welfare Administrators (NAPCWA), an affiliate of the 
American Public Human Services Association (APHSA), and am here today 
in that capacity. APHSA is a nonprofit, bipartisan organization 
representing state and local human service professionals for over 70 
years. NAPCWA, created as an affiliate in 1983, works to enhance and 
improve public policy and administration of services for children, 
youth, and families. As the only organization devoted solely to 
representing administrators of state and local public child welfare 
agencies, NAPCWA brings an informed view of the problems facing 
families today to the forefront of child welfare policy.
    I appreciate the opportunity to testify before this subcommittee 
about the review of federal and state oversight of child welfare 
programs. With over 29 years of experience with the Iowa Department of 
Human Services, beginning as a caseworker, I have seen the many changes 
the child welfare system has undergone. My testimony today will focus 
on the strategies being utilized in Iowa to address the needs of 
children and families involved with the child welfare system, 
particularly the role that the states, the Federal Government and 
communities can play with respect to the safety of vulnerable children 
we serve.

THE CURRENT CHILD WELFARE SYSTEM

Challenges
    The challenge is great. In 2001, state child protective services 
agencies received an estimated 2.7 million referrals alleging child 
abuse and neglect. An estimated 903,000 were found to be victims. The 
majority, about 517,000 or 57.2 percent, were the victims of neglect. 
Two percent were the victims of medical neglect, 6.8 percent were the 
victims of psychological abuse, 9.6 percent were the victims of sexual 
abuse, and 18.5 percent were the victims of physical abuse. As of 
September 2001, 542,000 children were in foster care and 126,000 
children were awaiting adoption. For families in need of support and 
children in need of protection, states are pursuing solutions in many 
areas and at multiple levels simultaneously. Public child welfare 
incorporates a broad array of core services including prevention, 
family support, early intervention, family preservation, child 
protection, foster care, adoption, guardianship, post-permanency 
services, and independent living.

Safety Strategies and System Collaborations
Core Work of the Child Welfare System
    Child safety is a central focus for America's child welfare 
systems. From the time a mandated reporter, a family member, a 
concerned neighbor, or any other person believes he or she has reason 
to suspect that a child is being maltreated, through well beyond case 
closure, the focus on child safety is unwavering. No other decision 
rests more heavily on a child welfare professional than the safety 
decision; therefore, states have developed strategies to help guide 
this decision process.
    When an allegation of abuse or neglect comes in, caseworkers make 
broad-based assessments that identify current safety issues, future 
risks of maltreatment, and the family's strengths and needs to 
determine the status of the case. Caseworkers must be skillful in 
considering how serious the abuse or neglect is, how likely it is to 
occur again, and what underlying causes led to the incident. The 
majority of cases that initially come to the attention of the system do 
not pose serious harm to the child. In cases where the degree of harm 
is relatively minor, a caseworker can and should look at other factors, 
such as the vulnerability of the child and the protective capacities of 
the family, to make the best judgment about the most appropriate safety 
response. In more serious cases, the safety response will include 
restriction of access to the child either by placing the child out of 
the home or restricting access of a maltreating caretaker. However, 
there may be other options if the caseworker assesses that the risk to 
the child can be mitigated by alternative responses such as intensive 
case management, mental health services, substance abuse treatment, 
parenting skills, and other interventions.
    The safety of children is dependent on good decision-making by 
child welfare professionals, judges, service providers, and the 
community. Decision-makers in child welfare cases must contend with the 
fact that what they decide to do or not do will directly impact the 
lives of children and families. A community member who calls in a 
report of suspected abuse may hesitate because of concerns for what may 
happen to the family. Child protection workers who remove children from 
dangerous homes must often immediately face a child's grief at the loss 
of parents and the child's need for a stable and nurturing family. 
Given the statutory requirement for states to make ``reasonable 
efforts'' to prevent the child's removal from his or her home, 
caseworkers who have determined that a child can stay home may second 
guess if they have made the right decision. The need to continually 
balance potentially conflicting goals often places a premium on skilled 
decision-making and a need for a skilled workforce.

Need for a Skilled Workforce
    Child welfare professionals courageously work in one of the most 
challenging professions in this country. The jobs performed by 
caseworkers have become more complicated as the challenges faced by 
families in the child welfare system have become increasingly complex. 
An enormous responsibility is placed in the hands of caseworkers as 
they are expected to perform multiple interventions and make judgments 
that have the power to change a child's life. Their findings can 
determine whether a child is kept safe or put at risk.
    Child welfare systems throughout the country struggle to recruit, 
retain, and reward these dedicated professionals. In a survey of public 
agency administrators, APHSA found that the number one issue in 
preventable turnover was that ``workloads are too high, demanding, or 
both.'' Systems, workers, and families face many barriers and 
constraints as they work to achieve safety, success, and positive 
outcomes. Economic and budgetary challenges, changes in the political 
landscape, complex social factors, and complicated demands can impact a 
child welfare system's ability to contain workloads.
    Child welfare supervisors play a vital role in providing support, 
skill building, and professional development to caseworkers. 
Supervisors are coaches, mentors, and evaluators responsible for the 
quality of services children and families receive. A supported, 
skilled, and stable workforce is crucial in child welfare practice 
given the tremendous impact caseworkers can have on helping vulnerable 
children and families overcome difficult life circumstances. Training, 
workload, risk of violence, supervision, and turnover present great 
challenges to providing the needed workforce supports in this field. 
However, the level of motivation and the level of dedication among the 
child welfare workforce are assets that can contribute to meaningful 
and sustained improvements. A key to improving the workload for 
caseworkers is to ensure access to other human service systems that can 
help provide the services needed by children and families.

Cross-system Collaborations
    The child welfare system cannot work in isolation from other 
critical human services programs. The system has increasingly been 
contending with crosscutting challenges impacting the lives of children 
and families including high rates of domestic violence, unmet medical 
and mental health needs, substance abuse, and poverty. Child protection 
is often the final safety net for many of the children and families who 
weren't ``caught'' in time by other social service systems. Addressing 
these issues is often integral to the ability of a family to care 
properly for its children.
    Although many child welfare systems have begun to partner 
effectively with other sectors to address the multiple needs of 
children and families, there remain obstacles to truly connecting the 
supports these families need. For instance, an inpatient substance 
abuse treatment facility may not have the capacity to accommodate a 
family, causing a mother to have to lose physical custody while she is 
receiving treatment to keep her child. Even that is assuming that the 
parent can get into a treatment facility in a reasonable amount of 
time. Many states struggle with substance abuse treatment waiting lists 
that are often long due to insufficient resources and facilities. Once 
children are in the system, parental substance abuse is a significant 
hurdle in their path out of the system--a hurdle that requires drug or 
alcohol treatment for the parent in addition to other services for the 
family. The nature of drug and alcohol addiction means a parent's 
recovery can take a considerable amount of time. Other problems these 
parents face, such as mental illness and homelessness, further 
complicate these cases. Foster care cases that involve parental 
substance abuse therefore place an additional strain on a child welfare 
system already overburdened by the sheer number of foster care cases.
    Numerous families that come to the attention of child protection 
have unmet mental health needs. Private health insurance limitations, 
an inadequate supply of services, and limited resources have all 
impacted the access to mental health services for both children and 
parents. A recent General Accounting Office study highlighted the 
critical importance of access to mental health services for children 
within and outside the child welfare system. These factors can cause a 
family to run up against the timelines set in the Adoption and Safe 
Families Act (ASFA), under which states must seek, with limited 
exceptions, termination of parental rights whenever a child has been in 
foster care for 15 of the previous 22 months. We have seen cases where 
the lack of adequate housing can lead to overcrowded conditions that 
cause high levels of stress and can ultimately lead to the maltreatment 
of a child. These examples serve to highlight how systems must work 
together to better address the varied needs of families.
    I can share with the Committee the Iowa story to more clearly 
illustrate how a system goes about its core work in safety, addresses 
the need for a skilled workforce, and develops cross-system 
collaborations.

IOWA'S CHILD WELFARE STORY
Challenges
    The number of reports of suspected child maltreatment in Iowa 
reached an all-time high in 2001, and have subsequently declined 
slightly and leveled off, as have the number of child abuse victims. 
Iowa's per-thousand rate of child abuse is higher than national 
averages. Child neglect is by far the most common category, accounting 
for 66 percent of all substantiated cases.

Safety Strategies and System Collaborations
Core Work of the Iowa Child Welfare System
    Addressing child protective concerns resulting from parental use 
and/or manufacture of methamphetamines has become a significant part of 
the work of the Iowa Department of Human Services (DHS) and its 
community partners. Recent studies of Iowa's child protective caseloads 
in the southwest region, for example, have revealed that one-third of 
child protective investigations conducted involved methamphetamines; 
one in four cases referred to child protection for assessment were 
referred specifically due to parental meth involvement; and 49 percent, 
almost half, of the children in ongoing caseloads in the Council Bluffs 
Service Area come from homes where caretakers have been or are involved 
with meth. The prevalence is even higher in some counties.
    The Iowa DHS has been continually working to address these and 
other challenges to child safety and well-being. Iowa has aggressive 
timeframes for responding to reports of maltreatment--a report 
involving an immediate threat or high risk to the child receives a 
response within 1 hour; reports not involving an immediate threat, but 
in which the alleged responsible person has access to the child, 
receive a response within 24 hours; and reports not involving immediate 
threat or access to the child by the perpetrator receive a response 
within 96 hours. Iowa does not triage child abuse reports and 
investigates all reports that are screened in. We only screen out if a 
report doesn't meet the three criteria of potential abuse--not a child, 
not a caretaker, or the allegation would not constitute the definition 
of abuse even if it were true. We've recently strengthened training on 
intake to build more consistency across the state and to emphasize a 
focus on screening cases in unless a report clearly does not meet the 
criteria of potential abuse.
    We have also developed an extensive manual for staff on issues to 
consider in assessing child safety. We have recently implemented use of 
standardized risk and safety assessment tools, as well as a family 
assessment that focuses on family strengths and needs. We have 
developed strong training programs for new child protective assessment 
workers, although these training programs have been negatively impacted 
by budget cuts in the last few years--which have reduced available 
training and caused higher caseloads resulting in less time for staff 
to take training classes.
    The focus on child safety extends beyond child proactive 
assessments and in-home services. The Department has recently 
implemented a new 30-hour training curriculum for new foster and 
adoptive parents that integrates ASFA and the Child and Family Services 
Reviews (CFSR) outcomes and expectations into the training. To the 
extent possible, we want to encourage and allow existing foster parents 
to go through this training as well. However, the lack of resources, 
money for actual training, and time prevents us from doing this as 
extensively as we would like. The Department also conducts record 
checks before foster family licensure and adoptive family approval--
including criminal history, child abuse, and sex offender registry. 
We've also built a strong partnership with the Iowa Foster and Adoptive 
Parent Association (IFAPA) to provide a range of supports to foster and 
adoptive parents. For example, we have a contract with IFAPA to do our 
recruitment and retention project, as well as to provide other supports 
such as peer liaisons to new and experienced foster and adoptive 
parents, training, and on-going support groups. Iowa's CFSR Program 
Improvement Plan (PIP) also includes new activities for IFAPA--
including training foster parents on preventing child abuse, contacting 
new foster families after the first placement to help provide support 
to the family, and providing post-adoptive support to families when 
their adoption is finalized.

Need for a Skilled Workforce
    The Department uses private agencies extensively to supervise and 
support foster parents. Due to our own high caseloads, we contract with 
private agencies to ensure face-to-face visits with children and 
families. We've also implemented policy and training on safety planning 
throughout our involvement with a child and family, and on safe case 
closure. The policy requires safety assessments, for example, when 
considering unsupervised visits, immediately before returning a child 
home, and immediately before closing a service case.

Cross-system Collaborations
    Iowa's child welfare system has endeavored to build working 
relationships at both the state and community level with partners in 
domestic violence, substance abuse, the courts, the local community, 
law enforcement, mental health, and education. For example, we are 
implementing Rural Domestic Violence and Child Maltreatment Response 
Teams. Through these teams, six agencies are working to develop state 
protocols for collaboration among domestic violence, child protection, 
law enforcement, county attorneys, and others. We're also working with 
seven communities to reduce domestic violence and child victimization 
by creating Family Violence Response Teams whose goal is to ensure 
safety, justice, stability, and well-being for families.
    In response to the increasing challenge of substance abuse, 
particularly methamphetamines, Iowa has taken several steps. For 
example, we've created meth specialist positions in our eight Service 
Areas. These staff provide consultation for our staff and the community 
in addressing meth abuse and working with families with a history of 
meth use, and provide case management for a limited caseload of 
families involved with meth. Iowa has also initiated Drug Endangered 
Children (DEC) projects in three communities with heavy reported meth 
production--including our most populous county, a rural county, and a 
mid-size county. These projects bring law enforcement, child protection 
workers, public health officials, medical practitioners, and 
prosecutors together to assist children who are endangered by being 
exposed to meth manufacture or use in their environment. Projects focus 
on removing children from the dangerous living conditions in a drug 
lab, holding the caretakers accountable for the endangerment with 
prosecution, and medical and developmental assessment to address the 
child's needs.
    The judicial system is a fundamental partner in child welfare. Iowa 
has an active judiciary that takes a strong interest. Our juvenile 
judges are knowledgeable about ASFA and the CFSR outcomes and 
processes, and take seriously their role in child protection and 
permanency. Juvenile judges and the director of our court improvement 
project were actively involved in developing our CFSR self-assessment 
and our PIP. Two juvenile judges actually participated in the on-site 
review as peer reviewers. Our PIP includes several strategies that our 
court improvement project will implement to strengthen the court's role 
in improving outcomes for children and families.

Community Partnership for Protecting Children
    Finally, Iowa has been a Community Partnership for Protecting 
Children (CPPC) site through the Edna McConnell Clark Foundation since 
1997. In Iowa's Community Partnership sites, community members are 
engaged to help find solutions in child welfare cases. The sites have 
organized a network of neighborhood and community supports. The 
partnership has created a network of agencies, neighborhood groups, and 
families to support the overall mission of the community child 
protection. Core members of networks include schools, faith 
institutions, mental health professionals and healthcare providers, 
substance abuse and domestic violence programs, police, child care 
providers, parent groups, and of course, the public child protective 
services (CPS) agency.
    The child welfare system in Iowa has begun to adopt new policies, 
practices, roles, and responsibilities to support Community 
Partnerships. In order to take a leadership role in the partnership, 
DHS has changed the way it responds to reports of maltreatment, while 
still fulfilling its legal mandate to protect children from abuse and 
neglect. This process has meant teaching staff different skills for 
working with families. If the child's immediate safety needs are met, 
but the family is still in need of help, then the worker connects 
parents to the services and resources they may need by first conducting 
a thorough assessment. DHS has acted as a ``safety consultant'' to 
other members of the partnership network--assisting teachers, 
pediatricians, family support workers, and residents in determining 
what they can contribute to child safety in the community, and how to 
effectively intervene when a child is at risk of harm. DHS has also 
incorporated the key principles of the Community Partnership in child 
welfare policy and practice.
    The community partnership model has worked well for families in 
Iowa. The following examples help to highlight the benefits we've seen 
from this model.
    In one CPPC site, the community has recruited and trained 
Neighborhood Partners--local residents who organize events for parents 
and children and help families who may be isolated within the 
neighborhoods to take full advantage of local resources. They've also 
located family support workers at two of the schools in the targeted 
neighborhoods to assist families in identifying needed services. In 
another site, the community developed circles of support for at-risk 
families, as well as family partners for individual families. In this 
particular site, the community has developed its CPPC work in 
conjunction with a project called Beyond Welfare that is focused on 
helping families achieve self-sufficiency goals.
    We had a case in which a mother with two children, a newborn and a 
two-year old toddler, was brought to the attention of the child 
protection agency. A caseworker visited her home to find out about the 
specific allegation--a bruise on the two-year old. Although the family 
appeared troubled, the worker was unable to connect the bruise to 
abuse.
    The worker could have left with the hope that the family doesn't 
reappear to the system on more serious abuse charges. But instead, the 
caseworker conducted a thorough assessment of the family. The 
assessment revealed a young single parent who was unsure of how to care 
for her children and was drinking too much alcohol. She was isolated 
from her neighbors, friends, and family and had no contact with the 
father of the children.
    After the assessment, the caseworker and mother developed an 
``individualized action plan''. The plan targeted the family's 
strengths as well as their problems, and brought together family 
members and friends with service providers in a team meeting. As a 
result of the meeting, the mother agreed to join a support group for 
young parents and attend AA meetings; the caseworker went to the first 
AA meeting with her. A neighbor agreed to visit every few days and help 
out with occasional meals and errands. The toddler was enrolled in day 
care. A family support worker helped the mother tackle long-term 
challenges such as finding ongoing medical care for her family and 
getting into a job training program.

Quality Assurance Systems
    States constantly work to improve and move their child welfare 
systems forward, as exemplified by Iowa's efforts noted above. To 
assure that results are being achieved, it's critical for systems to 
continually assess their progress. States have a strong history of 
addressing and assessing quality within their own child welfare systems 
so that these systems will better serve children and families. State 
data has been a key piece in assessing quality services. Quality 
assurance systems are employed to evaluate, monitor, and improve 
practice. State quality assurance systems have helped to identify 
conditions of frontline practice that can lead to good results--such as 
quality of the relationship between the caseworker and the family, good 
matching of needs and supports, good assessments, range of services 
available, resilient children, and families able to communicate and 
willing to ask for help. States have also been able to identify 
conditions that limited the ability to achieve good outcomes including 
caseload size, prevalence of crisis patterns, reluctance of family to 
be involved with services, dual diagnosis caregivers, lack of available 
treatment alternatives, and parental substance abuse.
    Some states, such as Michigan, have found through quality 
improvement outcome evaluations that tools like structured decision-
making have led to a higher rate of permanency in 15 months, lower 
rates of subsequent harm to children returned home, less time in care, 
and lower recidivism rates. Here in Iowa, we have established a 
framework for a quality assurance and quality improvement system that 
places a strong focus on child safety, permanency, and well-being. Key 
components include:

    <bullet>  provision and use of case-specific data to allow system-
wide results, trend data, and best practices to be shared to assist in 
decision making;
    <bullet>  use of in-depth quality service reviews (using a case 
review protocol similar to that used in the on-site CFSR review) to 
provide feedback on strengths and areas needing improvement related to 
child and family outcomes (especially safety, stability and permanency) 
and related to performance of the child welfare system (e.g., family 
engagement, service planning, service coordination); and
    <bullet>  support for the use of evidence-based practice.

    A number of states have proactively incorporated federal 
performance indicators within their state quality assurance systems and 
performance-based budgeting systems to align state and federal 
accountability standards.

Child and Family Services Reviews and Program Improvement Plans
    Many of the federal performance indicators that states are aligning 
with their own accountability standards come from the Child and Family 
Services Reviews. Currently, states are engaged in measuring child 
welfare system performance through the CFSR and subsequent program 
improvement plans (PIP) based on the findings of the review. The CFSR 
process has brought the focus on core outcomes and helped to create a 
common platform of dialogue among states. States have been diligently 
working on the CFSR and PIPs and are willing to be accountable for 
their efforts on behalf of children and families in need of support and 
services.
    According to an Administration for Children and Families summary of 
the 2001 and 2002 CFSR final reports of 32 states, performance was 
stronger on the safety outcomes than in the permanency and well-being 
outcomes. State performance on the indicators within the safety 
outcomes shows that 47 percent of states achieved a strength rating for 
timeliness of initiating investigations, 41 percent achieved a strength 
rating for reducing repeat maltreatment, 50 percent achieved a strength 
rating for services to protect children and prevent removal, and 34 
percent achieve a strength rating for reducing risk of harm to 
children. As of 2003, 48 states have had their system reviewed to 
assess baseline data on measures of safety, permanency, and child well-
being; however, similar performance rating data are not yet available.
    Despite some of the positive results, states recognize that they 
need to continue to make strong efforts to address areas needing 
improvement. In striving to meet the national standards, states must be 
able to also support good practice. The compatibility of data across 
states is a serious concern, and states feel strongly that the baseline 
for each state from this first round of CFSRs should drive measurement 
of improvement rather than national standards. Several differences in 
state definitions and data contribute to the lack of compatibility 
across states. Comparing results of a very rural state with a largely 
urban state can prove misleading. States often have varying definitions 
of abuse and neglect as well as different standards for substantiating 
abuse and neglect. The very nature of the child welfare population, 
where some states include certain children in their mental health and 
juvenile justice programs and other states do not, is another source of 
variation that contributes to the lack of comparability across states.
    For states, the CFSRs and PIPs are consistent with their commitment 
to improving outcomes and increasing accountability in the public child 
welfare system. APHSA and states have had a long-standing interest in 
moving the public child welfare system from a process-driven system to 
an outcomes-focused system, so that its success is measured by positive 
outcomes for children. States are committed to quality services for 
children and families and accountability for achieving outcomes. States 
support the outcomes-focused approach to federal child and family 
service reviews and the use of both qualitative and quantitative 
information to judge performance. However, reviews must serve as an 
accurate and fair measure of state performance. National standards on 
which performance is determined must be based on accurate data so that 
the fairness of these reviews is not compromised.

Iowa's Child and Family Services Review
    A key finding of the Iowa CFSR was that Iowa is in substantial 
conformity with two of the seven outcomes and three of the seven 
systemic factors. With regard to the outcomes, Iowa achieved 
substantial conformity with Safety Outcome 2 (Children are safely 
maintained in their homes whenever possible and appropriate) and Well 
Being Outcome 2 (Children receive appropriate services to meet their 
educational needs). The CFSR determined that DHS is effective in 
addressing the risk of harm to children either through placement in 
foster care or through providing adequate services to maintain children 
safely in their own homes. Most stakeholders commenting during the 
onsite CFSR indicated that there is a large array of preventive and 
home-based services available to prevent children's removal from their 
homes or re-entry into foster care after reunification. Stakeholders 
also commented that DHS routinely conducts risk assessments and 
establishes safety plans for children. The CFSR also determined that 
DHS makes concerted efforts to address the educational needs of 
children in the child welfare agency caseloads and is consistently 
effective in reunifying children with their families in a timely 
manner.
    With regard to the systemic factors, Iowa was determined to be in 
substantial conformity with the factors of statewide information 
system; agency responsiveness to the community; and foster and adoptive 
parent licensing, recruitment, and retention. The state did not achieve 
substantial conformity with the systemic factors of case review system, 
training, and service array. Information from the Statewide Assessment 
and the stakeholder interviews conducted during the onsite CFSR 
attributed many of the current difficulties experienced by DHS to 
recent budget cuts in all areas of child welfare agency functioning. In 
recent years, funds available for services, training, quality 
assurance, and maintenance of the management information system have 
been substantially reduced.

Iowa's Program Improvement Plan
    Iowa's program improvement plan, based on the child and family 
services review, was submitted on January 20, 2004. The goals and 
strategies from the PIP address a variety of safety outcomes.
    Iowa's goals to address Safety Outcome 1 (Children are, first and 
foremost, protected from abuse and neglect) include:

    <bullet>  Increasing the timeliness of initiating responses to 
reports of child abuse/neglect. Due to Iowa's aggressive timeframes for 
responding to child abuse and neglect reports, our CFSR final report 
found that Iowa was timely in establishing face-to-face contact with 
children and families in accordance with state-established timeframes 
when reports involved immediate threat or high risk, but was less 
consistent in meeting timeframes when reports involved moderate or low 
risk.
    <bullet>  Decreasing recurrence of maltreatment. Iowa did not meet 
the national standard for repeat maltreatment, although case reviews in 
the CFSR on-site review did not identify extensive repeat maltreatment 
and reviewers rated this item a strength in 92 percent of cases 
reviewed.
    <bullet>  Decreasing the incidence of abuse and neglect in foster 
care.

    Iowa's PIP strategies to address the safety outcomes include:

    <bullet>  Enhancement of functional assessment protocols to better 
identify critical underlying issues;
    <bullet>  Providing staff with guidelines for service planning 
around different issues such as neglect cases, domestic violence, and 
substance abuse;
    <bullet>  Expansion of Community Partnerships for Protecting 
Children statewide by July 1, 2007;
    <bullet>  Expansion of family team meetings;
    <bullet>  Provision of training and technical assistance on 
substance abuse and child welfare;
    <bullet>  Provision of additional support to new foster parents 
through IFAPA, as well as training on preventing abuse in family foster 
care;
    <bullet>  Review of cases of abuse in residential treatment on a 
quarterly basis; and
    <bullet>  Development and monitoring of performance data on all 
three indicators and review quarterly with Service Area Managers 
(SAMs).

THE FEDERAL ROLE
    The Federal Government and states have begun working 
collaboratively through the child and family services reviews and 
program improvement plans to focus on key outcomes. Through this 
process, there is a real opportunity for the Federal Government to 
better support and help enhance the capabilities of state child welfare 
systems to achieve these outcomes.

Limitations of IV-E Funding
    <bullet>  Nationally, fewer than 60 percent of the children in the 
child welfare system are served with IV-E federal dollars, and the 
number of children is decreasing over time. As you are well aware, 
states are required to ``look back'' to old AFDC rules in effect on 
July 16, 1996, to determine Title IV-E eligibility. Not only is this 
administratively burdensome, but the law does not allow the income 
standards to grow with inflation. As a result, eligibility for federal 
reimbursement has decreased over time, leading to a continued loss of 
federal funding to states.
    <bullet>  Federal IV-E funding does not support the most basic work 
of our agencies, particularly with respect to safety. For example, the 
investigation stage, where an agency determines the efficacy of the 
charge of abuse or neglect--the first point of contact an agency has 
with vulnerable children and families--cannot be supported with federal 
IV-E dollars. Furthermore, federal funding is disproportionately 
directed to funding out-of-home care--the very part of the system 
agencies seek to minimize to achieve greater permanence for children. 
Federal IV-E entitlement cannot be used to fund front-end services, 
reunification, or post-adoption services for children and families in 
the system.
    <bullet>  The health and mental health of children in the child 
welfare system is a key outcome measure in the CFSR. States have helped 
many children and families in the system by providing wraparound 
services, such as comprehensive needs assessments, individual service 
plans, service plan development and review, referrals for services, 
service coordination and monitoring, case management, rehabilitation 
service coordination, rehabilitation links and aftercare, and service 
management through targeted case management (TCM). Because federal IV-E 
funds cannot be used for these purposes, states have funded these 
services with Medicaid money for decades. APHSA and our members are 
very concerned about recent federal actions to limit states' ability to 
use Medicaid funds for TCM services for children in the foster care 
system.
    <bullet>  Despite the Federal Government's renewed emphasis on 
accountability and program improvement through the Child and Family 
Services Review process, IV-E funds cannot be used to achieve many of 
the mutually agreed-upon goals in the Program Improvement Plans. It is 
not enough to know what goals need to be achieved to help children and 
families in the child welfare system; the resources must also be 
available. For example, in Iowa's PIP we are proposing to undertake the 
following initiatives to improve the safety outcomes for the children 
and families we serve, but federal IV-E funding cannot be used for the 
following:

      <bullet>  One of the areas Iowa needs to work on is reducing 
repeat maltreatment. IV-E funding, however, cannot be used for 
individualized ``wraparound'' services to address the underlying causes 
of maltreatment based on engaging the family and implementing a good 
assessment--only foster care.
      <bullet>  Iowa also wants to move to paying providers for 
results--again, IV-E can only be used to pay for maintenance. And, if 
the result the provider achieves is a shorter length of stay or foster 
care prevention, we lose IV-E funding, and the state and provider have 
fewer resources available to achieve results.
      <bullet>  Iowa is proposing to expand our Community Partnership 
initiative and to increase wrap-around flexible funds to provide 
services based on individual family needs, and to allow children who 
need services traditionally provided in residential care to remain in 
their communities. Neither of these will qualify for IV-E funding 
because they are not focused on foster care.
      <bullet>  Iowa wants to include private agency staff, who deliver 
many of the child welfare services to children and families in Iowa, in 
our training. IV-E match for training private agency staff, however, is 
lower than for training our own staff, meaning fewer dollars available 
for this critical training.
Recommendations
    <bullet>  NAPCWA and the states have welcomed the opportunity to 
participate in the Children's Bureau workgroup to make improvements to 
the outcomes and how they're measured based on the first round of 
CFSRs. Some promising preliminary suggestions include augmenting AFCARS 
data with state data to paint a more complete picture; increasing the 
capacity of HHS regional offices and resource centers to better assist 
states; incorporating commitments from other systems that impact child 
welfare such as mental health and substance abuse; and supporting 
development and execution of PIP goals.
    <bullet>  We support breaking the link between IV-E eligibility and 
the long-since-repealed AFDC program, so that the Federal Government 
can share in the support of all children in the child welfare system, 
regardless of income.
    <bullet>  We support broadening the use of IV-E funding to support 
investigations, prevention and post-permanency services, and other 
services to vulnerable children and families.
    <bullet>  We support the continued use of Medicaid funds for 
targeted case management, health, and mental health services to 
children and families in the system.
    <bullet>  We support the reform and continuation of state child 
welfare waiver authority contained in the pending welfare reform 
legislation, H.R. 4, that would provide states with a mechanism to use 
federal funding more flexibly over time within cost neutrality 
constraints.
    <bullet>  However, in addition to the aforementioned waiver 
authority, we set forth another idea for your consideration. 
Recognizing the constraints of growing federal and state budget 
deficits, APHSA and our NAPCWA members want to be a part of a 
reasonable and cost effective approach to afford states greater 
flexibility in the use of federal IV-E funds. We are currently 
developing a proposal that would allow states to use IV-E funding for 
any purpose approved under their Program Improvement Plan. As you are 
aware, following the CFSR, states are required to review the findings 
and develop a PIP that specifies actions the state will undertake in an 
effort to improve the outcomes. The PIP is a negotiation between states 
and the Federal Government, concluding with a formal approval by the 
Federal Government. States are asked to implement the PIP, and the 
Federal Government will undertake a subsequent CFSR to evaluate the 
extent to which the state has achieved improvement or attained the 
desired outcomes set forth in its plan.
         Because the PIP is formally approved by the Federal 
Government, we believe Congress should consider a policy change that 
would permit states to use a federal IV-E dollar for any purpose set 
forth in the PIP and during the time period set forth in the PIP. Given 
the rigor of the federal approval process, the Federal Government would 
have all the tools necessary to ensure that the purposes set forth in 
the PIP relate directly to the outcomes a state seeks to achieve.

CONCLUSION
    Child welfare systems are meeting the ongoing challenges of the 
many needs of children and families. States are working to ensure 
quality assurance efforts which allow them to monitor and improve their 
systems on an on-going basis. As was highlighted in the work in Iowa, 
states are also building effective alliances with other crucial human 
services systems and are pursuing promising new interventions. States 
are thoughtfully engaged in the program improvement plan process 
through the CFSR and are energized by the prospects of achieving much-
sought-after outcomes for children and families. In the pursuit of 
these goals, NAPCWA and APHSA welcome the opportunity to work with the 
Administration to make meaningful progress.
    NAPCWA's vision for child welfare is a society where children are 
free from abuse and neglect and live in safe, stable, permanent 
families--where children and families have needed supports and can help 
themselves. When children are at risk and come to the attention of the 
public agency, the agency can provide services and supports to them and 
their families to mitigate their problems and prevent them from being 
removed from their families and communities. When children must come 
into care, the agency can address children and family needs 
expeditiously and enable a safe reunification or, where that is not 
possible, find an alternative permanent placement expeditiously, while 
assuring their well-being in the interim. This is a vision where the 
safety and protection of children is the shared responsibility of all 
parts of the human service agency and the larger community. It is a 
vision where the child welfare system has the capacity to improve 
outcomes for children and families, and the Federal Government and 
states are equal partners in serving all children in all parts of the 
system.
    Thank you for the opportunity to testify. I would be pleased to 
respond to any questions you may have.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Nelson. William Bell to 
testify.

STATEMENT OF WILLIAM C. BELL, COMMISSIONER, ADMINISTRATION FOR 
            CHILDREN'S SERVICES, NEW YORK, NEW YORK

    Mr. BELL. Good morning, Chairman Herger, and Ranking Member 
Cardin. Thank you for inviting me to testify before you today. 
As recently as 1995, New York City may have been asked to 
testify about its failings in child welfare rather than its 
successes. My testimony here today is intended to serve as 
tangible evidence that it is possible to turn around a failing 
child welfare system. The most remarkable success of the past 8 
years in New York City has been achieved over the past 2 years, 
where in spite of the enormous impact of a budget deficit of 
approximately $6 billion in each of the past 2 fiscal years, 
New York City's child welfare system has improved. New York 
City has experienced record lows in the number of children in 
foster care, currently approximately 22,000, and the number of 
admissions to foster care, approximately 6,600 placements last 
year, 49 percent less than in 1997.
    The success of New York City's transformation suggests that 
the actions that we have taken are not merely optional steps 
for change, but that they may constitute necessary elements in 
the blueprint for any child welfare reform. Those steps 
included, committing the political will necessary to sustain 
change, appointing competent executive and mid-level 
leadership, developing a clear plan of action, investing in 
frontline supervision, investing in frontline staff, developing 
and demanding strong cross-system partnerships, clearly 
articulating principles and standards to guide the work, 
creating and enforcing a data-driven accountability system, 
publicly reporting on outcomes for children, and giving the 
system time to improve. Successful reform has occurred in New 
York City because the full support of the Mayor is placed 
squarely behind this effort. The success or failure of the 
child welfare system is owned as much by the leader of the city 
as it is by the Child Welfare Commissioner and the caseworkers. 
If a tragedy occurs, it is met by an aggressive effort to 
understand and to improve, not by the sacrificial firing of the 
Commissioner and the caseworkers responsible for the case.
    We began our reform effort by investing in our workforce 
and improving the quality of frontline supervision. Staff 
cannot be expected to adequately fulfill their responsibilities 
if they are not trained properly, if they do not receive 
appropriate supervision, or if they are constantly afraid that 
their decisions will not be supported by the agency. Since the 
creation of ACS in 1996, we have made extraordinary progress in 
improving the lives of New York City's vulnerable children and 
their families. Since 1996, the ACS has completed over 27,000 
adoptions, with the number of adoptions rising in each of the 
past 2 fiscal years. We have successfully reduced the child 
protective caseloads from an average of 26 cases per worker in 
1996, to approximately 10.7 cases per worker in 2003. The 
overall foster care population is less than half of what it was 
just a decade ago. In 1990, New York City comprised 13 percent 
of the national foster care census. Today, we represent just 5 
percent of the national census. Moreover, ACS has accounted for 
almost 30 percent of the total national decline in foster care 
since 1999.
    Data-driven accountability has been a great part of this 
success. In 1999, ACS created the Evaluation and Quality 
Improvement Protocol (EQUIP), which gives ACS the ability to 
evaluate the quality of services being provided to children and 
families by looking at process, outcomes, and quality measures. 
After 3 years of EQUIP, ACS just recently introduced a 
performance-based contracting system, which now, for the first 
time, pays agencies based on the quality of services that they 
are providing to children, not based on the number of days that 
children remain in their organizations. As my words here today 
suggest, we believe that improvement to the child welfare 
system is achievable with the right ingredients. New York 
City's ACS is a testament to this belief. Nevertheless, even 
with our tremendous progress, we have much more to do if we are 
going to achieve the level of excellence required in order to 
help New York City's children become productive New York City 
adults.
    We believe that the Federal Government can assist in this 
effort by increasing Federal funding, increasing the 
flexibility that is allowed in how that funding is utilized, 
de-linking title IV-E funding from the AFDC look back, and 
allowing for title IV-E funding to be used in funding the 
permanency option of guardianship for children. We also believe 
that additional services are required in terms of mental health 
and substance abuse services for families involved in the child 
welfare system. Last, we believe that a new system that focuses 
on after-care services for young people who have emancipated 
from foster care is not only necessary, but absolutely required 
to reduce the stream of young people who leave foster care and 
end up in the penal system, in the homeless system, or on the 
AFDC or TANF system. Thank you very much.
    [The prepared statement of Mr. Bell follows:]

    Statement of William C. Bell, Commissioner, Administration for 
                Children's Services, New York, New York

    Good morning, Chairman Herger and members of the House Committee on 
Ways and Means, Subcommittee on Human Resources. I am William Bell, 
Commissioner of the NYC Administration for Children's Services (ACS). I 
am here today on behalf of Mayor Michael R. Bloomberg and New York 
City. While my testimony today is presented only in my capacity as ACS 
Commissioner, I am pleased to acknowledge that I am also a member of 
the Pew Commission on Children in Foster Care and sit on the Executive 
Committee of the National Association of Public Child Welfare 
Administrators (NAPCWA).
    Thank you for inviting me here today to speak about the 
accomplishments of New York City's child welfare system. As recently as 
1995, New York City may have been asked to testify about its failings 
in child welfare. I am pleased to say that after more than eight years 
of reform, I can today talk about the remarkable transformation of a 
child welfare system with many successes and positive outcomes.
    My testimony here today is also intended to serve as tangible 
evidence that it is possible to turn around a failing child welfare 
system and, as we have done in New York City, become recognized for 
numerous successes rather than failures.
    The most remarkable success of the past eight years has been 
achieved under the Bloomberg Administration. In spite of the enormous 
impact of record deficits of nearly $6 Billion in each of the past two 
fiscal years, New York City's child welfare system has experienced 
record lows in the number of children in foster care (approximately 
22,300, the lowest since 1987) and admissions into foster care 
(approximately 6,500 placements in 2003--49% fewer than 1997). These 
achievements occurred even though both the number of reports of abuse/
neglect (55,000) and the number of children involved (85,000) have 
remained consistent each year.

History of the Administration for Children's Services (ACS)
    In response to several tragic child fatalities in New York City in 
the mid-1990s, including the death of a six year-old named Elisa 
Izquierdo, who was known to New York City's Child Welfare 
Administration, former Mayor Rudolph Guiliani focused his attention on 
improving the quality and accountability of the City's child welfare 
system. The devastation of child abuse--and the failure of the child 
protection system to protect Elisa and other vulnerable children--
shocked New Yorkers and the nation. A quote in the New York Times 
captured accurately that which should be the position of the entire 
country, ``All of us have some responsibility. We're all accountable.'' 
By not simply assigning blame and accepting accountability and 
responsibility, New York City took the first of many important steps in 
creating one of the strongest child welfare systems in the country.
    The Mayor began a series of steps that we in New York City have 
come to recognize as a blueprint for improvement for any system that is 
failing in its mission of child protection. The success of NYC's 
transformation suggests that these are not merely optional steps but 
that they constitute necessary elements for child welfare reform for 
any system:

     1. Commit the political will necessary to sustain change;
     2. Appoint competent executive and mid-level leadership;
     3. Develop a clear plan of action;
     4. Invest in frontline supervision;
     5. Invest in frontline staff;
     6. Develop and demand strong cross systems partnerships;
     7. Clearly articulate principles and standards to guide the work;
     8. Create and enforce a data driven accountability system;
     9. Publicly report on outcomes for children; and
    10. Give the system time to improve.
Necessary Elements for Reform
    Success in New York City was not easy. Nor did it happen overnight. 
Reform is possible for even the most troubled agencies, but first there 
must be the political will and support for the agency and for change. 
Successful reform occurred in New York City because the full support of 
the Mayor was placed behind the effort. There was a public declaration 
that the success or failure of the child welfare agency would be 
shouldered by the leader of the city; not by the firing of the 
commissioner and caseworker following the next tragedy.
    The structure and leadership of the Administration for Children's 
Services (ACS) reflected this political will. Nicholas Scoppetta, 
former deputy mayor and a well-respected public servant, was appointed 
as the agency's first Commissioner. The Administration for Children's 
Services was also separated from the larger Human Resources Agency and 
elevated to become a Cabinet level agency with the sole charge of 
protecting New York City's children.
    Strong leadership is also necessary to implement reform. 
Commissioner Scoppetta's first action was to put together a strong 
management team with extensive experience and dedication to reforming 
the system. I was fortunate to be a part of this team as Deputy 
Commissioner for Child Protective Services. Once the team was in place, 
we thoroughly assessed the system, sought assistance and advice from 
stakeholders and experts in the field and began to develop a clear plan 
of action.
    We began with investing in our workforce and improving the quality 
of the front-line supervision and casework staff. Staff could not be 
expected to adequately fulfill their responsibilities if they were not 
trained properly, did not receive appropriate supervision, or if they 
were constantly afraid that their decisions would not be supported by 
the agency. At ACS, we have successfully changed this culture by 
instituting strong leadership throughout the agency, improving the 
quality of staff, providing staff with the resources necessary to do 
their jobs, and supporting staff, when appropriate, rather than using 
front-line staff as scapegoats when something went wrong. These changes 
have dramatically improved ACS's ability to protect children.
    One of the most important elements of reform is time. Change does 
not occur overnight. In New York City there were years of poor 
practice, bad publicity, fear and inadequate resources to overcome. As 
the past eight years have demonstrated, however, success is possible 
with support and time.
    Some people believe that lawsuits are the only impetus to change. I 
do not. Lawsuits may be necessary to force an entrenched system to the 
point of beginning the change process; however, in and of themselves, 
lawsuits cannot complete the long arduous work of systems reform.
    Lawsuits often redirect limited agency resources into defending 
against the lawsuit and becoming distracted from the primary objective 
of protecting children. Lawsuits also reinforce the public's distrust 
of child protective agencies, which can be very harmful to children. 
Change is possible without legal action and court oversight. It is 
possible with political will and support, increased resources, strong 
leadership, workforce investment, a clear plan of action, clearly 
articulated principles and standards, accountability, partnerships, 
ongoing advice from experts in the field, and time.

Major Reform and Achievements of ACS
    Since its creation in 1996, ACS has made extraordinary progress in 
improving the lives of New York City's vulnerable children and their 
families. Since taking office in January 2002, Mayor Bloomberg has 
continuously demonstrated his commitment to children and families by 
fully supporting ACS and its programs, as is seen in the significant 
accomplishments the agency has continued to achieve.

Front-Line Practice
    One of the first areas of focus for the new ACS was the point of 
entry into the child welfare system: child protective investigations. 
ACS made a commitment to ensure that all staff responsible for 
investigating allegations of abuse or neglect had the resources and 
support necessary to thoroughly perform their duties. The goal was to 
ensure that every child that came to the attention of ACS would be 
protected from harm and only be removed from their home if necessary to 
prevent harm to the child.
    In the first years of ACS, we took several actions to improve the 
capacity of the front-line staff to conduct adequate risk-assessments 
and provide appropriate assistance and intervention to protect children 
and stabilize families. The entry-level standards for hiring child 
protective workers were strengthened to require increased education in 
social work or a related field. Compensation for the staff was also 
increased in an effort to attract and retain higher quality staff. 
Merit-based raises were instituted to encourage staff to succeed and to 
reduce turnover. ACS also provided enhanced training, creating a more 
intense and comprehensive curriculum for all new staff, as well as 
advanced curriculums for more experienced staff.
    In addition to increasing the quality of the staff, ACS also needed 
to increase the number of child protective investigators. When ACS was 
first created, caseloads were unreasonably high, which prevented 
workers from having the time or ability to fully investigate each case 
to ensure children were safe. Through aggressive hiring of quality 
staff, quality supervision, and enhanced accountability, we have 
successfully reduced the caseloads from approximately 26 per worker at 
the creation of ACS, to 10.7 per worker in 2003.
    Successfully improving the quality of practice in child protective 
investigations also required the availability of additional services to 
protect children and stabilize families without requiring a removal 
from the child's home. Over the past seven years, ACS has dramatically 
increased the array and availability of preventive services to New York 
City's families. While families could always request these services 
without being part of a child protective investigation, through the new 
training and higher standards of front-line staff, preventive services 
are now more widely used by child protective workers to allow children 
to remain at home safely with their families.
    In 2001, a critical milestone in ACS history was passed when, for 
the first time, more children were served by in-home preventive 
services than were in foster care. This profound shift within the child 
welfare system in New York City is further evidence that ACS has 
successfully improved the quality of case practice, training, and 
supervision for the frontline child protective specialists making 
decisions to keep families together whenever safe and appropriate.

Permanency and Adoption
    Since 1996, ACS has completed almost 27,000 adoptions, with the 
number of adoptions rising the past two fiscal years. As a result, more 
and more children for whom a return to a parent or caretaker is not 
appropriate or possible are living with permanent, caring families. 
This increase in the number of adoptions has occurred during a time 
when the number of children eligible for adoption has decreased with 
the foster care census. In fiscal year 1998, the number of children for 
whom parental rights had been terminated was 8,772. In fiscal year 
2003, this number dropped to 4,194. This means that since 1998, ACS has 
increased the number of adoptions completed as a percentage of the 
total number of children eligible for adoption from approximately 45% 
to 66.6% in fiscal year 2003.
    One reason for this success is the partnerships that have been 
built with all of the entities involved in the adoption process, 
including: New York State Chief Judge Judith Kaye, the New York State 
Office of Children and Family Services (OCFS), and the New York City 
Family Court. In May 2003, this partnership was solidified through 
``Adoption Now'', an initiative that seeks to address systemic barriers 
to timely adoptions.
    As part of ACS's work towards permanency for all children in foster 
care, we have instituted several new initiatives that have been 
specifically designed to address the needs of different populations in 
foster care. Nationwide, the child welfare system has historically 
failed to adequately meet the needs of adolescents in foster care. 
Currently, more than half of New York City's foster care population is 
over the age of twelve.
    This shift in population over the past several years has resulted 
in a focus on the special needs of adolescents. Under the Bloomberg 
Administration, ACS designed and implemented the ``Families for Teens'' 
initiative to change the culture of child welfare practice to ensure 
that all teens in foster care are provided with the care, skills, 
resources and positive relationships necessary to succeed as adults. We 
are breaking the myth that teens are not able to be adopted and we are 
changing practice to make sure that everyone understands and believes 
that teens not only need families, but that it is possible for them to 
have families and to leave foster care with a loving, stable support 
system in place.
    In an effort to move adolescents out of foster care or into lower 
levels of care, ACS has been working with teens living in group care 
settings, their caseworkers, and their law guardians to identify 
members of their extended family with whom they could be reunited and 
to find adoptive families eager to parent a teenager. ACS now requires 
a concurrent, family-based plan for every teen at risk of aging out of 
foster care to safeguard against releasing young adults to the myth of 
``independent'' living.
    To build positive relationships in the lives of foster youth, we 
are also actively working to expand mentoring opportunities for youth 
in foster care by working with various reputable mentoring 
organizations in New York City.
    Teens are not the only population that requires specialized 
services. Infants and toddlers have their own special developmental, 
medical and emotional needs. In close collaboration with New York 
State's Permanent Judicial Commission on Justice for Children, ACS has 
worked to educate its staff about infants' unique needs and to boost 
the enrollment of young foster children in its Head Start and Early 
Intervention programs. In addition, ACS was recently awarded a large 
HHS grant that will allow us to work closely with a network of service 
providers in the Bedford-Stuyvesant community to improve the outcomes 
for our youngest and most vulnerable children.

Foster Care Census
    As a result of improved investigations and risk-assessments, 
increased use of in-home preventive services, implementation of family 
conferencing and an increased focus on permanency for all youth in 
foster care, New York City's foster care population has decreased 
dramatically. In 2003, New York City's foster care population reached 
its lowest level since 1987. In November 2003, the foster care 
population in New York City was approximately 22,300, a decline of 
almost 21% over the past two years. This includes a projected yearly 
decline of 12.2% in 2003 alone--the largest yearly percentage decrease 
on record in New York City. Overall, the foster care population is now 
less than half of what it was a decade ago.
    The decrease in New York City's foster care census has primarily 
driven the overall decrease in New York State and has played a 
significant role in the reduction of the nation's foster care 
population. While ACS was achieving a historic decline in the New York 
City foster care census, the nation's foster care census was rising to 
a high of 567,000 in 1999. And while the national foster care census 
has fallen only slightly since 1999, New York City's decline has 
continued at a remarkable pace. As a result, New York City's share of 
the national foster care census has fallen from 13% in 1990 to only 5% 
of the most recent national figures. Moreover, ACS has accounted for 
almost 30% of the total national decline since 1999.

Neighborhood Based Services
    A major theme in the reform efforts at ACS has been the creation 
and enhancement of a neighborhood based services (NBS) approach through 
which children who enter foster care are placed in their own 
neighborhoods, keeping them close to family and in their own school. 
This reduces trauma to children in care and facilitates family visits, 
where appropriate. NBS promotes permanency by providing children with 
preventive services, foster care services, health care, and other 
support services in the community where they resided before removal 
from their home. As part of the NBS approach, the contracted not-for-
profit foster care agencies, which provide over 90% of the foster care 
services in New York City, were assigned to serve specific community 
districts in New York City, based upon an extensive assessment of need 
in every community in the City.
    As part of the NBS approach, ACS has established 25 Neighborhood 
Networks in the City's high-needs communities. These networks connect 
neighborhood organizations, schools, service providers and faith-based 
entities to support families in their own communities better and 
leverage resources in the present fiscally constrained environment.
    In 2002, ACS identified that over 60% of the children in foster 
care came from 18 out of 59 community districts in the City. Therefore, 
ACS has embarked upon a strategy to target these Top 18 neighborhoods. 
Named ``Community Partnership to Strengthen Families,'' the goal of 
this initiative is to target specific geographic areas with the highest 
involvement with the child welfare system, and then engage these 
communities in the process of collecting and analyzing the child 
welfare data within their area.
    After analyzing the data, ACS and its community partners develop a 
community specific, multi-system strategy for keeping families together 
safely with services and reducing the need for placement into foster 
care. In one of the first communities to begin this process, Central 
Harlem, we have found that 50% of the Central Harlem children that are 
in foster care come from just 6 out of Central Harlem's 31 census 
tracts. Using this data to help stabilize families, we have now focused 
our efforts on the specific needs of the 24 blocks within these 6 
census tracts.

Data and Accountability
    The data being used in our neighborhood work is only one way we 
have incorporated data into our daily practices and reform efforts. 
Accurate and comprehensive data allows ACS to hold itself and its 
contractors accountable for their performance in achieving positive 
outcomes for children and complying with mandated activities. To this 
end, ACS created the Evaluation and Quality Improvement Protocol 
(EQUIP), which gives ACS the ability to evaluate the quality of 
services being provided to children and families by looking at process, 
outcomes and quality measures. EQUIP assesses the contracted agencies' 
compliance with statutory and regulatory requirements, measures the 
quality of service in areas such as child safety, education, and 
service provision, and evaluates a set of child outcome indicators, 
including rate of reunification and adoption and the success in 
independent living after discharge from care.
    First used in 2000 for foster care services, this qualitative 
method discerns the meaningful differences in the quality of the foster 
care programs, allowing ACS to rank programs based upon quality of 
services. This information also provides ACS with the information 
necessary to develop empirically-based corrective action plans and to 
reward high quality performance by its contract agencies. And after 
three successful years of using the foster boarding home EQUIP, ACS has 
now developed a revolutionary performance based payment system that is 
tied directly to the quality of services provided by the contract 
agencies.
    In December 2003, ACS announced a performance-based rate payment 
system for foster boarding home services that rewards agencies for 
quality of services rather than the number of days a child stays in a 
program. The goal of this performance based contracting system is to 
ensure that all children have the opportunity to receive the same level 
of care, regardless of which agency is responsible for their placement. 
This new system will also move all agencies towards the highest level 
of performance and quality outcomes for the children in their care.

New Innovative Programs
    A number of improvements and new programs have been implemented in 
New York City over the past eight years. One of these includes the use 
of Clinical Consultation Teams, which consist of four professionals: a 
Domestic Violence Specialist, a Substance Abuse Specialist, a Mental 
Health Specialist, and a Team Coordinator. Twelve of these teams are 
placed in child protective field offices throughout the City and all 
provide three types of services: case-specific consultation, office-
based training, and assistance with referrals for community-based 
resources. ACS staff can request consultations from each specialist 
individually, or any combination thereof, depending upon the needs 
present in a case. Over the past year, there have been over 8,000 
consultations. Over the next year Medical Specialists will be added to 
these teams.
    In 2002, the New York State legislature increased the age of 
eligibility for Persons in Need of Supervision (PINS) to 17 years of 
age, from 15 years of age. It was expected that this change would 
increase the number of PINS cases by 28% in the first year. To address 
this and to help stabilize families, ACS developed and implemented the 
Family Assessment Program (FAP), in collaboration with the New York 
City Department of Probation, to work with families who might otherwise 
seek a PINS petition in Family Court for youth who are beyond their 
parent's or caretaker's lawful control.
    FAP offers crisis intervention, screening, and referrals to connect 
families to preventive and community-based services before a PINS 
petition is necessary--hopefully obviating the need for a PINS petition 
or placement into foster care. After only six months of partial 
implementation, FAP turned a projected 28% increase in PINS cases for 
fiscal year 2003 into a 41% decline. Similarly, the number of PINS 
foster care placements has declined significantly, and virtually no 
recidivism into Family Court has occurred.

Ongoing and Future Goals of ACS
    While ACS has implemented enormous change and seen many positive 
results, we still have much more to do to ensure all children who come 
into contact with our system remain safe, are provided with the highest 
quality of care and have their emotional, physical and mental needs 
met. ACS will continue to focus on the safety and well-being of all 
children in our system, and will expand our work in communities to 
empower them to ensure the safety and well-being of their children. The 
following is a list of our highest priorities for the next two years:

    1.  Continue to focus on ``Families for Teens'', a New York City 
initiative to ensure that all adolescents in foster care are provided 
with the skills, resources and positive relationships necessary to 
succeed as adults. Several strategies will be employed to achieve this 
result:

      <bullet>  ACS will continue the work already underway to reduce 
the number of teenagers living in congregate care settings. Our current 
goal is to have 600 fewer youth placed in group care by July 2005.
      <bullet>  We will double the number of foster youth who are 
engaged in positive mentoring relationships. Through our work with 
Mentoring USA, the Mentoring Partnership of New York and other 
mentoring programs, ACS is striving to make mentoring available to all 
youth in foster care.
      <bullet>  ACS will release and implement the ACS Adolescent 
Services Plan. This comprehensive plan outlines the strategies and 
programs that ACS will provide to adolescents in foster care to prepare 
them for successful adult lives. This plan will detail policy and best 
practices for all staff and contract agencies to use as a guide when 
working with adolescents.

    2.  ACS strongly believes that the system's responsibility to 
foster youth should not end immediately when the child is discharged 
from foster care. We are committed to working towards the establishment 
an after-care system in New York City for youth who have left the 
foster care system--whether by being reunified with their families, 
adopted or emancipated from foster care.

         We believe that these services should be available on demand 
for the purpose of averting crisis in the lives of adults between the 
ages of 18 and 30 who were former foster children. We believe that the 
availability of these services could significantly reduce the number of 
former foster children who enter the criminal justice system, who 
become homeless, or who end up on public assistance.

         Funding is not readily available from the Federal or State 
governments for this purpose, but research indicates that young people 
require additional supports in the years after they leave foster care. 
While many youth who leave care have stability at the time they are 
discharged, life can be unpredictable and the child welfare system--in 
collaboration with other government systems--must develop plans to 
assist these youth in the years after they leave foster care. Over the 
next two years, ACS is committed to exploring ways to improve the 
services available to young people who have been in foster care.

         ACS will work with Federal, State and City agencies, as well 
as private entities, to seek new sources of funding for these services. 
We will also establish partnerships and collaborations with external 
organizations to develop a comprehensive after-care system for youth 
who leave foster care. Services to be provided could include referrals 
and assistance in the following areas: housing, employment and 
education, finances, health and mental health, child care, and legal.

    3.  ACS has a goal of achieving 5,000 adoptions by the end of 2005. 
ACS will reduce the number of children in foster care in New York City 
to less than 20,000. Since January 2002, there has been a 21% decline 
in the total foster care population in New York City. Over the next 2 
years ACS will continue to see the population decline, while also 
ensuring the safety of the City's children by:

      <bullet>  Continuing to provide an array of preventive services 
that allow children to remain safely with their families.
      <bullet>  Continuing to expand the provision of quality training 
and supervisory support to front-line child protective staff, while 
also sustaining manageable caseloads, to ensure that accurate and 
thorough safety assessments are conducted.
      <bullet>  Continuing the use of Family Team Conferencing and 
enhancing the effectiveness and family engagement at all Family Team 
Conferences and Service Plan Reviews.
      <bullet>  Reviewing and restructuring ACS's case management 
functions to be more focused on permanency for all children in foster 
care.
      <bullet>  Continuing work in high need communities to understand 
the issues affecting each specific community and expand appropriate 
community supports for families in need of assistance. The goal is to 
provide families with an opportunity to seek help before reaching a 
crisis point and possibly prevent the need for out of home placement.

How the Federal Government Can Help Child Welfare Systems
    1.  Federal financing flexibility and increased funding are needed 
to enhance resources for services and achieve improved outcomes for 
children.

         The Federal Government has clearly articulated the desired 
outcomes for child welfare: children's safety, permanency and well-
being. In New York City, we have embraced these outcomes and have made 
them central to our efforts in reforming child welfare.
         If we as a Nation are to be successful in achieving the kind 
of child welfare system envisioned, we must take a serious look at the 
financing structure at the federal, state and local levels of 
government. The Adoption and Safe Families Act (ASFA) has done much to 
change the expectations for the child welfare system, but the financing 
structure of 1980 remains today and is out of step with ASFA and the 
work that needs to be done to achieve those outcomes. The bulk of 
federal child welfare funding is directed to out-of-home care, with IV-
E only covering care and maintenance, and not the services--prevention, 
permanency and protection--that actually produce positive outcomes and 
assure that children are safe and have permanent families.
         Federal regulations clearly state that allowable costs under 
IV-E do not include the costs of social services provided to the child, 
the child's family or foster family that provide counseling or 
treatment to ameliorate or remedy personal problems, behaviors or home 
conditions. Without the resources to provide services for and resolve 
the very issues that created the need for foster care placement, it is 
very difficult to reduce the foster care census and increase safety, 
stability and permanency for children. The resources must follow the 
outcomes, and fiscal incentives, rather than penalties, must be the 
driver of improvement.
         We believe that increased Federal financing flexibility and 
funding are needed in order to enhance resources for prevention and 
services. We have accomplished sweeping system changes and improved 
outcomes for children and families, despite the challenges imposed by a 
State block grant for child welfare services, and with the lion's share 
of the needed investments undertaken with local dollars.
         New York City has been experiencing enormous fiscal challenges 
since 2001, requiring all City agencies to reduce expenditures. At the 
same time, Mayor Bloomberg has made it clear that he will protect 
children and has done everything possible to ensure that ACS maintains 
its ability to protect and care for children; however, the City now 
bears a large portion of what should be the State's financial 
responsibility.
         Based on New York City's experience operating a child welfare 
system under the Family and Children's Services Block Grant over the 
last eight years, we believe that a block grant or capped allocation of 
state and federal foster care dollars raises a number of questions that 
must be seriously considered. Will a block grant ensure adequate levels 
of funding to states and localities? Will there be equitable 
distribution of limited resources? Will states be required to make 
equitable distributions? Will there be a cost shift to states and 
localities? Will a safety net for vulnerable children and families be 
assured as needs change? Any proposals to increase much needed 
flexibility must be sure not to hamper the ability of local or state 
child welfare agencies' to protect, support and achieve improved 
outcomes for our most vulnerable children and families nor undo 
accomplishments like those that we have worked so hard to realize in 
New York City.

    2.  Reform must consider large urban jurisdictions.

         Federal proposals to address the financing dilemma must take 
into account the different structures of child welfare service delivery 
from state to state and among localities within states, especially a 
county-administered service system like New York. One size does not fit 
all.
         Many large urban jurisdictions, such as New York City, Los 
Angeles County and Cook County (Chicago), account for 35%-70% of their 
respective state's foster care population, yet each is dependent upon 
the state to accurately represent their interests on the federal level. 
If federal approaches to reform deal only with the states, the 
operations of child welfare systems in urban areas will be dictated by 
smaller states and jurisdictions, which operate under different 
structures and face different issues. Under current federal policy, 
large urban jurisdictions are currently prohibited from applying for a 
IV-E waiver. They are dependent upon the will of the state, which may 
not represent its needs or interests. New York City would like to 
obtain a waiver to provide subsidized kinship guardianship similar to 
that which occurred in the State of Illinois under former Child Welfare 
Director, Jess McDonald, but we are currently excluded from taking 
advantage of this important means of innovation and flexibility and are 
dependent upon New York State to take such action.

    3.  Title IV-E eligibility must be de-linked from AFDC

         Title IV-E should be amended to eliminate the requirement that 
links the eligibility of a child for foster care maintenance payments 
to the child's eligibility for AFDC as it existed prior to July 16, 
1996. Prior to 1996, a child's eligibility for Title IV-E foster care 
payments was linked to the child's eligibility for the Title IV-A (Aid 
to Families with Dependent Children or AFDC) program. In 1996, when 
Congress passed PRWORA (the welfare reform act), the AFDC program was 
ended and replaced by TANF.
         However, Congress, after much debate concerning how to 
determine eligibility for Title IV-E after the end of AFDC, chose to 
retain that prior program's eligibility criteria as a condition of 
eligibility under the Title IV-E program. Thus, state agencies are 
required to continue to make eligibility determinations pursuant to the 
provisions of a program that no longer exists, other than for the 
purpose of making these eligibility determinations. More than seven 
years after the enactment of PRWORA, it is time to acknowledge that it 
is no longer appropriate to make eligibility determinations in this 
way.
         This provision was included in the welfare reform act as a 
placeholder and temporary solution. It is critical that Congress act 
now to address this situation before a continuing loss of revenue 
impacts states' ability to serve children and families. While AFDC has 
been replaced by TANF, we do not believe that TANF should automatically 
become the new eligibility standard. There must be more discussion and 
further analysis on what elements should be used to determine 
eligibility for IV-E funding.

    4.  Title IV-E Should Support Subsidized Kinship Guardianship

       In order to increase permanency and the well-being of children, 
the Federal Government needs to support assistance for guardianship, a 
permanency option provided under ASFA, but not funded.
         Kinship foster care placements often last longer than non-
kinship foster care placements because some birth parents feel less 
pressure to seek the return of their children and many kinship foster 
parents are reluctant to push for the termination of the parental 
rights of their own family member and for the adoption of their own 
family member's child. The result is that these children remain in 
foster care and ACS and other social service districts retain the 
``custody'' of such children, which requires the continuation of 
casework services and performance of administrative functions. 
Meanwhile, the children are deprived of permanency. More than five 
years of IV-E waiver experience demonstrates subsidized guardianship as 
a viable permanency option and all jurisdictions should have the 
opportunity to provide subsidized guardianship.

    5.  Federal training funding should support private providers and 
the entire continuum of child welfare services

         Although ACS has made considerable progress in upgrading and 
training child protective staff, there is a continued need to 
strengthen the training of the staff of our contracted providers who 
oversee more than 90% of children in foster care and those who provide 
preventive services to families. We urge the Federal Government to 
support training more comprehensively, which would include providing 
the same enhanced 75 percent federal match rate for contract agency 
workers and recognizing that, in the child welfare system today, 
services are regularly and largely contracted out to not-for-profit 
providers and demand the same high quality and outcome achievement. 
Federal training dollars should also support the entire service 
continuum of child welfare, not just training for foster care, but also 
training for protection, prevention and after care, if we want quality 
services that lead to safety, permanency and well-being.

    6.  Parents and children need increased mental health, medical and 
substance abuse services

         Increased funding for mental health, medical and substance 
abuse treatment services to address parents' and children's needs in 
the child welfare system is critical to ensuring safety, permanency and 
well-being, as we know that these issues affect many of the children 
and families we serve and can be barriers to the outcomes we seek to 
achieve. Adequately funded mental health and development disability 
systems are needed to meet ``the needs of children who inappropriately 
end up in the child welfare system.
         Additionally, if we are to achieve the permanency timeframes 
contained in ASFA, the parents of children in foster care must be 
designated as one of the priority recipients of federally funded 
substance abuse services.

    7.  Adolescents Need Enhanced Support Services

         Adolescents continue to be an increasing proportion of the 
children we serve in foster care. The special needs and challenges of 
the foster system's young adult population require an increased federal 
investment in transitional and other support services for teens to 
improve their prospects as adults.
         One recent study suggests a very bleak picture for young 
adults emancipating from the foster care system. The study indicates 
that within 12 to 18 months of aging out of foster care, 50 percent are 
unemployed; and 37 percent have not finished high school. It adds that 
in this same period of time, 19 percent of the young women have given 
birth; 33 percent are receiving some form of public assistance; and 27 
percent of males and 10 of females have been incarcerated or have had 
some encounter with the criminal justice system. The lack of enough 
resources directed toward young adults in care now is costing us--both 
figuratively and literally--a higher price than ever.
         Federal funding for independent living services and education 
and training vouchers through the Chafee Foster Care Independence 
program has been an important source of federal support for this 
population. We propose the provision of additional federal funding for 
after care services so youth who leave foster care--through 
reunification, adoption or emancipation--have access to a safety net 
and assistance to ensure their safety and stability during the 
vulnerable years following foster care.

    Improvements to the child welfare system are achievable, with the 
right ingredients. New York City's Administration for Children's 
Services is a testament to this. Nevertheless, even with our tremendous 
progress, we have much more work to do if we are to achieve the level 
of excellence desired and required. Federal resources and flexibility, 
with accountability, are critical ingredients to maintaining and 
expanding reform efforts.
    Thank you again for your time and consideration of these critical 
issues.

                                 <F-dash>
    Chairman HERGER. Thank you very much, Mr. Bell, for your 
testimony. Now, Mr. Wayne Stevenson to testify.

 STATEMENT OF WAYNE T. STEVENSON, DEPUTY SECRETARY, OFFICE OF 
   CHILDREN, YOUTH, AND FAMILIES, PENNSYLVANIA DEPARTMENT OF 
            PUBLIC WELFARE, HARRISBURG, PENNSYLVANIA

    Mr. STEVENSON. Thank you, Mr. Chairman. I would like to 
thank the Subcommittee for providing me with an opportunity to 
testify at this hearing, and to review the Federal oversight of 
child welfare programs. With regard to oversight, I would like 
to commend HHS for the comprehensive look it is taking in 
implementing the CFSR process. It is truly a catalyst for 
change, and it is moving States toward continuous improvement, 
so that we can reach positive outcomes for the children and 
families we serve. The Administration for Children and 
Families, I think, has done a tremendous job in doing that in 
an intelligent and professional manner. The way they have 
implemented this on the road, and on the streets in the States, 
has allowed several byproducts to emerge. One is the broad 
stakeholder involvement in the child welfare system, bringing 
all of the parties together at the table as we do the self-
assessments and go through the review process. Second, because 
it is focused on practice, it has energized the field--we see 
great movement in the field, at this point, in terms of making 
changes.
    The second point I would make is that keeping children safe 
is a responsibility of the larger community, and that 
collaboration is critical. The child-serving systems need to 
work more closely together. This includes mental health 
services, substance abuse services, domestic violence services, 
intensive in-home family preservation services, and a range of 
other family services. These services should be available to 
all children and to all families who need them. As States move 
toward the framework, we need continued help from the Federal 
Government. First, it would be beneficial if all Federal 
offices were working under the same common framework, so that 
more collaboration would be possible, and that service delivery 
could be more effective. It is essential that all Federal 
agencies with oversight responsibilities aim for the common 
shared outcomes and performance measures that child welfare is 
using.
    In Pennsylvania, we have a county-administered, State-
supervised child welfare system. We cannot, and do not, ask 
counties to collaborate across disciplines at the local level 
without also asking those same changes of ourselves, and 
providing the leadership to do it. The second area where States 
need Federal support is in funding, particularly for the PIPs, 
so that we can achieve success, and so not all of the funding 
attaches to those PIPs. Thirdly, the Federal Government can 
assist States by providing a stable funding source for child 
welfare that adequately funds the fullest array of needed 
services. We have title IV-B, title IV-E, and TANF; they are a 
patchwork of funding streams. title IV-E, however, is 
inadequate, in terms of allowing States the ability to reach 
all of the children, because of the eligibility requirements, 
and it is inadequate in terms of funding the fullest array of 
services that these children and families need. It does need to 
be expanded.
    Funding for title IV-B is wholly inadequate, even with the 
new commitment. Like many States where title IV-B allocation is 
insufficient, Pennsylvania relies heavily on the TANF block 
grant to fund child welfare intervention services, as well as, 
and more importantly, primary and secondary prevention services 
that are not allowed under title IV-E. This is a critical 
point, and one that I hope you will hear closely. Absent a 
stable, secure funding source for prevention and in-home 
services, we have relied on TANF. The situation forces States 
to choose between providing quality early learning programs and 
family self-sufficiency programs, and funding those programs 
that ensure child safety and by preventing abuse and neglect. 
Oversight and accountability can identify where improvements 
are needed, and where we need to target our resources and 
technical assistance to improve outcomes. The missing component 
is a stable and secure funding stream to assure the achievement 
of safety, permanency, and well-being for children and their 
families. Supporting families and protecting children is a 
collective responsibility that requires maximum efforts from 
families, from communities, from States, from Federal 
Government, and from our business partners. By working together 
and pooling our resources, we can ensure positive outcomes for 
our children, and a healthy society for our citizens. Thank 
you.
    [The prepared statement of Mr. Stevenson follows:]

Statement of Wayne T. Stevenson, Deputy Secretary, Office of Children, 
    Youth, and Families, Pennsylvania Department of Public Welfare, 
                        Harrisburg, Pennsylvania

    My name is Wayne Stevenson, and I am the Deputy Secretary for the 
Office of Children, Youth and Families (OCYF) in the Pennsylvania 
Department of Public Welfare. I would like to thank the Subcommittee 
for providing me with the opportunity to testify at this hearing to 
review federal and state oversight of child welfare programs.
    The overall goal of Pennsylvania's child welfare system is to 
ensure that our children grow up in safe, healthy and permanent homes 
and develop into competent citizens who contribute to the community. To 
achieve this goal, the Office of Children, Youth and Families, Bureau 
of County Children and Youth Programs, has developed programs aimed at 
preventing child abuse and neglect, protecting children when abuse 
occurs and finding permanent homes for children when it is not possible 
for them to be reunited with their birth parents.
    In regard to federal oversight, I would first like to commend the 
U.S. Department of Health and Human Services (HHS) for the 
comprehensive look it is taking through the Child and Family Service 
Review (CFSR) process. These reviews are serving as catalysts for 
change. CFSR focuses on State performance with regard to the safety, 
permanency, and well-being of children and families who come into 
contact with the public child welfare system. The overarching goal is 
to promote continuous improvement in programs, policies, and services 
that will result in positive outcomes for these children and families.
    Keeping children safe is a responsibility of the larger community, 
not just the child welfare agency. Collaboration within child serving 
systems must be available and accessible if children and their families 
who come into contact with the child welfare agency are to be kept 
safe. This includes mental health treatment, substance abuse treatment, 
and domestic violence services as well as intensive, in-home family 
preservation services and a range of other child and family services. 
However, this type of response system requires that children and 
families have access (financially and physically) to the necessary 
services.
    As states continue to move toward an outcomes framework, they will 
continue to need help from the Federal Government. First and foremost, 
it would be beneficial if all federal offices were working under a 
common framework. Since all human services are interrelated, it is 
essential that all federal agencies with oversight responsibilities aim 
for common, shared outcomes.
    In Pennsylvania, we have a county-administered and state-supervised 
child welfare system. We are not asking counties to collaborate across 
disciplines at the local level, without also making changes and 
providing the leadership needed at the state level.Therefore, just as 
we need to model the behavior at the state level for our counties, we 
are asking the Federal Government to be our model.
    One of Pennsylvania's most recent initiatives--our Systems of Care 
Project--highlights this need for collective goals and cross-system 
collaboration across all child-serving systems. Pennsylvania is funding 
this project through a system of care grant that we received last year 
from HHS. Specifically, this project is helping us to better serve 
children with behavioral health needs who are also involved with the 
child welfare or juvenile justice systems. After all, we know all too 
well that many children entering these systems have behavioral health 
needs that go unmet.
    The systems of care model promotes integration by requiring all 
child-serving systems to develop an individualized service plan that 
meets all of the needs of the child and his or her family--physical, 
emotional, social and educational. This concept of integrated case 
management under the authority of a single, integrated plan of care is 
one Pennsylvania strongly supports.
    Another area where states need federal support is funding to 
implement the Program Improvement Plan, or PIP, that is required by the 
CFSR. Unfortunately, since no additional federal dollars are attached 
to the PIP mandate, my state--like all others--must find a way to pay 
for critical prevention and earlier intervention services, particularly 
since those services are not allowable under the Title IV-E program. In 
Pennsylvania, the estimated cost of our PIP was nearly $70 million, and 
the proposed improvements would certainly enhance the safety, 
permanency and well-being of our children and families. To that end, 
states need the Federal Government to invest sufficiently in these 
efforts, which they prescribe.
    Another way the Federal Government can assist states is by 
providing a stable funding source for child welfare that adequately 
funds the required services. Currently there are three primary funding 
sources for child welfare: Title IV-B, Title IV-E and TANF. 
Pennsylvania's Title IV-B allocation is approximately $25 million while 
our Title IV-E expenditures will exceed $400 million and TANF 
expenditures will be nearly $295 million for the upcoming state fiscal 
year.
    The Title IV-E program provides funds to States to assist with: the 
costs of foster care maintenance for eligible children; administrative 
costs to manage the program; and training for staff, for foster parents 
and for private agency staff. The purpose of the program is to help 
States provide proper care for children who need placement outside 
their homes, in a foster family home or an institution. Title IV-E is 
an entitlement program, and this means children have a right to the 
services it funds and we firmly believe that all child welfare funding 
should be an entitlement and that states should be able to fund the 
necessary services for all children who enter their doors regardless of 
the financial situation of the family.
    Therefore, unless the current financing structure is changed, 
states will not be able to move the child welfare system towards an 
outcome-based accountability system. While Title IV-E is the largest 
funding stream it is also very restrictive in that it can only be used 
for eligible children. The pool of eligible children continues to 
shrink as a result of the eligibility criteria that have a link to the 
now non-existent AFDC guidelines. Additionally, the eligibility is 
reliant on the willingness of courts, over which the child welfare 
agency has no authority, to address required child welfare issues in 
their rulings. While we acknowledge that Congress is looking at this 
flexibility issue and appreciate its efforts, we must make it clear 
that we do not support the capping or block granting of IV-E funds.
    The Title IV-B program helps State public welfare agencies improve 
their child welfare services with the goal of keeping families 
together. These services are primarily aimed at preventing the risk of 
abuse and promoting nurturing families; assisting families at risk of 
having a child removed from their home; promoting the timely return of 
a child to his/her home; and if returning home is not an option, 
placement of a child in a permanent setting with services that support 
the family.
    Like many other states, Pennsylvania relies heavily on the 
Temporary Assistance for Needy Families (TANF) Block Grant to fund 
child welfare initiatives. The TANF program was established to provide 
assistance to needy families so that children can be cared for in their 
own homes; to reduce dependency by promoting job preparation, work and 
marriage; to prevent out-of-wedlock pregnancies; and to encourage the 
formation and maintenance of two-parent families. Many states, 
Pennsylvania included, have been able to utilize TANF funds to support 
child welfare services.
    One program we are replicating in Pennsylvania with TANF funds is 
the very successful Nurse-Family Partnership Program, a national 
program with positive evidence-based results in which nurses visit the 
homes of first time, low-income pregnant mothers with high risk factors 
and provide support for positive birthing experiences and parenting 
skills.
    Absent a stable secure funding source for prevention and in home 
services, we have relied on TANF funding. This situation forces states 
to choose between funding quality early learning programs or funding 
those programs that ensure child safety. We want to invest in our 
children by intervening earlier before their problems escalate and 
become harder to manage and more costly. The more we can invest in 
services that prevent child abuse and neglect, the better able we will 
be to advance child well-being and healthy child development.
    Oversight and accountability can identify where improvements are 
needed and where we need to target our resources and technical 
assistance to improve outcomes. The missing component is stable and 
secure funding to assure the achievement of safety, permanency, and 
well-being for children and their families.
    Supporting families and protecting children is a collective 
responsibility that includes maximum efforts from families, 
communities, states, Federal Government, and other business partners. 
By working together and pooling our resources we can ensure positive 
outcomes for our children and a healthy society for our citizens.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Stevenson. Now, Mr. Bill 
Stanton to testify.

   STATEMENT OF BILL STANTON, DIRECTOR, DEPENDENT CHILDREN'S 
    SERVICES DIVISION, ADMINISTRATIVE OFFICE OF THE COURTS, 
PHOENIX, ARIZONA, AND PRESIDENT, NATIONAL ASSOCIATION OF FOSTER 
                         CARE REVIEWERS

    Mr. STANTON. Mr. Chairman, Members of the Subcommittee, I 
am honored to have been asked to appear before you today and 
testify about the citizen foster care review boards, and the 
impact that they have on ensuring safety, permanency, and well-
being for children. Removing a child from a home and 
terminating parental rights is one of the most powerful uses of 
our government's authority. Since this decision is so severe, 
it calls for extraordinary checks and balances. The foster care 
review board provides that needed balance. Foster care review 
boards began in South Carolina in the mid-seventies. Review 
boards consist of citizens who volunteer their time to review 
the cases of children who have been removed from their homes. 
Volunteers meet each month to review the events of these 
children's lives, and make recommendations to enhance the child 
safety, permanency, and well-being. Long after judges have 
rotated off the bench and caseworkers have moved on, in many 
cases, the most consistent presence in the child's life is the 
review board. They bring to the table their life experience, 
community standards, and a belief that their involvement can 
make a difference.
    The fact is, citizen involvement has made a significant 
difference, not only in the lives of individual children, but 
in the systems charged with the responsibility of their care. 
Let me give you an example of a child from Arizona. Joe was a 
14-year-old young man who had been in foster care for 
approximately 1 year. The caseworker reported to the review 
board that the child's father was deceased. While this 
information was in the file, it had apparently never been 
verified. When the review board received the case to review, 
they sent notices of the upcoming review to the last known 
address of the father. It was soon determined that not only was 
the father alive, but he wanted to be reunited with his son.
    The review board volunteers' work doesn't end when they 
leave the review. Volunteers actively advocate for system 
changes. They identify problems during the review process, and 
then they go out and do something about it. One example of this 
came in Oregon. The review board conducted a study of the use 
of the Family Group Decision Making program, and found that the 
process was being used in only 30 percent of the cases. The 
program wrote and advocated for legislation mandating the 
inclusion of families in case review development, and as a 
result, Family Group Decision Making is a standard practice in 
almost all child welfare cases in Oregon. In Arizona, a review 
board was instrumental in revamping the dependency court 
process. Through their active advocacy, legislation was passed 
to set strict timeframes in which the court hearings were to be 
held. In addition, review boards have worked with the Arizona 
State Supreme Court to pass a mandate that every new judge 
rotating onto the dependency bench must attend an accredited 
dependency training program.
    Now, there are times when the volunteers realize that the 
children may have some needs that the agency and government 
cannot provide. When children are placed in foster care and 
want to take piano lessons or go to football camp, additional 
funds will likely not be available. Review board Members in 
Arizona came together and formed the Arizona Friends of Foster 
Care Foundation, an organization dedicated to providing the 
extra things that many children would have to do without. 
Foster care review boards are an effective way to provide 
oversight as children go through the foster care system. The 
problem, however, is that there are not enough review programs, 
and that many of the programs that do exist face serious 
financial crises. For example, Montana discontinued its review 
program last year due to cuts in funding. Florida has seen two 
of its programs close due to cutbacks in funding. Last year, 
Utah's review program funding was cut in half. The National 
Association of Foster Care Reviewers has attempted to assist 
States in developing review programs. In collaboration with 
HHS, we developed review guidelines and training materials. 
These guidelines give communities the flexibility to develop 
review boards that meet their needs, while following national 
standards.
    In 1997, Congress passed sweeping changes to the child 
welfare system with the passage of the ASFA. Although this act 
addressed many issues facing children in foster care, it failed 
to change the basic requirement surrounding the 6-month 
reviews. The National Association of Foster Care Reviewers 
wants to be the national voice for administrative review. We 
would like to see a requirement that all children in out-of-
home placement be given the benefit of an independent review. 
We have thousands of volunteers and review staff ready to 
assist and make this possible. We urge you to establish review 
boards in all jurisdictions. Our volunteers stand ready to make 
a difference. They ask for your assistance to make the foster 
care review a reality for every child in out-of-home placement. 
Thank you.
    [The prepared statement of Mr. Stanton follows:]

  Statement of Bill Stanton, Director, Dependent Children's Services 
 Division, Administrative Office of the Courts, Phoenix, Arizona, and 
        President, National Association of Foster Care Reviewers

    Mr. Chairman and members of the subcommittee on Human Resources, I 
am honored to have been asked to appear before you today to testify 
about Citizen Foster Care Review Boards and the impact they have on 
ensuring the safety, permanency and well being of children.
    My name is Bill Stanton and I am the President of the National 
Association of Foster Care Reviewers (NAFCR).<SUP>[1]</SUP> I am also 
the Director of Dependent Children's Services Division of the 
Administrative Office of the Courts in Arizona.
---------------------------------------------------------------------------
    \[1]\ nafcr.org
---------------------------------------------------------------------------
    Removing a child from their home and terminating parental rights is 
one of the most powerful uses of our Government's authority. Because 
such a decision is so severe, it calls for extraordinary checks and 
balances. The Citizen Foster Care Review Board process provides this 
needed balance.
    Foster Care Review Boards began in South Carolina in the mid 70's. 
Currently, 23 states have some form of review board process in place. 
Review Boards consist of citizens who volunteer their time to review 
the cases of children who have been removed from their homes. Some 
volunteers from programs in Arizona, South Carolina and Oregon have 
remained with their programs for over 20 years. Volunteers meet each 
month to review the events of children's lives and make recommendations 
to enhance these children's safety, permanency, and well being. Long 
after judges rotate off the bench and caseworkers move on, in many 
cases, the most consistent presence in these children's lives is the 
Review Board.
    Review Boards are comprised of volunteers, not employees of the 
agency, the court, or a treatment facility. They bring to the table 
their life experience, community standards, and a belief that their 
involvement can make a difference.
    The fact is that citizen involvement has made significant 
differences, not only in the lives of individual children, but in the 
system charged with the responsibility of their care.
    Let me give you an example of a child from Arizona. Joe was a 14-
year-old young man who had been in foster care for 1 year. The 
caseworker reported to the review board that the child's father was 
deceased. While this information was in the file, it had apparently 
never been verified. When the review board received the case to review, 
they sent notice of the upcoming review to the last known address of 
the father. It was soon determined that not only was the father alive, 
he wanted to be reunited with his son.
    Still other cases have seen review boards, during their review, 
discover abuses being suffered by children while in foster placement. 
Children have subsequently been moved to safer, healthier environments.
    The Foster Care Review Board meetings are unique. They are less 
intimidating than a court hearing and less formal than a case staffing. 
The Review Board members review each case every 6 months. They speak to 
those involved in the case. They ask questions. Sometimes hard 
questions. They make recommendations, and they don't forget. When the 
case comes back again for review and services were not provided, they 
will ask why. Their goals are to ensure that the children are safe, 
that services are being provided, that the well being of the children 
are being addressed, and that there is a realistic plan to move toward 
permanency.
    The Review Board volunteer's work doesn't end when they leave the 
review. Volunteers actively advocate for system changes. They identify 
system problems during the review process and then do something about 
it. One example of this came in Iowa. Through their review of cases in 
which the termination of parental rights had been appealed, the Iowa 
Citizens Foster Care Review Board <SUP>[2]</SUP> identified significant 
delays. As a result of the review board's observations and 
recommendations, changes in the Court rules were implemented, 
eventually reducing the length of the appeals process from 13.2 months 
to 4 months, a difference of nearly a year.
---------------------------------------------------------------------------
    \[2]\ <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="84eee2ebfcecebf2e1eac4e0ede5aaf7f0e5f0e1aaede5aaf1f7">[email&#160;protected]</a>
---------------------------------------------------------------------------
    While Oregon was one of the states that pioneered the concept of 
involving families in case planning through Family Decision Making, the 
philosophy was not routinely incorporated into actual case practice. 
The review board <SUP>[3]</SUP> conducted a study of the use of Family 
Group Decision Making and found the process was being used in only 30% 
of the cases. The program wrote and advocated for legislation mandating 
the inclusion of families in case plan development, and as a result, 
Family Group Decision Making is standard practice in almost all child 
welfare cases.
---------------------------------------------------------------------------
    \[3]\ www.ojd.state.ore.us/osca/cpsd/citizenreview/index.htm
---------------------------------------------------------------------------
    In New Mexico,<SUP>[4]</SUP> the review boards found through their 
case review process, that over one third of the children they were 
reviewing were sex abuse victims. They found that the sex offender/
perpetrator was not being held accountable through treatment and/or the 
judicial system. The review boards conducted research and collected 
data. As a result, the New Mexico legislature in the Fall, 2003 special 
session legislated and funded a statewide New Mexico Sex Offenders 
Management Board.
---------------------------------------------------------------------------
    \[4]\ www.nmcrb.org
---------------------------------------------------------------------------
    In Arizona,<SUP>[5]</SUP> the review boards were instrumental in 
revamping the dependency court process. Through their active advocacy, 
legislation was passed that set strict timeframes in which court 
hearings were to be held. Review boards have worked with the Arizona 
State Supreme Court to pass a mandate that every new judge rotating 
onto the dependency bench must attend an accredited Dependency 
training. The review board also has developed an extensive data system 
that tracks all aspects of the review process.
---------------------------------------------------------------------------
    \[5]\ www.supreme.state.az.us/fcrb
---------------------------------------------------------------------------
    There are times when volunteers realize that children may have some 
needs that the agency or government can not address. When a child is 
placed in foster care and wants to take piano lessons or go to football 
camp, additional funds will not likely be available. Volunteers in 
Arizona came together to form The Arizona Friends of Foster Children 
Foundation,<SUP>[6]</SUP> an organization dedicated to providing extra 
things that many foster children would do without.
---------------------------------------------------------------------------
    \[6]\ www.affcf.org
---------------------------------------------------------------------------
    Foster Care Review Boards are an effective way to provide oversight 
as children go through the foster care system. Community volunteers 
step forward to ensure the safety and improve the lives of these 
compromised children. The problem however is that there are not enough 
review boards, and that many of the programs that do exist face serious 
under funding or even closure.
    Montana discontinued its review board programs last year due to a 
cut in state funding. Florida has seen two of their programs close due 
to cut backs in state funding. Utah program funding was cut in half 
last year. These are a few examples of the many programs that have been 
affected by deep budget cuts.
    The National Association of Foster Care Reviewers has attempted to 
assist states in developing review programs. In collaboration with the 
Department of Health and Human Services, we have developed general 
review guidelines and training materials. This work will give 
communities the flexibility to develop review boards to meet their 
needs while following national standards.
    In 1997 Congress made sweeping changes to the Child Welfare system 
with passage of the Adoption and Safe Families Act (Public Law 105-89). 
Although this act addressed many issues facing children in foster care, 
it failed to change the basic requirements surrounding the six-month 
reviews. Section 475 (5) (b) of this act states ``a review of each 
child's status is made no less frequently than once every six months 
either by a court or by an administrative review . . .'' NAFCR wants to 
be the national voice for administrative review. We would like to see a 
requirement that these reviews be independent reviews. We have 
thousands of volunteers and review staff ready to assist and make this 
possible. We urge you to establish review boards in all jurisdictions 
and fund them through NAFCR. Our volunteers stand ready to make a 
difference. They ask for your assistance to make Foster Care Review a 
reality for every child in out-of-home placement.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Stanton. Mr. 
Bell, I note that in your testimony you mentioned that the 
number of children who are in foster care in New York City is 
down significantly compared to prior years.
    Mr. BELL. Yes.
    Chairman HERGER. Can you go into why that is?
    Mr. BELL. A major reason for the reduction in the number of 
children in foster care has been an overwhelming focus, and our 
effort in terms of utilizing Family Group Decision Making as 
one of the measures of engaging families early on after 
placement. Right now, every foster care placement is followed 
by a Family Group Decision Making conference, with the parents 
present within 3 to 5 days after that placement, which targets 
our efforts around identifying the needed services, and moving 
aggressively to get children out of foster care.
    It has also been aided by our increased focus on adoption--
looking at streamlining the adoption process, and ensuring that 
children who have been identified as unable to go back home to 
their parents can move to permanency quickly. As I indicated, 
we have completed over 27,000 adoptions since 1996. Each year, 
when you look at the percentage of children available to be 
adopted versus the ones who are, that number is increasing. In 
1998, we only adopted about 44 percent of the children who were 
available for adoption. Last year, we adopted over 66 percent 
of the children who were available for adoption. We have also 
moved to a neighborhood-based environment, where we are keeping 
children in their communities. We are engaging all of the 
providers in those communities, including faith-based 
institutions, to wrap a network of services around vulnerable 
families where they live, as opposed to calling on government 
to be the parent for children.
    Chairman HERGER. Thank you very much. That is very 
impressive. Do you believe, then, that part of our goal should 
be to keep children out of foster care unless absolutely 
necessary?
    Mr. BELL. I think, given the trauma that occurs when 
children are separated from their families, that every effort 
must be made to complete a quality assessment up front--to make 
sure that out-of-home placement is absolutely necessary to 
protect that child. I think it is equally critical, though, 
that we ensure that if we leave a child in their home, we also 
have the kind of services wrapped around that family to ensure 
that the child is going to be safe in their home. One of the 
things that we have done over the last 8 years has been to 
increase the utilization from our child protective staff in 
terms of their referrals to supportive services in the family's 
home. We have a wide array of preventive services in the city. 
We have moved from our child protective staff only making 30 
percent of the referrals that actually go to those services 
each year, to making over 55 percent of the referrals that 
actually go to those in-home services today.
    Chairman HERGER. Do you feel that our current system, 
including its financial incentives, does a good job of 
encouraging this?
    Mr. BELL. I think that one of the reasons I have asked for 
greater flexibility in terms of the utilization of title IV-E 
funding is that I don't think there are enough services 
available to support the families. One of the issues is that 
there are restrictions on how title IV-E funds can be used--
largely being used for out-of-home maintenance as opposed to 
in-home support. I think that is a critical element in terms of 
our ability to continue to deliver services to families in 
their home. One of the critical concerns I have, is that there 
is an actual clause which says that counseling services are not 
going to be covered by the title IV-E dollars, when that is one 
of the most critical services in remedying the issues that 
brought children into foster care in the first place.
    Chairman HERGER. So, you feel, then, that more flexibility 
would assist you?
    Mr. BELL. Absolutely. I believe that more flexibility is 
required. I also think that if we go down a pathway where 
flexibility is being provided at the expense of Federal 
participation, that would raise a considerable concern. We have 
lived under a block grant in New York State since 1995, and as 
a result, we have seen the amount of State participation in the 
funding of services for children in New York City decrease 
tremendously. New York City represents over 70 percent of the 
foster care population in New York State, but much of this 
reform effort that we have funded over the last 8 years has 
been largely covered by contributions from New York City.
    Chairman HERGER. Thank you, Mr. Bell. Mr. Cardin?
    Mr. CARDIN. Thank you, Mr. Chairman. Let me thank all of 
you for your service in this area. It is a difficult field, and 
I very much appreciate the leadership that you have brought to 
taking care of our children. First, let me say that there are a 
couple of themes that come through all of your testimonies. One 
is that more flexibility is needed in title IV-E funding--and I 
want to assure you that I agree with you. I think we need to 
give the local governments more flexibility in creating the 
type of programs that work in their community. Second, most of 
you have mentioned the fact that the eligibility for title IV-E 
funding doesn't make a lot of sense with the look back 
provision. You can hear from my comments that I fully agree 
with that, and I would hope that we would be able to correct 
that now.
    The third issue that each of you have raised in different 
ways is that we need more resources for funding. You used the 
phrase ``tight budgets,'' or not enough resources, and I agree 
with that. We are not providing the type of resources necessary 
to deal with the problems that, Ms. Ashby, you pointed out in 
regard to turnover and training dollars, and so forth. Ms. 
Nelson, I haven't looked at Iowa's budget recently, but I don't 
believe the State is providing you with a lot of additional 
money in order to do your job. Mr. Bell, I compliment what you 
have been able to do in New York. You have made tremendous 
progress. I also agree with your statement where you question 
whether a capped entitlement is the answer to this. I happen to 
agree with you. If we don't increase the size of the Federal 
pot, and keep the dollars fixed--in fact, limited so there is 
no growth if caseload goes up--and provide you all the 
flexibility you want, it seems to me that your State 
legislatures aren't going to be providing you with additional 
resources. Are we really going to get salaries increased for 
social workers? I haven't seen too many proposals where they 
are being singled out for pay raises, for recruitment dollars, 
or for training dollars. Are we really going to get the 
additional resources made available by local government if all 
we do at the Federal level is provide additional flexibilities? 
Is the money going to be there, Mr. Bell?
    Mr. BELL. You raise a very important question. In my 
written testimony, I actually talked about some of the concerns 
that I have in terms of the larger jurisdictions, urban 
jurisdictions, and their ability to make some independent 
decisions and still have access to resources. I think one of 
the statements that I have made, in terms of looking at what 
has to occur to turn around the system, is that there have to 
be clear principles and standards that are set. While I 
absolutely agree with Dr. Horn when he says the Federal 
Government can't review every single case, I do believe that 
when we think about standards that need to be set, the Federal 
Government has to weigh in on what those standards might be. I 
think that one of the issues or concerns that we have is that 
we have had to bear the brunt of a larger percentage of funding 
necessary to change the system in New York City. I would add 
that it is absolutely important for us not to just say that 
money is the answer, because----
    Mr. CARDIN. I agree with that. If we were to fix the 
Federal dollar amount--that is, it is going to be that way, but 
giving you much more flexibility with overall Federal 
accountability standards, do you have confidence that resources 
will be made available locally?
    Mr. STEVENSON. Not at all. As I said, we are a county-
delivered, State-supervised system. In our budget, about 42 
percent is Federal, and that includes a sizeable portion of 
TANF dollars. About 42 percent is funded by State cash, and 
then the remainder is matched by the local county. County 
commissioners are struggling mightily to deal with their own 
budgets. Some of our counties are nearing bankruptcy. They 
can't come up with additional matching funds. Certainly, the 
State is struggling with its own budget woes. To expect them to 
fill in the gap in funding as the growth continues, and as we 
try to target better services and expanded services so we can 
get better outcomes--the money is just not there.
    Mr. CARDIN. Ms. Ashby, I really appreciate your comments 
here. You point out that there is some flexibility in the title 
IV-B funds that could be used for these purposes--the Part 1 
funds. So, I am just curious, if we eliminate the categorical 
aspect of the title IV-E funds, would that do much on the 
caseworker numbers, the retention of caseworks, or the pay of 
caseworkers? Is there anything that you see which would give us 
hope if we did that--that we would see much progress in that 
area?
    Ms. ASHBY. Well, I can't answer your question directly 
because we haven't done the work that would allow me to do 
that. I will say that there is no indication that there is 
excess funding for foster care maintenance. So, if more 
flexibility were applied to title IV-E, you would presume that 
less money would go to foster care maintenance, and more money 
would go to prevention, family supports, and other things. I 
will say that with regard to flexibility, we have not said 
anything in our statement, I don't think, that directly 
addresses that, other than to point out that there is a great 
deal of flexibility in title IV-B right now. Yet, title IV-B, 
of course, is a limited pot of money. It is $700 million versus 
$6.1 billion in title IV-E. With respect to Part 1 and Part 2, 
and with respect to title IV-E, also, we think decisions, even 
in a flexible environment, should be driven by research and 
knowledge about what is needed, and decisions about the 
relative merits of the needs based on information and data.
    Mr. CARDIN. I have just one observation. You would assume 
that the title IV-E moneys that are being used for 
administrative--that States would need more money if they are 
going to deal with the caseworker retention. So, I am not 
exactly sure what we accomplish through the block grant 
approach in dealing with the core problems that have been 
mentioned. Thank you very much, Mr. Chairman.
    Chairman HERGER. Thank you, Mr. Cardin. I understand, Mr. 
Bell, that you are going to need to leave soon.
    Mr. BELL. Yes.
    Chairman HERGER. I would like to recognize the gentleman 
from Washington, Mr. McDermott, to ask a question before you 
have to leave.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. I want to welcome 
you all here, and thank you for your work. In looking over the 
material that you brought from New York, Mr. Bell, it is a 
remarkable record.
    Mr. BELL. Thank you.
    Mr. MCDERMOTT. Now, the question is, if you could rank the 
things you did that made that happen, what would you put at the 
top? Is it simply cutting caseloads from 26 down to 10.7, or 
are there other things that you did in the process which made 
that system work more efficiently--if you want to put it that 
way?
    Mr. BELL. In terms of the testimony, there is a listing of 
about 10 items in there. I think, the way they are laid out, 
that the first one is committing the political will. I think 
that there is an incredible need in all of our systems for the 
leader of that jurisdiction, whether it is a city, a State, or 
a county, to indicate that they are absolutely responsible and 
accountable for their child welfare system, and to elevate the 
system that supports vulnerable children to a level of 
prominence in government, so that everybody recognizes the 
importance of serving vulnerable children. I think that was the 
first step that took place in New York City. That was then 
followed by bringing in competent leadership at both the 
executive level in the organization, and at the mid-management 
levels in the organization. That was followed by----
    Mr. MCDERMOTT. Did you actually fire people, lay people 
off, or transfer them somewhere else in the city?
    Mr. BELL. Well, the next step in that process, which was 
looking at the frontline, actually resulted in almost 10 
percent of our staff being redeployed from the agency. We 
elevated the requirements of who could become a child 
protective worker, who could become a child welfare worker, to 
require that people have either a social work background, or a 
background in some related field in human services. When ACS 
was created, someone with a degree in banking could come in and 
investigate child welfare cases, and work on those cases. So, 
it is critical to ensure that you have the most qualified staff 
on the frontline.
    Mr. MCDERMOTT. Did you----
    Mr. BELL. We increased the salaries of the staff who were 
there. Then we did a comprehensive evaluation of who was going 
to serve on these cases, and if people did not meet the 
standard, they were redeployed.
    Mr. MCDERMOTT. Did you run into trouble with your unions, 
or with civil service requirements of the City of New York, or 
whatever?
    Mr. BELL. There were absolutely civil service requirements, 
and we were absolutely sued by the union when we did this. Yet 
we won, and it was held that what we were doing did not violate 
any civil service requirements. We did not break the law in any 
way, and we did not deprive unionized employees of their 
rights. What we did was create a foundation on which we could 
build the kind of program that has produced the successes that 
are in that document that you are looking at.
    Mr. MCDERMOTT. So, you are really positing that this could 
happen in any situation where the leadership went to work and 
played by the rules--they could make the kinds of changes you 
are talking about in spite of whatever the system is presently. 
Sometimes people say that we have to get rid of the unions, and 
have to get rid of all that, but it is not, in your opinion, 
necessary?
    Mr. BELL. I don't think it is necessary. I think that 
unions have been created to protect employee rights, and they 
should be there to do that. I think that what has happened in 
many jurisdictions over the years is that the child welfare 
agency has been dropped to the lower level of the totem pole. 
When something goes wrong, the response has been to fire a 
commissioner or a director, to fire caseworkers and 
supervisors, and not to deal with the content of the entire 
organization. What we have done is completely change the entire 
organization--to set standards, to describe what is quality. We 
made sure that every worker who comes in is trained on 
understanding what they should be expected to do, and that they 
have a strong system of data that monitors and manages what is 
going on on a regular basis, and feeds that information back 
into the system so that we can hold people accountable for what 
they are doing.
    Mr. MCDERMOTT. One of the things that seems inherent in 
what you are talking about is something that we did in the No 
Child Left Behind Act of 2001 (P.L. 107-110), and that is to 
require that every schoolteacher have training in the field in 
which they are teaching. Yet we didn't put the money out there 
with it. Are you suggesting that national standards are useful 
without additional money? When you say money is not the 
question, it sounds like you are saying that the States can 
handle it if you simply leave us alone and give us a little 
more flexibility. I am interested in what your view of that 
whole thing of national standards----
    Mr. BELL. I am not saying that money is not the question. I 
am saying that money is not the only answer to the question.
    Mr. MCDERMOTT. Okay.
    Mr. BELL. I think money will always be a question, because 
if I say that I want a Cadillac version of a system, then I 
cannot give--I don't want to insult anybody so I won't say Kia 
money to pay for that Cadillac----
    [Laughter.]
    If we are going to design a system that has a certain level 
of caseloads, that has a certain quality of employees 
delivering the services, that has a certain kind of 
administrator who is running the program, and that has the kind 
of data system that can tell us what is absolutely going on--it 
is going to cost money, and we have to be willing to put that 
money there. That is why I say political will is vitally 
important. If I am the leader politically, then I make the 
decisions about where the resources are going to be spent. If 
we have the political will to do what is right for vulnerable 
children, then we are going to have to put more resources 
behind that.
    Mr. MCDERMOTT. Is there one or two things that the Federal 
Government does that gets in your way and that you would like 
to get rid of? If you had your wish list, you had a magic wand, 
and you would just reach into the Federal Register and take 
certain things out, what would you take out?
    Mr. BELL. What would I take out of the Federal Register to 
support what we are doing?
    Mr. MCDERMOTT. Yes.
    Mr. BELL. I think it is a question of what would we 
collectively take a look at in terms of where we--because you 
don't want to just take something away without analyzing the 
impact of removing it. I think that everybody has talked about 
flexibility, which is absolutely necessary.
    Mr. MCDERMOTT. That is what I am asking.
    Mr. BELL. Right.
    Mr. MCDERMOTT. What is flexibility?
    Mr. BELL. Flexibility really means that if you tell me I am 
going to give you an open-ended entitlement for title IV-E, 
then if I say that you can only get that by looking back at the 
standards for a program that was done away with in 1996 when 
TANF came in--but I am still using a 1996 measure to tell you 
who is eligible to get that government funding today--there is 
a question about that. When you say that I want to hold you to 
a standard----
    Mr. MCDERMOTT. What would you----
    Mr. BELL. A standard of production in terms of the ASFA, 
and you don't fully fund what is necessary to do that, or you 
say that the money that I am giving you in title IV-E, you 
can't use it for counseling when counseling is one of the most 
vital services in helping families overcome their issues, then 
the government is not fully putting the money behind it. When 
you put into ASFA that kinship guardianship or subsidized 
guardianship is a permanency option, but there is no money 
appropriated to support that permanency option, and you still 
require the termination of parental rights in order to get the 
money that is contained in the adoption subsidy environment, 
then the government is not fully putting the money behind it.
    Mr. MCDERMOTT. We are saying one thing and doing something 
else, or saying two things at the same time.
    Mr. BELL. You are saying two things at the same time. Do 
it, but I am not going to support it financially.
    Mr. MCDERMOTT. Thank you very much, Mr. Chairman.
    Chairman HERGER. Thank you, Mr. Bell, for your outstanding 
testimony, and the great example that you and your team are 
setting there in New York City----
    Mr. BELL. Thank you.
    Chairman HERGER. In this incredibly crucial area of 
protecting those most vulnerable--our children. I do understand 
that you need to leave, so if you need to leave, you are 
excused.
    Mr. BELL. Thank you.
    Chairman HERGER. Ms. Ashby, I have a question for you, if I 
may. In your testimony on page 12, you note, ``Some of the 
caseworkers we interviewed told us that they spend between 50 
and 80 percent of their time completing paperwork, thereby 
limiting their time to assist children and families.'' 
Meanwhile, we know other industries, manufacturing, 
telecommunications, and shipping, have undergone revolutionary 
changes, allowing them to produce far more with fewer workers. 
Nonetheless, we are constantly being told that child welfare 
agencies need more workers just to handle the same--or now a 
declining--national foster care caseload. My question is, can 
you tell us what efficiencies, improvements, or improved uses 
of technology, have occurred in child welfare casework in the 
last decade, and what additional changes are yet to take hold 
that might improve practice efficiency and effectiveness?
    Ms. ASHBY. The child welfare profession certainly has at 
its disposal many of the same technological tools that other 
areas of our economy have. For example, use of laptops, 
handheld computers, and cell phones can certainly be an aid to 
the caseworker out in the field. For example, a caseworker who 
has a cell phone can call a supervisor if he or she needs 
assistance or needs guidance as to how to handle a particular 
incident. Data can be entered from a field location into a 
central database if the caseworker had a laptop, for example, 
or a handheld device in some instances. So, certainly, the 
technology is used in some States and some localities, but it 
is not used widely enough for a number of reasons. As we talked 
about in the last hearing we had on this topic about the data 
system, SACWIS, many of the States have systems in various 
degrees of development, but very few States have systems that 
are totally complete and that can link the various systems 
within the State that need to be linked, or with the county 
levels, in order to allow some of these things to occur. In 
addition to technological advances, however, there are other 
things--telecommuting, for example. A caseworker, rather than 
having to go into a central office, and then leave to make a 
home visit, could make the visit directly from his or her home, 
if that made sense logistically.
    The computer systems that are available, SACWIS, could have 
prompts that make it easier to enter data. Caseworkers could be 
involved in the actual development of the systems, which would 
make them feel more comfortable to use, and give them more of a 
feeling of ownership of the data systems. One of the 
difficulties we found in looking at the use of data systems, or 
looking at the development of SACWIS, was that caseworkers 
didn't feel in some cases comfortable with using the system, or 
with entering certain data into the system. Training is another 
issue. In order to use the data systems, in order to take 
advantage of some new approaches, the caseworkers have to be 
trained, and sometimes they have to be trained in things that 
change their position culturally. There are various other 
things. Management, for example, could set aside a period of 
time--a number of hours, a day of the week--where the 
caseworkers are to devote their time to entering information 
into the system. One of the difficulties we encountered in 
looking at the data systems was that caseworkers complained 
that they had difficulty balancing putting data into the system 
versus visiting the homes and making recommendations for 
services, and so forth. So, maybe management has to step in and 
say, all right, a certain period of time has to be devoted to 
this. Perhaps in the system of accountability for the child 
welfare workers, there could be something built in that would 
cause or encourage the workers to use some of these 
efficiencies--certainly by entering data. For example, awards 
systems and appraisal systems could be one method. So, yes, 
there are a number of ways that there could be efficiencies. 
Some of these are being used. Others are not. States are 
working toward developing their SACWIS, but they have a ways to 
go.
    Chairman HERGER. Just to follow up on that, to what degree 
would you say that States are focused on making their current 
workers maximally effective through the use of better 
technology as opposed to just adding more workers?
    Ms. ASHBY. I think the States--and I can't give you a 
precise percentage here--are at the point that they realize 
they are going to have to find some other ways of doing 
business. As we have been talking about this morning, there 
isn't a whole lot more money available from either the Federal 
Government, or from the State and local governments, that are 
going to provide a lot more workers. Perhaps some more. There 
needs to be a combination, I think--and States recognize this--
of increased efficiencies, as well as additions to the 
workforce. I guess a major issue is adding to the workforce, 
but also keeping workers who are in place. Turnover is a big 
problem. So, to the extent that the current workers can be 
retained, their training is not wasted; they get better over 
time because they have practiced their discipline, so to speak. 
That would also be helpful. I do think States recognize that 
they are going to have to do some things differently.
    Chairman HERGER. Ms. Nelson, would you like to comment on 
this, as well?
    Ms. NELSON. Sure, and what I might do is speak about some 
of the things that we have done in Iowa. We do have a fully 
functioning SACWIS. We very much engaged our frontline staff in 
the development of that system, and on an ongoing basis. We 
routinely get input from our staff regarding how the system 
could work more efficiently for them, and we set aside 
resources specifically to implement ideas that come from our 
frontline staffs. Again, the system is continually improving in 
response to their ideas of how it can be more helpful. We have 
built into our system alerts that help them manage their 
workload--they alert them to when things are due, so that they, 
again, can better manage their time. We are also working on 
sharing information between our SACWIS and other systems, 
again, so that workers have more access to information, and 
don't have to enter as much information in.
    One of the things that we are working on in particular, 
right now, is enhancing the capacity of our system to provide 
information to frontline staff which actually informs their 
practice and gives them feedback about their cases. Which types 
of cases are, in fact, the ones where we have a repeat 
maltreatment? What is the profile of cases where children are 
reentering care? We have been feeding that back to our workers, 
and then training our frontline staff and frontline supervisors 
regarding how to use the data system for that purpose. We have 
been training them regarding how to go in and take a look at 
how their caseload and their outcomes compare to others, what 
kinds of cases seem to be having better outcomes, and then 
using that, again, getting them more comfortable with that so 
they can use that to inform their own practice. I think one 
thing I would want to emphasize is, it is not an either/or. It 
is not improve technology or have an adequate number of 
workers. I think both are really important. The last thing I 
might mention is that for us, the idea of adding handheld 
computers is not something that we are in a financial position 
to do. So, there are things that we think probably have some 
merit, and we would be interested in doing those at some time, 
but we are not in a position to make that kind of investment at 
this time. So, we put our energies into how to use the SACWIS 
that we have, and make it the optimum tool for our frontline 
staff and managers.
    Chairman HERGER. Thank you very much.
    Mr. MCDERMOTT. Mr. Chairman.
    Chairman HERGER. Yes?
    Mr. MCDERMOTT. May I ask a question--a second one?
    Chairman HERGER. Yes.
    Mr. MCDERMOTT. Thank you. I just want to ask what Ms. Ashby 
is talking about--the whole question of how you use your 
workers. I suspect that her inability to get data is because 
every one of your States is using a different set of papers. 
What effort is being made by the organizations, the national 
organizations, to come up with a uniform form to be used by 
every State, so that you could get national data--so you could 
actually compare what is happening in various States? The 
question sort of buried in that, I guess, is, if you had that 
kind of thing, would you have the ability to protect kids? You 
can have a three-line form that will be the same everywhere in 
the United States, but it would not deal with the situations 
which happen in every State at some point. You have some kid 
that gets in a situation, and they are killed or die, or 
whatever, and then there is all this hand-wringing and finger-
pointing and everything. I realize that a lot of the data 
gathering that is done is really done as a defensive mechanism 
against that event. There is some line between getting enough 
data, and giving a method by which you can evaluate cases, and 
over-papering, which it seems to me is often our response in 
these kinds of situations. So, I would like to hear what you 
have done both locally, and, then, is there a national effort 
to do anything comprehensive so you all would be using the same 
form?
    Mr. STEVENSON. Let me just speak to the national 
perspective on that. Pennsylvania, by the way, does not have a 
SACWIS. We made an effort to develop one, and we found the data 
bleeding from one case record into another case record, which 
was making it even more unsafe for kids in Pennsylvania. So, we 
have crashed that system, and we are starting over. There are 
not that many, as was pointed out, federally approved SACWIS 
programs in place. I have actually had staff in those States 
that do have federally approved systems doing CFSR, case record 
reviews, and have reported back to me that even those systems 
that are federally approved were crashing on a regular basis. 
So, technology is not necessarily the answer. Nor do I think 
that the cost neutrality requirement under SACWIS can be 
achieved by reducing staff. That just isn't going to happen. I 
support what Ms. Nelson was saying there.
    I would have to go back to the point I made earlier about 
funding. I think that because child welfare is a patchwork of 
funding, much of the paperwork is tied to determining 
eligibility, documenting allowable services, and that nature of 
things. I think that is really a critical issue. If we can get 
one ongoing funding stream that is an entitlement for kids, 
that would reduce a great deal of the paperwork, time, and 
effort. With regard to another aspect of technology that I 
would offer, most States are moving to an evidence-based 
strategy for delivering services. So, we are using technology. 
We are using social work technology, political science 
technology, and psychology technology. We are applying the most 
effective service delivery models that are in place, and we are 
only funding those. We are moving in that direction. I am 
sorry, I took your definition and broadened it a little bit. I 
think that we are using technology, but in a very broad way. 
You are going to be hearing from the National Association of 
Public Child Welfare Administrators later today. They have a 
national working group that is working on data, and looking at 
how data can be drawn together, streamlined, standardized, and 
made more accurate and comparable between States. You might 
want to ask that question later.
    Mr. MCDERMOTT. In sum, are you saying that data is mostly 
for funding----
    Mr. STEVENSON. No, I am saying a good----
    Mr. MCDERMOTT. Justification rather than for following the 
case and the problems of the kid?
    Mr. STEVENSON. I am saying a good bit of it is, yes.
    Mr. MCDERMOTT. Okay. The balance is what, at this point?
    Mr. STEVENSON. Is documenting the services----
    Mr. MCDERMOTT. No, but is it 60 percent for billing and 40 
percent for kids, or----
    Mr. STEVENSON. Well, it is all for accountability, but 
automating the case record is a critical thing. It does save 
some time, and particularly if you use mobile technology, so 
that you can interact with it wherever you are.
    Ms. NELSON. I might mention, just briefly, a couple of 
things the National Association of Public Child Welfare 
Administrators is doing. We do have a work group, a task force 
focused on technology and data and how it can better inform our 
work. We are working on a common framework for how we look at 
our data, bringing up the floor across States of capacity 
building, and the ability to use the data that they have. One 
of the challenges, I think, of trying to standardize the data 
across States, is that data is based on how your system works 
and what your State laws are. For example, how do you define 
child abuse in your State? What is the standard of evidence? 
So, I don't know that we could input data exactly the same way 
across the States, as long as States set their own laws on what 
the definition is, and what the standards of evidence are. On 
the other hand, I think what we are focused on--and we work 
with the Child Welfare League of America on that, as well--is 
building that common capacity and common framework for how we 
look at data, so that we are looking at it comparably.
    Chairman HERGER. Thank you.
    Mr. MCDERMOTT. Thank you, Mr. Chairman.
    Chairman HERGER. Again, I want to thank our panelists for 
testifying before us today, and helping us on this very 
important issue. As I mentioned earlier, we will now break for 
lunch and return at 1:30 p.m. With that, the hearing stands in 
recess.
    [Recess.]
    Chairman HERGER. Good afternoon. I would like to welcome 
back our witnesses and continue the hearing. I would like to 
invite our next panel to have a seat. This afternoon, we will 
be hearing from the Honorable William Frenzel, a former 
Representative in Congress from the State of Minnesota, and 
Chairman of the Pew Commission on Foster Care; Shay Bilchik, 
President and Chief Executive Officer for the Child Welfare 
League of America; Monsignor Kevin Sullivan, Executive Director 
and Chief Executive Officer of Catholic Charities USA; and 
Thomas Atwood, President of the National Council For Adoption 
(NCFA). Before we begin, I would like to express my condolences 
to Mr. Atwood and his colleagues on the recent passing of 
William Pierce, the founding President of NCFA. I know Bill did 
a lot of work with Members of this Subcommittee over the years. 
As current Chairman of the Subcommittee on Human Resources, I 
would just like to say how thankful we are for his dedication 
and work on behalf of children. Mr. Frenzel to testify.

    STATEMENT OF THE HONORABLE BILL FRENZEL, CHAIRMAN, PEW 
             COMMISSION ON CHILDREN IN FOSTER CARE

    Mr. FRENZEL. Thank you, Mr. Chairman. I request unanimous 
consent that my statement be made a part of the record----
    Chairman HERGER. Without objection.
    Mr. FRENZEL. I will proceed extemporaneously. Mr. Chairman, 
I am accompanied by the Staff Director of the Pew Commission, 
Ms. Carol Emick, and two other members of my staff. They have 
been working with your staff and are anxious to continue to do 
so. The Pew Commission's charge is a simple one--to improve the 
system--and we are vigorously involved in trying to produce 
recommendations for your Committee. Going over to page 2 of my 
printed testimony, where there are some enumerations of what we 
are trying to do, I need to say first that the Commission has 
not finalized recommendations, and probably won't for another 
couple of months. So, this testimony is going to be short on 
specifics--as the Subcommittee knew when we were invited. I 
don't dare out-guess my Commission. They are all smarter than I 
am, and they know a great deal more about the subject than I 
do. I am mostly the traffic director rather than the determiner 
of policy.
    Thus far, our Commission is zeroing in on the areas that 
are delineated beginning on page 2. In our recommendations on 
financing for children in foster care, the financing system 
needs to give the States greater flexibility in how they can 
use Federal funds to serve maltreated children. It is an 
obvious statement. How to do it is something that we haven't 
determined yet, but we have a lot of ideas, and we are 
proceeding. Second, while that flexibility is being achieved, 
we would like it to be accomplished with greater accountability 
by States for the outcomes for children. There are questions 
that need to be asked. Are fewer children entering foster care? 
Are greater numbers leaving? Are adoptions from foster care and 
family reunification increasing? What is the percentage of 
children returning to foster care? How are the children who 
have been in foster care for the longest time getting along? 
There needs to be more accountability, we believe. The CFSR is 
a good start, and Congress was correct when it mandated such 
accountability--but there are ways to improve it.
    Thirdly, with respect to the financing structure, we think 
it should encourage States to build the full continuum of 
services for abused and neglected children--from prevention to 
post-permanency. We believe that caseworkers and judges should 
be able to tailor services to a child's or family's specific 
needs, especially if doing so avoids the need to place the 
child in foster care, or allows a child to leave foster care 
safely, as soon as possible. The system has to encourage all 
participants; and we think that can be improved. Fourth, we 
think that Federal financing should encourage the States to 
test and evaluate new services and practices. I suppose spelled 
another way, it is w-a-i-v-e-r. We think the waivers have 
yielded some good results, but we think the program can be 
improved; we are anxious to make recommendations in that 
regard.
    Fifth, we believe that any reordering of how the Federal 
Government provides funding to the States has to maintain risk 
sharing between the State and Federal Government, and avoid 
cost shifting to the greatest extent possible, either by the 
States or by the Federal Government. Title IV establishes a 
shared responsibility. Neither side of that partnership can 
stand to see erosion of their responsibility. Now, the 
Subcommittee is also working in the area of court reform. Much 
of what we will recommend there is eventually going to go to 
State legislatures, to Supreme Court chiefs, and to various 
other court systems--but nevertheless, there will undoubtedly 
be some incentives which might be provided by the Federal 
Government. We are looking at coordination between child 
welfare services and courts, better sharing of information, and 
more emphasis on the child and family court system. We are a 
long way from home. We have been at work for 9 months. We 
expect to be able to report back to you, Mr. Chairman, perhaps 
as early as May if we are lucky. We are looking forward to that 
meeting; we hope it will be a profitable one. Thank you very 
much.
    [The prepared statement of Mr. Frenzel follows:]

 Statement of the Honorable Bill Frenzel, Chairman, Pew Commission on 
                        Children in Foster Care

    Mr. Chairman, Mr. Cardin, members of the Subcommittee, thank you 
for your invitation to testify today.
    For the last nine months, I have been privileged to chair the Pew 
Commission on Children in Foster Care, a task I share with my 
colleague, former Representative Bill Gray. This independent, 
nonpartisan commission, funded by The Pew Charitable Trusts, includes 
some of the wisest and most experienced individuals in the field of 
child welfare. You heard from one of them this morning, New York City 
Commissioner William Bell. The other members of our Commission are no 
less impressive.
    Like this Subcommittee, we want to see the nation take better care 
of children who have been abused or neglected. We want to reduce the 
number of children who need to enter foster care. We want to help 
children leave foster care for a permanent family as soon as they 
safely can. We also recognize that this is a responsibility shared by 
the Federal Government and the states, as well as by courts in every 
state.
    The Pew Commission's charge is to develop practical, fiscally 
responsible, policy recommendations to reform federal child welfare 
financing and strengthen court oversight of child welfare cases. Every 
problem in child welfare cannot be attributed to federal financing or 
to the courts, but many have roots there. Federal dollars flow 
relatively easily to pay for foster care for poor children, but they 
are much less available for other services that may avoid the need for 
foster care or shorten the time a child must stay in care. And while 
courts are critical decision-makers for every child in foster care, 
judges are often hampered by crowded dockets and unnecessary 
bottlenecks in the court system.
    By late spring of this year, we expect to offer policy 
recommendations that can be embraced by bipartisan leaders, including 
this Subcommittee, at the federal and state levels. This is no easy 
task, but our Commission members have accepted the challenge with 
enthusiasm. They see much common ground, beginning with fairly

universal dissatisfaction with the current structure of federal funding 
for child welfare services.
    Our optimism is also based on knowledge that some states and 
jurisdictions have made great improvements. Illinois cut its foster 
care population in half since 1997, more than doubled adoptions from 
foster care, and--under a federal waiver--implemented a cost-effective, 
subsidized guardianship program. New York City cut its foster care 
population almost in half between 1996 and 2003. Chief justices in 
Michigan, California, New York, Utah, Minnesota and other states have 
made improving outcomes for children in abuse and neglect cases a top 
priority. They are seeking ways to ensure that children do not languish 
in foster care. Imagine the progress that could take place with a more 
rational financing structure and better-performing courts.
    While the Commission has not finalized any recommendations, we have 
agreed that any financing recommendations should include several key 
elements:
    First, it should give states greater flexibility in how they can 
use federal funds to serve maltreated children. Children who have been 
abused and neglected have a wide range of needs. Some may be better 
served by early, in-home intervention; others by intensive services 
that pave the way for reunification or support the transition to an 
adoptive home. Yet our current federal financing structure largely 
encourages a one-size-fits all response by directing the great majority 
of federal dollars to foster care, and providing only a relatively 
small amount to other important services.
    Second, greater flexibility must be accompanied by greater 
accountability by states for outcomes for children. Are fewer children 
entering foster care and are greater numbers leaving? Are adoptions 
from foster care and family reunifications increasing? What percentage 
of children return to foster care? How are the children who have been 
in foster care the longest faring?
    The Child and Family Services Reviews have made a good start at 
measuring states' progress. Congress was right when it required such 
accountability. Independent experts and state administrators have told 
us that the reviews have been helpful, while also suggesting ways to 
improve the process. Our Commission is looking carefully at how to 
build on this strong start, so that states and the Federal Government 
can more accurately measure how children are faring.
    Third, we think that any financing structure should encourage 
states to build the full continuum of services for abused and neglected 
children, from prevention to post-permanency. We believe that case 
workers and judges should be able to tailor services to a child or 
family's specific needs--especially if doing so avoids the need to 
place a child in foster care or allows a child to leave foster care 
safely as soon as possible.
    Fourth, we think federal financing should encourage states to 
carefully test and evaluate new services and practices. The child 
welfare field needs continued rigorous investigation into what works 
for vulnerable children and troubled families. In this regard, the 
child welfare waivers have yielded promising results. HHS' recent 
guidance has made the waiver process somewhat easier and more 
attractive for states that want to experiment. Our Commission wants to 
continue to encourage innovation and creativity in this field.
    Fifth, any reordering of how the Federal Government provides 
funding to states must maintain risk-sharing between the federal and 
state governments and avoid cost-shifting to the greatest extent 
possible--either by the states or by the Federal Government. Title IV 
establishes a shared federal-state responsibility for abused and 
neglected children. Neither side of that partnership can stand down.
    As the Subcommittee examines the question of how to improve federal 
and state oversight of child welfare, I urge you to remember the 
critical role of the courts. No child enters or leaves foster care 
without a judge's consent. Judges are responsible for ensuring that 
states have made reasonable efforts to reunite children and parents, 
and that the ASFA timelines are met in every case.
    Yet state and local courts face many challenges that hinder 
effective oversight of these cases and can unnecessarily prolong 
children's stays in foster care. The handful of courts around the 
country that have the ability to track and analyze cases have decreased 
the average length of time a case is open and have identified 
populations, such as infants, whose special needs might otherwise go 
unnoticed. Our Commission is looking for ways to strengthen juvenile 
and family courts, to engage state courts in the development and 
implementation of state plans, and to develop policies to improve court 
performance and oversight.
    Thank you for your attention this afternoon and for your commitment 
to this critical area. The Pew Commission looks forward to returning to 
you in a few months with our best suggestions, and to working with you 
to achieve real progress.

                                 <F-dash>
    Chairman HERGER. Thank you very much, Mr. Frenzel. Now, Mr. 
Shay Bilchik to testify.

   STATEMENT OF SHAY BILCHIK, PRESIDENT AND CHIEF EXECUTIVE 
            OFFICER, CHILD WELFARE LEAGUE OF AMERICA

    Mr. BILCHIK. Thank you, Mr. Chairman. I appreciate the 
opportunity to address this Committee on behalf of the 1,100-
member agencies of the Child Welfare League of America--both 
public and private nonprofit agencies. What I believe is very 
clear at this point of the hearing, Mr. Chairman, is that there 
are many forms of oversight that are actually built into the 
child welfare system at every level of operation. They are 
greatly impacted by both quality of practice, and the 
resources, as you have heard over and over again this morning--
needing to support them and make them meaningful. Some are 
complementary, others are simply different in terms of focus 
and purpose. What they do have in common, however, is that none 
of these forms of oversight have been fully developed. Each is 
limited, either by lack of time, information, authority, 
funding, or other factors.
    In theory, the child welfare system is intended to be one 
of the most thoroughly scrutinized public activities in our 
society. Multiple layers of oversight functions have been 
created. However, it is not clear that any particular oversight 
mechanism has been implemented which is sufficient to achieve 
anything beyond sporadic localized success--for example, what 
you heard about today in New York City. The bottom line is that 
effective oversight is entirely dependent on sound information. 
Regardless of the location or scope of a particular oversight 
mechanism, it relies on four principal sources of information 
that can be more broadly categorized as community-based, 
externally based, part of case management, or regulatory 
function.
    These four sources are individual and family case records, 
resulting from an investigation, in casework context, and 
clinical and court activity. Second, direct reports from people 
who are served by the system, or who work in the system. This 
includes administrative reviews, quality assurance interviews, 
testimony, research, and evaluation. Third, they come from 
formal reports of aggregate information about children, 
families, and interventions--part of what you began to probe 
this morning. This includes management information systems, 
research, and evaluation. Fourth, statements of intent, 
expectation, or standards, that are part of formal plans, 
policies, and regulations. This includes budgets, policies, 
reports, and issue briefs. The unfortunate reality, Mr. 
Chairman, is that the information generated within these areas 
is often inconsistent, incomplete, and years behind. In order 
for any of the existing mechanisms to achieve a higher level of 
effectiveness, basic information from all four sources must be 
used in a more integrated, consistent manner.
    If one looks at the more common oversight mechanism, two 
conclusions are obvious. One, the basic concept behind most 
mechanisms is generally well conceived, and given adequate 
investment, would create the potential to enhance the overall 
strength of the system. Two, oversight mechanisms usually do 
not function at a fully developed level, and fall short of 
realizing their potential. So, while there appears to be no 
dearth of efforts to provide child welfare oversight, these 
efforts are neither integrated nor funded in a manner that 
allows them to be as effective as they can possibly be. The 
Subcommittee should make its decisions on how to improve 
oversight based on a critical understanding of answers to the 
following questions. One, does each function have good access 
to complete information from each of the four principal sources 
to help draw sound, long-term conclusions about the performance 
of the system? Does it have the capacity to analyze that 
information? Does it have the authority, or access to 
authority, to act on those findings? How does each mechanism 
combine access to the system with appropriate objectivity? How 
do existing mechanisms support each other? Are they 
complementary, or are they competitive?
    Then we must also pay attention, while asking these 
questions, to the fact that nearly all States have undergone 
their CFSRs. Now it remains to be seen how States will 
implement their PIPs, which are likely to require more rather 
than fewer resources. In other words, what we should be looking 
for is an incentived funding plan to support and further 
motivate successful implementation of the States' PIPs, not a 
punitive, escalating approach that ultimately hurts those we 
wish to serve and protect--our children. We urge Congress to 
comprehensively review and take action on what is truly needed 
to build the system of care, so that children are protected. We 
urge Congress to focus on the current CFSR as its primary 
focus. To be an effective system, that system of review must 
have clear measures that can tell you about the quality of 
service being delivered, and must be able to measure the 
soundness of outcomes for children. That information must be 
consistent across State lines and jurisdictions. Finally, the 
system must have a way to enforce accountability, but enforce 
accountability in a way or in a manner that ensures greater 
safety and permanence for our children. Mr. Chairman, Mr. 
Cardin, we look forward to working with you in this effort.
    [The prepared statement of Mr. Bilchik follows:]

Statement of Shay Bilchik, President and Chief Executive Officer, Child 
                       Welfare League of America

    My name is Shay Bilchik, I am the President and CEO of the Child 
Welfare League of America (CWLA). CWLA welcomes this opportunity to 
offer testimony on behalf of our 1,000 public and private nonprofit 
child-serving member agencies nationwide for the hearing to review the 
oversight systems designed to prevent abuse and neglect of children, 
including those under State protection. This hearing represents an 
important opportunity to review the existing federal, state, and local 
oversight mechanisms in place and to take a look at what needs to be 
done to ensure that all children in this country are protected from 
abuse and neglect.

Existing Child Protection Oversight Mechanisms
    There are many forms of oversight built into the child welfare 
system at every level of operation. Some are complementary. Others are 
simply different. None have been fully developed. Each is limited by 
lack of time, information, authority, funding, or other factors.
    The child welfare system may, in theory, be one of the most 
thoroughly scrutinized public activities in our society. Multiple 
layers of oversight functions have been created. However, it is not 
clear that any particular oversight mechanism has been implemented with 
sufficient depth or breadth to achieve anything beyond sporadic, 
localized success. Therefore, we currently work within a system that 
depends on the poorly coordinated actions of a variety of inadequately 
staffed overseers who must carry out their duties with often inadequate 
information and insufficient authority to implement corrective actions.
    The best course of future action is to select a small set of 
complementary core mechanisms and concentrate on developing each 
element to a more complete level of effectiveness.
    Effective oversight is entirely dependent on sound information. 
Regardless of the location or scope of a particular oversight 
mechanism, it relies on four principal sources of information:

    <bullet>  Formal reports of aggregate information about children, 
families, and interventions. This includes management information 
systems, research, and evaluation.
    <bullet>  Individual and family case records resulting from 
casework, contracts, and clinical and court activity.
    <bullet>  Direct reports or commentary from people who are served 
by the system or who work in the system. This includes administrative 
reviews, quality assurance interviews, testimony, research, and 
evaluation.
    <bullet>  Statements of intent, expectations or standards that are 
a part of formal plans, policies, regulations. This includes plans, 
budgets, regulations, policies, reports, and issue briefs.

    The information generated within each of these areas is often 
inconsistent, incomplete, or years behind current dates. The data from 
each element are usually not universally available within the full 
range of oversight mechanisms and, even when widely available, may be 
presented or organized with considerable variability. In order for the 
any of the existing mechanisms to achieve a higher level of 
effectiveness, basic information from all four sources must be used in 
a more integrated, consistent, and balanced manner. In general, an 
inadequate investment is made in the basic tools and activities 
necessary to provide this information.
    The wide range of existing oversight mechanisms can be best 
understood by placing them within three broad categories: Community/
External; Case Management Process; and Regulatory.

Community/External
    Community-based or external oversight mechanisms include a wide 
variety of elective and appointive, policymaking, review and comment, 
monitoring, and planning bodies that are mandated to exercise some 
degree of scrutiny and to maintain accountability from the child 
welfare systems.
    Examples include:

    <bullet>  Governor's Offices of Children
    <bullet>  Ombudsman
    <bullet>  State Legislative Committees
    <bullet>  City and County Boards
    <bullet>  Appointed Commissions
    <bullet>  Citizen Advisory Groups
    <bullet>  Gubernatorial or Legislative Task Forces or Panels
    <bullet>  Public Advocates
    <bullet>  Court Appointed Monitoring Panels

    In addition to these state and local efforts, every state also has 
some form of child fatality review process that includes a review of 
every child death when the child either died while in agency custody or 
within 6 months of leaving custody. Some states require that these 
fatality reviews be conducted on every child who dies in the 
jurisdiction (city or county), regardless of whether they were in 
agency custody at the time.

Case Management Process
    The core child welfare process includes a set of standard 
authorities, functions, and review procedures that are inherently 
intended to provide ongoing oversight at all stages of the case 
management process.
    Examples include:

    <bullet>  Supervision
    <bullet>  Courts
    <bullet>  Administrative Reviews
    <bullet>  Citizen Case Review and Foster Care Review Boards
    <bullet>  Quality Assurance
    <bullet>  Utilization review
    <bullet>  Contract monitoring
    <bullet>  Fatality Review and Critical Incident Review
    <bullet>  Multi-disciplinary Teams
    <bullet>  Certification and Eligibility

Regulatory
    Regulatory functions are used within child welfare to establish 
standards against which capacity or performance is measured and rewards 
or penalties are imposed. Federal law or programs require many of 
these.
    Examples include:

    <bullet>  Child and Family Service Reviews (CFSR)
    <bullet>  Program Improvement Plans (PIP)
    <bullet>  Title IV-E (of the Social Security Act) Audits
    <bullet>  Title IV-B (of the Social Security Act) State Plans
    <bullet>  Adoption Foster Care Analysis Review System (AFCAR)
    <bullet>  State Automated Child Welfare Information Systems 
(SACWIS)
    <bullet>  Other State Plans--such as Medicaid state plans
    <bullet>  Licensing and Certification
    <bullet>  Voluntary Accreditation

    If one looks critically at the more common oversight mechanisms two 
conclusions are obvious:

          1.  The basic concept behind most mechanisms is generally 
        well conceived and, given adequate investment, would create the 
        potential to enhance the overall strength of the system.
          2.  Oversight mechanisms usually do not function at a fully 
        developed level and fall short of realizing their potential.

    A quick review of a few of the most important oversight functions 
helps to illustrate these points.



            Oversight Mechanism                      Weaknesses

Legislative Committees                      <bullet> Dependent on
                                             relatively old aggregate
                                             information
                                            <bullet> Insufficient time
                                             to integrate and analyze
                                             information
Casework Supervision                        <bullet> Workloads prohibit
                                             consistent, detailed
                                             reviews
                                            <bullet> Inconsistent access
                                             to consumers
                                            <bullet> Often questionable
                                             data from automated
                                             information systems
Quality Assurance                           <bullet> Some states lack
                                             formal systems
                                            <bullet> Often don't have
                                             adequate resources to
                                             select adequate samples or
                                             to gather information from
                                             consumers
Federal Child and Family Service Reviews    <bullet> Inadequate case
 (CFSR)                                      sampling
                                            <bullet> Aggregate
                                             information is compromised
                                             by inconsistent definitions
                                             and reporting among states


      
    Virtually all existing oversight mechanisms are only partially 
developed and inadequately funded. It would be advisable to reduce the 
number of functions, many of which are duplicative, to concentrate on a 
core of more reliable oversight mechanisms. It would be important to 
make decisions based on a critical understanding of answers to 
questions like those that follow:

    <bullet>  Does each function have good access to complete 
information (not solely based on one data source or perspective) from 
each of the four principal sources to draw sound long term conclusions.
    <bullet>  Does it have the capacity to analyze the information?
    <bullet>  Does it have the authority (or access to authority) to 
act on findings?
    <bullet>  How does each mechanism combine access to the system with 
appropriate objectivity?
    <bullet>  How do existing mechanisms support each other?
    <bullet>  Are they complementary or competitive?

    There appears to be no dearth of efforts to provide child welfare 
oversight. However, these efforts are neither integrated or funded in a 
manner that allows them to be as effective as possible
Impact of State Budgt Cuts
    A discussion of how to improve oversight of the child welfare 
system cannot ignore the reality that the best oversight cannot make up 
for a lack of resources and needed services. A system that can detect 
inadequacies does little good if those inadequacies cannot be 
corrected.
    In 2003, CWLA surveyed states to determine the impact of recent 
state budget cuts on their child welfare systems. CWLA's survey 
revealed that virtually every state has developed spending or reduction 
plans for their child welfare agencies over the past three years. Forty 
states reported formal spending reduction plans and two states reported 
informal plans. The average percentage cut is approximately 8%, with a 
range of 0-3% to over 20%.
    As a result of these financial constraints:

    <bullet>  States have made significant reductions in staffing and 
services within their own agencies.
    <bullet>  Child welfare agencies are limiting their services to 
only those traditional core services related to child protection. Many 
states indicated that they now focused on their ``core'' mission, 
defined as child protection (investigation, removal, and placement). 
Programs that do not serve children in this population are being 
reduced or eliminated, such as homeless youth programs, child care 
subsidies, before and after school programs, teen parent counseling, 
and youth in transition.
    <bullet>  There is strong evidence that preventive and early 
intervention services are diminishing across the country. Consequently, 
state have been providing more expensive services (even if this 
conflicts with the original objective of reducing expenses).
    <bullet>  Over two-thirds of the states have plans to reduce or 
eliminate contracts with private agencies and to eliminate or cancel 
specific service program areas. Program areas affected include: in-home 
services, day treatment, family support prevention programs, foster 
care training, after-school programs, supervised visitation programs, 
emergency shelter programs, child care, domestic violence, family 
preservation services, and family resource centers.
    <bullet>  States are reducing or eliminating adoptive and foster 
parent recruitment and support. These changes conflict with the 
legislative permanency requirements.

    In light of these actions, we have to evaluate the impact on the 
child welfare system. We are confident that states are making every 
effort to implement changes that enable them to continue to protect 
traditional services for children. However, we asked many states what 
their thoughts were on the implication of these spending reductions on 
services for children. In the long run, they see:

    <bullet>  Decreasing capacity to provide all services;Increasing 
caseloads and waiting lists for services;
    <bullet>  Decreasing preventive services, which may result in a 
need for more expensive future treatments;
    <bullet>  Decreasing in-home support services, resulting in more 
out-of-home care (even as states report the desire to turn to more in-
home services);
    <bullet>  Decreasing support to foster parents, which may result in 
fewer foster parents in the system
    <bullet>  Longer lengths of stay for children in foster care;
    <bullet>  Decreasing permanency options for kids;
    <bullet>  Decreasing ability to record information into information 
systems in a timely manner; and
    <bullet>  Cuts in other state agencies, including mental health, 
substance abuse, and Medicaid, will likely result in cost shifting, 
with children moving among jurisdictions to seek services.

    If deficits continue, we will likely see even further reductions in 
states' abilities to provide services. Given that nearly all states 
have undergone the federal Child and Family Service Reviews, it is also 
unclear how states will implement their Program Improvement Plans which 
are likely to require more, rather than fewer, resources.
CWLA's Call for Comprehensive Child Welfare Reform
    CWLA urges Congress to comprehensively review and take action on 
what is truly needed to build the system of care so that children are 
protected. CWLA recognizes that the child welfare system, as currently 
constructed, cannot protect all children adequately. Failures occur. 
They are not limited to any single state. These failures will continue 
to occur until we put into place a comprehensive child protection 
system. We are overdue in implementing an improved and strengthened 
system. True child welfare reform will hinge on an improved system of 
shared financing responsibilities among federal, state, local, and 
tribal governments.
    The national child welfare system continues to be in need of:

    <bullet>  A reliable, responsive, and predictable method of 
guaranteed funding, for a full range of essential services, as well as 
placement and treatment services.
    <bullet>  A means of maintaining consistent focus on safety, 
permanency, and well-being as outcomes for children.
    <bullet>  Rigorous standards combined with strong federal and state 
accountability mechanisms.
    <bullet>  Recruitment and support of adequately trained child 
welfare professionals, foster and adoptive parents, mentors, and 
community volunteers.
    <bullet>  Resources that enable parents to provide adequate 
protection and care for their own children.

    Without all of these elements in place the well-being of many of 
our country's children will continue to be lacking.
New Investments Needed
Increase Support for Prevention and Early Intervention Services
    Resources are needed for primary prevention services that can 
prevent many families from ever reaching the point where a child is 
removed from the home. Prevention and early intervention services play 
a vital role for children and families in communities. Family support, 
home visiting, and in-home services enable many parents to gain 
competence and confidence in their parenting while addressing other 
family concerns. Child care, housing, and job training/employment are 
services that enable families to stay together to the fullest extent 
possible. These and other preventive services need to be much more 
available to families early on, as well as when a crisis occurs.
    Community-based child protection programs have demonstrated that 
many families can be helped before there is a need for protective 
intervention with the family. Often, the family can identify what is 
needed and be connected to resources--and contact with the formal child 
welfare system can be averted. Often, after a formal report has been 
made, a child can be maintained safely at home with sufficient 
supports, clear expectations, and monitoring. At all points in the 
continuum, however, ongoing, targeted assessment must be taking place. 
Both the initial child protective services investigation and placement 
prevention services require appropriate immediate assessments of the 
family, the child and the community. CWLA supports the Act To Leave No 
Child Behind (H.R. 936) that would allow states to claim reimbursement 
under the Title IV-E foster care program to address these needs.

Increase Funding for Promoting Safe and Stable Families
    CWLA supports increased funding to $505 million for the Promoting 
Safe and Stable Families program (PSSF). States use these funds for 
family support, family preservation, adoption and family reunification. 
Since 2001 when this program was last reauthorized, Congress has had 
the ability to add $200 million to the $305 million in mandatory 
funding. Despite the best efforts of members of this Subcommittee, 
Congress had never approved more than $405 million for PSSF.

Restore Funding for the Social Services Block Grant
    CWLA again calls for the restoration of funding to $2.8 billion for 
the Social Services Block Grant (SSBG, Title XX of the Social Security 
Act). In 2000, SSBG represented 17% of all federal funding for child 
welfare services. While SSBG funds can be used for an array of social 
services, such as child care or services for the aging, states chose to 
spend these funds on child welfare services more than any other service 
area. In federal FY 2001, child protection and child foster care 
services each accounted for 22% of SSBG expenditures; 43 states used 
SSBG funds to address child protection services; and 35 states used 
SSBG to fund foster care.
    As part of the 1996 TANF law, SSBG funding was to be restored in FY 
2003. That commitment has never been fulfilled. Restoring full funding 
to $2.8 billion for SSBG would fulfill a congressional promise and 
provide needed resources to states in these difficult budget times.

Support the Adoption Incentives Fund
    CWLA supports full funding of $42 million for the Adoption 
Incentives Fund. This is an important fund that provides resources to 
the states to encourage the adoption of children. Increased funding is 
especially needed to help states reach the new target of facilitating 
the adoption of older children. Congress, led by the work of this 
Subcommittee, reauthorized the Adoption Incentives fund just last year. 
Despite that effort, the 2004 funding does not provide the full $42 
million.

Implement Program Improvement Plans
    Many states have now undergone their federally mandated Child and 
Family Services Reviews. States are now putting together Program 
Improvement Plans that outline what improvements are needed to better 
ensure that children are protected. Many states will struggle to 
implement these plans unless resources are provided.
    Legislation pending before the Subcommittee sponsored by 
Representative Benjamin Cardin (H.R. 1534) offers an innovative 
approach that would target funds to assist states in the implementation 
of their Program Improvement Plans. H.R. 1534 would provide grants to 
states to help implement program improvements and would provide an 
additional bonus for the most successful states.

Adopt Strategies to Better Support the Child Welfare Workforce
    A well-trained, reliable, and experienced workforce is a critical 
element to making children safer. Legislation pending in this 
subcommittee introduced by Representative Pete Stark (H.R. 2437), as 
well as H.R. 1534 mentioned earlier, includes a number of workforce 
strategies including expanded access to training for new and current 
child welfare workers. In the U.S. Senate, Senator Mike DeWine has 
sponsored legislation (S. 407) that expands college loan forgiveness to 
this part of our nation's workforce.

Change the Eligibility for Title IV-E Foster Care and Adoption 
        Assistance
    To ensure child safety, permanency, and well-being, federal funding 
should be provided for all children in out-of-home care. Congress has 
mandated legal and permanency protections for all foster and adopted 
children, however, federal funding is only available to pay for the 
costs of children who are eligible for Title IV-E of the Social 
Security Act. The current law links Title IV-E eligibility to archaic 
standards that each state had in place under their 1996 AFDC 
eligibility standards.
    Since AFDC no longer exists, this continues to be an administrative 
burden on the states. Even more critical, however, is the fact that as 
time goes by, fewer and fewer children will be eligible for federal 
support. Data gathered by the Urban Institute indicates that as of 
2000, approximately 57% of all children in out-of-home placement were 
eligible for Title IV-E funding. Some states may be able to serve less 
than one-third of their children in out-of-home placement through the 
use of Title IV-E foster care fund. If the current eligibility link 
remains, fewer and fewer children will be eligible for federal foster 
care and adoption assistance.

Expand Family Reunification Services
    Reunification is the first permanency option states consider for 
children entering care. Yet, in many ways, it is the most challenging 
option to achieve in a plan-based, permanent way. Forty-three percent 
(239,552) of children in care on September 30, 2000, had a case plan 
goal of reunification with their parents or other principal caretaker 
while 57% (157,712) of the children who exited care during FY 2000 
returned to their parent's or caretaker's home. Successful permanency 
through reunification requires many things, including skilled workers, 
readily available supportive and treatment resources, clear 
expectations and service plans, and excellent collaboration across 
involved agencies, at a minimum. The Act To Leave No Child Behind (H.R. 
936) would allow states to claim reimbursement under the Title IV-E 
foster care program to address these needs.

Support Kinship Permanency and Guardianship
    One area that can serve as an important tool in providing children 
with a safe and permanent setting is the use of guardian kinship care 
arrangements. Some states have used various resources to fund this 
permanency option. A few states have utilized federal Title IV-E funds 
to support guardianship through the use of Title IV-E waivers.
    CWLA supports a federally funded guardianship permanency option 
available through Title IV-E to allow states to provide assistance 
payments on behalf of children to grandparents and other relatives who 
have assumed legal guardianship of the children for whom they have 
committed to care for on a permanent basis. Kinship guardianship 
assistance agreements and payments would be similar to the adoption 
assistance agreements in that they would take into consideration the 
circumstances and the needs of the child.
    Kinship care, when properly assessed and supported, has been shown 
to provide safe and stable care for children who remain with or return 
to their families. Twenty-five percent of children in care are living 
with relatives, some of who will not be able to return to their 
parents. States vary in their use of relative homes for foster care 
even though federal regulations state that there is a preference for 
relative placements. States are challenged to provide the financial, 
social, and legal supports that are needed to ensure safety and 
permanency in kinship placements. Generally there is a lack of case 
management and support services made available to relative and legal 
guardian providers.

Conclusion
    CWLA believes that important and necessary reforms must be enacted 
to ensure a consistent level of safety and care for all of America's 
children. We look forward to working with this subcommittee to develop 
a comprehensive child welfare reform proposal that meets all the needs 
of America's the most vulnerable children and families and ensures that 
every child is protected. A part of that reform must include 
improvements to oversight systems designed to ensure the safety of our 
children.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Bilchik. Now to testify, 
Monsignor Kevin Sullivan.

 STATEMENT OF MONSIGNOR KEVIN SULLIVAN, EXECUTIVE DIRECTOR AND 
CHIEF EXECUTIVE OFFICER, CATHOLIC CHARITIES, ARCHDIOCESE OF NEW 
                         YORK, NEW YORK

    Monsignor SULLIVAN. Good afternoon, and thank you for this 
opportunity to testify--sadly--on behalf of half-a-million 
vulnerable children in these United States, who tonight will 
sleep in foster care homes, not their own homes. I am the 
Executive Director of Catholic Charities USA, the Archdiocese 
of New York. We have more than 100 agencies serving New York 
City and the lower Hudson Valley--a full, comprehensive range 
of services. Today, I want to focus on just one of these 
critical services: foster care. My goal is to demonstrate how 
important it is to provide the funding that can help prevent 
the foster care tragedies that so appall us when they make 
front-page news.
    Each year in New York, we provide foster care and group 
care for more than 7,000 children and adolescents. In addition, 
we provide for thousands of services to those in preventive 
services, also. We agree with, as so many of the other 
panelists today have spoken of, the need for increased 
resources in preventive care, adoption services, and 
reunification. However, those resources cannot be provided at 
the expense of the foster care component of the child welfare 
system. If you will pardon me--we can't rob Peter to pay Paul. 
We can't continue to under fund a system that has children in 
significant danger. We are talking about children placed in 
foster care because they have been burned, because they have 
been beaten and starved--children that might never have been 
read to, children who have never been held. We have to keep 
faith with those half-million children in foster care. We need 
to make sure that the funds are available to provide enough 
social service professionals, to provide sufficient 
supervisors, to ensure that they are in a safe haven where 
growth and learning are possible. We need to make sure that the 
foster parents are reimbursed to ensure that they can provide a 
decent home.
    The reasons are simple. Children are in foster care because 
some judge has determined that they have been so badly abused 
or neglected that they cannot remain safely in their own homes. 
The foster care component of the system makes a simple, 
difficult, and arrogant assertion. It says, we the people can 
provide better care for these children than their parents. 
Ladies and gentlemen, if we don't provide the resources to make 
that happen, then we open ourselves to similar charges of 
neglect. The foster care system needs additional reimbursement 
to guarantee the safety of children in care, and to ensure that 
we provide the remedial services needed to rebuild their 
already damaged lives. Permit me to focus on two areas where 
Federal leadership is critical. The first is ensuring 
consistent quality of staffing and foster care parents. The 
current system creates instability. Resources--I can speak most 
about New York State--are woefully inadequate. Some residential 
care facilities and foster care agencies have closed because 
they could not retain or attract quality staff. Staff turnover, 
as you have heard in some of those agencies, is as much as 40 
percent. Foster care parent recruitment is troublesome, and 
turnover high, at least in part because of low reimbursement.
    Complicating these problems, and intensifying the need, is 
the fact that our agencies report that 50 percent of the 
children in foster care have special medical, psychological, 
and educational needs. These needs must be assessed, addressed, 
and monitored by caseworkers who are carrying minimum caseloads 
of 25 families, and all for a starting salary well under 
$30,000 a year. Foster parents must handle these problems in 
their homes, and facilitate those needs being met by various 
practitioners, all for about $20 per day, per child. The second 
area for Federal leadership concerns the funding mechanism, 
which others have spoken about. Unfortunately, there is a 
misperception that the extension of block grants to foster care 
is the silver bullet of greater flexibility and targeting 
resources. In New York, we have had an experience with foster 
care--and they don't work. At the end of the day, the 
flexibility which theoretically exists is de facto undermined 
by the lack of resources. In New York City, funds were diverted 
from foster care to other services, leaving a strapped system 
even more pressed for critical resources. Unfortunately, block 
grants in foster care will have a far greater resemblance to 
snake oil than silver bullets. Finally, I thank you for this 
opportunity to speak on behalf of that particular component--
foster care--which can't be overlooked for those half-million 
children whose lives have already been damaged and need to be 
rebuilt so that they can live in greater dignity in the future. 
Thank you.
    [The prepared statement of Monsignor Sullivan follows:]

  Statement of Monsignor Kevin Sullivan, Executive Director and Chief 
  Executive Officer, Catholic Charities, Archdiocese of New York, New 
                                  York

    Good afternoon. Thank you for allowing me to testify on behalf of 
the most vulnerable children and families in our nation.
    I am Monsignor Kevin Sullivan, Executive Director and CEO of the 
Catholic Charities of the Archdiocese of New York. More than 100 
Catholic Charities agencies serve ten urban, suburban and rural 
counties in New York City and the lower Hudson Valley. We provide a 
comprehensive range of services to people of all religions and 
ethnicities who are in need. We are the oldest and one of the largest 
providers of child welfare services in the US.
    Our focus today is one of these critical services: foster care. My 
goal is to demonstrate how important it is to provide the funding that 
can help prevent the foster care tragedies that so appall us when they 
make front-page news.
    Every year New York Catholic Charities agencies provide foster and 
group care for more than 7000 children and adolescents. While we agree 
that more resources are needed for prevention, reunification, and 
adoption, foster care cannot be allowed to falter. We cannot continue 
to under fund a system that responds to children in significant danger. 
We are talking about children who have been burned, beaten, and 
starved--children who have never been held or read to. We must keep 
faith with the half-million children in foster care. We must make sure 
funds are available to provide enough social service professionals and 
sufficient supervision to insure that these children are in a safe 
haven where growth and learning are possible. We must also make sure 
that foster parents are adequately reimbursed to provide a decent home. 
Can anyone in this room disagree about the importance of our 
responsibilities to and for children in foster care?
    The reasons are simple: children are in foster care because a judge 
has determined they have been so badly abused or neglected that they 
cannot remain in their own home. The foster care system makes a very 
difficult, yet arrogant assertion:  We, the people, can take better 
care of these children than their parents. Ladies and gentlemen, if we 
do not provide the resources to make this happen, we open ourselves to 
similar charges of neglect. The foster care system needs additional 
reimbursement to guarantee the safety of children in care and to ensure 
remedial services needed to rebuild their damaged lives.
    Permit me now to focus on two areas where federal leadership is 
critical to ensuring adequate resources to a strained system.
    The first area for leadership is insuring the consistent quality of 
staffing and foster care parents. The current system creates 
instability. Resources in New York State are woefully inadequate. Some 
residential care facilities and foster care agencies have closed 
because they could not attract nor retain qualified staff. Foster 
parent recruitment is troublesome and turnover high at least in part 
because of low reimbursement. Staff turnover can be as high as 40% in 
some agencies.
    In addition, our agencies report that 50% of the children in foster 
care have special medical, psychological and educational needs. These 
needs must be assessed, addressed and monitored by caseworkers who 
carry minimum caseloads of 25 families, all for a starting salary well 
under $30,000 a year. Foster parents must handle those problems in the 
home and facilitate those needs being met by various practitioners--all 
for $20 per day per child.
    The second area for leadership concerns the funding mechanism. 
Unfortunately, there is a misperception that the extension of block 
grants to foster care is a ``silver bullet'' of greater flexibility and 
targeting resources. In New York we have an experience with foster care 
block grants that I believe tells another story. Initially, the NYS 
block grant to counties showed some promise of more investment in 
prevention and rehabilitation services to natural parents. After a few 
years, however, as state and county budget problems worsened, these 
bright promises dimmed. In NYC funds were diverted from foster care to 
other services, leaving a strapped foster care system even more pressed 
for critical resources. Theoretical flexibility was undermined by de 
facto lack of resources. Block grants for foster care will bear a far 
greater resemblance to ``snake oil'' than ``silver bullets.'' They 
utilize a funding mechanism that cannot be counted on to provide 
consistent financial support for the stability our foster children 
need.
    Positive strides have been made in enhancing prevention services 
and encouraging timely permanency planning. More needs to be done. 
Allow me to commend this committee for looking at ways to do this. I 
strongly urge you not to do anything--even if well intentioned--to make 
the foster care system more precarious. I would be remiss to go no 
further. I plead that you find a way to enhance the funding to this 
system that often serves an average of two years as the home of last 
resort for our damaged children. During those two critical years, the 
system must not allow children to languish; rather it must restore and 
rebuild those lives. Thank you the opportunity to share these ideas.

                                 <F-dash>

    Chairman HERGER. Thank you, Monsignor Sullivan. Now to 
testify, Mr. Thomas Atwood.

 STATEMENT OF THOMAS C. ATWOOD, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, NATIONAL COUNCIL FOR ADOPTION, ALEXANDRIA, VIRGINIA

    Mr. ATWOOD. I thank you, Chairman Herger, and Mr. Cardin. 
Founded in 1980, NCFA is an adoption research, education, and 
advocacy nonprofit. Chairman Herger, I thank you for your kind 
words about William Pierce. Indeed, there are quite literally 
tens of thousands of children and adults today who are enjoying 
loving, permanent families because of Bill Pierce's work. To my 
testimony--ASFA's encouraging results suggest three valuable 
lessons for the Subcommittee's policymaking: first, the 
importance of standards and measures; second, the importance of 
incentives and accountability; and third, the importance of 
flexibility for States. These lessons are elaborated in NCFA's 
written testimony. According to reports, the Jackson children 
were subjected to inexcusable and hideous treatment by their 
adoptive parents. One case of cruelty which the Jackson 
children suffered is one too many. It is important to keep in 
mind, however, that the main problem facing our child welfare 
system today is the suffering of children languishing in foster 
care--not the rare case of abusive adoptive parents. It is 
statistically predictable that in a population of 1.7 million 
households with adopted children, there would be some examples 
of horrendous abuse. Unfortunately, child abuse and neglect is 
a tragic fact of life in some families, whether adoptive or 
biological.
    However, NCFA cautions against enacting extraordinary new 
measures which impose requirements on adoptive parents that are 
not expected of biological parents. Adoptive parents are as 
attentive to their children's needs as biological parents are. 
Congress should be reticent to enact a policy that treats them 
differently. The average age of children waiting to be adopted 
out of foster care is 8.3 years, and they have been in 
continuous foster care for an average of 44 months. The average 
age when the waiting child was removed from his or her family 
is 4.7 years. The average American hears these numbers and 
rightly wonders, how can it take so long for the child welfare 
system to determine that these children's biological parents 
cannot or will not parent them. In our testimony, NCFA suggests 
five policy ideas regarding how Federal and State officials can 
address these problems more effectively through the oversight 
of child welfare programs. First, through performance-based 
measures and incentives for courts. Perhaps the biggest problem 
with the child welfare system today is dysfunctional family 
courts that entrap children in never-ending hearings and 
technicalities that effectively doom them to miserable 
childhoods. A major part of the problem is the lack of 
performance measures and incentives for family courts, that 
policy makers and the public can use to praise courts for good 
performance, and hold them accountable for poor performance. 
Our written testimony suggests steps for establishing 
accountability--including specific performance-based measures.
    Second, through flexible funding for States. Present law 
regarding how States spend their foster care funding is too 
restrictive. States should have the flexibility to customize 
their funding to the specific challenges of their respective 
foster care populations and systems. We support the concept 
contained in President Bush's child welfare program option. 
Third, through ASFA enforcement. Some judges simply ignore 
ASFA's 15/22 rule, for example. In effect, they deny children 
loving, permanent families through adoption, often in the name 
of family preservation, even when it is apparent that there is 
no real family to preserve. Federal and State officials should 
require courts to follow the 15/22 rule and to comply with 
ASFA's speedier hearing schedules. Fourth, through caseload 
standards. In many tragic stories of the foster child who dies 
or is abused, the social worker was carrying too large a 
caseload. States should have appropriate caseload standards, 
and meeting caseload standards should be a high priority in 
social service department budgets.
    Fifth, and last, through collaborations with the private 
sector to recruit and prepare adoptive parents. There are 471 
married couples for each foster child waiting to be adopted, 
and many potential single parents, too. There are three places 
of worship for each child waiting to be adopted and every major 
faith calls its believers to care for orphans. This year, the 
Children's Bureau funds a demonstration project to develop a 
national network of adoption advocacy programs that recruit 
adoptive parents from faith-based communities. Federal, State, 
and local officials should work with communities of faith to 
recruit adoptive parents. Private adoption agencies are another 
resource. The public system already turns to private agencies 
for home studies. Adoptive parent preparation is another way 
private adoption agencies can help relieve the very stretched 
public system. Chairman Herger, I refer you to NCFA's written 
testimony for further details on today's topic, and I thank you 
for the opportunity to work with you to achieve better results 
for America's deserving foster children.
    [The prepared statement of Mr. Atwood follows:]

 Statement of Thomas C. Atwood, President and Chief Executive Officer, 
          National Council for Adoption, Alexandria, Virginia

    Chairman Herger and Members of the Subcommittee:
    My name is Thomas C. Atwood. I am president and CEO of the National 
Council For Adoption. On behalf of the National Council For Adoption, I 
submit this testimony on the subject of federal and state oversight of 
child welfare programs.
    The National Council For Adoption (NCFA) is an adoption research, 
education, and advocacy nonprofit whose mission is to promote the well-
being of children, birthparents, and adoptive families by advocating 
for the positive option of adoption. Since its founding in 1980, NCFA 
has been a leader in promoting adoption and child welfare policies that 
promote adoption of children out of foster care, present adoption as a 
positive option for women with unplanned pregnancies, reduce obstacles 
to transracial adoption, make adoption more affordable through the 
adoption tax credit, and facilitate intercountry adoption.

                 Observations Regarding Recent Policies

    It is useful to note at the outset several observations about 
recent developments in adoption and foster care policymaking. These 
experiences provide valuable lessons and insights for the issue of what 
federal, state, and local officials can do and should be doing to 
ensure the safety, permanency, and well-being of children:
       Success of ASFA: The results of the Adoption and Safe Families 
Act of 1997 (ASFA) have been encouraging. Since its enactment, 
adoptions out of foster care rose from 31,000 in 1997 to 51,000 in 
2002. From 1998 to 2002, an average of more than 13,000 additional 
children per year--more than 65,000 additional children in all--were 
adopted than would have been otherwise. Over the same five-year period, 
more than 230,000 foster children were adopted, about the same number 
as were adopted in the previous ten.
       Importance of Standards and Measures: ASFA proves that in order 
to improve the performance of the child welfare system, federal and 
state officials need to establish specific standards and then regularly 
measure and report actual performance relative to these standards. The 
most important standards and measures established by ASFA include: 
states' baselines for the number of children adopted out of foster 
care; the requirement to initiate proceedings to terminate parental 
rights for children who are in foster care for 15 of the previous 22 
months; the aggravated-circumstances exception to family-reunification 
requirements; and the requirements for earlier permanency hearings and 
concurrent case planning.
       Importance of Incentives and Accountability: ASFA also proves 
the effectiveness of ``carrot and stick'' policies that reward good 
performance through such policies as the Adoption Incentives payments 
to states for exceeding their baselines for children adopted out of 
foster care, and exercise accountability for poor performance through 
possible reduction of funding. Congress was right to pass the Adoption 
Promotion Act of 2003, reauthorizing the Adoption Incentives and 
increasing the incentives for adoptions of foster children and youth 
ages nine and up.
       Importance of Flexibility: Finally, the success of ASFA shows 
the importance of allowing states the flexibility to address the 
particular concerns and needs of their respective foster care 
populations and systems. Under ASFA, the Federal Government established 
standards, measures, incentives, and accountability. But ASFA largely 
left it to the states to determine the best ways to achieve the 
standards, given their respective needs and circumstances. While it is 
constructive for the Federal Government to work with the states in 
setting standards and incentives for the child-welfare system's 
performance, it would not serve the best interests of children and 
families for the Federal Government to dictate a one-size-fits-all 
operations plan for our diverse 50 states.
       Other Positive Policy Developments: Other initiatives that are 
helping, and will help, to promote safety, permanency, and well-being 
of children in foster care are: education and training vouchers for 
youth who age out of foster care; the Children's Bureau's test project 
to develop a national network of adoption advocacy programs that 
recruit adoptive parents from faith-based communities; funding 
increases to Promoting Safe and Stable Families, which funds adoption 
promotion and support services; www.adoptuskids.org, the Children's 
Bureau website, profiling children in foster care waiting to be 
adopted; and the national public service advertising campaign featuring 
First Lady Laura Bush and Bruce Willis, and other public education 
campaigns at the state and local levels.

                     Fairness for Adoptive Families

    Before moving on to policy suggestions, please consider one other 
general comment. The case of the Jackson children in New Jersey has 
appropriately come to the attention of this Subcommittee. According to 
reports, the Jackson children were subjected to inexcusable and hideous 
treatment by their adoptive parents. One case of the cruelty the 
Jackson children suffered is one too many. If proven guilty, the 
Jacksons and the officials who oversaw their adoptions should be 
punished severely. It is important to keep in mind, however, that the 
main problem facing our child welfare system, by far, is the suffering 
of children languishing in foster care, not the rare case of abusive 
adoptive parents.
    According to the Census Bureau report, Adopted Children and 
Stepchildren: 2000, in the census year there were 2.1 million adopted 
children living with their parents in 1.7 million households, 1.6 
million of those children under the age of 18. Sadly, there are abusive 
adoptive families, just as there are abusive biological families. It is 
statistically predictable that in a population of 1.7 million 
households there would be some examples of horrendous abuse. 
Unfortunately, child abuse and neglect is a tragic fact of life in some 
families, whether adoptive or biological.
    However, the National Council For Adoption cautions against leaping 
to dramatic new conclusions about adoption, or adoption policy, based 
on the aberrant Jackson case. Adoption is an extraordinarily successful 
social institution in promoting child welfare. It is indisputable that 
children adopted out of foster care fare better than those who languish 
there. The benefits of adoption for children include higher scores on 
measures of family adjustment, emotional and developmental functioning, 
and self-esteem. Adopted children are more likely to attend college and 
less likely to abuse drugs. Adoption into their own family gives 
children security, well-being, and love that foster care cannot.
    One of the chief reasons adoption has been so successful in meeting 
the needs of children is that law and society have respected adoptive 
parents as the real parents and treated them essentially the same as 
biological parents. NCFA cautions against enacting extraordinary new 
measures that impose requirements on adoptive parents that are not 
expected of biological parents, such as requiring adoptive parents to 
provide medical information and submit their child to post-adoption 
medical examinations. Adoptive parents are as attentive to their 
children's needs as biological parents are. Congress should be reticent 
to enact a policy that treats them differently. Treating them 
differently creates a second-class status for adoptive parenting, which 
would violate children's best interests. The time to examine adoptive 
parents' suitability as parents is prior to adoption.

                         Policy Recommendations

    The average age of children waiting to be adopted out of foster 
care is 8.3 years. The average age when the waiting child was removed 
from his or her family is 4.7 years. The average American looks at 
these numbers and wonders how it can take so long for the child welfare 
system to determine that these children's biological parents cannot or 
will not safely and responsibly parent them. To ensure child safety, 
permanency, and well-being, federal, state, and local officials should 
redouble their efforts to free foster children for adoption at younger 
ages, as well as make special efforts to encourage adoptions of older 
foster children and youth.
    The greatest obstacles to child safety, permanency, and well-being 
today include: family courts that do not keep timely schedules or 
comply with the mandates of ASFA; excessive social worker caseloads; 
inadequate parent recruitment and preparation efforts; and lack of 
experience with effective models for post-adoption services, as well as 
for services to foster children and youth with case goals of 
emancipation or long-term foster care. Following, for the 
Subcommittee's consideration, are policy suggestions regarding how 
federal and state officials might oversee child welfare programs in 
ways to address these problems:

       Performance-Based Measures and Incentives for Courts: Perhaps 
the biggest problem with the child welfare system today is 
dysfunctional family courts that entrap children in a never-ending 
process of hearings and legal technicalities that effectively doom them 
to miserable childhoods, and even danger in unsafe households. A major 
part of the problem is the lack of performance measures and incentives 
for state courts and court systems that policymakers and the public can 
use to praise courts for good performance and hold them accountable for 
poor performance.
       To address this problem, the federal and state governments 
should take steps to establish an effective accountability system for 
state courts including: (1) defining clear performance standards to 
apply to family courts and court systems; (2) measuring court 
performance according to these standards; (3) reporting these 
performance measures to policymakers with authority over the courts and 
to the general public; and (4) developing incentives and accountability 
systems, at the state and federal levels, that promote improved 
performance.
       The courts themselves should use this information to target 
areas for improvements, and policymakers and child welfare advocates 
should use them to monitor the courts and hold them accountable. States 
and the Federal Government should use these data to develop incentives 
and regulations that improve courts' processing of foster care cases. 
Among the data regarding family courts for which HHS and states should 
develop standards and publicize performance are:

      <bullet> Average length of time between review hearings.
      <bullet> Percentage of review hearings that are postponed.
      <bullet> Numbers of placements children experience while in 
foster care.
      <bullet> Numbers of review hearings children experience while in 
foster care.
      <bullet>  Percentage of children in foster care 15 out of the 
last 22 months who are exempted from initiation of proceedings to 
terminate parental rights, and the reasons given for these exemptions.
      <bullet>  Lengths of time from entry into foster care until 
termination of parental rights.
      <bullet> Numbers of disruptions of placements, by type of 
placement.

       Flexible Funding for States: Present law regarding how states 
spend their IV-E foster care funding is too restrictive. States do not 
have the flexibility to customize their child welfare systems to the 
unique needs of their children, youth, and families. The National 
Council For Adoption supports the concept contained in President Bush's 
flexible funding proposal, the Child Welfare Program Option. This 
option would allow states to maintain the federal funding of their 
foster care program as is, or to receive these funds as a flexible 
grant over five years, to support a range of child welfare services, 
such as parent recruitment and training, family counseling and post-
adoption services, and vocational counseling, job placement, and 
mentoring for foster youth.
       The proposal's flexibility offers states the opportunity to be 
timely and effective in addressing the specific challenges of their 
respective foster care populations and systems. This approach is 
consistent with the proven model for federal-state partnerships 
discussed in ``Importance of Flexibility'' in this written testimony.
       Part of the flexible funding plan should be protections against 
negligence of states' foster care populations by requiring states to: 
adhere to the child safety protections mandated by ASFA; maintain 
existing levels of investment in their child welfare programs; and 
continue to participate in the Administration for Children and Family's 
Child and Family Service Reviews. Besides allowing more strategic 
targeting of foster care resources, greater flexibility would encourage 
the discovery of creative, new ways to promote child welfare.
       ASFA Enforcement: The Federal Government should enforce state 
compliance with ASFA in certain key areas. Influenced by ``family 
preservation'' ideology, some judges simply ignore the ASFA requirement 
to initiate proceedings when the child has been in foster care 15 out 
of the previous 22 months. This ideology, which asserts that the 
biological connection must be maintained at almost all costs, denies 
children loving, permanent families in the name of ``family 
preservation,'' even when it is apparent that there is no real family 
to preserve. Using ASFA's ``stick,'' the Federal Government should 
require states to follow the 15/22 rule.
       The Federal Government should also target for enforcement 
states' compliance with hearing schedules. Considering how long it 
takes the child welfare system to free children for adoption, it is 
clear that problems with hearing schedules continue. Finally, the 
Federal Government should evaluate whether ASFA's aggravated-
circumstances exception from reasonable efforts to reunify families has 
been adequate to protect children. Given aggravated circumstances, 
perhaps states should be required to initiate proceedings to terminate 
parental rights, rather than only being allowed not to make reasonable 
efforts.
       Caseload Standards: Whenever there is a tragic story about a 
foster child who dies or is abused, almost invariably, part of the 
report is that the social worker was carrying an unmanageably large 
caseload. Federal, state, and local officials responsible for the child 
welfare system should do everything in their power to ensure that 
foster care and adoption workers have appropriate caseloads, so that 
children in public care receive the professional attention and 
protection they deserve. Social workers and their supervisors should 
have clearly established, appropriate caseload standards. The standards 
should be highly public, as should the child welfare system's actual 
performance measured against these standards. Meeting caseload 
standards should be a high priority in evaluating supervisors' 
performance and in social service department budgets.
       Collaborations to Recruit and Prepare Adoptive Parents: Federal, 
state, and local officials can collaborate more effectively with the 
private sector to recruit parents to adopt children out of foster care. 
According to HHS's most recent information, there are nearly 117,000 
children waiting to be adopted out of foster care. Though that number 
is trending down, it is still tragically large. But here is a larger 
number: There are 55-million married-couple US households, 471 married 
couples for each foster child waiting to be adopted. There are many 
single Americans who can be part of the parenting solution for foster 
children, too, especially for older children. If federal, state, and 
local officials continue to promote adoption, there are more than 
enough loving American families to provide permanent homes for these 
deserving children.
       Communities of faith present an excellent opportunity for 
adoptive parent recruitment. There are nearly 400,000 places of worship 
in the United States, three for each child waiting to be adopted, and 
every major faith calls its believers to compassion and admonishes them 
to care for orphans. This year, the Children's Bureau funds the first 
year of a five-year demonstration project to develop a national network 
of adoption advocacy programs that recruit parents from faith-based 
communities to adopt children out of foster care. This concept has 
tremendous potential to benefit foster children through adoption. 
Federal, state, and local officials should move ahead with communities 
of faith to explore this creative opportunity.
       Private adoption agencies are another resource for promoting 
adoptions out of foster care, through their ability to provide parent 
preparation services. As parents are recruited, the public system will 
be further stretched to provide the parent training necessary for 
foster care adoptions. The public system already turns to private 
agencies to assist with home studies. As the child welfare system does 
a better job of recruiting adoptive parents, parent preparation is 
another way private adoption agencies can help relieve the already very 
stretched public system.

    Chairman Herger, in recent years there has been significant 
progress made in finding loving, permanent families for America's 
foster children. But there is much more to be done through improved 
federal and state oversight of child welfare programs. The National 
Council For Adoption looks forward to continuing to work with you and 
the Subcommittee to achieve still better results for America's 
deserving foster children.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Atwood. I would like to ask 
you a question, if I could. In your testimony, you discussed 
the importance of accountability for the courts in the child 
welfare system. In your opinion, what are some of the biggest 
problems courts face in protecting children and ensuring timely 
hearings? What are some of the more important measures Congress 
might consider to make State courts more accountable?
    Mr. ATWOOD. The measures that we refer to in our written 
testimony are the average length of time between review 
hearings, the percentage of review hearings that are postponed, 
the number of placements children experience while in foster 
care, the number of review hearings children experience while 
in foster care, the percentage of children in foster care 
during 15 out of the last 22 months who are exempted from 
initiation of proceedings to terminate parental rights and the 
reasons given for those exemptions, the length of time from 
entering into foster care until termination of parental rights, 
and the number of disruptions by type of placement. This is a 
lot easier said than done, I realize, but the mandate is there. 
It has to happen. It is clear that when you look at the 
performance of the executive branches of the States in response 
to the ASFA, you can see how measures, incentives, and 
accountability can be quite productive. We have had tremendous 
increases in the number of children adopted out of foster care 
as a result of these incentives that were put in place. We need 
to find a similar mechanism for the courts. The courts have not 
kept pace with the responsiveness of the executive branch 
agencies. So, I don't have all the answers, but I certainly 
would suggest that these points that I listed contain some of 
them.
    Chairman HERGER. Thank you very much. The gentleman from 
Maryland, Mr. Cardin.
    Mr. CARDIN. Thank you, Mr. Chairman. First, let me just 
compliment all of you for your testimony--but also for the work 
that you are doing. My only regret is that this isn't being 
covered by C-SPAN, because I think this is the type of message 
America needs to hear--what is happening with children. Mr. 
Frenzel, we appreciate your continued public service. I know 
your report will be coming out in the spring; we hope it will 
be as early as possible. You may not be aware, but this is an 
election year----
    [Laughter.]
    So, we are going to try to get our work done a little bit 
earlier this year. If we can get Bill Frenzel and Bill Gray 
together on a report, I know it is going to be fiscally 
responsible, accountable, and compassionate--so we look forward 
to your recommendations. I think it could be extremely helpful 
to us as we go through our work here, and we have had a chance 
to chat. I think you are moving in the right direction, and we 
really are looking forward to your work; we thank you for your 
continued leadership.
    Mr. FRENZEL. Thank you, Mr. Cardin. Schedule us for the 
first week in May.
    Mr. CARDIN. Good. We appreciate that. Mr. Bilchik, I always 
appreciate your work and the work of your organization. I think 
you really should underscore the point of your survey that 
revealed that virtually every State has developed spending or 
reduction plans for their child welfare agencies over the past 
3 years. That shouldn't shock us. It just points out the fact 
that if we think that the States are going to have the 
political or the financial will to come forward with additional 
resources, it is not going to happen.
    Mr. BILCHIK. The survey that we did of all the States and 
the District of Columbia in mid-year 2003 did reveal that 
virtually every State planned on cutbacks, and narrowing the 
scope of services back to child protection, foster care, 
adoption, and eliminating perhaps some services that normally 
prevent families from entering the child welfare system, or 
support them once they have left. So, if we are looking at the 
CFSRs, and we are seeing that virtually every State is 
struggling with being rated in a way to show they are really in 
compliance with the standards, then we need to be looking to 
how we create a formula to make it work. Relying too much on 
the States, if the Federal Government says we are going to cap 
what we do here, is going to be a formula for disaster, because 
the States aren't going to have the resources to do it 
themselves. It truly needs to be a partnership.
    Mr. CARDIN. I agree with you. That is why I would just 
urge, as we look at the reform of the Federal role in this 
regard, it has to be mindful of the realities of what is 
happening to the States. So, if we develop how we want child 
welfare reform nationally, we have to recognize the fact that 
these are difficult times for our States with regard to 
budgets. Frankly, there have been very few times, even during 
good times, that States have significantly increased their 
investments in this area. So, we need to develop a national 
policy. Monsignor Sullivan, Ranking Member Rangel warned me 
about you--that you would be very inspirational to our 
Committee--and you were. You made a point that I really want 
people to stop and think about: it is by our orders that we are 
basically the parents for children that are in the foster care 
system.
    Mrs. Johnson--when she was Chair of this Subcommittee--
worked with me on a bill dealing with children aging out of 
foster care, between 19 and 21 years of age. What we said at 
that time is that if you were a parent, you wouldn't give up 
your child at 18 years of age. You still support your child. 
You still provide help for your child. I dare say today that 
for American parents, as they look at schools to send their 
children to for part of the day, or look at summer camps that 
they are going to send their children to during the summer, 
would not tolerate the type of supervision that we have in 
foster care if it was their children--and that should be the 
test. We should be willing to make the investment necessary to 
protect these most vulnerable children, and I think you have 
given us the standard that I hope we will use as we evaluate 
what we should be doing at the Federal level on our policy 
regarding the child welfare system. So, I really want to thank 
you for at least planting in our minds the roles that we need 
to play.
    Monsignor SULLIVAN. Mr. Cardin, thank you very much. The 
reason why I think it is critical to focus on that foster care 
component, is because it is the unique part of the system. All 
the other stuff is absolutely critical--the preventive service 
and the reunification. Kids are in that foster care system for 
around an average of 2 years. For 2 years, we have that 
responsibility, because we have said they have to be there, and 
the choice is whether we let them languish for those 2 years, 
or during that period of time we provide the resources so that 
they begin to rebuild those damaged lives. So, I thank you for 
highlighting that.
    Mr. CARDIN. Mr. Atwood, I want to join the Chairman to 
compliment the work that you have done in this area. So many 
lives have been affected by your work in a very positive way; 
we are very proud of what we have been able to accomplish, and 
what you have been able to do with changes in the policies. 
Thank you.
    Mr. ATWOOD. If I might just offer one or two thoughts on 
the funding aspect--NCFA does, indeed, also support the full 
funding of the Promoting Safe and Stable Families amendments of 
2001, as the Bush Administration proposed. Again, I refer to 
ASFA. The power of ASFA was standards, measures, incentives, 
and accountability. There was some money in there with the 
adoption incentive payments for States, but it was tied to 
performance. So, if we are going to talk about funding 
increases, I would suggest that we tie them to incentives, and 
that we look for incentives for the courts, most specifically, 
to improve their performance.
    Mr. CARDIN. I would just point out, there are proposals 
here that would offer a bonus incentive based upon performance 
that I would urge you to take a look at, because they are aimed 
at just what you are talking about, by providing carrots, 
incentives, for States to respond--particularly as it relates 
to training and supervision of their caseloads, and reducing 
their caseloads. I think that is the right way to proceed. On 
the money, the additional funding, we are suggesting mandatory 
funding for the Promoting Safe and Stable Families amendments 
of 2001. It would be a lot easier than fighting that battle 
every year.
    Chairman HERGER. I thank our witnesses for being here, and 
would like to invite our next panel to come forward to testify.
    Mr. BILCHIK. Mr. Chairman?
    Chairman HERGER. Yes?
    Mr. BILCHIK. I have some information. The panel this 
morning talked about the comparability of data, and I brought 
forward some reports that might help the Committee.
    Chairman HERGER. Without objection, we will submit that for 
the record.
    Mr. BILCHIK. Thank you very much.
    Chairman HERGER. Thank you.
    [The information follows:]

Issue Brief
Child Welfare League of America October 2003
    Can States Be Compared Based on Child Welfare Data?
    State and county agencies run the nation's child welfare systems, 
providing a wide range of services including child protection, family 
preservation and support services, foster care, adoption, and often 
juvenile justice and mental health services. Over the last 10 years the 
child welfare field has seen a significant growth in the availability 
and use of data to help understand and administer child welfare 
programs.
    On a national level, the National Child Abuse and Neglect Data 
System (NCANDS) and the Adoption and Foster Care Analysis and Reporting 
Systems (AFCARS) have become important sources of information about 
children in the child welfare system, providing a national picture of 
child maltreatment and foster care. Moreover, the Federal Government is 
using the data from these systems to inform the Child and Family 
Service Review process. With these national data sets available, the 
question often arises: What do the data show us about how states 
compare in their ability to ensure the safety, permanency, and well-
being of children in the child welfare system?
    Comparisons among states based exclusively on national child 
welfare data sources can be misleading and should not be used to judge 
the effectiveness of one state versus another. While the national data 
sets provide good national estimates, they lack reliability for 
interstate comparisons due to variations in state laws, policies, 
definitions, and data collection processes. The reliability of the data 
increases when each state establishes a baseline and monitors itself 
over time. Also, the reliability increases when states with 
similarities in their child welfare systems, such as those serving both 
child welfare and juvenile justice populations, are grouped together 
for a comprehensive analysis. The Federal Government is currently 
addressing some areas of variation among the states' data. Following 
are just a few examples that show why data cannot be compared across 
the states without additional information and analysis.

    <bullet>  Child abuse and neglect--Each state and the District of 
Columbia defines child abuse and neglect differently in their state 
statutes and policies. While there are similarities among these 51 or 
more definitions of child abuse and neglect, the differences prevent 
reliable comparison of the data. For instance:

    <bullet>  Some states capture categories such as abandonment and 
emotional or mental injury in their laws, while others do not.\1\
---------------------------------------------------------------------------
    \1\ National Clearinghouse on Child Abuse and Neglect Information. 
Statutes-at-a-Glance. Definitions of Child Abuse and Neglect. 
(Retrieved September 2003 from: http://www.calib.com/nccanch/statutes/
define.cfm).
---------------------------------------------------------------------------
    <bullet>  Some state laws include threatened harm in the 
definitions, while others do not.\2\
---------------------------------------------------------------------------
    \2\ Ibid
---------------------------------------------------------------------------
    <bullet>  Some states investigate educational neglect, while others 
do not. Some states investigate fetal exposure or addiction to alcohol 
or other harmful substances, while others do not.\3\
---------------------------------------------------------------------------
    \3\ Utah Division of Child and Family Services. (2003). Child 
Protective Services Allegation Survey Report. Salt Lake City Utah: 
Author.
---------------------------------------------------------------------------
    <bullet>  States require different levels of evidence to 
substantiate a report of abuse or neglect.\4\
---------------------------------------------------------------------------
    \4\ U.S. Department of Health and Human Services, Administration on 
Children, Youth and Families. (2003). Child Maltreatment 2001. 
Wahington, DC: U.S. Government Printing Office.

    <bullet>  Child abuse and neglect fatalities--A child death may be 
counted as a maltreatment fatality in one state, but not in another. A 
few of the factors that limit the reliability of the maltreatment 
---------------------------------------------------------------------------
fatality data include the following:

    <bullet>  About half the states investigate incidents that appear 
to be accidents (such as swimming pool drowning) to determine whether 
abuse or neglect played a role in the death, while other states do 
not.\5\
---------------------------------------------------------------------------
    \5\ Child Welfare League of America. (July 2001). National Working 
Group Highlights: Child Abuse and Neglect Fatalities: Clarification 
Survey Results. Washington DC: Author.
---------------------------------------------------------------------------
    <bullet>  Some states incorporate the numbers from their child 
fatality review teams, while others do not. Also, the composition of 
the child fatality review team, the role of the team in reporting child 
deaths, and the extent of the review or investigation when a death 
occurs, varies considerably from state to state.\6\
---------------------------------------------------------------------------
    \6\ Ibid.

---------------------------------------------------------------------------
CWLA National Data Analysis System Issue Brief

    <bullet>  Child maltreatment in foster care--There are nuances in 
the child protection and foster care data that make it difficult to 
accurately compare data across states. The Federal measure on child 
maltreatment in foster care uses the foster parent and facility staff 
perpetrator categories from NCANDS and the foster care population in 
AFCARS. In this measure:

    <bullet>  When a child is abused or neglected by a relative foster 
care provider, the incident is captured differently among states. Since 
the care giver is both a relative and a foster care provider, the 
relative relationship may be captured in the perpetrator data in some 
states (not the foster care relationship), which is not part of the 
Federal measure on child maltreatment in foster care.\7\
---------------------------------------------------------------------------
    \7\ Child Welfare L eague of America. (October 2002). National 
Working Group Highlights: Child Maltreatment In Foster Care: 
Understanding The Data. Washington DC: Author.
---------------------------------------------------------------------------
    <bullet>  Residential facility staff are counted as perpetrators of 
maltreatment in most, but not all, states. The victims in these cases 
are not always in foster care, and thus the measure of maltreatment in 
foster care in these states has the potential to be inflated.\8\
---------------------------------------------------------------------------
    \8\ Ibid.

    <bullet>  Placement stability--Data on placement stability contains 
several discrepancies in how states count the number of children's 
placements, and reflects considerable variation in the populations 
---------------------------------------------------------------------------
served by the child welfare agencies. For instance:

    <bullet>  A child in foster care may spend a short time outside of 
his or her foster home (or other placement), receiving services in a 
hospital or detention or incarceration placement. States vary as to 
whether they count these as placement changes. In 2000 59% of states 
counted medical hospital stays, 65% counted detention or incarceration 
placements, and 76% counted placements in psychiatric hospitals. There 
were also differences in circumstances and timeframes in which these 
placements were counted.\9\
---------------------------------------------------------------------------
    \9\ Child Welfare League of America. (April 2002). National Working 
Group Highlights: Placement Stability Measure and Diverse Out-of-Home 
Care Populations. Washington DC: Author.
---------------------------------------------------------------------------
    <bullet>  Some child welfare agencies serve the juvenile justice 
population, and some juvenile justice youth are included in the 
national data.\10\ Since placement issues are different in juvenile 
justice, the placement stability data may be affected. Therefore, when 
analyzing placement stability data it is important to group states that 
serve similar populations or limit the data to just the child welfare 
population.
---------------------------------------------------------------------------
    \10\ Ibid.

    <bullet>  Relationship between outcomes--The child welfare field is 
just beginning to study how measured outcomes correlate and interact 
with one another. There is evidence that performance in one outcome 
area affects performance in another, adding another complexity to 
---------------------------------------------------------------------------
cross-state comparison. For example:

    <bullet>  Analysis of Federal outcome data demonstrated a 
relationship between high percentages of reunification within 12 months 
and high re-entries within 12 months. Likewise, states with low 
reunification tended to have low re-entries within the 12-month 
periods.\11\ Therefore, when assessing reunification outcomes it would 
be critical to evaluate data and policies relevant to re-entries, and 
perhaps other areas, at the same time.
---------------------------------------------------------------------------
    \11\ U.S. Department of Health and Human Services, Administration 
on Children, Youth and Families. (2003). Safety, Permanency, Well-
being. Child Welfare Outcomes 2000: Annual Report. Washington, DC: U.S. 
Government Printing Office.

    The child welfare field lacks crosscutting standards and 
definitions that would allow reliable comparison among states. The two 
Federal data sources provide important national information as well as 
a basis to work toward more comparable data. Relevant policy guidance 
begins to add clarity, but clear, common operational definitions are 
needed to enhance inter-state reliability in the data. Also, additional 
research is needed to understand the relationship between different 
performance measures.
    Much can be learned by comparing state child welfare programs, 
allowing states to share their successes and challenges in ensuring the 
safety, permanency and well-being of children. Data play an important 
role in such comparisons, but significant time and resources must be 
invested in understanding the nuances of the data. NDAS helps present 
some of the variations through footnotes, text-based tables, and 
National Working Group Highlights bulletins. Further information about 
data nuances and data quality may be gathered directly from the states 
of interest.

Prepared by Kristen Woodruff, Project Manager for the National Working 
Group To Improve Child Welfare Data, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="08637a617b7c6d66486b7f646926677a6f26">[email&#160;protected]</a>

                                 <F-dash>

    Chairman HERGER. Again, I would like to invite our next 
panel to the table. We will be hearing from Curtis Mooney, 
President of DePelchin Children's Center in Houston, Texas, 
here today on behalf of the Alliance for Children and Families; 
Mr. Thomas Birch, Legislative Counsel for the National Child 
Abuse Coalition; Courteney Holden, Executive Director of Voice 
For Adoption; Jack Trope, Executive Director of the Association 
on American Indian Affairs; and Christopher Klicka, Senior 
Counsel for the Home School Legal Defense Association. Mr. 
Mooney to testify.

   STATEMENT OF CURTIS C. MOONEY, PH.D., PRESIDENT AND CHIEF 
   EXECUTIVE OFFICER, DE PELCHIN CHILDREN'S CENTER, HOUSTON, 
   TEXAS, ON BEHALF OF THE ALLIANCE FOR CHILDREN AND FAMILIES

    Mr. MOONEY. Mr. Chairman, I am here today on behalf of the 
Alliance for Children and Families, an organization in which my 
nonprofit agency is a member. The Alliance for Children and 
Families is a nonprofit membership association representing 320 
child and family service organizations in North America. By 
training, I am a social worker, and for the past 28 years, I 
have devoted my life to working with children who have been 
abused and neglected in the private sector. I am the President 
of DePelchin Children's Center in Houston, Texas. DePelchin 
provides a full array of services for children and families, 
including prevention services, mental health services, foster 
care, adoption, emergency shelter, residential treatment, and 
post-adoption services. There is a growing consensus among 
national advocacy groups, child welfare providers, as well as 
many State officials and policy makers, that the current 
mechanism for funding the Nation's child welfare system needs 
revision and must be revamped. The Alliance for Children and 
Families believes that the following major topics need to be 
reflected in the discussions that lead to the framing of a 
meaningful child welfare reform.
    Child safety cannot be measured by physical safety alone. 
The physical scars of trauma heal much faster than the 
emotional ones. There must be a common definition for child 
safety that is consistent throughout the States, which includes 
not only physical safety, but behavioral and emotional well-
being, as well. Once this common definition has been 
established, it is vital that resources are dedicated to the 
training of staff, judges, and mandatory reporters--every 
child, every time. Any refinancing of the child welfare system 
must assure that standards of care, caseload and supervisory 
ratios, and expectations for child welfare outcomes do not get 
reduced in large urban, often poor areas across the country--
or, as in West Texas, across vast areas of land with little 
population. Safety, permanency, and well-being measures should 
be a child's everyday experience in the child welfare system--
not just ultimate system outcomes. To achieve this, we must 
have a system that invests in and expects quality, and places 
the highest value on assuring that the adequate case management 
supervision and services are there for children.
    Prevention, family based services, and successful 
reunification of families must be our highest priority, and 
over time, a focus on these areas will reduce the number of 
children in out-of-home care. To provide these programs as we 
transition from a system that has focused on out-of-home care 
will require a sustained effort and additional resources over 
at least a 3- to 5-year period of time. The children in our 
system today often have serious and severe physical, 
behavioral, and emotional needs. When their needs cannot be met 
through a family centered, in-home service, we must assure that 
the first placement is the best placement. Oftentimes, these 
children experience repeated failed services and placements 
that have had devastating results on them. To accomplish this, 
we need funding specifically directed to recruitment, placement 
development, training, oversight, and ongoing support and 
services. The current Federal commitment to a shared 
partnership of research institutions, Federal and State 
agencies, and community-based service providers is outstanding. 
Any system changes may continue the incentives States now have 
to conduct research and evaluation.
    Continuous quality improvement works. The child welfare 
system, including contracted service providers, must be funded 
and required to have the internal capacities for continuous 
quality assurance and improvement. Improvement should not be 
driven by high-profile cases or audits alone. The child welfare 
system is comprised of many partners, agencies, and funding 
streams. Future success for this system requires both the 
Federal and State governments to identify the agencies and 
funding streams that must work together for the sake of the 
children and families, and ensure that those entities adopt a 
common set of child and family centered outcomes and values and 
are accountable for them. The deteriorating state of the child 
welfare workforce can no longer be ignored. In fact, we have 
reached a crisis point, needing both Federal and State 
response. Adequate education and training, continued 
competence, quality of supervision, pay, benefits, and 
caseloads of critical frontline staff must be addressed. A 
clear connection between poverty and family violence must be 
addressed, as well. Safety, permanency, and well-being of 
children must include an assessment of the family's ability to 
assure the child's needs can be met, or identify what must be 
done so that those needs can be met.
    The Federal Government should--if changes are made to title 
IV-E funding--be considered for poverty as the funds are 
distributed. The outcomes of the title IV-E demonstration 
project and waivers should guide the way for child welfare 
reform. They have allowed us to test out what works and what 
doesn't. Let us begin our reform there, and in the future when 
we have something that works well and is cost neutral, all 
States should be able to implement it without a waiver. As a 
provider of services in Texas for many years, and as a 
representative of the Alliance for Children and Families' 320 
agencies, I can tell you that the nonprofit sector takes 
seriously our mission to provide services to people in need. 
Our communities are generous, and give us resources to help 
children and families beyond those covered under State and 
local contracts. However, we too often find ourselves having to 
use these precious resources to supplement State and local 
contracts which should be paying for the services they purchase 
in full. I want to thank the Subcommittee for the opportunity 
to testify.
    [The prepared statement of Mr. Mooney follows:]

  Statement of Curtis C. Mooney, Ph.D., President and Chief Executive 
Officer, DePelchin Children's Center, Houston, Texas, on behalf of the 
                   Alliance for Children and Families

    Mr. Chairman, distinguished members of the Subcommittee, I am 
testifying here today on behalf of the Alliance for Children and 
Families, an organization of which my nonprofit organization is a 
member. The Alliance for Children and Families is a nonprofit 
membership association representing 320 child and family serving 
organizations in North America. Member organizations, such as DePelchin 
Children's Center, provide an array of community-based programs and 
services to all generations, and serve close to 8 million people each 
year in more than 6,700 communities. Motivated by a vision of a healthy 
society and strong communities, the Alliance's mission is to strengthen 
the capacities of North America's nonprofit child and family serving 
organizations to serve and to advocate for children, families and 
communities.
    I have spent the past 28 years working at four agencies in three 
states with children who have been abused and neglected. I am a social 
worker by training with a Masters in Social Work from Washington 
University in St. Louis and a Ph.D. in Social Work Administration from 
the University of Texas in Arlington, Texas. For the last 7.5 years I 
have served as the President and CEO of DePelchin Children's Center in 
Houston, Texas. One of Houston's oldest charities, DePelchin provides 
some 30 different programs in the three broad areas of a) prevention of 
child abuse, b) children's mental health services, and c) child welfare 
services including foster care, residential treatment and adoption 
services. My agency provides services to over 20,000 individuals 
annually. We are funded via United Way, individual contributions, state 
and federal grants, and contracts with the state of Texas for child 
welfare services and health insurers for mental health services.
    By holding this hearing, the Subcommittee has taken up a timely 
topic that merits our individual attention. There is a growing 
consensus among national advocacy groups, child welfare providers, as 
well as many state officials and policymakers that the current 
mechanism for funding the nation's child welfare system needs revision, 
and must be revamped. Child welfare funding has eroded, and scant 
attention has been paid to maintaining adequate funding for children in 
the foster care system, who often have severe physical and 
psychological needs. It is imperative that any proposed changes promote 
and invest in increased prevention and early intervention, while 
assuring the protection, permanency and wellbeing of our country's most 
vulnerable children.
    The Alliance believes that the following major topics need to be 
reflected in discussions that lead to the framing of meaningful child 
welfare reform:

    <bullet>  Through experience, trauma research, and neuroscience, we 
now have a clearer understanding that child safety cannot be measured 
by physical safety alone. There must be a common definition for child 
safety that is consistent throughout the states which includes not only 
physical safety but behavioral and emotional wellbeing as well. It 
should be noted that research has shown that neglect in boys is more 
harmful to their developing brain than physical abuse.
    <bullet>  Any refinancing of the child welfare system must respond 
and be responsive to every child regardless of where a child lives. We 
must assure that standards and expectations for child welfare outcomes 
do not get reduced in large urban (often-poor) areas across the 
country. Quality standards in relation to caseload size, supervisory 
ratios, and minimum standards of practice should be funded and expected 
for all children.
    <bullet>  Safety, permanency, and wellbeing are often only 
considered as ultimate system outcomes. These measures should mark a 
child's experience in the child welfare system and should be expected 
and achieved in every day practice. To achieve this we must have a 
system that invests in and expects quality and places the highest value 
on assuring adequate resources for maintaining reimbursement rates to 
assure highly competent and professional staff services and placement 
resources.
    <bullet>  Prevention, family-based services and successful 
reunification of families should be our highest priority. It should be 
noted that to build the necessary capacity needed in these areas will 
take a sustained one-time effort of additional resources over at least 
3-5 years before the system will begin to see a steady and real 
decrease of children in placement and a realization of those savings 
for reinvestment in the front-end of the system.
    <bullet>  We must recognize and respond to the often serious and 
severe physical, behavioral, and emotional needs of children in the 
system today. The Federal Government should continue an entitlement 
funding mechanism for children with these special needs, to ensure that 
family centered services, including residential care and treatment, are 
available and effective. Too often, these children experience repeated 
failed services and placements due to lack of quality assessment and 
placements that do not meet their needs.
    <bullet>  Currently, the federal commitment to facilitating a 
shared partnership of research institutions, federal and state agencies 
and community-based service providers is outstanding. Any system 
changes must continue the incentives states now have to conduct 
research and evaluation.
    <bullet>  The child welfare system, including the agencies holding 
city and state contracts for provider services, must be funded to 
possess the internal capacities for continuous quality assurance and 
improvement. The federal Child and Family Service Reviews are but a 
starting point for achieving quality assurance within the system. The 
ability for child welfare systems to improve themselves should not be 
based on the latest high-profile case or audit. Instead, a portion of 
federal and state funding should be dedicated to internal quality 
improvement within child welfare organizations.
    <bullet>  In order for a child welfare system to be successful, we 
must interact on a daily basis through both policy and funding with 
multiple federal agencies and funding streams as they play out at the 
local level. Both the Federal Government and state governments need to 
clearly identify these agencies and funding streams and assure that we 
are working together to adopt and achieve a common set of child and 
family-centered outcomes and values that will guide them in their daily 
work and accountabilities. For instance, it is time that Medicaid and 
the child welfare system work together in a concerted way to assure 
that the unique physical and behavioral health needs of children in the 
child welfare system are being met.
    <bullet>  The deteriorating state of the child welfare workforce 
can no longer be ignored, and in fact is at a crisis point needing both 
federal an state response. Adequate education and training, continued 
competence, quality of supervision, pay and benefits of critical front-
line staff must be addressed. The Alliance supports legislation such as 
Representative Cardin's bill (H.R. 1534) that works to reduce the many 
substantial barriers to maintaining a qualified and effective human 
services workforce.
    <bullet>  It is time that we address the clear connection between 
poverty and family violence. Safety, permanency, and wellbeing of 
children must include a family's ability to assure the needs of a child 
can be met and work with these families to improve their economic 
security. Since we now know clearly that there is a correlation between 
the stresses of poverty and the neglect and abuse of children, these 
families simply are at a higher risk.
    <bullet>  The outcomes of the IV-E Demonstration Projects and 
Waivers should guide the way for child welfare reform. Before 
significant reform policies can be crafted, an analysis of those states 
using flexible funds with current IV-E dollars should be conducted. The 
challenges and lessons learned from these states can be used 
effectively to revamp the current child welfare system to better serve 
children, families and communities. In the future, once a demonstration 
program has proven success through outcomes and cost neutrality, all 
states should be able to implement the program without a waiver.

Alliance Key Concerns Regarding the Administration's Flexible Funding 
        Proposal
    The Administration has attempted to respond to the needs of the 
child welfare system with a proposal that would dismantle the current 
entitlement system and restructure the Title IV-E foster care program. 
While legislation has not yet been introduced, many aspects of the 
Administration's proposal have been revealed through congressional 
testimony and public conversations with Administration officials.
    The Alliance for Children and Families and its member agencies have 
many concerns about reform of the child welfare financing mechanism. 
Any such reform must provide states with guaranteed federal funds and a 
long-term partnership necessary to both meet the varied needs of 
vulnerable children and their families as well as systematically reform 
a system long overlooked by the Federal Government. Service delivery 
systems as complex and critical as child welfare cannot be reformed 
overnight by simply extending flexibility to a dwindling pool of 
resources.
    The ``look back'' provision for foster care streamlines the IV-E 
process, but maintaining the provision for Adoption Assistance 
accomplishes just the opposite. An assessment of the child's household 
income at removal is required at time of adoption; a IV-E determination 
would have to be completed regardless. If the eligibility 
determinations remain a part of the foster care process, the ``look 
back'' must be corrected to reflect current Temporary Assistance to 
Needy Families (TANF) eligibility standards. If eligibility 
determinations are eliminated from foster care, the ``look back'' 
provision should be eliminated from adoption determinations as well.
    State flexibility, while desirable, transfers a greater share of 
responsibility and risk for the child welfare population to the states. 
The partnership between the Federal Government and states in providing 
services to abused and neglected children must be maintained and states 
should be discouraged from diminishing their investment in the child 
welfare system once receiving federal dollars. Additionally, Congress 
should create appropriate and minimum standards in areas such as 
caseload size, and give guidance to participating states to ensure the 
progress of child welfare reform. A continued federal match opportunity 
for states will leverage additional resources from state legislatures.

Conclusion
    As a provider of services in Texas for many years, and as a 
representative of the Alliance's 320 nonprofit family service agencies, 
I can tell you from experience that the nonprofit sector takes very 
seriously our mission to provide service to all people in need. 
However, we are increasingly finding that our contracts with state and 
local agencies do not provide adequate funding for the expectations for 
which they carry. We stand ready to be full partners with you, the 
state, and our communities but that partnership must go both ways. As 
an independent sector, we have demonstrated the knowledge, experience, 
and commitment to work with you as a partner in developing any changes 
necessary in policy, minimum standards and practices in the child 
welfare system.
    The Alliance for Children and Families would welcome the continuing 
opportunity to share the voices of America's service providers with the 
Subcommittee as it deliberates on the child welfare system.
    I would like to thank the Subcommittee for giving me the 
opportunity to testify, and would be happy to answer any questions at 
this time.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Mooney. Mr. Thomas Birch to 
testify.

  STATEMENT OF THOMAS L. BIRCH, LEGISLATIVE COUNSEL, NATIONAL 
                     CHILD ABUSE COALITION

    Mr. BIRCH. Thank you, Mr. Chairman. I am Tom Birch, and I 
am here as the Legislative Counsel of the National Child Abuse 
Coalition, which is a collaborative effort of some 30 national 
organizations to bring focus to the issues of prevention of 
child welfare abuses and provision of treatment and services 
for abused and neglected children. I very much appreciate the 
opportunity to testify here today, and also the efforts of this 
Subcommittee to constantly work toward strengthening our 
response regarding preventing abuse and protecting children. At 
this point in the hearing, I realize that the messages that I 
bring have been brought to you already, but I would like to 
provide some kind of framework, and talk about the need to 
invest in preventive services, and to look at closing the 
spending gap in services to protect children who have been 
abused and neglected. When we look at how we as a nation spend 
on child welfare services, we see that we are actually 
investing in an outcome that no one wants--the placement of 
children in foster care. We are spending well over $16 billion 
each year in Federal, State, and local dollars to subsidize the 
foster care and adoptive placements of children who have been 
so seriously abused and neglected already that they are in 
danger of no longer being safe when left at home. By contrast, 
a fraction of that amount is spent on prevention of abuse and 
neglect, and on intervention services to protect children from 
abuse.
    No one would argue that we should not be paying to protect 
the children who have been the most seriously injured. Far less 
attention in our policy, our funding, and our discussion is 
directed at preventing harm to children from ever happening in 
the first place. Let me give you a sense of how the Federal 
dollars work out here. When we look in the current fiscal year 
with title IV-E, over $7 billion is being paid for out-of-home 
placement. By contrast, funds coming from title IV-B and from a 
share of title XX, a small amount contributed from the Child 
Abuse Prevention and Treatment Act (CAPTA, P.L. 93-247), 
together add up to less than $900 million for preventive and 
interventive services. For every Federal dollar we spend on 
foster care and adoption subsidies, we spend less than 13 cents 
of Federal child welfare funding on preventing and treating 
child abuse and neglect. We will never stop the flow of 
children into our Nation's foster care rolls unless we put 
together additional resources to help States and communities 
build their capacity to support preventive services and 
treatment services, as well. Putting dollars aside for 
prevention is sound investing, not luxury spending.
    We looked at what we should be spending to improve child 
protective services, and to support preventive services, and we 
discovered a spending gap in this country of almost $13 billion 
in prevention and protection. Spending in Federal, State, and 
local dollars in preventive and protective services amounted to 
only about $2.9 billion of the estimated $15.9 billion total 
cost of what we ought to be spending on those services. We 
looked at the Urban Institute's most recent report on child 
welfare spending. States reported spending $20 billion--that is 
in Federal, State, and local dollars--on child welfare in 2000. 
Of that, they could categorize a little over $15 billion in 
terms of how they had spent it. Some $9.1 billion was for out-
of-home placements for foster care, $1.8 billion on 
administration, $1.9 billion on adoption, and $2.9 billion on 
what was called ``all other services.'' That is the piece that 
I am talking about--prevention and intervention. We looked at 
the cost to Child Protective Services first--what we ought to 
be spending on investigating the reports of child abuse and 
neglect, and then what we ought to be spending on providing 
some basic services. We came up with a total cost of $5.9 
billion, and again, when we compare that with the actual 
dollars spent, the gap shows that Child Protective Services 
funding comes up nearly $3 billion short.
    When we considered the cost of preventive services, we 
looked at what it would mean to provide preventive services to 
the 3 million children--the victims of maltreatment identified 
by the national incidence study. About $10 billion is what we 
ought to be spending there, so we are way short on what we 
need. What does the spending gap mean in terms of the child 
welfare workforce? Well, 90 percent of States report having 
difficulty in recruiting and retaining child welfare workers 
because of low salaries, high caseloads, insufficient training, 
and high turnover of child welfare workers. When we look at 
caseloads for child welfare workers, the average is double the 
recommended caseload amount. Our present system is overworked 
and inadequate to the task--we need to reorganize our current 
child protection system to come within the framework of a 
broader family support system. I will stop there. I look 
forward to working with you and the Members of this 
Subcommittee to come up with solutions. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Birch follows:]

Statement of Thomas L. Birch, Legislative Counsel, National Child Abuse 
                               Coalition

    Mr. Chairman and members of the subcommittee, my name is Thomas 
Birch and I am the legislative counsel for the National Child Abuse 
Coalition, twenty-five national organizations working together to focus 
attention on the protection of children and the prevention of child 
maltreatment.
    I would like to begin by expressing my appreciation for the 
opportunity to testify and for the ongoing efforts of this subcommittee 
to strengthen the federal response to the protection of children and 
the prevention child abuse and neglect. Today I would like to address 
the need to invest in preventive services to curb the occurrence of 
child abuse and to close the spending gap in services to protect 
children who have been abused or neglected.

Child Welfare Spending: A Moral Failure to Invest
    When we look at federal, state and local government spending on 
child welfare services, we see that we are investing in an outcome that 
no one wants--the placement of children in foster care. We are spending 
well over $16 billion each year to subsidize the foster care and 
adoptive placements of children who have been so seriously abused and 
neglected, so injured and in such danger that they are no longer safe 
to be left at home with their parents. A fraction of that amount is 
spent on prevention and intervention services to protect children from 
such severe harm.
    No one would argue that we should not be paying to protect the 
children who have been the most seriously injured. But the fact is that 
the United States spends billions of dollars on programs that deal with 
the results of our failure to invest real money to prevent and treat 
child abuse and neglect.
    Because our system is weighted toward protecting the most seriously 
injured children, we wait until it gets so bad that we have to step in. 
Far less attention in policy or funding is directed at preventing harm 
to children from ever happening in the first place or providing the 
appropriate services and treatment needed by families and children 
victimized by abuse or neglect.
    In 2004, looking at the federal child welfare budget for Title IV-
E, the Federal Government pays out over $7 billion for out-of-home 
placements. Contrast that with funds from Title IV-B, a share of Title 
XX, and a small contribution from the Child Abuse Prevention and 
Treatment Act authority which together add up to less than $900 million 
for prevention and intervention services to children and their 
families. For every federal dollar spent on foster care and adoption 
subsidies, we spend less than thirteen cents in federal child welfare 
funding on preventing and treating child abuse and neglect.
    It is not enough for the Federal Government to provide services 
only for foster care and adoption; we have to put together additional 
resources to help states and communities build their capacity to 
support preventive services and treatment services as well. But until 
we reorder our overall budget priorities and begin allocating 
significant resources to prevention, we will never stop the flow of 
children onto our nation's foster care rolls. Putting dollars aside for 
prevention is sound investing, not luxury spending.

The Spending Gap in Child Welfare
    When we look at what we should be spending to improve the child 
protective service system and support community-based programs for 
preventing child abuse and neglect, we discover an enormous spending 
gap in prevention and protection.
    We have a spending gap in this country of almost $13 billion in 
services to prevent child abuse and to intervene on behalf of children 
known to the child protection system. In 2000, spending in federal, 
state and local dollars for child protective services and preventive 
services amounts to only about $2.9 billion of the estimated $15.9 
billion total cost of what ought to be spent on those services.
    According to the Urban Institute, states reported spending $20 
billion on child welfare in 2000, and they could categorize how $15.7 
billion of the funds were used.<SUP>[1]</SUP> Of that amount, $9.1 
billion was spent for out-of-home placements, $1.8 billion on 
administration, $1.9 billion on adoption, and $2.9 billion (about 18 
percent) on all other services, including prevention, family 
preservation and support services, and child protective services. (Of 
the $20 billion, states spent $7.9 billion in federal funds, $7.9 
billion in state funds, and $2.2 billion in local funds). There were 
some increases in state and local child welfare spending in 2000 over 
1998, when the Urban Institute last looked at these numbers, but that 
was when states were feeling flush. It's not the case now.
---------------------------------------------------------------------------
    \[1]\ Bess, R. (2002). The Cost of Protecting Vulnerable Children 
III: What Factors Affect States' Fiscal Decisions?. Washington, DC. 
Urban Institute.
---------------------------------------------------------------------------
    First, consider the cost to child protective services of 1) 
investigating the reports of child abuse and neglect that were accepted 
in 2000 and 2) providing some basic services to the victims of child 
maltreatment in that year. When we look at the expense of investigating 
the 1.726 million children who were screened in for further assessment, 
plus the expense of providing services to the 879,000 substantiated 
child victims and to the 385,000 children in unsubstantiated reports 
who also received some services, we come up with a total cost of $5.9 
billion.
    We should not, here, overlook the unacceptable fact that nearly 
half the victims of child maltreatment in fact receive no services at 
all. One of the great tragedies of our system for protecting children 
is the hundreds of thousands of children--over 392,000 (45%) victims of 
child abuse in 2000--who received no services whatsoever: suspected 
abuse reported, report investigated, report substantiated, case closed.
    A recent analysis of unsubstantiated reports of child abuse and 
neglect found that a perceived lack of services would influence a 
caseworker's decision to unsubtantiate a report of abuse, often 
resulting in a recurring report and continuing harm to a 
child.<SUP>[2]</SUP>
---------------------------------------------------------------------------
    \[2]\ Fluke, J.D. (2001). Dynamics of Unsubstantiated Reports of 
Child Abuse and Neglect. American Humane Association.
---------------------------------------------------------------------------
    The CPS spending shortfall amounts to a failure to invest in a 
system that could successfully protect children from abuse and neglect. 
When examining the actual dollars spent, the gap in CPS funding--a 
spending shortfall of nearly $3 billion--must be held accountable for 
many of the barriers to the adequate protection of children. Failing to 
invest in a working child protection system results in a national 
failure to keep children free from harm.
    Second, consider the cost of preventive services--$10 billion if 
offered to the three million child maltreatment victims identified in 
the HHS National Incidence Study III <SUP>[3]</SUP>--and I am not even 
talking about cost of offering voluntary, universal preventive services 
to families. That's a total cost of $15.9 billion. Yet, in 2000, states 
spent only $2.9 billion in federal, state and local funds on protective 
and preventive services for children. Our national child welfare policy 
represents a morally unacceptable failure to invest in this system.
---------------------------------------------------------------------------
    \[3]\ U.S. Department of Health & Human Services (2002). Child 
Maltreatment 2000,. Washington, DC. U.S. Government Printing Office.
---------------------------------------------------------------------------
    These are conservative cost figures. When adjusted to account for 
inflation, data indicate that investigations by child protective 
service agencies cost approximately $990 per case. The cost per case to 
provide basic in-home services such as homemaker assistance or family 
counseling is $3,295.<SUP>[4]</SUP> These costs are low to start with. 
Pay scales in child welfare are generally low and noncompetitive--
significantly lower, for example, than salaries for teachers, school 
counselors, nurses and public-health social workers <SUP>[5]</SUP>--
which brings these costs in at an unrealistically low level.
---------------------------------------------------------------------------
    \[4]\ Courtney, M.E. (1998). ``The Costs of Child Protection in the 
Context of Welfare Reform''. The Future of Children, Vol. 8, No. 1.
    \[5]\ U.S. General Accounting Office (2003). HHS Could Play a 
Greater Role in Helping Child Welfare Agencies Recruit and Retain Staff 
 (GAO-03-357).
---------------------------------------------------------------------------
    What does the spending gap mean in terms of the child welfare 
workforce? Ninety percent of states report having difficulty in 
recruiting and retaining child welfare workers,<SUP>[6]</SUP> because 
of issues like low salaries, high caseloads, insufficient training and 
limited supervision, and the turnover of child welfare workers--
estimated to be between 30 and 40 percent annually 
nationwide.<SUP>[7]</SUP> When we look at caseloads for child welfare 
workers, the average is double the recommended caseload, and obviously 
much higher in many jurisdictions.<SUP>[8]</SUP>
---------------------------------------------------------------------------
    \[6]\ U.S. General Accounting Office (1995). Child Welfare: Complex 
Needs Strain Capacity to Provide Services (GAO/HEHS-95-208).
    \[7]\ U.S. General Accounting Office (2003). HHS Could Play a 
Greater Role in Helping Child Welfare Agencies Recruit and Retain Staff 
(GAO-03-357).
    \[8]\ Alliance for Children and Families, American Public Human 
Services Association, Child Welfare League of America (2001). The child 
welfare workforce challenge: Results from a preliminary study. Dallas.
---------------------------------------------------------------------------
The Case for Prevention
    Our present system of treating abused and neglected children and 
offering some help to troubled families is overworked and inadequate to 
the task. We need to reorganize the current child protection system to 
come within the framework of a broader family support system. Hundreds 
of thousands of children are currently identified as having been 
abused, but receive no services to prevent further abuse. We must focus 
attention on children and families known to the system in order to 
prevent reoccurrence of abuse, as well as provide services to families 
earlier, before problems become severe.
    For more than twenty years, the Federal Government's attention has 
concentrated on a restricted approach to child abuse and neglect, in 
many ways preventing the development of a major federal attack on the 
problem. As a result, the prevention of child maltreatment of children, 
which lies at the root of many of this nation's social ills, has been 
marginalized.
    We know that child abuse prevention fights crime, because research 
has shown us time after time that victims of child abuse are more 
likely to engage in criminality later in life, that childhood abuse 
increases the odds of future delinquency and adult criminality overall 
by 40 percent.<SUP>[9]</SUP>
---------------------------------------------------------------------------
    \[9]\ C.S. Widom (1992). The Cycle of Violence. Washington, DC: 
National Institute of Justice.
---------------------------------------------------------------------------
    We know that preventing child maltreatment helps to prevent failure 
in school. Typically abused and neglected children suffer poor 
prospects for success in school, exhibiting poor initiative, language 
and other developmental delays, and a disproportionate amount of 
incompetence and failure.<SUP>[10]</SUP> Ensuring that children are 
ready to learn means ensuring that children are safe at home with the 
kind of nurturing care that all children deserve.
---------------------------------------------------------------------------
    \[10]\ S.R. Morgan (1976). The Battered Child in the Classroom. 
Journal of Pediatric Psychology.
---------------------------------------------------------------------------
    We know that preventing child abuse can help to prevent disabling 
conditions in children. Physical abuse of children can result in brain 
damage, mental retardation, cerebral palsy, and learning 
disorders.<SUP>[11]</SUP>
---------------------------------------------------------------------------
    \[11]\ H.P. Martin & M.A. Rodeheffer (1980). The Psychological 
Impact of Abuse in Children. In: G.J. Williams. Traumatic Abuse and 
Neglect of Children at Home. Baltimore, MD: Johns Hopkins University 
Press.
---------------------------------------------------------------------------
    Groundbreaking research conducted by the Centers for Disease 
Control in collaboration with Kaiser Permanente shows us that childhood 
abuse is linked with behaviors later in life which result in the 
development of chronic diseases that cause death and disability, such 
as heart disease, cancer, chronic lung and liver diseases, and skeletal 
fracture. Similarly, the CDC research shows that adult victims of child 
maltreatment are more likely to engage in early first intercourse, have 
an unintended pregnancy, have high lifetime numbers of sexual partners, 
and suffer from depression and suicide attempts.<SUP>[12]</SUP>
---------------------------------------------------------------------------
    \[12]\ V.J. Felitti, R.F. Anda, et al. (1998). Relationship of 
Childhood Abuse and Household Dysfunction to Many of the Leading Causes 
of Death in Adults. The Adverse Childhood Experiences (ACE) Study. 
American Journal of Preventive Medicine.
---------------------------------------------------------------------------
    We know that women who suffered serious assaults in childhood 
experience more episodes of depression, post-traumatic stress, and 
substance abuse, demonstrating a relationship between childhood trauma 
and adult psychopathology,<SUP>[13]</SUP> as well as links between 
childhood neglect and later alcohol problems in women.<SUP>[14]</SUP>
---------------------------------------------------------------------------
    \[13]\ R.D. Duncan, et al. (1996). Childhood Physical Assault as a 
Risk Factor for PTSD, Depression, and Substance Abuse: Findings From a 
National Survey. American Journal of Orthopsychiatry. Washington, DC: 
National Institute on Drug Abuse.
    \[14]\ C.S. Widom, et al. (1995). Alcohol Abuse in Abused and 
Neglected Children Followed-up: Are They at Increased Risk? Journal of 
Studies on Alcohol. Washington, DC: National Institute of Justice.
---------------------------------------------------------------------------
    Finally, looking at the consequences of child maltreatment, we find 
that among homeless people, many of them, especially homeless women, 
reported serious family problems or a history of sexual or physical 
abuse as children that predisposed them to homelessness as 
adults.<SUP>[15]</SUP>
---------------------------------------------------------------------------
    \[15]\ S. Davies-Netzley, et al. (1996). Childhood Abuse as a 
Precursor to Homelessness for Homeless Women With Severe Mental 
Illness. Rockville, MD: National Institute of Mental Health.
---------------------------------------------------------------------------
    An analysis of the costs of child abuse and neglect in the United 
States looking at the direct costs of hospitalizations, chronic health 
problems, mental health care, child welfare services, law enforcement 
intervention, and the judicial process totals over $24 billion 
annually. When we add the indirect costs from special education, 
additional health and mental health care, juvenile delinquency and 
adult criminality, as well as lost productivity, the total annual cost 
of child abuse and neglect in the United States amounts to more than 
$94 billion.<SUP>[16]</SUP> We cannot sustain this drain of human and 
financial capital when we know how to support families and prevent 
abuse from occurring in the first place.
---------------------------------------------------------------------------
    \[16]\ Fromm, Suzette (2001). Total Estimated Cost of Child Abuse 
and Neglect in the United States. Prevent Child Abuse America, Chicago.
---------------------------------------------------------------------------
    Preventing child abuse is cost effective. Over ten years ago (1992) 
a report by the General Accounting Office looking at evaluations of 
child abuse prevention efforts found that ``total federal costs of 
providing prevention programs for low-income populations were nearly 
offset after four years.'' <SUP>[17]</SUP>
---------------------------------------------------------------------------
    \[17]\ U.S. General Accounting Office (1992). Child Abuse: 
Prevention Programs Need Greater Emphasis (GAO/HRD-92-99).
---------------------------------------------------------------------------
    Community-based, in-home services to overburdened families are far 
less costly than the damage inflicted on children that leads to outlays 
for child protective services, law enforcement, courts, foster care, 
health care and the treatment of adults recovering from child abuse. A 
range of services, such as voluntary home-visiting, family support 
services, parent mutual support programs, parenting education, and 
respite care contribute to a community's successful strategy to prevent 
child abuse and neglect. To be eligible for federal child welfare 
assistance, states should be required to develop a prevention plan 
including effective programs identified to carry out the prevention 
work of community-based programs serving families and children.
    In 2002, the deplorable state of child protective services was a 
visible issue in the gubernatorial races in three states: Florida, New 
Jersey and Maryland. Public officials were called to respond to the 
deplorable state of child protection in their states, and the public 
demanded more attention to improving the capacity of community-based 
services to support parents and prevent abuse, and to treat the victims 
of abuse and neglect. It is our collective responsibility and our duty 
to America's children and the nation's future to work toward that goal.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Birch. Now we will hear 
from Courteney Holden. Ms. Holden?

 STATEMENT OF COURTENEY ANNE HOLDEN, EXECUTIVE DIRECTOR, VOICE 
                          FOR ADOPTION

    Ms. HOLDEN. Thank you, Mr. Chairman. Thank you so much for 
the opportunity to testify. My name is Courteney Anne Holden, 
and in addition to volunteering as a court-appointed special 
advocate in my home State of Washington, I am also the 
Executive Director of Voice For Adoption. Voice For Adoption is 
a membership organization. We speak out for the Nation's 
126,000 waiting children in foster care. First and foremost, 
the adoption community wants to thank you for all your hard 
work on the reauthorization of the adoption incentive program 
during last year's session. Voice For Adoption applauds the new 
focus on moving older children into adoption. In my short time 
this morning, I want to touch briefly on five areas included in 
my written statement that Voice For Adoption believes need the 
attention of Congress and the Federal Government in order to 
help ensure the promise of adoptive families for every child.
    The first is post-adoption services. If we truly want to 
ensure that children get permanent families, much more must be 
done to provide post-adoption services. The grief and the loss 
that foster children experience does not disappear once the 
adoption is finalized. A proven way to avoid adoption 
disruption is by providing services, such as respite care, 
family support groups and counseling, and adoption competent 
mental health services. Post-adoption services and support is a 
way for States to ensure that adoptive placements are 
successful. As a first step, we recommend that States be 
required to support adoptive families by reinvesting their 
incentive dollars on post-adoption services. This is especially 
important with the new focus on older children. The older a 
child is when he or she is adopted, the more likely the 
adoption is to disrupt. Congress should also take steps to 
ensure that States are spending, as required by Federal law, at 
least 20 percent of their Promoting Safe and Stable Families 
program funds on adoption promotion and support. We urge you to 
explore other strategies, as well, in your broader discussions 
of child welfare financing.
    Second, we urge you to take steps to make sure that all 
children adopted from foster care are eligible for title IV-E 
adoption assistance. The adoption assistance program is an 
extremely effective program that helps move thousands of 
waiting children into permanent families. As we all know, 
adoption is cost effective. The typical administrative costs 
associated with foster care, such as ongoing training, agency 
supervision, and periodic case reviews, disappear once the 
child is adopted. Unfortunately, due to an outdated AFDC 
eligibility requirement, not all children adopted from foster 
care qualify for assistance. Congress can help support foster 
care adoptions by eliminating the administratively burdensome 
requirement in Federal law that makes only children removed 
from poor families eligible for adoption assistance.
    Third, we ask that you eliminate the disincentives to 
adoption by requiring that adoption assistance payments be at 
least equal to the foster care payments for which the child 
would have been eligible. When foster care payments are higher 
than adoption assistance payments, as they are in some States, 
it creates a disincentive for foster parents to adopt children. 
States should provide adoptive children with at least the same 
level of support and benefit, including therapeutic and 
specialized rates, that they would have received in family 
foster care. This change in the adoption assistance program 
would help move waiting children to adoptive homes. Fourth, 
continued improvements are needed to address inter-
jurisdictional barriers to children being adopted. The special 
needs adoption community is excited about the new Federal 
adoption website. This multifaceted media tool will help 
highlight waiting children and recruit other families across 
the country. Yet inter-jurisdictional barriers to adoption need 
to be addressed to help aid the website's success.
    Several years ago, adoption workers, advocates, 
researchers, and families, including many Voice For Adoption 
members, convened in Chicago to strategize about solutions and 
overcoming barriers to inter-jurisdictional placements. I am 
happy to provide the Committee with a copy of the report from 
the meeting, which includes a number of recommendations to 
address these barriers. Finally, as you consider reforms in 
adoption and other aspects of child welfare, Voice For Adoption 
asks that you take steps to address the racial disparity in the 
child welfare system. There is a disproportionate number of 
minority children in care today. This inequity needs to be 
addressed. Recruitment of families who reflect children in 
State custody is imperative. Many children of color are 
entering Caucasian homes through adoption, and parents need to 
be prepared to deal with race-related issues by training 
families when trans-racial placements occur, in order to 
prepare families to handle the unique responsibilities in 
trans-racial parenting. I thank you for this opportunity to 
testify.
    [The prepared statement of Ms. Holden follows:]

   Statement of Courtney Anne Holden, Executive Director, Voice For 
                                Adoption

    Chairman Herger, Ranking Member Cardin and distinguished members of 
the subcommittee, thank you for this opportunity to testify on federal 
and state oversight of child welfare programs. My name is Courteney 
Anne Holden. In addition to volunteering as a court appointed special 
advocate in my home state of Washington, I am also the Executive 
Director of Voice for Adoption or VFA for short.
    VFA is a membership advocacy organization. We speak out for our 
nation's 126,000 waiting children in foster care. VFA members recruit 
families to adopt special needs children and youth. Our members also 
provide vital support services both before and after finalization to 
help adoptive families through challenges they often face. We, like 
you, are dedicated to finding permanent loving homes for every waiting 
child in foster care.
    First and foremost, the adoption community thanks you for all your 
hard work in reauthorizing the Adoption Incentive program during last 
year's session. VFA applauds the new focus on moving older children 
into adoption. However, it is important that states support these 
adoptive families by reinvesting their incentive dollars on post-
adoption services.
    Research shows that the older a child is when he or she is adopted 
the more likely the adoption will dissolve. The grief and loss that 
foster children experience does not disappear when the adoption is 
finalized. A proven way to avoid adoption disruption is by providing 
support services such as respite care, family support groups and 
counseling, and adoption competent mental health services. Post-
adoption services and support is a way for states to ensure that 
adoptive placements are successful.
    Also, many states do not take full advantage of the ability to fund 
post-adoption services through the adoption promotion and support 
provision of the Promoting Safe and Stable Families (PSSF) program. 
State should spend at least 20 percent of their PSSF flexible funds on 
post-adoption services and support.
    Another extremely effective program in moving waiting children to 
permanency is the Adoption Assistance program. This program provides 
adoptive families with monthly subsidies to cover costs such as 
adoption camps, tutoring, and extraordinary health care costs due to 
the child's special needs. Of the 50,000 children adopted from foster 
care in 2001, 88 percent received state or federal assistance. As we 
all know, adoption is cost effective. The typical administrative costs 
associated with foster care such as ongoing training, agency 
supervision, periodic case reviews and judicial hearings disappear. 
Thousands of children and families have benefited since the program's 
inception in 1980.
    However, financial barriers to foster care adoptions still exist 
and the Adoption Assistance program needs to be modernized. Due to an 
outdated AFDC eligibility requirement, not all children adopted from 
foster care qualify for the assistance. Congress can help support 
foster care adoptions by eliminating this administrative burdensome 
requirement.
    Moreover, levels of support that children receive can vary, often 
foster care payments are higher, in effect creating a disincentive to 
adopt the child. States should provide adopted children with at least 
the same level of support and benefits (including any therapeutic or 
specialized rates) they would have received in family foster care. 
Nationally, payments made on behalf of an eight-year-old child average 
$14 per day, a fraction of what the Department of Agriculture suggests 
is needed to raise an average child, let alone a child with serious 
disabilities. Making these few changes to the Adoption Assistance 
program would go a long way in moving waiting children into permanent 
homes.
    The special needs adoption community is excited about the new 
federal adoption website. This multi-faceted media tool will help 
highlight waiting children and recruit forever families across the 
county. Yet, interjursidictional barriers to adoption need to be 
addressed to help aid the websites success.
    Several years ago, adoption workers, advocates, researchers, and 
families including many VFA members convened in Chicago to come up with 
solutions to overcoming barriers to interjursidictional placements. 
Which state pays for the adoptive home study and the varied home study 
fees were just some issues that where addressed. I am happy to provide 
committee members with a copy of the report from the meeting.
    Additionally, last week the Children's Bureau at HHS convened a 
workgroup on the identical subject. VFA is thrilled that Majority 
Leader Tom Delay's staff, Dr. Cassie Bevan and Susan Smith with 
Illinois State University Center for Adoption Studies are 
participating. However, there are some notable absences on the 
workgroup, including adoption exchanges and agencies that specialize in 
the placement of African American and Latino children. Also absent are 
grantees that focus on overcoming geographic barriers such as Oregon's 
Team Work for Children. This group has an Adoption Opportunities grant 
to finds collaborative ways to overcome barrier and is working with 
states such as Washington, Idaho and California. There are three other 
states with AO grants on this topic including Texas, Colorado and 
Alaska. This past fall, VFA awarded the Adoptions Across Boundaries 
recognition to Oregon for their commendable work in overcoming barriers 
to cross-jursidictional placements. VFA urges the Children's Bureau to 
expand the workgroup before their next meeting.
    VFA is not the only organization that places priority on addressing 
geographic barriers. Organizations like the American Academy of 
Adoption Attorneys (Quad A) and the American Public Human Services 
Association (APHSA) are working within their membership to address this 
issue too. It is VFA's hope that all groups and the Children's Bureau 
can work together to find consensus and help improve adoptive and 
foster care placements across state lines.
    There are a disproportionate number of minorities, 45 percent are 
Black non-Hispanic and 12 percent are Hispanic, in the child welfare 
system. This inequity needs to be addressed. Recruitment of families 
who are reflective of children in state custody is imperative. Many 
children of color also enter Caucasian homes through adoption, and 
parents need to be prepared to deal with race-related issues. Training 
families when transracial placements occur is crucial in order to 
prepare families to handle the unique responsibilities of transracial 
parenting.
    VFA also looks forward to the release of the Pew Commission's 
Report on Youth in Foster Care. We truly appreciate that focus on child 
welfare that the Commission has brought. We also look forward to 
today's Packard Foundation briefing on a report and survey of foster 
care.
    Waiting children are languishing too long in state care. These are 
just a few issues that will help eliminate barriers and accelerate 
adoptions. The 126,000 children and youth who cannot safely return to 
their birth parents are depending on us.
    On behalf of waiting and adopted children and their families, thank 
you again for this opportunity to address the subcommittee. I am happy 
to answer any questions members might pose.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Holden. Now Mr. Jack Trope 
to testify.

STATEMENT OF JACK F. TROPE, EXECUTIVE DIRECTOR, ASSOCIATION ON 
          AMERICAN INDIAN AFFAIRS, ROCKVILLE, MARYLAND

    Mr. TROPE. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before the Committee. The Association on 
American Indian Affairs, of which I am the Executive Director, 
is an 80-year-old Indian advocacy organization. We have a 
broad-based program, one part of which is in the field of 
Indian child welfare. We have been involved in child welfare 
for decades. We were instrumental in obtaining the enactment of 
the Indian Child Welfare Act (P.L. 95-608), and since its 
enactment, we have worked on policy with tribes to negotiate 
tribal-State agreements, and we have provided training to, 
among others, State employees and officials on Indian child 
welfare. We have also had a longstanding interest in the issue 
of adequate funding for tribal child welfare programs, having 
testified before this Committee as far back as 1990 on these 
issues. We applaud the Subcommittee for its efforts to 
continually look at these issues, because they are vitally 
important.
    Obviously, the perspective that we have to offer has to do 
with our work with Indian children, and we have some specific 
recommendations about that--but I think some of our 
observations are more broadly applicable to all children 
involved with the system. First of all, I would like to say, in 
terms of Indian children and the safety and well-being of 
Indian children, we believe, like many others, that increasing 
the resources available to children in need, and families in 
need, is essential. One way in which this can be done for 
Indian children that is different than other children is to tap 
into tribal resources. As you probably know, Mr. Chairman, 
tribal governments are separate governmental entities from 
States. They provide child welfare services to children within 
their own communities, but they also have a vital interest in 
those children that are involved with State systems. We have 
worked with tribes to negotiate tribal-State agreements that 
cover a whole variety of items, including things like joint 
planning, decisionmaking and service delivery, early notice to 
tribes, maximum support to families to adjust to placements and 
to deal with particular cultural needs, training exchanges, and 
so forth. We believe that one way in which more resources can 
be brought to bear for Indian children is through encouraging 
tribal-State agreements that provide Indian children and 
families who are in the State system with access to tribal 
resources, tribal families, and tribal communities.
    We would note, however, that in order for tribes to 
effectively participate in those kinds of agreements, they also 
need resources. Once again, I would remind the Committee that 
many Indian children are not under State systems. They are 
under tribal systems and under tribal jurisdiction, and we do 
have Federal programs--most specifically the title IV-E foster 
care program--that do not provide for direct funding to tribes, 
and that is an oversight that this Committee, we hope, will 
address. Congressman Camp is sponsoring legislation to do that, 
and we applaud him for that. We know that this issue is being 
considered on the Senate side--and that this legislation might 
be part of the welfare reform reauthorization passed by the 
Senate. If that is the case, we hope that Members of this 
Subcommittee will advocate for it in conference. In addition, 
for tribes and States to really work together effectively in a 
partnership for Indian children, it is very important that 
States have a commitment to the unique needs, circumstances, 
and legal framework that pertains to Indian children. Right 
now, the Indian Child Welfare Act is a unique law that applies 
to Indian children, and there is no Federal oversight of the 
implementation of that law. We urge you to designate a Federal 
agency to do that.
    More broadly, I want to talk about a couple of things that 
I think are applicable to non-Indian children. One is based 
upon something that is very typical in Indian communities--
namely, strength-based family healing systems. These are 
systems where families come together with extended family, 
community members, tribal employees, and whoever is 
appropriate, to develop plans to deal with troubled families. 
It is a concept very similar to what Mr. Bell talked about in 
his testimony, when he talked about his Family Group Decision 
Making, and bringing neighborhood resources and neighborhood 
supports in for families. We think anything that can be done to 
encourage these types of approaches would be very positive. The 
other thing I would mention is that when we think about 
permanency from a tribal perspective, permanency isn't just 
about moving a child from one nuclear family to another. It is 
about maintaining that child's connections with community, with 
extended family, and with culture. This idea ties into the 
notion of Family Group Decision Making, and is a way to 
effectively deal with these problems outside of the legal 
system. In conclusion, I would like to mention one thing a 
family court judge once told me. She said that she felt like an 
emergency room doctor. She said she patches up families, and 
makes profound decisions in their lives based on inadequate and 
conflicting information. Thus, I think that whatever we can do 
to provide supports for families and keep these problems out of 
the legal system, is a good thing for all children. I want to 
thank you again for having us here, and I hope as you go 
forward you will include us and other organizations that are 
familiar with the needs of Indian children in developing your 
legislation.
    [The prepared statement of Mr. Trope follows:]

Statement of Jack F. Trope, Executive Director, Association on American 
                  Indian Affairs, Rockville, Maryland

    Chairman Herger, Ranking Minority Member Cardin and other members 
of the Subcommittee. Thank you for inviting us to testimony before the 
Subcommittee.
    The Association on American Indian Affairs is an 80 year old Indian 
advocacy organization located in South Dakota and Maryland and governed 
by an all-Native American Board of Directors. We have been involved 
with Indian child welfare issues for decades and played a key role in 
the enactment of the Indian Child Welfare Act of 1978. We have not only 
developed policy and been involved in legal proceedings, but also 
worked with tribes to negotiate tribal-state partnerships to better 
serve Indian children and have provided training to state employees and 
officials about Indian child welfare. We have also had a long standing 
interest in the issue of adequate funding for tribal child welfare 
programs, having testified before this subcommittee about this issue as 
far back as 1990.
    We applaud the subcommittee for holding this oversight hearing and 
allowing non-governmental organizations and individuals to offer 
testimony on how state systems might better protect the safety and 
well-being of children and promote permanency.
    Obviously, the perspective that we have to offer has to do with our 
work with Indian children. There are many recommendations that we could 
present to the subcommittee. However, in part because of the short time 
frame that we have had to prepare this testimony, we will focus upon 
only a few--those least likely to be identified by other witnesses. 
Some of the recommendations that we will offer will be applicable only 
to Indian children. However, we believe that some of our 
recommendations will also have broader applicability.

Safety and Well-being
    There are several principles with which everyone involved in child 
welfare agrees: children should remain with their families wherever 
possible; if a child is in imminent risk of harm, it is appropriate to 
remove the child from his family to ensure that the child is safe; and 
if removal has taken place, reunification of the child with his or her 
family is in most cases the first option that should be considered.
    We believe that an important way to accomplish these goals is to 
increase the availability of support services for families in crisis. 
In the context of Indian children, we believe that this means 
increasing the possibility that Indian families involved with the state 
or county systems will have access to tribal services and resources, in 
addition to those provided by the state or county.
    An effective way that we have found to accomplish this end has been 
through the negotiation of tribal-state agreements that specify how the 
state will handle Indian child welfare cases and provide for tribal 
involvement in that process. The agreement between the tribes in 
Washington and the state of Washington, which we helped negotiate, is 
an example of such an agreement. That agreement, among other things, 
provides for joint planning, decision making and service delivery, 
early notice to tribes and cooperation, maximum support to children and 
families to adjust to placements, maximum support and services to care 
providers regarding cultural needs, training exchanges and some state 
funding for tribal programs.
    In order for tribes to effectively participate in such agreements, 
however, they need to have resources. Currently, tribes struggle to 
maintain child welfare programs through a patchwork of funding--some 
BIA money, extremely limited funds through Title IV-B, tribal resources 
which are also usually limited and, in rare circumstances, state 
support. Through an oversight when the law was enacted, tribes are not 
eligible for the Title IV-E foster care/adoption assistance entitlement 
program. It is important to remember that tribal governments are 
distinct from state governments and tribal nations exercise their own 
inherent sovereignty. Even aside from negatively impacting the ability 
of tribes to productively contribute to state efforts to protect Indian 
children, it must be emphasized that the lack of resources impacts the 
tribe's ability to adequately serve Indian children living in Indian 
country under tribal government jurisdiction. These children suffer 
high rates of poverty and abuse and neglect, but yet are virtually left 
out of this federal program. It is tragic that we have a federal 
entitlement program to assist abused and neglected children who must be 
removed from their homes, but have limited it to state governments and 
the children under their jurisdiction.
    We urge the subcommittee to rectify this problem and specifically 
wish to thank Representative Camp of this Subcommittee for introducing 
and seeking the enactment of H.R. 443 that would provide direct tribal 
funding under the existing Title IV-E program. We understand that the 
Senate is still considering whether to include this provision in its 
Welfare Reauthorization bill. If it is included, we urge the members of 
this Subcommittee to advocate for the provision in conference.
    In addition, for these state-tribal beneficial partnerships to 
develop fully, the state must have a commitment to proper 
implementation of the Indian Child Welfare Act. Currently, no federal 
agency takes responsibility for overseeing whether states are complying 
with the ICWA. We believe that if Congress were to mandate that a 
specific federal agency or agencies audit states for ICWA compliance, 
this would help protect Indian children.
    Finally, there are some lessons to be learned from Indian tribes 
that might have a positive impact upon all children. One of the most 
ubiquitous elements found in tribal codes on child welfare are 
alternative dispute resolution provisions. These provisions typically 
provide for informal conferences with the family and tribal employees 
and/or community members that seek to develop a plan to remediate the 
problem and obviate the need for court action. Many tribes also have 
mechanisms for developing plans after a petition has been filed--a 
consent decree with the family or something similar. The focus is to 
heal everyone in the family as the best way to ultimately provide for 
the well-being of the child. It builds upon the strengths that are 
normally present even in troubled families, strengths can often best be 
identified through involvement of extended family members or other 
community members in such processes.
    We believe that these strength-based family healing systems can 
have application beyond Indian children. Having been involved in family 
court proceedings as an attorney, I can state unequivocally that the 
adversarial process is not well adapted to child abuse and neglect 
situations. One family court judge of my acquaintance once likened 
herself to an emergency room doctor--often trying to make difficult 
decisions having dramatic impacts upon families with only limited and 
often conflicting information available. It seems to us that promoting 
conflict resolution systems that build on strengths and that pull 
together all possible supportive parties and resources in pursuit of a 
solution would improve the safety and well-being of all children. 
Obviously, there are certain egregious abuse cases where such an 
approach would not be feasible and we are not suggesting this type of 
process would be appropriate for all situations. But severe abuse cases 
are a small percentage of the overall child welfare caseload; many more 
cases involve allegations of neglect and inadequate parenting. We 
believe that a family/community non-adversarial process would be highly 
feasible in most of these cases.

Permanency
    We believe that child welfare systems and Congress must look at 
permanency in an expansive way. Too often, permanency is thought of as 
replacing a dysfunctional nuclear family with another functional 
nuclear family. We think that this is too narrow of a view.
    In almost all Indian cultures and communities, a child is thought 
of as belonging not only to his or her parents, but to his 
grandparents, uncles, aunts and other members of his extended family. 
Where there is a clan system, that can also be an important source of 
identity. Moreover, a child also has a broader sense of belonging to 
the child's tribe and his or her culture as well.
    This is reflected in many tribal codes. Tribes frequently recognize 
the rights of extended family, grandparents and traditional custodians 
to participate in judicial and informal proceedings and continued 
visitation with such individuals is frequently mandated by tribal 
courts or codes even where parental rights have been terminated. 
Extended family is defined in many codes to include a large number of 
people beyond those typically included in non-Indian definitions--
people such as clan and band members, individuals who traditionally 
assist with parenting, any person viewed by the family as a relative, 
first cousins of parents (defined as aunts and uncles), step-family and 
godparents. Concepts such as grandparents may include brothers and 
sisters of the child's lineal grandparents.
    I experienced the importance of these connections first hand when I 
was Director of the Western Area Office of the Save the Children. We 
worked closely with a number of tribal communities, including Navajo 
communities. When we would hold youth summits, we would usually start 
by having the teenagers introduce themselves to each other. Most of the 
Navajo youth would automatically introduce themselves through reference 
to their clan and extended family relationships.
    For most Indian tribes, any concept of permanency that would sever 
a child's relationship with important family and community members who 
are capable of providing love and support to the child (or that would 
sever a connection with the tribe, tribal culture or, where applicable, 
clan) makes no sense. We believe that this is true for many non-Indian 
children as well--certainly, at a minimum, there are other ethnic 
groups that have a similar sense of family and community. Maintaining a 
child's non-parental connections, unless they are demonstrably harmful 
to a child, promotes a child's well-being and sense of permanency in 
the larger sense. Many states have been expanding the use of kinship 
care, which we believe to be a positive development. In thinking about 
child welfare issues, we hope that Congress will define permanency to 
include the network of relationships that can benefit a child, and not 
just focus upon the nuclear family.

Conclusion
    In conclusion, we recommend the following:
  Indian-specific recommendations
    <bullet>  Encourage tribal-state agreements on Indian Child Welfare 
Act compliance
    <bullet>  Provide tribes with adequate resources for child welfare 
programs, particularly by making tribes eligible for the Title IV-E 
Foster Care Adoption Assistance program, as proposed by Rep. Camp in 
H.R. 443
    <bullet>  Mandate federal audits of state compliance with the 
Indian Child Welfare Act
  General recommendations
    <bullet>  Encourage the development for certain types of child 
welfare cases of alternative dispute resolution systems that involve 
extended families and communities in a strength-based, non-adversarial 
problem-solving process
    <bullet>  Define permanency to include a continued connection 
between a child and his or her extended family and community

    Thank you for the opportunity to submit this testimony and to 
appear before the subcommittee.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Trope; we will do precisely 
that. Now I would like to turn to Mr. Christopher Klicka for 
his testimony.

STATEMENT OF CHRISTOPHER J. KLICKA, SENIOR COUNSEL, HOME SCHOOL 
       LEGAL DEFENSE ASSOCIATION, PURCELLVILLE, VIRGINIA

    Mr. KLICKA. Thank you very much. It is a great privilege to 
be here, and I hope I can add some good thoughts to child 
welfare reform. I am coming from a fairly unique perspective. I 
have been Senior Counsel of the Home School Legal Defense 
Association for 18 years, and I have dealt with over 1,000 
social worker situations where families, innocent families, 
were turned in by anonymous tipsters. These anonymous tipsters 
a lot of times had prejudice against the home schoolers because 
they were teaching their children at home, and they tended to 
fabricate many allegations to get the family in trouble. Other 
situations where it is simply a relative--maybe it was a 
religious thing where they didn't like it because it was a 
Christian family. For about 95 percent of these 1,000 or more 
allegations that I have dealt with, the source has been an 
anonymous tip. This hasn't always been the case--where social 
workers at the local level pursued anonymous tips in such a 
thorough and complete manner. What their normal mode of 
operation is, regardless of whether the tipster is identified 
or not, they seek to come into the family's house, and they 
seek to interview every member in the family--including the 
children--and many times they like to do that separately. 
Sometimes they like to just do a strip search. It is very 
traumatic for the families. I have given in my written 
testimony many, many examples of situations that have occurred, 
and what happened to the families.
    Now, the two solutions that I am recommending--because what 
I am hearing from many of the panelists is that there really 
isn't enough money being spent to fight child abuse. There are 
cutbacks--Shay Bilchik said 8-percent cutbacks--and the 
caseloads are meanwhile getting bigger and bigger. In my 
experience, I see that one of the areas in which social workers 
are wasting their time is with anonymous tips, because they 
tend to be false. So, I am recommending that Congress require 
some sort of changes throughout the States in order to get 
their Federal funds to require tipsters to reveal their 
identity when they call in. Of course, their identity would be 
kept confidential by the social worker, but then the 
consequences of giving false testimony or a false tip should be 
made very clear. I believe that this will curtail tremendously 
these false allegations on which social workers are wasting 
their time, spinning their wheels, and traumatizing innocent 
families in the process. The second suggestion would be to 
require some sort of statutory mechanism where victims of 
intentionally false allegations would be able to pursue their 
tipsters with criminal charges.
    Real abuse is taking place, and children are being hurt and 
even killed. We need a child welfare system to investigate, 
stop, and prosecute this horrible abuse--like what happened 
recently in New Jersey. By limiting the investigation of 
anonymous tips and penalizing false tipsters, social workers 
will have far fewer cases to investigate, and the referrals 
will be far more accurate. This way, they can give the 
requisite time and attention to real child abuse cases instead 
of being spread thin pursuing anonymous tips that usually turn 
out to be unfounded. I give a lot of statistics on how for over 
half of all the people who are investigated for child abuse, 
the information turns out to be unfounded--and there is a large 
percentage of those that are anonymous tips. I have found that 
if people have to identify themselves, they are going to be a 
lot more careful about using the system to hurt people. Also, I 
have talked with many social workers one-on-one. There was a 
social worker in Georgia who confessed that 90 percent of all 
her cases turned out to be unfounded, and she felt like she was 
just spinning her wheels. In Alabama and Florida, I met two 
social workers who now are home schooling their children, and 
they said 60 to 70 percent of their cases were unfounded. 
Thousands of families are being hurt by this process.
    Just to give you one example of the many that I document in 
here, there is a family in Wisconsin, a home-schooled family, 
and this was the tip that the anonymous tipster gave. The 
caller was concerned because the children were all thin, and 
thought that removal of food was a possible form of discipline. 
The caller thought this discipline may have been a practice of 
the parents' religion, which is thought to have been born-again 
Christian. The caller thought that these parents give a lot of 
money to the church and spend little money on groceries. The 
caller's last, somewhat passing concern, was that the mother 
was home schooling her children. The tip turned out to be 
bogus. The only true thing was that they were actually home 
schooling. I think this Committee should take a look at the 
possibility of having some compliance procedures that States 
would follow that would enable their investigations to go much 
smoother, and not have to waste so much time pursuing false 
allegations.
    [The prepared statement of Mr. Klicka follows:]

 Statement of Christopher J. Klicka, Senior Counsel, Home School Legal 
              Defense Association, Purcellville, Virginia

    My name is Christopher J. Klicka, and I serve as Senior Counsel of 
the Home School Legal Defense Association (HSLDA). Since 1985, I have 
counseled and legally represented nearly a thousand home school 
families who were harassed by social workers investigating child abuse 
tips they received from their child abuse hotlines. Ninety-five percent 
of the tips were anonymous. The other attorneys in our organization 
have handled a similar number of these legal conflicts.
    I have seen first hand the trauma innocent families have 
experienced at the hands of social workers pursuing anonymous tips.
    The Home School Legal Defense Association is a nonprofit legal 
advocacy organization dedicated to protecting parental freedom 
generally and promoting the right to home school. At this time, we 
represent over 76,000 member families (i.e. approximately 250,000 
children and 150,000 parents.)
    Over these last 18 years, I have drafted state legislation on child 
welfare reform, lobbied on this issue before state legislatures and the 
Congress, and written and spoke extensively on the abuses of families 
by the present child welfare system. As a constitutional attorney who 
has represented hundreds of families involved in child welfare legal 
conflicts, investigations, and court cases, I have been exposed to many 
abuses in the child welfare system.
    What happens when anonymous tips are allowed to be used to justify 
entry into a home or private interviews with children is that enemies 
can phone in a tip. People who are disgruntled with the family can 
phone in a tip. People who don't like the fact that a particular family 
is homeschooling can call in a tip and turn that family's life upside 
down.
    The purpose of my testimony is to offer some possible solutions to 
real abuses that I have encountered over the years. By incorporating 
these reforms, Congress and the states can save money and encourage 
states to enable their child welfare workers to better stewards of 
their time.
    The two solutions I recommend are:

    1.  Require all tipsters to reveal their identity and address to 
the social worker. The social worker will keep this information 
confidential but warn them of consequences of giving intentionally 
false information. This will prevent the majority of bogus allegations 
that anonymous tipsters give who use the system to get back people.
    2.  Require all states to have a statutory mechanism for victims of 
intentionally false allegations to pursue the tipsters with criminal 
charges.

    Real abuse is taking place. Children are being hurt and even 
killed. We need a child welfare system to investigate, stop, and 
prosecute this horrible abuse of children. By eliminating the 
investigation of anonymous tips and penalizing intentionally false 
tipsters, social workers will have far less cases to investigate and 
the referrals will be far more accurate. This way they can give the 
requisite time and attention to real child abuse cases instead of being 
``spread so thin'' pursuing anonymous tips that usually turn out to be 
unfounded. Eliminating investigation of anonymous tips will largely 
stop tipsters from using the system to harass people they do not like 
or are prejudiced against. Eliminating anonymous tips will also better 
protect innocent families parental and 4th amendment rights.

Pursuing False Allegations Reduces Time and Attention to Investigating 
        Real Abuse Cases
    I have talked with over 1,000 social workers over the last 18 
years, many whom have indicated that they waste much of their time 
pursuing anonymous tips that turn out to be fabrications. After 
resolving a false allegation with a particular Chicago social worker 
over the phone, the social worker informed me that well over 50% of all 
referrals, most of which are anonymous, to her child welfare agency are 
``unfounded.'' Unfortunately, she complained, many of the cases are 
deemed unfounded after families are broken apart and children are put 
in foster homes.
    A social worker in Georgia, after we resolved a fabricated 
allegation concerning a homeschooler, confessed that 90% of all the 
cases of alleged child abuse she handled turned out to be 
``unfounded.'' She explained that she spent most of her time ``spinning 
her wheels'' pursuing anonymous tips. She felt the number of false 
allegations coming into her office were on the rise.
    In Alabama and Florida, I met two former social workers who were 
now home schooling their children. Both admitted that intimidation was 
a routine procedure which they were taught and which they always used 
to get their way. Their goal, in fact, was to get into the house and 
talk with the children, no matter what the allegation. Both of these 
social workers admitted that 60% to 70% of their cases were 
``unfounded'' and mostly anonymous.
    Since so many social workers are ``spinning their wheels'' pursuing 
anonymous tips that often turn out to be false, they waste much money 
and time their time. It would be far more effective to find the real 
child abusers if anonymous tips were prohibited. Requiring tipsters to 
identify themselves to the social worker would virtually completely 
prevent social workers from having to investigate false allegations. Of 
course, the tipster identification would be protected by the social 
worker until the conclusion of the case. This way, the social workers 
could spend their time pursuing real allegations and catching real 
child abusers.

Thousands of Innocent Families are Traumatized Over Anonymous Tipsters 
        Using the System to Hurt People
    I can provide much-documented abuses of social workers using 
anonymous tips and how families were traumatized. For example, in 
Wisconsin, a home school family was reported by an anonymous tipster. I 
secured a copy of the report by the social worker which said:
    ``The caller was concerned because the children were all thin and 
thought that removal of food was possibly a form of discipline. The 
caller thought this discipline may have been a practice of the parents' 
religion which was thought to have been Born Again. The caller thought 
that these parents give a lot of money to the church and spend little 
money on groceries. The caller's last, somewhat passing concern, was 
that [the mother] home schools her children.''
    As usual, the anonymous tip was bogus. It is apparent from the 
report that the caller was biased against both the fact that the family 
was home schooling and that they were born again Christians. The social 
worker insisted on entry into the home and interrogate the children.
    One family had recently moved to Florida. Within weeks, they were 
visited by a truant officer who questioned the legality of their 
schooling. The truant officer left and reported them to the Health and 
Human Services department. A few days later, an HHS agent appeared at 
the door and demanded to interview the children within 24 hours or he 
would send for the police. The allegations were that ``the children 
were home during school hours and the children were sometimes left 
alone.'' I explained the legality of their home schooling and denied 
the ``lack of supervision'' charge. (The family only had one car and 
the father took it to work leaving the mother at home). I then called 
his bluff and refused to have the children interviewed. After talking 
with the parents, we allowed him to come by the door and see the 
children only from a distance. He finally closed the case because he 
had no evidence except an anonymous tip.
    A really outlandish investigation involved a home school family in 
New Jersey. In the first visit, the agent from the Division of Youth 
and Family Services accused the mother of kidnapping some of her 
children because she had so many children. The mother produced birth 
certificates to prove the children were hers. The following year, 
another agent came by and said that someone called and reported that 
the ``children were seen outside during school hours.'' She demanded to 
enter the house but, under my instruction, the mother refused. Although 
she knew it was only an anonymous tip, the agent then said she would be 
back with the police. She never came back that day, showing that she 
was only bluffing.
    In California, a single mother was contacted by a social worker 
with allegations that ``children were not in school, mother was 
incapacitated, and caretaker was absent.'' I talked with the social 
worker and she admitted the allegations were based solely on an 
anonymous tip. However, she insisted on talking with the children 
separately. When I objected, she said she would get a police officer 
and that she did not need a warrant. We held our ground and she settled 
for a meeting with the mother and a witness only.
    One of our member families had just moved into Alabama two weeks 
earlier and had not really met anyone in their neighborhood yet. 
However, the Department of Human Resources agent received an 
``anonymous tip'' that the children had ``bruises'' and demanded a 
``strip search!'' When I refused to allow a ``strip search,'' the agent 
became upset and stammered, ``No one else ever refused a strip search 
before!'' She also implied the family had something to hide.
    The above comment of the social worker in Alabama is a common 
response which I hear from social workers frequently concerning all 
kinds of demands. They are personally offended that we would refuse to 
let them into the home or interview the children. Many of them 
insinuate the family must be guilty even though they have nothing but 
an anonymous tip.
    In Appendix I, I relate more true accounts of social workers 
harassing innocent parents over the last few months. All these examples 
simply demonstrate the desperate need for consistency in applying a 
constitutional standard in the all the state child welfare codes.
Court Precedent: the Fourth Amendment and Anonymous Tips and Social 
        Workers
    The 4th Amendment applies to all 50 states. It guarantees:

          The right of the people to be secure in their persons, 
        houses, papers, and effects, against unreasonable searches and 
        seizures, shall not be violated, and no Warrants shall issue, 
        but upon probable cause, supported by Oath or affirmation, and 
        particularly describing the place to be searched, and the 
        persons or things to be seized.

    Yet social workers do not believe it applies to them and they 
pursue anonymous tips to the detriment of innocent families 4th 
amendment rights.
    It is time for the Congress to take the lead to protect these 
precious 4th Amendment rights of the over 1 million innocent parents 
being abused by the state child welfare systems, largely by anonymous 
tipsters..
    Below are some of the key cases that define how the 4th Amendment 
applies to social workers.
    The Home School Legal Defense Association won its first significant 
case in this area in 1993, when the Alabama Court of Appeals construed 
the term ``cause shown'' in a state child abuse investigation statute 
to mean ``reasonable or probable cause to believe that a crime is being 
or about to be committed,'' since any other reading might conflict with 
the Fourth Amendment. H.R. v. Dept. of Human Resources, 609 S.E.2d 477 
(Ala. Civ. App. 1993). In H.R., HSLDA represented a low-income home 
school mother who was contacted by a social worker over some 
allegations of child abuse and educational neglect. Under counsel from 
HSLDA, the family refused to allow the social worker to come into the 
home or to interrogate the children. In order to muscle this family, 
charges of child neglect were brought based on no evidence whatsoever: 
only based on an anonymous tipster who admitted she did not have 
personal knowledge of the family's situation.
    However, a hearing was held on whether an anonymous tip was enough 
to require the social worker to enter the home and interrogate the 
children. The lower court agreed that it was and issued a search 
warrant.
    HSLDA appealed the decision to the Alabama Court of Appeals on the 
basis that the Fourth Amendment to the Constitution requires government 
officials to have ``probable cause'' (some kind of reliable evidence) 
to enter individuals' homes. The Alabama Court of Appeals reversed:
    We suggest, however, that the power of the courts to permit 
invasions of the privacy protected by our federal and state 
constitutions, is not to be exercised except upon a showing of 
reasonable or probable cause to believe that a crime is being or is 
about to be committed or a valid regulation is being or is about to be 
violated. . . .
    The `cause shown' [in this case] was unsworn hearsay and could, at 
best, present a mere suspicion. A mere suspicion is not sufficient to 
rise to reasonable or probable cause.
    H.R. v. Department of Human Resources, 609 So. 2d 477 (Ct. Civ. 
App. ALA 1993)
    In the years since 1993, court after court has rejected the myth 
that social workers are exempt from the requirements of the Fourth 
Amendment.
    In Calabretta v. Floyd, 189 F.3d 808 (9th Cir. 1999), for example, 
a case we litigated, the unconstitutional strip search took place on 
October 27, 1994. The federal district court denied the social worker's 
summary judgment motion for qualified immunity, and the Ninth Circuit 
affirmed that ruling on Aug. 26, 1999.
    The Fourth Amendment rights case was originally filed February 24, 
1995, by HSLDA on behalf of Robert and Shirley Calabretta in the 
Eastern District of California federal court, after a Yolo County 
policeman and social worker illegally entered the Calabretta home and 
strip searched their three-year-old daughter. The policeman and social 
worker forced their way in the home over the objections of the mother 
based simply on an anonymous tip. The tipster merely said she heard a 
cry in the night from the Calabretta home, ``No Daddy no!'' After the 
coerced entry, interrogation of the children, and the strip search of 
the three-year-old, no evidence of abuse was found and the officials 
ended the investigation. The police officer and social worker said 
``thank you'' and left.
    The Ninth Circuit came down hard against the social workers for 
violating the 4th Amendment:
    We held, years before the coerced entry into the Calabretta home, 
that even in the context of an administrative search, ``[n]owhere is 
the protective force of the fourth amendment more powerful than it is 
when the sanctity of the home is involved. . . . Therefore, we have 
been adamant in our demand that absent exigent circumstances a warrant 
will be required before a person's home is invaded by the 
authorities.'' 189 F.2d at 817, quoting Los Angeles Police Protective 
League v. Gates, 907 F.2d 879, 884 (9th Cir.1990).
    The reasonable expectation of privacy of individuals in their homes 
includes the interests of both parents and children in not having 
government officials coerce entry in violation of the Fourth Amendment 
and humiliate the parents in front of the children. An essential aspect 
of the privacy of the home is the parent's and the child's interest in 
the privacy of their relationship with each other. 189 F.2d at 820.
    The precedent is very clear. The 4th Amendment does apply to social 
workers. This landmark decision of Calabretta v. Floyd, makes it 
perfectly clear that social workers are bound to obey the U.S. 
Constitution when investigating child abuse cases. With respect to the 
Fourth Amendment, the Ninth Circuit settled the social worker question 
once and for all. No longer can social workers enter a home without 
either a warrant or probable cause of an emergency. It is a myth that 
Child Protective Services agencies are exempted from the Fourth 
Amendment's prohibitions against illegal searches and seizures.
    In another case in California, on Tuesday, May 18, 1999, at 
approximately 3:00 p.m., two social workers from Child Protective 
Services arrived at the DeSantis home to investigate an anonymous 
complaint of child abuse. The social workers insisted upon entry to 
investigate allegations of physical abuse, to examine the utilities, 
and to make certain that the children had adequate food and clothing.
    ``You do not have my consent to enter, but the gate is open,'' Mrs. 
DeSantis told the workers. Despite the mother's objections, Debbie 
Mulvane and Sandy Knabb pushed through the gate and marched into the 
house.
    Once inside, they strip-searched the two younger children and 
subjected the seven year old to a traumatizing private interview. As 
the social workers left, they stated that the referral was a hoax and 
the case would be closed.
    On March 2, 2000, HSLDA filed a civil rights lawsuit on behalf of 
the DeSantis family against the social workers for violating the 
family's Fourth Amendment right against entry without a warrant.
    After long negotiations, the social workers finally agreed to pay 
Mr. and Mrs. DeSantis $40,000 to avoid a trial.
    In another HSLDA case, Marsh v. Bellanca, based on anonymous tip, 
officials entered a home without consent. On February 1, 2001, HSLDA 
filed a civil rights suit against the Riverside County child welfare 
agency. A social worker visited one of our member fathers in Riverside, 
California, and advised that he was investigating child neglect and 
abuse because the son was not registered in public school. Even though 
it was July 20, 2000, and school was not in session, the father 
explained that his son was enrolled in a private school. The social 
worker admitted the report was anonymous.
    Nevertheless, the worker insisted that the child needed to be 
interviewed. The father objected, but the two uniformed officers 
accompanying the worker pushed their way past him. Mr. Marsh advised 
the officers that they had entered against his will and that he was 
going to contact his attorney. The social worker inspected the child's 
sleeping quarters and then interviewed the child out of the presence of 
the father. Mr. Marsh gave the social worker the name and phone of the 
private school, as well as the birth dates of himself and his wife. The 
officials left, but indicated that the investigation may not be over.
    In addition to the 4th Amendment rights, parents also have ``the 
fundamental right to direct the education and upbringing of their 
children'' as guaranteed under the 14th amendment of the U.S. 
Constitution. The United States Supreme Court made it clear that these 
are, in fact, fundamental federal rights. In Troxel v. Granville, 530 
U.S. 57 (2000), the Court struck down a Washington state statute that 
allowed juvenile courts to order third party visitation without any 
showing of parental unfitness or harm to the child. The Court ruled 
that this statute deprived parents of a federally protected liberty 
interest without due process of law.
    This affirms a long line of U.S. Supreme Court case starting with 
Meyer v. Nebraska, 262 U.S. 390 (1923), Pierce v. Society of Sisters, 
268 U.S. 510 (1925), Wisconsin v. Yoder, 406 U.S. 205 (1972), and 
Parham v. J.R., 442 US 584 (1979). The treatment many parents are 
receiving at the hands of social workers pursuing anonymous tips, 
violates parent's fundamental rights to direct the upbringing of their 
children.

Solutions to Reform the Child Welfare System
    I offer two solutions to prevent unnecessary trauma to families 
while saving state and Federal Governments millions of dollars in 
following ``wild goose chases.''

    1.  Anonymous Tips: As a condition of receiving federal funds, 
states should be mandated to require all reporters of child abuse to 
give their names, addresses and phone numbers. This will curtail false 
reporting and end harassment using anonymous tips. The appropriate 
legislation should be amended by adding a requirement that ``each state 
must establish provisions and procedures to assure that no reports 
shall be investigated unless the person making such a report provides 
such person's name, address and telephone number and that the 
information is independently verified.''
    2.  False Reporting: As a condition of receiving federal funds, 
states should be required to make it at least a class C misdemeanor to 
knowingly make a false report. ``States shall establish penalties for 
any individuals who knowingly or maliciously makes a false report of 
any type of child abuse or neglect that includes a provision stating 
that such persons shall also be liable to any injured party for 
compensatory and punitive damages and a provision requiring that all 
reporters be informed of the penalties for false reporting and that the 
call is being recorded.''

    Seventeen (17) states have penalties for false reports in their 
child welfare code.
Conclusion: Congress Needs To Free Social Workers to Pursue Real Abuse 
        Cases
    Real abuse is taking place. Children are being hurt and even 
killed. We need a child welfare system to investigate, stop, and 
prosecute this horrible abuse of children. By eliminating the 
investigation of anonymous tips and penalizing intentionally false 
tipsters, social workers will have far less cases to investigate and 
the referrals will be far more accurate. This way they can give the 
requisite time and attention to real child abuse cases instead of being 
``spread so thin'' pursuing anonymous tips that usually turn out to be 
unfounded. Eliminating investigation of anonymous tips will largely 
stop tipsters from using the system to harass people they do not like 
or are prejudiced against. Eliminating anonymous tips will also better 
protect innocent families parental and 4th amendment rights.
                                 ______
                                 
                               APPENDIX I

 True Accounts of Social Workers Wasting Time Pursuing Anonymous Tips 
                  and Traumatizing Innocent Families.

Michigan: ``What Is the Fourth Amendment Again?''
    Mr. and Mrs. A* were enjoying an extended out-of-state trip with 
their family. While checking their answering machine, they discovered a 
message from a local child protective services worker. Mr. A called CPS 
to find out what was going on. Apparently, an anonymous person had 
alleged that Mr. A's children were being ``beaten'' and that one had a 
black eye. The charges were completely false, but the CPS worker 
insisted that, as soon as they arrived back from their trip, he come 
into their home and interview each child, including their three year 
old.
    Upon my advice, the family submitted a statement from their doctor, 
giving the family a clean bill of health and several character 
references.
    However, the CPS worker still insisted that the law required him to 
come into the house and interview the children. When I challenged him 
that this was not in the law, he was not able to produce any authority 
to the contrary.
    When I told the CPS worker we simply wanted to protect the family's 
Fourth Amendment rights, he asked ``What is the Fourth Amendment 
again?'' This man has been a social worker for 20 years, and yet he did 
not know what the Fourth Amendment to the U.S. Constitution says! The 
Fourth Amendment is the key Due Process protection that every law 
enforcement officer must follow.
    I reminded the social worker that he had no right to enter the home 
and interview the children without a warrant or court order signed by a 
judge. The anonymous tip he had received was false and did not rise to 
the level of probable cause. After 30 minutes of discussion, the 
situation was finally resolved to the satisfaction of the parents, and 
the social worker determined that allegations were unfounded.

Kentucky--Social Worker Says Home Schooling Without Certified Teacher 
        Illegal
    Pendleton County, Kentucky--Two of the most common legal 
difficulties home schoolers face are anonymous tips to social services 
by people who are not familiar with all the facts of a situation or 
government officials who do not know the law. Last week, a single 
mother in Kentucky faced both problems during an unpleasant social 
services investigation.
    Mrs. T, who home schools her three children, was making 
preparations to move out of her house. As part of these preparations, 
the electricity was turned off. Unfortunately, the house she was 
planning to move into was not immediately available, so she and her 
children temporarily moved in with her mother, who lives close by.
    An unknown person reported the T family to the Kentucky Department 
of Children and Families, claiming that the children were living in a 
house without any electricity and were not attending school.
    When a social worker came to Mrs. T's door while the family was 
packing, Mrs. T explained the circumstances. However, the social worker 
demanded entry to talk to the children about their schooling. Claiming 
that home schooling is illegal in Kentucky unless the teacher is state-
certified, she threatened to remove the children from the home.
    Mrs. T called HSLDA, and HSLDA immediately informed the social 
worker that Kentucky law allows parents to teach their children at 
home, and that Mrs. T was in full compliance with the law. After the 
local public school confirmed that Mrs. T had indeed sent in her notice 
this year, the social worker agreed to drop all of the allegations.
Nevada--Family Successfully Handles Hostile Investigation
    NEVADA--Mrs. P was at the library around lunchtime with several of 
her children, who began telling her that they were ``starving.'' 
Evidently, someone overheard them and called in an anonymous tip to 
Child Protective Services, claiming that the children were ``starving 
and dirty.'' This complaint resulted in an aggressive investigation.
    A few days later, a social worker visited Mr. and Mrs. P at home. 
They explained the situation at the library and brought the children to 
talk to him, so that he could see they were well fed. But that wasn't 
enough--the social worker then demanded to enter the home, which Mr. 
and Mrs. P respectfully denied.
    When the P family told HSLDA about the investigation, HSLDA 
contacted the social worker and explained that the Fourth Amendment 
protected our member's right to deny his entry without a warrant or an 
emergency.
    Several weeks passed. Suddenly, the social worker showed up on the 
family's doorstep, again demanding entrance. Mr. and Mrs. P called 
HSLDA and handed the phone to the social worker. After HSLDA reiterated 
the family's rights and the family showed the official that they had 
food on hand, he yelled at Mrs. P and left.
    The next day, the social worker's supervisor called Mrs. P and, 
after vigorously complaining that the family had been 
``uncooperative,'' informed her that the case was unfounded.

Missouri--HSLDA Defends Family from False Allegations
    The W family in Missouri, Home School Legal Defense Association 
members, was visited by a social worker investigating allegations that 
their children were not in school.
    When the social worker arrived at their door, Mr. W immediately 
called HSLDA. We talked to the social worker to discover the specific 
allegations from the anonymous tipster and then explained Mr. and Mrs. 
W's constitutional rights.
    In response to the allegation of truancy, we told the social worker 
that the W family was home schooling in compliance with Missouri law. 
While she quickly dropped that claim, as required by state law, she 
still insisted upon investigating other allegations, including that of 
physical neglect and unsafe living conditions.
    We advised Mr. and Mrs. W to have their children examined by their 
family pediatrician. The doctor gave them all a clean bill of health 
and wrote the social worker a letter to this effect.
    In addition, we were able to find a friend of the W family who was 
a police officer. He examined the house and reported to the social 
worker that there were no unsafe conditions.
    After we supplied the social worker with all this information, the 
W family had no further contact from her.

Indiana--Social Workers Refuse to Disclose Allegations
    Based on only an anonymous tip of ``possible child neglect,'' 
social workers from the Jackson County Office of Family and Children 
contacted Mr. and Mrs. Bailey* demanding to enter their home to 
interrogate their child. When the Baileys asked about the allegations 
against them, the social workers refused to provide them with any 
information.
    The Baileys immediately contacted Home School Legal Defense 
Association for assistance. When we talked to the social workers, they 
refused to reveal the allegations either, even though a newly-passed 
federal law states that social workers are supposed to explain what the 
allegations are when they first contact the family. Attorney Tom 
Washburne of HSLDA followed up with several letters to the attorney who 
represents the Office of Family and Children, but they still refused to 
cooperate.
    Finally, the social workers laid down an ultimatum--either 
surrender the child for an interview on the still-unknown allegations, 
or face court action. The Baileys decided to stand on their Fourth 
Amendment rights, so the social workers' attorney filed a motion with 
the court to force an interview with the Baileys' child. However, even 
in this motion, the Office of Family and Children never disclosed the 
content of the anonymous allegations.
    HSLDA quickly opposed this motion, since the court would have to 
rule blindly on whether to grant a warrant. We argued that the 
constitutional right to due process requires that parties be informed 
of the factual basis for allegations against them before a hearing so 
that they may be able to prepare. Indiana law has long recognized that 
parents have a right to know the nature of the allegations against them 
before a hearing. Under state law, when the attorney filed the motion 
with the court, he was supposed to also file a statement of facts 
explaining the allegations. In addition, under Indiana law, anonymous 
tips are not sufficient for a court to issue a warrant.
    Apparently realizing that this was a losing battle, the social 
workers' attorney finally called HSLDA and told us the nature of the 
anonymous tip.
    After discussing the matter with the family, we discovered that a 
stranger had misinterpreted some perfectly innocent behavior. Armed 
with the facts, the Baileys were then able to resolve the matter with 
social services quickly.

Texas--Neglect Case Dismissed
    The Wilson family in Longview, Texas was surprised to be contacted 
by the Child Protective Services based on an anonymous tip that their 
children were being neglected. The parents wisely refused to let the 
social workers talk to the children. A week later, the social worker 
returned escorted by a deputy sheriff.
    The allegations were ``children are malnourished, they used 
homeopathy, had home births, no social security numbers for the 
children, homeschooled, unsupervised near lake, sores on children, and 
14-month old was not fed any solids.''
    HSLDA was able to prove that these allegations were completely 
false.
    The social worker demanded to interview the children. HSLDA offered 
to allow an interview as long as a third person was present. Instead of 
responding, the social worker obtained a court order to gain entry into 
the family's home. Providentially, the Wilson family was on vacation 
and the summons was never delivered.
    Upon review of the allegations in the social worker's affidavit to 
obtain the court order, HSLDA discovered that the social worker had 
misstated the facts. We reached the social worker's supervisor and 
worked out an understanding to withdraw the court order if the social 
worker interviewed the children with the parents present. The 
supervisor found no evidence of abuse and stated: ``This has been a 
mistake.'' The investigation has been closed and all allegations have 
been dismissed.
    A formal complaint has been issued against the social worker who 
obtained the court order.

Texas--Education Neglect When School's Out?
    In July, the Lewis family was turned into the Child Protective 
Services by an anonymous tipster. One of the allegations was that the 
family homeschools their six year old child. The tipster indicated that 
the child cannot read. The fact is that the child can read, at the 
level of a six year old. Furthermore, this allegation is truly absurd 
as school is not in session; therefore, no educational neglect can 
occur.
    To show the extent that some anonymous tipsters will go to try to 
get a family in trouble, they asserted that the children swim in a 
``feed trough.'' The family lives in the city and has no close 
proximity to any feed troughs, which simply demonstrates that the 
tipster was malicious. HSLDA has communicated with the CPS worker that 
she has no right to enter into the home, nor to talk to the children 
separately. We believe that this situation will resolve quickly.

Florida--Homeschoolers Face Aggressive Child Protection Investigators
    The Wilkins family was homeschooling their children in Palm Bay, 
pursuant to the Florida home school law. Little did they know their 
life would turn upside down when the Dad was seen lightly spanking 
their two-year old on the diaper in a parking lot.
    The anonymous tipster called the police who met the homeschool 
father at the home when he returned. The father showed the police the 
2-year old and they were satisfied that there was no injury. However, 
the incident was referred to the Florida Department of Children and 
Families. A social worker came to the home and talked at length with 
the parents and children. Although the social worker found no evidence 
of abuse, she demanded that the parents: 1) take 22 weeks of parenting 
classes through the County, 2) have a social worker visit once a month 
for an indefinite period of time to see how they are doing, and 3) sign 
a statement of release allowing the social worker to get documents and 
medical records from any source they choose. Then she indicated that 
they would seek a court order if the family did not cooperate.
    At this point the family contacted Home School Legal Defense 
Association because they did not believe that the law required them to 
fulfill the demands of this social worker.
    HSLDA Attorney Chris Klicka contacted the child protective 
investigator who at first did not want to back down from her demands. 
She indicated that the family was at risk. When Chris Klicka asked why, 
she told him the Wilkins have a large family (four children), they 
homeschool and have a low profile in the community, and they do not 
have daily contact with trained people who can detect child abuse, such 
as those who run the local public school. She also admitted that the 
children look fine and there was no marks on them, nor any concerns 
that abuse was actually taking place.
    After much discussion on the phone, the social worker insisted that 
she would need to get a court order if her earlier demands were not 
satisfied. HSLDA immediately responded with a 4-page letter explaining 
that the Florida statutes say ``corporal discipline of a child by a 
parent--for disciplinary purposes, does not constitute abuse when it 
does not result in harm to the child.'' This statute further explains 
that corporal punishment would only be abusive if there were clear-cut 
injuries (sprains, dislocations, or significant bruises). Furthermore, 
Mr. Klicka pointed out that in order for a child to be taken from a 
family, or a court order issued, there must evidence that the children 
are under substantial risk of eminent abuse or neglect.
    In this case, the fact that they have a large family homeschool, 
and no contact with daycare centers or public schools, is not 
sufficient evidence to constitute a substantial risk of abuse.
    Mr. Klicka ended the letter by establishing the constitutional and 
statutory right of a family to homeschool and the fact that if her risk 
factors were applied, every homeschool family in the state of Florida 
would be guilty of abuse.
    The social worker finally withdrew her demands and the family is 
able to continue homeschooling without further harassment.
Florida--Social Worker Attempts to Intimidate Family with Police
    The Morris family in Orlando was homeschooling, but the parents 
decided to separate for a time due to some marriage issues. When the 
family returned to the home where the father was still staying, they 
were surprised to be met by a child protective investigator.
    Apparently, an anonymous tip came from someone out-of-state, who 
invented a false story about the father. The family immediately called 
HSLDA after the social worker came back a second time. The social 
worker demanded to interview the children and demanded entry to the 
house. HSLDA Attorney Chris Klicka argued with the social worker over 
the phone for thirty minutes while she waited on the doorstep. Finally, 
in exasperation, after getting one police officer, she said, ``I will 
get four more police officers.'' Attorney Klicka responded, ``You can 
get a whole army of police officers, but you still cannot come into the 
home without a warrant.'' An anonymous tip is not sufficient evidence 
to get any type of court order.
    This homeschool family had restored their relationship, but it was 
nearly broken asunder by the harassment of the social services. Finally 
the child protective investigator and the police left the house without 
gaining entry and interviewing the children. At this time, a family has 
been left alone.

Michigan--Several Contacts
    An anonymous tipster told the Empire Child Protective Services that 
Mr. and Mrs. Frankfurt's daughter was not being properly socialized and 
was ``isolated'' by homeschooling. This Home School Legal Defense 
Association member family contacted our office for help.
    HSLDA Senior Counsel Christopher Klicka explained to the social 
service agent that these allegations were false and supplied references 
who could vouch for the parents' responsible care of their child. The 
girl was thriving in her homeschooling program and was active with a 
local weekly science class, 4-H club, church, and other youth-related 
activities. She had just taken two trips during the last two weekends 
to other states.
    In the face of clear evidence disproving the allegations, the 
social workers dropped the case.

No Interview Needed
    Macomb Child Protective Services contacted the Johns family in 
Macomb County, concerning anonymous allegations that the father had a 
serious kidney illness and was not receiving sufficient care. On our 
member's behalf, HSLDA attorney Chris Klicka explained to CPS that Mr. 
Johns was not only receiving good care, but could care for himself. 
Suspicious that the daughter was caring for her father rather than 
homeschooling, CPS insisted on interviewing her privately. HSLDA 
established that the allegations were false, providing documentation 
and a letter describing the law and the Fourth Amendment limitations of 
CPS. CPS finally closed the case.

False Allegations
    In Dowagiac, an anonymous tipster accused the Marris family of 
having a messy home, using drugs, and neglecting the medical condition 
of their daughter. After CPS attempted several times to visit the home 
to enter and interview the child, the Marris asked HSLDA for 
assistance. HSLDA provided alternative evidence that the allegations 
were false and CPS closed the case as ``unfounded.''

Colorado--Allegation of ``Small'' Child
    Mr. and Mrs. Stein of Parker County, Colorado, were quietly 
homeschooling their four children when a Child Protective Services 
(CPS) worker contacted them with an anonymous allegation that one of 
their children was ``small'' and that they were neglecting medical 
attention to this child.
    The family contacted Home School Legal Defense Association for 
assistance. We demonstrated to the social worker that the allegation 
was false and provided a letter from the ``small'' child's pediatrician 
that gave the child a clean bill of health. Based on this 
communication, the CPS worker declared the allegation had ``no 
validity,'' and the situation was resolved.

* Names of families changed to protect privacy.

                                 ______
                                 
                              APPENDIX II

  Unfounded Cases are Artificially Increasing Child Abuse Statistics 
                      While Parents' Rights Suffer

    Here are a few statistics showing the great percentage of cases 
that are unfounded. Many of the unfounded cases are results of 
anonymous tips.
    In a single representative year (1986) the American Humane 
Association (hereafter, ``AHA'') reported 2,086,112 allegations of 
abuse or neglect.<SUP>[1]</SUP> Unfortunately, most of these 
allegations turned out to be either false or trivial. After 
investigation, only 737,000 of these cases of reported abuse or neglect 
were found to be valid. The other 1,349,000 were unsupported by 
evidence.<SUP>[2]</SUP> AHA's percentage of substantiated cases are 
generally consistent from year to year.<SUP>[3]</SUP>
---------------------------------------------------------------------------
    \[1]\ American Humane Association, Highlights of Official Child 
Neglect and Abuse Reporting 1986, p. 10.
    \[2]\ Id., at 11.
    \[3]\ More than 65 percent of all reports of suspected child 
maltreatment in 1978 turned out to be unfounded. U.S. National Center 
on Child Abuse, National Analysis of Child Neglect and Abuse Report 36 
(1978), Table 28 (DHEW 1979), at 18, table 5. Another study reported in 
over half of the cases investigated parents never mistreated their 
children. U.S. National Center on Child Abuse and Neglect, National 
Study on the Incidence and Severity of Child Abuse and Neglect 11, 
(DHHS 1981), at 16, Table 3-5.
---------------------------------------------------------------------------
    Other studies have consistently shown similarly low levels of 
validity for child abuse and neglect allegations. One study involving 
an actual review of every case for a 20-year period from one county 
determined that only 39 percent of all reported cases of abuse or 
neglect were substantiated.<SUP>[4]</SUP>
---------------------------------------------------------------------------
    \[4]\ Dean K. Knudsen, Ph.D., Department of Sociology and 
Anthropology, Purdue University, Child Protective Services, Discretion, 
Decisions, Dilemmas, Charles C. Thomas, Publisher, Springfield, 
Illinois, (1988), p. 81.
---------------------------------------------------------------------------
    While 737,000 is still a large number of abused and neglected 
children, even this figure bears further analysis to avoid overstating 
the problem. AHA offers the following breakdown by type of abuse or 
neglect.

     Major Physical Injury 21,000
     Minor Physical Injury 115,000
     Other Physical Injury 84,000
     Sexual Maltreatment 132,000
     Deprivation of Necessities 429,000
     Emotional Maltreatment 71,000
     Other Maltreatment 34,000 <SUP>[5]</SUP>
---------------------------------------------------------------------------
    \[5]\ Id., at 23. Because of the use of different data sources, the 
numbers in the AHA study vary from chart to chart. This particular 
chart totals 784,000 cases of maltreatment while at page 10, AHA uses 
the number of 737,000 of confirmed cases.

    In New Hampshire, the Department of Child and Youth Services (DCYS) 
data shows that in 1991, there was 6,434 abuse reports. Believe it or 
not, 5,524 of those reports turned out to be false! This means 86.2% of 
all child abuse reports were false. The statistics over the last eight 
years show that the number of founded cases is dropping and yet the 
number of false child abuse reports is rising. In 1984, 54% of the 
child abuse reports turned out to be false. There were 3,855 abuse 
reports of which 1,814 were founded and 2,041 were false. In 1990, 86% 
of the child abuse reports were found to be false. There were a 
shocking 5,616 abuse reports with only 709 which were proven to be 
founded or legitimate abuse allegations and 4,907 turned out to be 
false child abuse reports! <SUP>[6]</SUP> The system is out of control. 
Many thousands of innocent families are being abused by the system. 
Furthermore, Representative Gary Daniels of New Hampshire has federal 
statistics that demonstrate that approximately 62% of children taken 
from their homes were taken without justification.<SUP>[7]</SUP>
---------------------------------------------------------------------------
    \[6]\ ``Is DCYS Running Out of Abusers?'' Christian Home Schooling 
News, Vol. 2, No. 4, April/May 1992, Manchester, New Hampshire, p. 3.
    \[7]\ Ibid.
---------------------------------------------------------------------------
    An important book was published in 1990 that confirms much of 
reports above and provide important documentation of the frequent 
abuses of the modern child welfare system: Wounded Innocents, by 
Richard Wexler (1990).<SUP>[8]</SUP>
---------------------------------------------------------------------------
    \[8]\ Richard Wexler, Wounded Innocents: The Real Victims of the 
War Against Child Abuse, (Buffalo, NY: Prometheus Books, 1990).
---------------------------------------------------------------------------
    In his book, Wounded Innocents, Wexler warns:
    The war against child abuse has become a war against children. 
Every year, we let hundreds of children die, force thousands more to 
live with strangers, and throw a million innocent families into 
chaos.<SUP>[9]</SUP>
---------------------------------------------------------------------------
    \[9]\ Wexler, Wounded Innocents, p. 14.
---------------------------------------------------------------------------
    He demonstrates further that the hotlines, used often by anonymous 
tipsters, have become a ``potent tool for harassment.'' He states, 
through the state child abuse laws, ``We have effectively repealed the 
Fourth Amendment, which protects both parents and children against 
unreasonable searches and seizures.'' He shows the child welfare system 
often denies due process to the ``accused'' child 
abusers.<SUP>[10]</SUP>
---------------------------------------------------------------------------
    \[10]\ Ibid., p. 15.
---------------------------------------------------------------------------
    Wexler also confirms the AHA statistics above. In actuality, number 
of approximately 2 million abused children represents only the number 
of cases reported by tipsters. In actuality, over half of the reported 
cases are false. In fact, in 1987 alone there were 1,306,800 false 
child abuse reports. Sexual maltreatment, which is commonly argued for 
the need to increase the power of social workers, only makes up 15.7 of 
all reports. Minor physical injury constitutes only 13.9 percent and 
severe physical injury only constitutes 2.6 percent.<SUP>[11]</SUP>
---------------------------------------------------------------------------
    \[11]\ Ibid., p. 86-88.
---------------------------------------------------------------------------
    This means for every 100 reports alleging child abuse:

    <bullet>  at least fifty-eight are false
    <bullet>  twenty-one are mostly poverty cases
    <bullet>  six are sexual abuse
    <bullet>  four are minor physical abuse
    <bullet>  four are unspecified physical abuse
    <bullet>  three are emotional maltreatment
    <bullet>  three are ``other maltreatment''
    <bullet>  one is major physical abuse.<SUP>[12]</SUP>
---------------------------------------------------------------------------
    \[12]\ Ibid. p. 87.
---------------------------------------------------------------------------
    After he shows that the ``child abuse panic'' is a myth and an 
excuse to give unconstitutional powers to the social service agencies, 
he documents the terrible abuse children receive in foster homes and 
juvenile homes. The true accounts and statistics are sobering and 
shocking. In Kansas City, a study was done showing 57% of children in 
foster care to have been placed in ``high risk of abuse or neglect'' 
situations.'' <SUP>[13]</SUP>
---------------------------------------------------------------------------
    \[13]\ Ibid., p.198.

---------------------------------------------------------------------------
                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Klicka. I noticed 
in your written testimony, as well as your oral testimony, you 
do make reference to a number of anecdotes and personal stories 
about individuals who have been harmed by false reports of 
abuse or neglect. Do you have any national data that would 
support your suggestion that this is an increasing problem? 
Have there been any studies on this point, including any 
discussion of the amount of caseworker attention and resources 
across States or the Nation devoted to pursuing false reports? 
Naturally, not all reports will turn out to be accurate, so a 
certain number of reports will not result in a finding of abuse 
or neglect, but what actual data is there that would suggest we 
should be concerned about this growing number of false reports, 
and the impact that it has, not just on the families involved, 
but on others of need?
    Mr. KLICKA. When CAPTA was reauthorized, I testified at 
that hearing a year and a half ago, and Congressman Hoekstra's 
Committee asked specifically if we could get some data on that. 
They were going to put into the bill a requirement that new 
data be kept regarding anonymous tips--and it didn't happen. 
That didn't get added into the legislation. So, to my 
knowledge, there isn't real clear recordkeeping on which of 
them are anonymous and which are not anonymous, but I am still 
doing some deeper research in that area.
    Chairman HERGER. Okay, thank you. Mr. Birch, in your 
experience, what types of prevention activities have proven 
most successful in preventing the placement of children in 
foster care, and do you know what the cost of these programs is 
compared to the cost of placing a child in foster care?
    Mr. BIRCH. There are a range of services which are 
available to a community that has a really successful strategy 
for prevention. The service that probably has recieved the most 
attention and the most positive results is the nurse home 
visiting program, which is being implemented in four or five 
communities around the country. More broadly, home visiting is 
a service that has existed for decades--it is common practice 
in Great Britain, and it is one that has been the subject of 
hearings on Capitol Hill in past years. So, that is one that I 
certainly would call to your attention. I would also add to 
that, parenting education, parent support groups, respite care, 
family support, and family resource centers. There is not one 
single approach, because families are different; those 
approaches need to be available broadly. When we looked at the 
costs and the spending gap that I talked about in my testimony, 
we looked at an expense of about $3,250 a year for a simple 
kind of home visiting service for a family--much cheaper than 
what we are paying otherwise to support children in foster 
care.
    Chairman HERGER. Very good. Again, I want to thank each of 
our witnesses for testifying. I would like to release you at 
this time, and call up our final panel today. I would like to 
welcome those individuals who have traveled here today to 
provide us firsthand knowledge on the child welfare system. 
Your perspectives will provide important information for us to 
consider as we work to ensure that these systems better protect 
children from abuse and neglect. We will now be hearing from 
Cathy Burge from Naples, Florida; Lisa Gladwell from River 
Edge, New Jersey; and Marie O'Hara from Barnegat, New Jersey. 
Ms. Burge?

           STATEMENT OF CATHY BURGE, NAPLES, FLORIDA

    Ms. BURGE. Thank you, Mr. Chairman. Thank you for this 
opportunity. I feel that my case represents only one of 
thousands where the States do not monitor vulnerable children 
in custody battles. As a frame of reference, I would like you 
to read what U.S. Supreme Court Justice William Brennan said 
about the family. It ends with, ``Contemporary life offers 
countless ways in which family life can be fractured and 
families made unhappy. The children who increasingly live in 
these families are entitled to the chance to sustain a special 
relationship with both their fathers and their mothers, 
regardless of how difficult that may be. No society can assure 
its children there will be no unhappy families. It can tell 
them, however, that their government will not be allowed to 
contribute to their pain.'' Members of this Subcommittee, our 
child welfare program is a broken system, and the biological 
parent and child relationship is not being protected--many 
families like mine are in pain. I would like for you to feel 
the pain we have endured. My custody case, my most recent 
custody case, began in California in 2000. I immediately and 
illegally lost custody of my 2 sons, ages 9 and 11 years, who I 
had raised as a single mother for 6 years. I had been a mother 
for 18 years. Child Protective Services in California assisted 
the angry, vindictive father of my sons to legally steal my 
children and deny them of any further relationship with their 
mother.
    Months before, the father promised my sons that with the 
help of his big law firm, Higgs, Fletcher & Mack, LLP, they 
would be living full-time with him. They were taught to keep 
many secrets. In 1995, when my sons were much younger, their 
father refused to return them after a 1-week visit. The judge 
in Illinois found him to be guilty of wrongfully withholding 
them, and immediately ordered that my sons return to California 
with me. My sons were permanently affected by what common 
people call kidnapping. For 18 months after the most recent 
custody battle, I spent thousands of dollars on legal fees, 
forensic psychologists, and testing, yet Child Protective 
Services stood by their initial support of the father even 
though our trial in 2001 showed that none of these allegations 
were substantiated. Meanwhile, 14 months had passed and I had 
only seen my children a couple of hours per week during 
supervised visits. After the trial, the judge ordered that I be 
reunited with my sons, and we were ordered to reestablish our 
50-50 parenting time. Child Protective Services and the judge 
did not admit any mistakes in this 14-month litigation. After 
the trial, the father stated to my sons that they would never 
live with their mother again--and they have not. They believed 
him. They feared him. The father controlled their thinking.
    One of my sons contacted Child Protective Services in 2002 
and declared to them that he had lied for his dad, and he just 
wanted to be with his mama. They said many times to him that 
the abuse he described in his dad's house was not bad enough to 
change custody. Was that a decision that Child Protective 
Services should make, or should they have investigated to find 
the truth? Were the same standards applied to me in 2000, or 
were they protecting themselves? Judge Judith Stern in the San 
Diego family court system did not protect my children's rights, 
as Justice Brennan said, to a relationship with both parents. 
She did not even enforce her own rules. Child Protective 
Services never protected my sons, and they never investigated 
the source of the complaint. Not one professional, friend, 
neighbor, medical doctor, or teacher supported the father's 
complaints. In fact, it was shown in the trial that our court-
appointed, independent evaluator was a business partner with 
the father's therapist. Who is responsible for the trend in 
California of fathers being successful in gaining custody, 
according to the California National Organization for Women? A 
devoted mother like me should never suffer a parentectomy, as I 
have, and no children like my sons should ever lose their 
mother at such a tender age.
    My sons are now 13 and 15 years old. Every day, I long to 
see them, listen to them, fix their favorite meals, shop for 
and wash their clothes, share my thoughts with them, laugh and 
play with them, and just spend the family time with them that I 
had taken for granted. I long to see all three of my children 
together, and especially for my mother to have time with them. 
I want my sons to know our extended family the way my daughter 
does. I would like my parental rights and my custody restored 
as soon as possible, and I request that this Committee 
investigate the abuse and injustice that has occurred to my 
family and thousands more, so that this pattern will not be 
repeated. Divorce will not decline in our lifetime, so our 
courts must protect the rights of children when the two parents 
divorce, and one parent cannot tolerate the other parent's 
involvement in the children's lives. Our constitutional rights 
need to be protected. When you consider the foster children, 
adopted children, and all the children in the system, please do 
not forget the children whose biological parents are fighting 
over them. Thank you, ladies and gentlemen.
    [The prepared statement of Ms. Burge follows:]

               Statement of Cathy Burge, Naples, Florida

    I feel that my case represents only one of thousands.
    As a frame of reference, I would like you read to you what U.S. 
Supreme Court Justice Brennan said about the family ending with . . .
    ``Our society's special solicitude for the family reflects 
awareness that it is through the family that we inculcate and pass down 
many of our most cherished values, moral and cultural . . . As a result 
we have long recognized that the freedom of personal choice in matters 
of family life is a fundamental liberty interest protected by the 
Fourteenth Amendment.
    A fundamental element of family life is the relationship between 
parent and child. The intangible fibers that connect parent and child 
have infinite variety. They are woven throughout the fabric of our 
society, providing it with strength, beauty, and flexibility. It is 
self-evident that they are sufficiently vital to merit constitutional 
protection. . . . We have thus been vigilant in ensuring that 
government does not burden the ability of parent and child to sustain 
their vital connection . . .
    Contemporary life offers countless ways in which family life can be 
fractured and families made unhappy. The children who increasingly live 
in these families are entitled to the chance to sustain a special 
relationship with both their fathers and their mothers, regardless of 
how difficult that may be.
    No society can assure its children that there will be no unhappy 
families. It can tell them; however, that their Government will not be 
allowed to contribute to their pain.''
    Members of this Committee, our Child Welfare Program is a broken 
system and the parent and child relationship is not being protected and 
many families like mine are in pain. I would like for you to feel the 
pain that we have endured.

Background:
    My custody case began in California in 2000. I immediately and 
illegally lost custody of my two sons, ages 9 and 11, whom I had raised 
as a single mother for 6 years; I had been a mother for 18 years. CPS 
in California assisted the angry, vindictive father of my sons to 
``legally'' steal my children and deny them of any further relationship 
with their mother. Months before, the father told my sons' that with 
the help of his big law firm (Higgs, Fletcher, and Mack) they would be 
living full-time with him. They were taught to keep many secrets.
    In 1995, when my sons were much younger, their father refused to 
return them after a 1-week visit. The judge in Illinois found him to be 
guilty of ``wrongfully withholding them'' and immediately ordered that 
my sons return to CA with me''. My sons were permanently affected by 
what common people call kidnapping.
    For 18 months after the most recent custody battle, I spent 
thousands of dollars on legal fees, forensic psychologists and testing; 
yet, CPS stood by their initial support of the father, even though our 
trial in 2001 showed none of his allegations were substantiated. 
Meanwhile, 14 months had passed and I had only seen my children a 
couple hours per week during supervised visits.
    After the trial, the judge ordered that I be reunited with my sons 
and we were ordered to re-establish our 50/50 parenting time. CPS and 
the Judge did not admit any mistakes in this 14-month litigation. After 
the trial, the father stated to my sons, that they would never live 
with their mother again. They believed him. They feared him. The father 
controlled their thinking.
    One of my sons contacted CPS in 2002 and declared to them that he 
had lied for his dad and he just wanted to be with his Momma. They said 
many times to him that the abuse he described in his dad's house was 
not bad enough to change custody. Was that a decision that CPS should 
make or should they have investigated to find the truth? Were the same 
standards applied to me in 2000 or were they protecting themselves?
    Judge Judith Stern in the San Diego family court system did not 
protect my sons' rights to a relationship with both parents. She did 
not even enforce her own rulings. CPS never protected my sons and they 
never investigated the source of the complaint. Not one professional or 
friend or neighbor or medical doctor or teacher supported the father's 
complaints. In fact, it was shown in trial that our court-appointed 
``independent'' family evaluator was a business partner with the 
father's therapist.
    Who is responsible for the trend in California of father's being 
successful in gaining custody, as documented by CANOW?
    A devoted mother, like me, should never suffer a Parentectomy, as I 
have, and NO children, like my sons, should ever lose their mother at 
such a tender age.
    My sons are now 13 and 15 and every day I long to see them, listen 
to them, fix their favorite meals, shop for and wash their clothes, 
share my thoughts with them, laugh and play with them and just spend 
the family time with them that I had taken for granted. I long to see 
all three of my children together again and especially for my Mother to 
have time with them. I want my sons to know our extended family the way 
my daughter does.
    I would like my Parental Rights and my Custody restored as soon as 
possible. I request that this committee investigate the abuse and 
injustice that has occurred to my family and thousands more so our 
children will not repeat this behavior.
    Divorce will not decline in our lifetime. Our courts MUST protect 
the rights of children when the 2 parents divorce and one parent cannot 
tolerate the other parent's involvement in their children's lives. THIS 
MUST BE STOPPED! Our constitutional rights need to be protected.
    When you consider the foster children, adopted children, and all 
children in the system, please do not forget the children whose 
biological parents are fighting over them. Initiate the measures to 
insure their constitutional rights to a relationship with both of their 
parents and their family.
    I tried to defend myself against cruel charges and I tried to 
protect all three of my children's right to their family, as they had 
always known it. I learned that the Family Court System does not have 
the Child's Best Interest in mind. Further,

    1. They do not protect the children.
    2. They do not preserve the relationship with both parents.
    3. They are not monitored or held accountable by the system.
    4. They do not enforce their own rulings.
    5. The system is designed to protect itself, not the children.
    6. It is a gravy train for the individuals working in the system.
    7.  There seems to be no education in such important matters as 
Parental Alienation, Brainwashing Children, and the ability of a parent 
(usually the father) to buy the system.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Burge. Ms. Gladwell?

     STATEMENT OF LISA E. GLADWELL, RIVER EDGE, NEW JERSEY

    Ms. GLADWELL. Good afternoon, Mr. Chairman, and Members of 
the Subcommittee. It is an honor to be asked to speak to you 
about my family's tragic experience at the hands of the New 
Jersey child welfare system, and my pursuit of assistance and 
justice from Federal and State agencies, including the 
Children's Bureau, State legislators, law enforcement, the 
Governor of New Jersey, New Jersey Administration of the Court, 
the Roman Catholic Archdiocese of Newark, the civil rights 
community, and advocacy groups, and so forth. My name is Lisa 
Gladwell. I am a corporate professional, homeowner, taxpayer, 
churchgoer, volunteer, and neighbor--a hardworking, productive 
asset to my community. In 2000, I was a doting mother to two 
beautiful 2- and 3-year-old boys. I, unfortunately, like 
millions of other mothers in this country, was also afflicted 
with the disease of alcoholism. I was a binge drinker--not 
enough to affect my employment, but certainly enough to have 
consequences in my personal life. I was a loving, nurturing 
mother. I never abused my children. Yet by virtue of my 
disease, when active, I placed them in a position of 
endangerment.
    On April 30, 2000, my husband and I sought my family's help 
for my alcoholism. This was not the first time; I had been in 
recovery once previously. The path we chose that day, asking 
for assistance, was the beginning of a terminal journey for my 
family. Shortly thereafter, my family of origin filed for 
permanent custody of my sons, because alcoholism will not be 
tolerated in my family. After entering a program, marital 
counseling, and the restabilization of my recovery and home 
life, the family court ordered my children to return home. The 
Division of Youth and Family Services (DYFS) immediately filed 
for legal custody. It quickly became painfully obvious DYFS's 
only goal was termination. The DYFS strongly advised my husband 
to leave our marriage and ``become autonomous,'' claiming it 
was his only chance to reunite with his children. Fully 
compliant, we were bewildered that, despite laws to the 
contrary, under no circumstances was reunification considered--
nor was the best interest of my sons. During our legal 
pummeling by DYFS, the agency utilized and rewarded lying and 
stealing, and illegal, unethical, and damaging tactics in order 
to terminate our parental rights. This New Jersey goliath 
blatantly violated all the rules in his battle with us. I wrote 
every organization, Federal and State agency, and individual 
and politician, for assistance and guidance on what was 
happening, as well as what was not--no legally required 
reasonable efforts, criminal and unethical contact on the part 
of the State as well as the foster parents, neglect, and 
psychological abuse of my children. The DYFS did nothing to 
shield their intent to terminate my family from the beginning, 
which by virtue of my family's position today, was supported by 
the court. The foster parents have forbidden us any contact 
with our children. My sons' great-grandmother died last 
Christmas without holding her great-grandchildren for over 3 
years. All my children's paternal relatives have been severed 
from their lives.
    The well-intentioned foster care and adoption system 
functions on simplistic laws of supply and demand. The basic 
flaw in its application to New Jersey's child welfare system is 
that children are not commodities. Statistically, all adoptions 
are positive key performance measures for the State--bonus 
points, bonus dollars. On the other hand, reunification of 
children with their families earns no bonus moneys. For high-
demand, easily adoptable children, family reunification is not 
an option. It is considered an unnecessary expense, a drain on 
resources, costing the State thousands of bonus dollars, and is 
statistically unfavorable. My children were targeted before 
they reached the system. The foster mother, my biological 
sister, through corrupt connections within the State, sought 
and received the State's assistance in her mission to adopt my 
children after failing in her attempts without DYFS's 
involvement. Her reward? The foster parents have been receiving 
and are slated to receive support, services, allowances, and 
special subsidies until my now 6- and 7-year-olds reach 
adulthood. They will receive community standing, moneys, and 
services for years, and the State receives Federal support 
bonuses and a few pats on the back--a win-win situation, right? 
Only if children were commodities. Legal guardianship and 
kinship care was dismissed because the financial compensation 
was less than foster care, and the arrangement was not 
permanently guaranteed. Instead, the foster parents of my two 
young sons were receiving thousands of dollars in support from 
my husband and I, while also collecting full compensation and 
benefits from the State. Although identified as criminal fraud, 
this investigation sits inactive in the Burlington prosecutor's 
office, awaiting cooperation from DYFS.
    The DYFS cries of insufficient funding. Their cries of 
insufficient funding ring hollow in the wake of their support 
of foster and adoptive parents who defraud the system and 
benefit financially from vulnerable children. These State-
sanctioned, criminal parents are the people paid for and 
charged with raising children to be responsible, virtuous human 
beings. Are all DYFS foster placements and adoptions bad? No. 
Are there foster and adoptive parents out there who are truly 
motivated by compassion, benevolence, and love? Yes. Well-
intentioned caseworkers, foster parents, service providers, and 
advocates become demoralized and discouraged when the corrupt 
overshadow the charitable works they struggle daily to perform. 
To use Federal funds to finance State-sanctioned kidnapping and 
support fraud is iniquitous. Most importantly, to not do right 
by our children when afforded the opportunity to make a 
difference is to turn our back on humanity. The DYFS could not 
operate in its corrupted form if it weren't for the blessings 
of the New Jersey judiciary. The agency by itself would not 
have succeeded if not supported by a judiciary who ignored its 
responsibility to ensure that laws are upheld. Through 
submission, the New Jersey judiciary has given DYFS permission 
to behave unethically and illegally. Regrettably, the Federal 
Government and children's rights groups have had to intervene 
where the judiciary fell short. Thank God, because their 
actions gave my incredible nightmare credibility. The public 
won a glimpse into the horror hidden for years under a cloak of 
confidentiality and unchecked power.
    The federally-ordered reforms taking shape within New 
Jersey are a source of future hope. What is to happen to us--
those of us who have and are still being victimized by the 
corrupt child welfare system? Just as taxation without 
representation was the driving force behind the birth of our 
Nation, funding without accountability is irresponsible, and 
this tyranny must stop. Money thrown at corrupted bureaucracies 
is not responsible, and taxpayers' hard-earned dollars being 
utilized to destroy children, families, and to reward 
criminality, is reprehensible. It is time the government did 
what it was created to do--govern. Based on my own tragic 
experience, we need not create new bureaucracies, but establish 
some enforceable Federal accountability by every State 
receiving Federal funds. Through my journey, I could not find 
one organization with the fortitude, tenacity, willingness, or 
ability to investigate--let alone assist in my family's plight. 
Harsh, maybe, but please understand that this is my family that 
is being annihilated by a corrupt bureaucracy, supported by 
resources bestowed by the Federal Government. I have been in 
recovery for well over 2 years--1 day at a time, despite DYFS's 
efforts. New Jersey's corrupted child welfare machine has 
nearly bankrupted me emotionally, financially, professionally--
but not spiritually. New Jersey may have illegally terminated 
my family, but I am and always will be Colin and Dillon's 
mommy.
    I know God will not allow my children to remain victims, 
and their paternal family to be made martyrs. I yearn for my 
family to be the poster family for reunification--part of the 
solution, not a discarded carcass of absolute power corrupting 
absolutely. From the State of New Jersey, victims deserve 
acknowledgement of responsibility and amending actions--
fundamental prerequisites for change. Until New Jersey's 
leaders take action to reverse the injustice and repair damage 
done to the victims, there will be no reform. From the Federal 
Government, the U.S. taxpayers deserve some assurances that the 
States receiving their moneys are held accountable and 
responsible for upholding what is truly in the best interest of 
children and families. Until that time, illegal kidnapping and 
family executions will continue. Thank you for your hope and 
help. I anxiously await the opportunity to be part of the 
solution--to support, preserve, and cultivate healthy families 
so that they may protect and nurture our most priceless 
resource, our children. May God bless your work. Thank you.
    [The prepared statement of Ms. Gladwell follows:]

         Statement of Lisa E. Gladwell, River Edge, New Jersey

    Dear Mr. Chairman and Members of the Subcommittee,
    It is a contentious honor to be asked to speak to you about my 
family's tragic experience at the hands of the ``NJ child welfare'' 
system and my pursuit of justice and assistance from the federal and 
state agencies (including the Children's Bureau), state and federal 
legislators, federal and state law enforcement, the Governor of New 
Jersey, New Jersey Administration of the Court, the Catholic Church, 
U.S. Council of Catholic Bishops, The Roman Catholic Archdiocese of 
Newark, the ACLU, civil rights groups, community groups, advocacy 
groups, family, attorneys, and the Lord.
    My quest has opened my eyes to the frightening reality of the 
bureaucratic value of the dollar over ethics and principles. . . . 
Where truly good intent is eclipsed by the evil it attracts . . . And 
how absolute power corrupts absolutely . . .

My Family's Story
    I am a logistics professional: I have worked for over twelve years 
for one of the largest consumer product corporations in the world. I am 
a homeowner, taxpayer, churchgoer, volunteer and neighbor: a hard 
working, productive asset to my community and those I encounter.
    In 2000, I was a doting mother to two beautiful, 2- and 3-year-old 
boys and a dedicated wife to their dad. I, unfortunately, like millions 
of other mothers in this country, was also afflicted with the disease 
of alcoholism. I was a binge drinker, not enough to have an affect on 
my employment but certainly enough to have consequences in my personal 
life and relationships. I was a loving and nurturing mother. I never 
abused my children, but by virtue of my disease when active, I placed 
them in a position of endangerment.
    On April 30, 2000, my husband and I sought my family's help for my 
alcoholism. This was not the first time, for I had been in recovery 
once previously. The path we chose that day, asking for assistance, was 
the beginning of a terminal journey for my family. Shortly thereafter, 
my family of origin filed for permanent custody of my sons, for 
alcoholism will NOT be tolerated in the family.
    After entering a program, marital counseling and the re-
stabilization of my recovery and home life, the family court ordered my 
children to return home. DYFS immediately filed for legal custody. 
Initially we maintained some guarded hope that the best interest of our 
children would be paramount to the state and family preservation was at 
the very least, an option. Despite our full cooperation, it quickly 
became painfully obvious the Division's only goal was termination.
    During our legal pummeling by DYFS the agency used and rewarded 
lying, stealing, illegal, unethical and damaging tactics in order to 
terminate our parental rights. The ``Goliath'' of New Jersey (DYFS) 
blatantly broke all the rules (policies) in his battle with David 
(vulnerables-other families and us ``in the system'').
    I wrote every organization, federal and state agency, individual 
and politician I found about our unfolding nightmare. I wrote and 
wrote, for assistance and guidance on what was happening as well as 
what was not: no reasonable efforts, criminal and unethical conduct on 
the part of the state as well as the foster parents, neglect and 
psychological abuse of my children, etc. The Division did nothing to 
shield their intent to terminate from the beginning which, by virtue of 
my family's position today, was supported by the court.
    DYFS strongly advised my husband to leave our marriage--``become 
autonomous''--they claimed it was his only chance to reunite with his 
children. Fully compliant, we were filled with anger, sadness, 
frustration and bewilderment discovering that under no circumstances 
was reunification considered. Nor was the best interest of my sons.
    The foster parents have forbidden us any contact with our children. 
MY sons' great grandmother died last Christmas without holding her 
great grandchildren for three years. All my children's paternal 
relatives have been severed from their lives.

Foster Care/Adoption
    The well-intentioned foster care and adoption system functions on 
simplistic laws of supply and demand. The basic flaw in the theoretical 
application of rudimentary economics to New Jersey's child welfare 
system is that children are NOT commodities . . .
    States receive reward monies from the Federal Government when 
children are adopted. Statistically, all adoptions are positive key 
performance measures for the state: bonus points/bonus dollars. On the 
other hand, reunification of children with their families earns no 
bonus monies. For ``easily adoptable'' children, family reunification 
is often not an option: it is considered an unnecessary expense, a 
drain on resources, costs the state in thousands of dollars in bonuses 
and is statistically unfavorable.
    My children were targeted BEFORE they reached the ``system.'' 
Although healthy and young, they are classified as ``hard to place,'' 
being siblings. The foster mother, my biological sister, through 
corrupt connections, sought and received the state's assistance in her 
mission to adopt my children after failing in her attempts without 
DYFS's involvement. Her reward? The foster parents have been receiving 
and are slated to receive support, services, allowances and special 
subsidies for each until my now six and seven year olds reach 
adulthood. They will receive community standing, monies and services 
for years and the state receives federal support, bonuses and a few 
pats on the back. A ``win-win situation,'' right? Only if children are 
commodities.
    Legal guardianship and Kinship Care were dismissed because the 
monies were less than foster care and the arrangement was not 
permanently guaranteed. Instead, the foster parents of my two young 
sons were receiving thousands of dollars in support from my husband and 
me while also collecting compensation from the state.
    The Commissioner of Human Services has identified this as against 
policy. My county's prosecutor characterized this as criminal. And 
since then it has resided, inactive, in the prosecutor's office 
awaiting cooperation from DYFS. Fraudulent? Criminal? Illegal? 
Certainly unethical.
    DYFS/Human Services cries of insufficient funding ring hollow in 
the wake of their support of those foster and adoptive parents who 
defraud the system and benefit financially from vulnerable children. 
And, these state-sanctioned parents are the people paid for, and 
charged with, raising children to be responsible, virtuous human 
beings.
    Are all DYFS foster care placements and adoptions bad? Of course 
not. Are there foster and adoptive parents out there who are truly 
motivated by compassion, benevolence and love? Thank God many are! Is 
New Jersey unique? I doubt it.
    Unfortunately, the bad taints the good. Well intentioned 
caseworkers, foster parents, service providers, advocates all are 
disheartened, disparaged and discouraged when the corrupt overshadow 
the charitable and beneficial work they struggle daily to perform.
    To use federal funds to finance state-sanctioned kidnapping and 
support fraud is iniquitous. Most importantly, to not do right by our 
children when afforded the opportunity to make a difference, 
individually and/or collectively, is to turn your back on humanity.

The Judiciary--Credit where Credit is due 
    DYFS could not operate in its corrupted form if it weren't for the 
blessing of the New Jersey Judiciary. The agency by itself would not 
have succeeded if not supported by a judiciary who ignored its 
responsibility to ensure laws are upheld. It is the judiciary that has 
the authority and obligation of ensuring all parties are held 
accountable and responsible: to protect rights while rendering justice. 
Through submission, the New Jersey judiciary has given DYFS permission 
to act unethically and illegally.
    Regrettably, the Federal Government and child advocacy groups have 
had to intervene for enforcement of law where the New Jersey judiciary 
fell short. Thank God, for their actions gave my INCREDIBLE nightmare 
credibility. The tenacity of Children's Rights, on behalf of vulnerable 
children won the public a glimpse into the horror hidden for years 
under a cloak of confidentiality and unchecked power.
    I am hopeful that the newly created Office of the Child Advocate 
will have sobering impact on the bureaucratic operations and thus, 
positively impact the children of New Jersey. But, this office alone is 
not and can not be the only safeguard against a landslide of 
corruption, crime and gluttony by the public servants charged with NJ 
child welfare.
    The federally ordered reforms taking shape within New Jersey are 
great and a source of future hope. But what is to happen to those of us 
who have and are still being victimized by the corrupt ``child 
welfare'' system?

Responsibility, Accountability and Hope for Vulnerable Children and 
        Families
    Just like the resistance to taxation without representation was the 
driving force behind the birth of our nation, funding without 
accountability is irresponsible and this tyranny must cease.
    If the Federal Government is truly for the people, if Human 
Services is truly HUMAN SERVICES, it is time they stood up and took 
responsibility. Money thrown at corrupted bureaucracies is not 
responsible. And taxpayers' hard earned dollars being utilized to 
destroy children, families and reward criminality is reprehensible.
    It's time the government did what it was created to do--govern.
    Based on my own tragic experience, we surely need not to create new 
bureaucracies, but to establish some enforceable federal accountability 
by every state that receives federal funding. I could not find one 
organization with the fortitude, tenacity, willingness and ability to 
investigate, let alone assist in my family's plight.
    Harsh? Maybe, but please understand that this is MY family that is 
being annihilated by a corrupt bureaucracy supported by resources 
bestowed by the Federal Government.
    I know God would not allow my children to be victimized and their 
paternal family to be made martyrs in vain. I speak from my heart, and 
through my pain, that of my family as well as countless other 
vulnerables maimed and destroyed by an easily manipulated system devoid 
of principles, accountability and safeguards.
    I have been in recovery for well over two years--one day at a 
time--DESPITE DYFS's efforts. New Jersey's corrupted child welfare 
machine has nearly bankrupted me emotionally, financially and 
professionally, but, not spiritually. New Jersey may have illegally 
LEGALLY terminated my family, but I AM and ALWAYS WILL be Colin and 
Dillon's mommy.
    I yearn for my family to be the ``poster family'' for 
reunification, part of the solution--not another discarded carcass of 
absolute power corrupting absolutely.
    From New Jersey, victims deserve acknowledgement of responsibility 
and amending actions, fundamental prerequisites for change. Until New 
Jersey's leaders take action to reverse the injustice and repair the 
damage done to the victims, there will be no reform. And, from the 
Federal Government, those financing the system, the United States 
taxpayers deserve some assurances that states receiving their monies 
are held accountable and responsible for upholding what is truly in the 
best interest of children and families. Until that time, illegal legal 
kidnapping and execution will continue.
    Thank you for your hope and help. I anxiously await the opportunity 
to be part of the solution: to support, preserve and cultivate healthy 
families so that they may protect and nurture our most priceless 
resource, our children. May God bless your work.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Gladwell. Ms. O'Hara?

       STATEMENT OF MARIE C. O'HARA, BARNEGAT, NEW JERSEY

    Ms. O'HARA. Congressman Herger, ladies and gentlemen, thank 
you for the opportunity to appear before you today on behalf of 
my children, and the children of the United States of America. 
My name is Marie O'Hara. I am a divorced mother of four young 
children. My experience with the child welfare system and the 
State of New Jersey over the past few years has brought me here 
before you today. I would like to begin by suggesting that 
more, indeed, than increased funding, quality information 
systems, and additional cell phones are needed to ensure the 
safety and well-being of our Nation's most valuable and most 
vulnerable resource, our children. An agency which truly 
focuses on the physical, mental, and emotional safety and well-
being of our youth must be founded on compassionate service. 
Two years ago, based on an investigation initiated by the Ocean 
County Prosecutor's Office in Tom's River, New Jersey, and 
simultaneously investigated by the DYFS, it was determined and 
confirmed by a Child Protective Services psychologist that my 
3-year-old daughter had, quote, ``experienced inappropriate 
sexual contact with her father while at visitation.''
    Without enough evidence to proceed, and my unwillingness to 
let my young children testify, the prosecutor's office did not 
pursue the case further. Via subsequent court-ordered 
mediation, I agreed to a supervised visitation schedule for my 
young daughter and her father without overnight privileges. The 
following November of 2002, based on an allegation made by my 
abusive ex-husband and eldest son, all four of my children were 
abruptly removed from my custody and care by a DYFS special 
protective response unit worker, and subsequently placed with 
their father. Although there was no justification for removal, 
and DYFS acted on sketchy evidence, I have not seen or spoken 
to my 2 oldest boys--who at the time were 11 and 9 years old--
since. It has been 15 months. Six months later, my third son, 
age 7, stopped coming to visit. The last time I saw my 
daughter, now 5 years old, was this past December. Nothing is 
being done to resolve this. As the employees of the Preferred 
Visitation and Foster Care Services of New Jersey informed me, 
they are not allowed to ask my children why they no longer want 
to visit me--nor are they allowed to physically handle my 
children.
    Based on my ex-husband's allegations, our local police 
department filed charges of child abuse and neglect. I was 
arrested and paid $5,000 in order to post $50,000 bail. I spent 
an evening in jail. Shortly thereafter, the unfounded charges 
were administratively dismissed by the prosecutor's office--but 
DYFS did not stop there. Prior to their removal, my children 
and I enjoyed a close and loving relationship. I had been a 
stay-at-home mom, volunteering in each of their schools, 
participating in their extracurricular activities, and teaching 
their religious education classes. My children have since been 
denied this privilege, as I have been cut off completely from 
their lives, and unable to attend even a school function. As 
child support ended abruptly with the children's removal, and 
after a year of surviving on a small income supplemented by 
excess student loan money and the charity of friends and 
family, I have been forced to sell our home. My legal costs are 
already in excess of $40,000, while my ex-husband enjoys a free 
ride that is being funded by our State and Federal Government. 
Prior to, as well as after, my children's removal, DYFS never 
performed an investigation of our family. They never even saw 
my home, never interviewed a teacher, and never interviewed a 
pediatrician, a dentist, an eye doctor, a neighbor, or a school 
psychologist--no one. The DYFS has used precious dollars to act 
as the vehicle for the complete severance and alienation of my 
children from me.
    Even though New Jersey's courts have emphatically ruled 
that children cannot be removed from a parent charged with 
abuse unless the court conducts a thorough evidentiary hearing, 
makes specific factual findings, and follows the rules of 
evidence, this has not been so in my case. We are just in trial 
now, 15 months after their removal. In order for our country's 
human resources to serve our children and families more 
effectively, they must be held to a higher standard. Everyone 
else in our country who regularly is involved in the lives of 
children must be highly qualified--as is so clearly defined in 
this Administration's No Child Left Behind Act of 2001. Yet 
DYFS caseworkers, having fewer credentials than teachers and 
school psychologists, have more power--and they are abusing it. 
More funding is not the issue. My experience proves that funds 
intended to protect our Nation's most vulnerable and most 
valuable children in crisis are being squandered on vindictive 
custody litigation--litigation perpetrated by individuals adept 
at manipulating our system. No one is driving the bus. My 
children are at the mercy of a system that is governed by laws 
that no one has the power or courage to enforce. The 
individuals who are charged with the well-being and welfare of 
children hide behind a veil of secrecy. This confidentiality, 
actually intended to protect our most vulnerable from further 
harm, oftentimes serves to prevent them from being justly and 
expeditiously free from the bondage of incompetent child 
welfare agencies.
    Based on my experience, I offer you the following 
suggestions for State child welfare programs: solicit 
investigations and reports from all professionals who touch the 
lives of children of suspect parents. Higher qualifications, 
and increased training for all human services workers, 
including family court judges and lawyers. Limiting the power 
of caseworkers and their supervisors in their ability to make 
life-altering decisions on behalf of children without proper 
procedure, training, and investigation. Expediting court 
proceedings. Preservation of family financial security. Working 
more closely with educators and community members. National 
standards need implemented for investigation procedures. The 
imposition of fines for those who use the system for personal 
gain. Implementation of ongoing training in domestic abuse--and 
how it affects parent-child relationships. Accountability of 
caseworkers to follow court orders. Many of the court orders 
issued in my case were not followed through on. Those that 
were, occured only after several certified letters were sent, 
and only by my personal efforts. Greater emphasis on family 
preservation and reunification. Combining State child welfare 
agencies to increase accountability. Audio or videotaping all 
supervised visitations. Participation in counseling and therapy 
for all family members.
    I am sorry that I have gone over time. I would just like to 
say that one of my ideas is that education already has many, 
many of the things that we need in place to protect our 
children--they are already doing that job. Therefore, we need 
to combine efforts so that child welfare workers work more 
closely with educators. In addition, child welfare workers need 
to be certified; this could be accomplished by working with our 
State universities. Presently, child welfare employees are not 
even social workers, yet they have the ability and the 
decisionmaking power to take our children. My children are 
already poisoned against me. They have experienced something 
called parental alienation. The last visit with my 5-year-old 
daughter took place during the last week of December. I am not 
even allowed to look at her. I have no contact with any of my 
children. The visitation supervisor, when I asked her why my 
daughter wouldn't come, said she couldn't ask her why she 
wouldn't come, but that she had looked down and said, ``I never 
want to see my mommy again.'' She was looking at the floor. I 
brought pictures of my family. I love my children. Thank you 
very much for this opportunity.
    [The prepared statement of Ms. O'Hara follows:]

           Statement of Marie C. O'Hara, Barnegat, New Jersey

    Congressman Herger and committee members, thank you for the 
opportunity to appear before you today on behalf of my children and the 
children of the United States of America.
    My name is Marie O'Hara and I am a divorced mother of four young 
children. My experience with the child welfare system in the state of 
New Jersey over the past few years has brought me here before you 
today.
    I would like to begin by suggesting, that more indeed than 
increased funding, quality information systems, and additional cell 
phones, are needed to ensure the safety and well-being of our nations 
most valuable and most vulnerable resource, our children. An agency 
which truly focuses on the physical, mental and emotional safety and 
well-being of our youth must be founded on compassionate service
    My experience is as follows: Two years ago, based on an 
investigation initiated by the Ocean County Prosecutors Office and 
simultaneously investigated by the Division of Youth and Family 
Services, it was determined and confirmed, by a Child Protective 
Services psychologist, that my three-year-old daughter had, 
``experienced inappropriate sexual contact with her father while at 
visitation.''
    Without enough evidence to proceed and my unwillingness to let my 
young children testify, the Prosecutors Office did not pursue the case 
further. Via subsequent court ordered mediation, I agreed to a 
supervised visitation schedule for my young daughter and her father, 
without overnight privileges.
    The following November of 2002, based on an allegation made my 
abusive ex-husband and eldest son, all four of my children were 
abruptly removed from my custody and care by a DYFS Special Protective 
Response Unit worker. As the worker informed me that further 
investigation would be necessary, I agreed to sign an informed consent 
placing the children in the custody and care of my former mother-in-law 
and which included a provision for immediate communication and 
visitation. The SPRU worker assured me that the investigation would 
take only a few days and that a visit would be set up immediately. 
Although there was no justification for removal and DYFS acted on 
sketchy evidence, I have not seen nor spoken to my oldest two boys 
since, who were eleven and nine at the time.
    Within twenty four hours, the boys were placed with their father 
and a short time after that, Elizabeth was placed in his unsupervised 
custody as well. When questioned about why the children were placed 
with their father while he was still under supervised visitation 
status, the SPRU worker said that the appearance of his name on this 
list was ``a mistake.''
    Based on my ex-husbands allegations, our local police department 
filed charges of child abuse and neglect. I was arrested and paid 
$5,000 in order to post $50,000 bail. Shortly thereafter, the unfounded 
charges were administratively dismissed by the Prosecutors Office.
    Despite daily attempts, my first contact with my youngest two 
children was during a supervised visit nearly five weeks after our 
separation. My oldest two children, based on the first caseworker's 
communication with their father, did not want to see me. Six months 
later my third son stopped coming to visits and the last time I saw my 
daughter, now five, was the last week in December. Nothing is being 
done to resolve this as the employees of Preferred Visitation and 
Foster Care Services inform me that they are not allowed to ask my 
children why they do not want to visit with me, nor are they allowed to 
physically handle the children.
    Prior to their removal, my children and I enjoyed a close and 
loving relationship. I had been a stay-at-home-mom, volunteering in 
each of their schools, participating in their extra-curricular 
activities, and teaching their religious education classes. My children 
have since been denied this privilege as I have been cut-off completely 
from their lives and unable to attend school functions. The state 
contracted psychologist who diagnosed my daughter's abuse at the hands 
of her father, is now the psychologist treating the children. She has 
vehemently denied me information on the frequency of their visits or 
their progress, sighting HIPAA restrictions. In addition she has defied 
a court order to reintroduce the children to me.
    As child support ended abruptly with the children's removal, and 
after a year of surviving on a small income supplemented by excess 
student loan money, and the charity of friends and family, I have been 
forced to sell our home. My legal costs are already in excess of forty 
thousand dollars while my ex enjoys a free ride that is being funded by 
our state and federal taxes.
    My children were excellent students who often received academic and 
behavior recognition. I was responsible for making and keeping their 
doctor, dental and eye appointments and, as our oldest son suffers from 
acute allergies and asthma, I persevered through alternate treatments 
and months of weekly and bi-weekly, allergy injections. The DYFS case 
workers ignored my requests for their father to attend to these 
important parental responsibilities. Only recently, after several 
certified letters, did a case worker contact my ex and request that he 
do so.
    I persevered in taking the children to counseling, although their 
father did everything he could to prevent the children from talking to 
anyone. The children were taught by him to be secretive, to spy, and to 
be afraid of me. They were told repeatedly to call DYFS or police in 
order to undermine my parental authority and ultimately steal custody. 
Each time our family was investigated, as a result of these calls, they 
found no evidence of abuse. Although I explained this to the DYFS 
caseworkers, that my ex was abusing the system and poisoning the 
children against me, all of my concerns have been repeatedly ignored.
    Prior to, as well as after my children's removal, DYFS never 
performed an investigation of our family they have simply taken my ex-
husband's word on everything. Our long-time family pediatrician, who is 
highly reputed in our area, attempted numerous times to contact DYFS 
and was ignored. When he finally did reach someone he was given the 
impression that they had already made up their minds despite what 
anyone had to say; they ignored his qualified professional observation 
that he had never suspected any abuse.
    DYFS has used precious dollars to act as the vehicle for the 
complete severance and alienation of my children from me. It has been 
nearly fifteen months since this nightmare began, and although the 
criminal charges against me for the same alleged incidents have been 
dismissed and expunged, I have still not even had a phone conversation 
with any of my four children. We are just now going through the fact 
finding.
    Even though New Jersey's courts have emphatically ruled that 
children cannot be removed from a parent charged with abuse unless the 
court conducts a thorough evidentiary hearing, makes specific factual 
findings, and follows the rules of evidence, this has not been so in 
our case and, although I trusted DYFS to follow the law and to do the 
right thing, when my attorney pointed this out in a motion last summer, 
DYFS did not even bother to respond to the motion. None of my 
complaints or legal arguments was ever denied. Yet, I still have no 
contact at all with any of my children.
    In order for our country's human services to serve our children and 
families more effectively, they must be held to a higher standard. 
Everyone else who regularly is involved in the lives of children must 
be ``highly-qualified,'' as is so clearly defined in this 
Administration's No Child Left Behind Act. Everyone else in our country 
who touches the lives of children are ``held to a higher standard,'' 
yet DYFS case workers, having fewer credentials than teachers and 
school psychologists, have more power, and they are abusing it.
    It is my contention that more funding is not the issue, it is my 
humble observation that funds intended to protect our nations most 
vulnerable, children in crisis, are being squandered on vindictive 
custody litigation, perpetrated by individuals adept at using the 
system.
    No one is driving the bus. My children are at the mercy of a system 
that is governed by laws that no one has the power or courage to 
enforce and whereby the individuals who are charged with the well-being 
and welfare of children hide behind the veil of secrecy which is in 
place for the protection of our children yet often times serves to 
prevent them from being justly and expeditiously freed from the bondage 
of incompetent child welfare agencies.
    Based on my experience, I offer you the following suggestions for 
state and federal Child Welfare Programs.

    <bullet>  Mandatory investigations/reports, from all professionals 
who touch the lives of children of suspect parents
    <bullet>  Higher qualifications and increased training of all human 
services workers including family court judges and lawyers
    <bullet>  Limiting the power of case workers and their supervisors 
in their ability to make life altering decisions on behalf of children 
without proper procedure and investigation
    <bullet>  Expediting court proceedings
    <bullet>  Preservation of financial security
    <bullet>  Working closely with educators and community members
    <bullet>  National standards for investigation procedures
    <bullet>  Imposition of fines on those who ``use the system for 
personal gain.''
    <bullet>  Mandatory and ongoing training in Domestic Abuse and how 
it affects parent/child relationships
    <bullet>  Accountability of case workers to follow court orders
    <bullet>  Greater emphasis on family preservation/reunification
    <bullet>  Combining state child welfare agencies to increase 
accountability
    <bullet>  Mandatory audio/video taping of all supervised visitation
    <bullet>  Mandatory participation in therapy for ALL family members
    <bullet>  Mandatory and regular follow-up of all placements outside 
of the residential home
    <bullet>  Greater accountability for ensuring that children who are 
removed are receiving care that is equal to or greater than that 
received in the environment from which they were removed
    <bullet>  Immediate and mandatory assignment of family advocate

    I am not alone, due to carelessness, poor training, failure to 
follow proper procedures, and law, DYFS case workers along with the 
human services agencies they work with, are acting in ways that too 
often damage the families they are charged with protecting.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. O'Hara, and each 
of you for your moving testimonies. I want to thank you, Ms. 
O'Hara--you had a number of suggestions for us. I would be 
interested if any of you have any further suggestions which we 
at the Federal level might implement to improve the child 
welfare system--that might help it to work better. In your 
opinion, an area that you feel is the biggest flaw, and that 
you think--yes, Ms. Burge?
    Ms. BURGE. I heard a lot of discussion about more data, 
more forms--information technology. I am a demographer by 
training, so I mentioned that the divorce rate is not going to 
decline for populations like ours. The divorce rate is about 70 
percent right now, so you can apply that number to the number 
of children who are going to be part of a custody case. It 
isn't about more forms. I work in information technology. It is 
easy to automate this process. It is about education. It is 
about the ridiculous things that judicial officers--first of 
all, the caseworkers have no knowledge of parental alienation, 
brainwashing, and what one vindictive parent can do against the 
other. These children are suffering at the hands of a parent 
that wants to punish the other parent. That is one of the 
outcomes of divorce. So, I don't think it is about data. I 
think it is really about education.
    Ms. GLADWELL. During my nightmare with the New Jersey child 
welfare system, I had gotten in touch with the Children's 
Bureau. I spent a lot of time, I sent a lot of documentation to 
them, and so forth--both Dr. Wade Horn, Dr. Orr, and the people 
in her department. After doing that for about a year and a 
half, and asking what could be done, knowing that millions and 
millions of dollars were flowing into the State of New Jersey, 
who has--not all parts of it are corrupt. Not all people in it 
are corrupt. The system itself is broken, and they have 
admitted that. Millions of dollars are still going into New 
Jersey. The response from the Children's Bureau was, ``There is 
nothing we can do. We do audits''--which New Jersey just 
failed, and one of the ways they failed was on the basis of 
family reunification. There is no accountability there at all. 
In New Jersey, at the end of September, the Governor just 
appointed an Office of the Child Advocate. I have hope for that 
office, but that is not the do-all and end-all in New Jersey, 
or for other children in the country who may be experiencing 
the same thing. There has to be some type of justice, and a way 
to get through this system when it is corrupt and broken. 
Everyone I have talked to, including Children's Rights, who had 
won the lawsuit, said, ``This case is absurd,'' but no one can 
do anything. This is my family--my family. ``Oh well, I am 
sorry,'' doesn't cut it. ``Oh, yes, we are going to do this in 
the future based on what happened to your family.'' I don't 
want to be a victim any longer. I don't want my children to be 
either. I want my family back, and I want my children to be 
afforded the opportunity to enjoy their parents, and vice-
versa, and grow up in a healthy family. Thank you.
    Ms. O'HARA. I would just like to offer briefly, as I said 
in my testimony, no one is driving the bus. Actually, I have 
been having a recurring nightmare about my car accelerating and 
leaving without a driver. I finally figured out what that 
meant. My children are on a bus with no driver. The judge has, 
in fact, made several court orders that DYFS--as I have already 
said, but I just think this is so important--does not have the 
ability to enforce. They cannot enforce them. They will tell 
the judge--they will make lame excuses for it, but I don't 
believe they have the education or the qualifications to 
actually follow through. Then the judge says, ``Well, I don't 
know what I can do,'' because the judges are relying on the 
expert opinions of the child welfare workers who are not 
experts. That is the best way to put it. We really need help 
quickly, because my children--it has been 15 months, and all 4 
of my very young children are poisoned against me. Getting a 
child back from parental alienation is nearly impossible. I am 
not going to give up, but once this has happened, once the 
mother-child bond is severed, this is--it has become a 
nightmare. I don't know how to impart that upon you. My 
children already don't want to see me. They say that they hate 
their mother. They no longer love me. I can show you 
photographs. You can talk to the schoolteachers, the 
psychologists, and everyone else in our lives--my community 
members. We had a beautiful, loving relationship, and it is 
gone. Thank you.
    Chairman HERGER. Thank you. Mr. Cardin?
    Mr. CARDIN. Thank you, Mr. Chairman. Let me thank our 
witnesses for being here. We look at the statistics, we look at 
the numbers, we look at what is happening out on the streets--
and you all put a face on it. I know it is not easy for you to 
be here, and I appreciate very much your willingness to present 
this testimony. I think it helps us to try to get a complete 
picture of the tragedies that occur within our current system.
    Child custody, visitation issues, are difficult issues. One 
thing that I have learned over my years as an attorney and as a 
legislator, is that you can't pass a law that takes care of the 
circumstances of a family that requires a system, people who 
are trained, judges who are willing to spend the time necessary 
to make decisions that are in the best interests of the child 
and family, and that is consistent around the country. So, we 
are struggling to figure out what is the appropriate role for 
children who are vulnerable. How can we help to make sure that 
families are kept together, and that the child's interest is 
maintained? Clearly, the relationship with their parents is 
what we always envision as the preferred route. It is by law 
the preferred route. We want family reunification where 
possible, and I am afraid there are people who get hurt. 
Sometimes we say, well, maybe there are not that many--but if 
it is one, it is a tragic situation, and I think your testimony 
here today points out how people's lives are affected and 
ruined as a result of decisions that are made within our 
system. Although we must do what we can to protect the 
interests of the child, we need to do a much better job in 
having a system that is compassionate for all interests. I 
thank you all for giving that dimension to our hearing.
    Chairman HERGER. Thank you, Mr. Cardin. Again, I want to 
thank each of you for your moving personal statements, and for 
taking the time, trouble, and expense to come here today. In 
any hearing like this, we hear from a number of government 
officials and representatives of associations and agencies, but 
it is always tremendously useful to hear firsthand from people 
like yourselves who have actually been involved with programs, 
and live with the consequences every day. That has been your 
role today, and you all filled it well. We will keep your 
experiences and the many families who no doubt share your 
experiences in mind as we consider ways to try and improve this 
system. Again, many thanks for your thoughtful testimony and 
for joining us here today. At this time, I would like to thank 
all of the witnesses for their testimonies today. This series 
of hearings we have held since we first learned about the 
alleged abuse of the four boys in New Jersey has been very 
informative. Our witnesses today have provided useful 
information for us to consider as we contemplate what our next 
steps may be to better ensure that children are safe. I look 
forward to continuing to work with each of you as we continue 
our oversight of the child welfare system. With that, the 
hearing stands adjourned.
    [Whereupon, at 3:08 p.m., the hearing was adjourned.]
    [Submissions for the record follow:]

          Statement of Edith J. Beauchamp, Greenbelt, Maryland

    Chairman Herger, Congressman Cardin, and other distinguished 
members of the Subcommittee. Thank you for your consideration of my 
written testimony for inclusion in the printed record of the hearing to 
Review Federal and State Oversight of Child Welfare Programs. My name 
is Edith Beauchamp, and I am an adoptive mother of two siblings, whom I 
adopted just over a year ago from the Department of Children and 
Families in Miami-Dade County, Florida after being their foster mother 
for a year and a half. I am also a senior-level IT executive, having 
held the role of Chief Information Officer with four different 
organizations. My testimony today will bring together these unique 
perspectives on Oversight of Child Welfare Programs.
                                 ______
                                 
    Achieving safety, security and permanency for our most vulnerable 
children depends on the people assigned to care for them 24/7. Yet 
assignment of temporary foster parents as well as possible pre-adoptive 
parents--the function of placement--is an OPTIONAL activity for states 
to undertake in automating their child welfare systems.
    In addition, as I discovered in my own path to parenting, we 
arbitrarily limit the possible choices of homes for foster children, so 
that in regions like Miami-Dade County we have high concentrations of 
children in shelters because ``there aren't enough homes'' and 
simultaneously high concentrations of potential adoptive parents with 
foster care training who wait with ``empty homes.'' How is it possible 
to have both high supply and high pent-up demand to adopt children and 
not be able to achieve equilibrium?
    High supply and unmet demand to adopt children is not just a 
regional issue; it is a national crisis. How else can we explain that 
close to 130,000 children a year <SUP>[1]</SUP> in this country await 
permanent homes, which is one and a half times the annual total of all 
private and foreign-born adoptions in the US? <SUP>[2]</SUP> Yet the 
public perception is that there aren't enough children to adopt.
---------------------------------------------------------------------------
    \[1]\ From HHS' AFCARS website, chart entitled, ``Trends in Foster 
Care and Adoption as of 11/01/02'' with the subtitle ``(FY 2000 and FY 
2001 estimates will not be revised before Spring 2003)''.
    \[2]\ From US Census and INS data: approximately 50,000 private 
adoptions and 30,000 adoptions of children from other countries in 
2000.
---------------------------------------------------------------------------
    So these are the topics that I want to share with you today:

    1.  The critical nature of the placement process and just how 
broken it is in this country;
    2.  The path to parenthood for an adoptive foster parent; and
    3.  Why and how the mechanisms that HHS and the individual states 
have established for oversight should be changed.
The Critical Nature of the Placement Process and A Path to Parenthood:
    Caseworkers may visit with the children once a month for a half 
hour, but foster parents make critical decisions regarding their care 
every day: what they will eat, which pediatrician to see and when, 
which day care or school to enroll them in or to home school them, who 
they can play with, whether they get new clothes or toys, and how often 
they are hugged.
    Thousands of children in the United States are ``warehoused'' in 
shelters and group homes, not even placed in family settings. Often, 
when a child is taken into custody by the state, sometimes in the 
middle of the night, a temporary placement is made to a shelter. 
``Temporary'' sometimes stretches into weeks, months and even years. I 
found my children in a shelter, as related below, and to this day, my 
daughter remembers her three-week stay there as terribly frightening. 
It was almost three years ago now, and she was only three then, but the 
stay is etched in her mind. With minimum-wage workers coming and going 
throughout the day and night, and a large dormitory-style room full of 
cribs and cots, she remembers this place the way most adults would 
probably remember a stay in the hospital: hard to sleep, and 
institutional. Shelters are no place to keep children warehoused, no 
matter how well run and clean. We have to have a process to rapidly 
move children into loving homes, and as my experience and that of my 
friends may illustrate, recruitment is not so much the problem in 
finding enough homes as is the lack of an adequate placement mechanism 
to reduce the wait times and help the staff with the matching process.
    My husband and I were among the one in five couples of childbearing 
age that are infertile, or 5 million couples according to the Center 
for Disease Control. The infertility industry is a $5 billion a year 
industry in this country, and completely unregulated--``self-
regulated'' they call it. The treatments are expensive, physically 
debilitating, and can be life-threatening. A friend of mine, undergoing 
the same treatments as I, was induced into a five-day coma in the 
intensive care unit to relieve the fluid build-up in her lungs as a 
result of the infertility drugs. According to this month's (February 
2004) issue of ``O'' Magazine, Oprah Winfrey's enterprise, you are more 
protected by oversight getting a tattoo than undergoing infertility 
treatments.
    What I want you to understand is the pain and the lengths and 
depths to which couples will go to achieve parenthood, and the latent 
demand for adoption, because as with us, adoption is usually turned to 
as a solution after one has exhausted the infertility treatment 
options. The lack of access to effective adoption strategies in this 
country, particularly across state lines, has left many couples 
believing that they must simply give up on the dream of being a parent 
if medical treatments are unsuccessful.
    In our case, there wasn't an ``us'' anymore after a nine-year 
marriage and going through four years of the treatments, but it didn't 
dampen my desire to be a ``Mom.'' As I researched adoption, I learned 
of several agencies in South Florida that sheltered children for the 
State, and which advertised adoption on TV. What I learned is that each 
had different criteria for placing children in their care, and each 
worked only with the parents whose home studies they completed, and the 
children were limited to that group of parents. The children were 
limited to a small pool of possible parents instead of all the hopeful 
couples (and singles) in the state, or just the county even, as 
possible homes.
    In fact, this limiting of placement to those parents each agency 
has worked with directly appears to be universal. The limitations can 
be within the same agency to a particular shelter. For example, the 
Children's Home Society in Miami has a significant number of children 
in its care at any point in time, yet the Children's Home Society in 
Minnesota has as its sole mission to facilitate Russian adoptions. How 
can we have over 130,000 children a year in the US waiting for 
permanent homes and no coordinated ``distribution mechanism'' for 
locating and placing them with prospective parents? There is no central 
database of all parents in each state interested in adoption. There are 
no objective standards even within finite geographic regions for the 
process of conducting home studies and background checks. As I learned 
in Miami, there wasn't even a better system than a whiteboard.
    Florida has the third highest concentration of children in foster 
care, with the exception of California and New York. Miami-Dade County 
had 16% of the state's total, or 5,000 per year. I wondered what were 
the forces that prevented these children from being adopted by parents 
in other states with lower populations of foster children? I was soon 
to learn that even in a county with a large concentration of foster 
children, the placement process itself was a barrier to timely 
placements, favored ``those we already know'' over people who have 
never fostered before, and was a highly manual process.
    Through word of mouth, I learned of an option to adopt directly 
from the State of Florida and applied to the state's Department of 
Children and Families in the fall of 1999. I had already decided that I 
wanted to adopt siblings, preferably a boy and a girl or two girls, so 
that they would have a better sense of family, and because siblings 
were harder for the state to place together. After completing an 
extensive series of background checks and training courses, and visits 
to my home by several caseworkers, I was approved for four children 
because of the size of my home. I respectfully asked that they reduce 
this to two, because as a single, working mother, I felt it would not 
be fair to the children to take in more. Two children with one parent 
require four times the attention of a single child with two parents who 
can share the effort.
    I asked that I be designated as a ``strictly adoptive'' home, 
because with all the losses in my life, I did not wish to be in a 
position to give back a child I had loved. I wanted to be considered 
for children that had already been terminated from their parents. 
That's when my licensing counselor told me that they didn't have a 
computer system for ``strictly adoptive'' homes, but she would give my 
name to the county's adoption counselor. That's when my real wait 
began. I didn't realize that by not accepting the foster care 
designation, I would not get a permit to receive children in my home, 
which would actually prevent an adoption placement, even for children 
with TPR.
    I lost the placement of a 5 year old boy and his 7 year old sister, 
two children who had been on the state's waiting list for at least two 
years, because when the caseworker called to move them to my home as a 
pre-adoptive placement and learned I did not have a foster license, she 
had to find a temporary home that was licensed, and then when they were 
happy in that home, she was reluctant to move them again. So I 
contacted my home study caseworker, and told him I was rethinking my 
classification and wanted to find out more about being a ``foster 
resource parent''--a classification for foster parents who wish to 
adopt the children if the biological parents' rights are eventually 
terminated from the children. Some paperwork had to be updated, but 
eventually I was issued my foster license in March of 2001--a year and 
a half after I had first applied to adopt. Still I waited with an empty 
home, and there were many other couples and singles like me in the 
county, designated as Foster Resource homes, but without children.
    Despite now having my foster license, even volunteering to work at 
the shelters to read to children or hold babies proved difficult. At 
the direction of the District Director for DCF, whom I had met at a 
volunteer mentoring group for foster-adoptive parents, I was given a 
list of eight shelters with state contracts by the placement office, 
and of those, only one director would allow me to visit. I met my 
children there, met their caseworker with the help of the shelter 
director, but had to write a petition letter to actually have the 
placement finalized with me. The placement office didn't have these 
children on their ``radar'' yet, because they were in Protective 
Services as abuse and neglect victims, and had not yet been officially 
transferred to ``foster care.'' Then the ``preferred placement'' was to 
be to a home that already had four children, requiring a waiver to 
accept two more, because one of the children had been placed there for 
two months the year before. Ultimately, due to my petition, in May 2001 
the placement was re-reviewed by both the Protective Services and 
Foster Care departments and unanimously moved to me. My children were 
only in the shelter three weeks, but may have languished there far 
longer had it not been for the unusual set of circumstances that 
allowed me to meet them and work around the normal processes. The TPR 
took a year and a half, and it was December 2002, when the adoption was 
completed--three years after my initial application to the state. My 
friends who introduced me to this option gave up on it, and privately 
adopted a little girl from Haiti through the INS.

Why And How The Mechanisms That HHS And The Individual States Have 
        Established For Oversight Should Be Changed.
The Why:
    You heard testimony from Dr. Wade F. Horn, Assistant Secretary for 
Administration of Children and Families at the Department of Health and 
Human Services that the timely achievement of permanency outcomes, 
especially adoption, for children in foster care is the weakest area of 
State performance. Judging from HHS tables of the annual number of 
children in foster care in each state, and total annual number adopted 
by state, this appears to range from a low of 4% to a national average 
of 9.5% per year adopted by non-relatives. My two were counted in the 
2,206 adoptions reported from Florida in 2002.
    Dr. Horn testified that AFCARS, one of the ``principle mechanisms 
for Federal oversight'' collects case level information on all children 
in foster care and those adopted, and it also includes information on 
adoptive and foster parents. However, this data is demographic only, 
and aggregate at best, and with data reported only twice per year, it 
takes HHS as long as two additional years to validate the data. This is 
hardly timely, and certainly not useful in tracking successful outcomes 
for children that can be responsive. With all due respect, I would 
hardly deem this ``oversight.''
    The data structure required for submitting AFCARS data, designed in 
1993, is available on the ACF website. It asks no question about 
whether the children have siblings and whether those siblings have 
separate placements. This not only might be, but also should be, a 
factor in their foster placement and adoption. My children have three 
older siblings. There is no provision to determine the number of other 
children in the foster care setting, although ``group home'' as a 
classification is defined as from seven to 12 other children. Although 
it asks whether an adopted child has moved to another state, it is in 
the format of a Yes/No answer, which fails to provide information on 
which state the child has moved to. We've moved twice since the 
adoption, and I can tell you that it has averaged three months each 
time to transfer into the new state system for Medicaid. I mean this 
facetiously, but what is the point of asking, ``Date of Placement in 
Current Foster Care Setting,'' when we are still validating data two 
years after the fact? Hopefully the child has been adopted by then.
    The GAO reported that many states have different interpretations 
for answering: ``Number of Placement Settings?'' This is a very 
different question if your system is designed to track whereabouts, 
which are necessary for safety and security reasons, versus specific 
foster care assignments. All systems should be designed to track both. 
A child might be given to a different foster parent over a weekend to 
provide respite time for the foster parent of record, for example. At 
least under Florida law, babysitters are not allowed unless the sitter 
is another licensed foster care parent. The respite home may be the 
current whereabouts, but not the current assignment to a foster parent. 
Foster parents MUST be compelled to report the whereabouts of a child 
at any point in time, and the States should have a method for recording 
this information electronically. Hopefully both questions can be 
recorded separately so that the data purposes are not commingled.
    There are many deficiencies in the design of AFCARS; these are just 
a few examples, and the design of AFCARS is under review. However, I 
contend that the whole approach to the system for AFCARS, along with 
SACWIS, requires a complete redesign and not just a ``tweaking.''
    Over the last decade, $2.5 Billion has been spent automating state 
child welfare systems (SACWIS), and the best we can do is report data 
on 500,000 children two years after the fact? Further, only 29 states 
have operational systems, and of those, only 5 have been fully 
accredited by HHS. Without mincing words: that is an abysmal track 
record after a decade of effort and that level of spending. The GAO has 
written numerous reports pointing out these failures and has indicated 
that HHS failed to define the problem to be automated but rather 
suggested the states attempt to solve it on their own, with HHS telling 
them when they ``got it right.'' Throwing money at a problem without 
defining the problem is not a solution.
    I informally interviewed several state IT staff on an ad hoc basis, 
and as examples learned:

    1.  The Commonwealth of Pennsylvania, not counted in the 
``operational'' group, spent $65 million on an effort to automate its 
child welfare system and was told by HHS to go back to the drawing 
board, an effort slated to begin again next summer.
    2.  The State of Maryland has spent over $20 million, and is only 
now nearing operational readiness with the software, although PC's were 
purchased for each caseworker close to four years ago which up to now 
have been used for email. The concern is that the hardware, running the 
Windows NT operating system, may be obsolete for this rollout.

    Both of these states have in common that their child welfare 
systems are administered at a county level with state oversight. In 
Pennsylvania there are 67 separate counties, each with its own methods 
and procedures. A Pennsylvania state adoption clearinghouse told me 
that there are 67 different versions of home study forms used, for 
example, because every county does it differently, and ``individual 
family court judges want different questions asked.'' I suspect that 
Pennsylvania is not the only state with this problem, and that it is 
far more likely to be prevalent not just in every state but also with 
every privatized agency in every state, as I learned about in Florida.
    In total, AFCARS is designed to receive information from 3,230 
counties, including US Territories. It is incomprehensible to believe 
that the demographics and legal systems are so different that we 
require 3,230 different system designs.
    It is not surprising then, with so many different approaches and a 
lack of standards, that the Interstate Compacts for the Placement of 
Children across states are still wholly manual processes, and rarely 
used for foster care placements except for transfers of children to 
other relatives, or where large urban cities border other states, such 
as the District of Columbia with Maryland and Virginia. Your colleague 
in the Senate, Senator Larry Craig, stated in the magazine Adoption 
Today that there are ``more hurdles in adopting in this country, 
especially if it is an out-of-state adoption'' than adopting 
internationally.
    Dr. Horn concluded by stating that States would continue to be 
required to:

    a.  Adhere to ``requirements for conducting criminal background 
checks and licensing foster care providers'';
    b.  Obtain ``judicial oversight over decisions related to a child's 
removal and permanency'';
    c.  Meet ``permanency timelines'';
    d.  Develop ``case plans for all children in foster care''; and
    e.  Prohibit ``race-based discrimination in foster and adoptive 
placements.''

    I recommend that those five mandates should form the basis to 
establish a National Child Welfare IT Task Force to create a Program-
Management Office and Global Architectural Approach to designing a 
comprehensive national child welfare tracking system. The mission of 
the Task Force would be to: Create a streamlined nationwide system of 
placing, tracking, counting, classifying, protecting and coordinating 
children and service delivery to children in the foster care system 
that can be easily implemented at the local, county, state and federal 
level to unify the delivery of care to children and yet also enable 
community-based efforts to care for children.
    The real key is to facilitate data interchange among all the 
jurisdictions and organization involved in the process. We need to 
define and create a national infrastructure that is at once centralized 
(the data) and distributed (some data and processes).
    I'd also like to add one more mandate, or rather supplement Dr. 
Horn's list:

    f.  Provide a national ``interstate'' system for matching foster/
pre-adoptive homes with waiting children (the 130,000 annual average 
since 1998), not just those desperate few (3,700 currently) already 
TPR'd without a permanency solution.

    The need also to monitor case management metrics, such as timely 
abuse and neglect investigations and regular visits to children in 
their homes is also an ongoing requirement, and perhaps a subset of d).
The How:
    Economies of scale in system design and cost of implementation can 
be achieved when commonalities and best practices are recognized and 
shared, rather than completely separate efforts. National guidelines 
and directions would go a long way to reducing the rework as each state 
and many counties develop wholly separate systems. Ideally several 
states could take advantage of similar software modules, the way that 
software modules or custom packages are ``vertically marketed'' to 
like-businesses.
    With many states facing fiscal crises, state funding for developing 
appropriate information systems has been cited as a significant barrier 
to timely completion of their SACWIS projects. This is all the more 
reason to have clear established guidelines for the future. More 
importantly, process efficiencies can be achieved when data exchange is 
standardized, and counties and states can effectively and efficiently 
transfer child welfare information.
    Every state is different in demographics, population size and laws 
affecting children in foster care. California has very different needs 
than Vermont, and the cities of Los Angeles or Chicago or Philadelphia 
each has greater automation needs for foster care than some entire 
states. However, standards for information can be established 
recognizing differences in scope, scale and processes. For example: 
``What is a case?'' differs from state to state. Is it a single child 
or a single legal case representing several children in one family? Of 
course it is possible in establishing standards also to establish 
conversion tables that allow for necessary state or regional 
variations.
    In the 35 states with county-administered systems, developing these 
standards is critically important. There are too many computer efforts 
that begin by automating in the same fashion what had previously been a 
manual process, rather than re-engineering the process to take 
advantage of the new efficiencies of the computer architecture. Another 
common design mistake, when lots of focus groups are gathered, is to 
fail to differentiate between what is desired because of habit, versus 
what is a true processing or data need in the intrinsic nature of the 
work. In particular, if the variations occur simply in the format and 
semantics of a form that each county prefers, then creating 67 (e.g. 
Pennsylvania) separate programmatic versions of what is in essence a 
similar process that could be database driven for the essential and 
required variations in content, is highly wasteful and expensive to 
maintain in an ongoing fashion. Poor design leads to high cost.
    A significant number of caseworkers were provided with systems that 
have simply converted what used to be manual forms into online forms 
that they now must type into the computer. Rather than relieving their 
burden, this process adds to it, because with so much of the data 
gathering happening in the field, it is difficult to carry around a 
laptop and type the data in the presence of the foster family, assuming 
the jurisdiction had money for laptops or even PDA's. The caseworker 
should be focused on interacting with the family and children and 
observing. My caseworker reported having to go into the office on her 
days off on Saturdays to re-enter her forms just to keep up with the 
paperwork requirements of the new Florida computer system. Clearly, 
design guidelines are needed that take into account these ``human 
factors.''
    Today's computer technology is highly scalable. ``Open systems'' 
standards for software and hardware, as well as internet/intranet 
technologies, are being adopted by many governmental Chief Information 
Officers (CIO's) for their jurisdictions and agencies, making standards 
around hardware and software more flexible and ``inter-operable'' than 
when AFCARS was conceived in 1993. The same software will run on many 
varieties of computers and operating systems.
    The states arelooking to the Federal Government for guidelines. In 
the absence of any other legislative mandate or regulation, however, 
HHS has no choice but to carry on the programmatic directives of the 
past, and the States to attempt to comply.
    The technical assistance furnished by HHS to the states has been 
focused on helping them to implement the current reporting 
requirements, the AFCARS requirements from 1993, which is like a 
``finger in the dike,'' rather than a proactive Program Management 
Office and Global Architectural role which would facilitate consensus 
on national standards. Placement is largely ignored by these efforts. 
Rather than looking at developing standards as strictly a Federal 
requirement, however, it should be looked at as a necessary 
collaborative process, which all levels of government have a stake in. 
Further, this mandate must come at a policy-setting level, and 
therefore cannot be left to mid-level state staffs to ``work out.''
    Many industries have developed information exchange standards, 
beginning in the early 90's with invoice and ordering information, a 
set of structures and processes known as EDI, or ``electronic data 
interchange.'' Today, far more information than strictly financial 
transactions is exchanged among businesses due to industry standards-
setting committees that established the formats for the information. My 
recommendation is to mandate a similar standards development process 
for information exchange in child welfare among all agencies involved 
in service delivery to children and their families and monitoring of 
outcomes.
    With 500,000 children in foster care and approximately 40,000 
caseworkers nationwide, we are not talking about an extensive amount of 
data by comparison with other Federal requirements. The trick is not 
the size of the system, but the design, and in getting everyone to 
agree to data standards for exchange among all the different 
jurisdictions, and on the appropriate process flows to move children 
into permanency, whether through reunification or out-of-home 
placement. Reducing the waiting time and the number of waiting children 
is the goal. This will be the real work of the Task Force.
    Does this mean every entity and jurisdiction must operate the same 
way? Certainly not. If anything, it will enable innovation. No two 
stores always operate the same way, unless they are part of the same 
chain, and certainly retail vendors selling completely different goods 
operate differently. Data interchange between suppliers and stores is 
in widespread use in retail, however. What they must agree on is the 
standards for the information they must exchange in order to work 
together effectively. This is precisely the goal we need to enable 
private/public partnerships, community-based family services, 
cooperation between Foster Care Review Boards and the family court 
system, the mental health providers, and linkages among various 
jurisdictions and agencies, etc. This is what developing national 
standards is all about.
    To draw on another example from business: many companies today have 
established systems to help them keep track of the information on all 
their interactions with their customers, and to manage those 
relationships. After numerous mergers and acquisitions, large companies 
discovered their customer information was fragmented across numerous 
operational and financial systems. In the IT industry we call it a 
``data warehouse'' which allows you to generate specialized reports and 
views of information by pulling it together from all your operational 
and financial systems.
    Child welfare demands a focus on the children and their families 
and on processes that will rapidly highlight deviations or delays that 
hinder successful outcomes. With so many jurisdictions and agencies 
involved in service delivery, it is critical that there be a method to 
bring this data together. Let me give you a personal example: After my 
children were adopted, I sold my home in Miami and moved to a suburb of 
Philadelphia. I called the Adoption After Care unit of Florida's 
Department of Children and Families to let them know my new address. 
They had to use email to send a note to someone in the Miami-Dade 
County finance office to change my address in their accounting system's 
``vendor'' file. How much more fragmented can a process get?
    Once the mandate for a standards setting process is agreed to, the 
first step in establishing effective standards is to study the 
variations in policies and practices among the target organizations, in 
this case specific states and counties. However, rather than pore over 
manuals and legal regulations, the easiest and most efficient way to 
study these differences is to let the computer do the comparing.

For example:
    1.  Developing national standards on home studies: By collecting 
electronic copies of the home study form from as many jurisdictions in 
every state as possible, and from privatized agencies as well, we can 
electronically convert the questions and upload each question into a 
database tagged by source, which we can query for keywords and phrases 
to identify questions in common to most, and questions that are unique. 
In this fashion we can develop a result set showing the number of 
occurrences of a particular question or topic, and in which 
jurisdictions they originate. Then a cross-functional committee could 
evaluate the reported findings, with representation from independent 
associations, state agencies, or others that should or wish to be 
involved in establishing the standards.
    2.  For criminal background checks for foster parents: Although 
perhaps disconcerting to some to create linkages to Justice Department 
information, for background checks, there certainly is an overlap. The 
work just completed by the Global Justice Information Sharing 
Initiative with help from the National Association of State CIO's for 
Homeland Security may prove a useful source for information about 
current state IT infrastructures and a starting point for streamlining 
this function.
    3.  For the data structures: Most states have at least started to 
develop SACWIS systems, and it is important not only to develop 
standards for the future but also a migration path for each State to 
``get there,'' which requires understanding the starting point. By 
extracting the ``data dictionaries'' (file formats, layouts and 
relationships) from their existing systems, we can do a comparison 
electronically and develop data mapping reports and definitional 
documentation.

    Here are examples of possible additional benefits from developing 
data interchange standards and a national or regional ``data 
warehouse(s)'' of child welfare information:

    <bullet>  Certain functions could be ``web-enabled'' so appropriate 
individuals would have direct access to update information, reducing 
the data entry load on the caseworkers.
    <bullet>  With appropriate standards for privacy and security and 
``need to know'' access, records on the children could be stored in an 
accessible format, such as health records (with appropriate HIPAA 
compliance), so that caseworkers don't have to spend time chasing these 
down and can more easily print them out for foster parents to have 
ready access to immunization records, allergies, and other vital 
information on special needs children, which is essential in the first 
week of placement for school enrollment, doctors' visits, etc. and 
often difficult to come by.
    <bullet>  Research data would be more robust and could be 
aggregated from the specific records, keeping private the information 
on individuals. For example, knowing the specific drugs used by parents 
(methamphetamines, crack cocaine, OxyContin, etc.) is useful to the 
court preparation for a TPR, but aggregated at a county level, and 
mapped using Geographic Information tools, could demonstrate 
dramatically the specific patterns of drug use across the country and 
in specific regions, and correlated with other family service data 
could demonstrate the highest concentrations of need for planning 
purposes, without a lot of effort.

CONCLUSION:
    The 10-year effort to automate child welfare by leaving it to each 
individual state has done little to streamline the complex process of 
managing case loads and ensuring successful outcomes for children in 
the child welfare system, as the data on adoptions demonstrates. 
Oversight at a Federal level has been hampered by the lack of completed 
state efforts.
    Solving the problem of a high number of children waiting for 
adoptive homes, as well as matching them with the large number of 
Americans interested in adopting children requires:

       A national mandate to establish the design of a national child 
welfare information system infrastructure that is standardized, and can 
be integrated and distributed among all the jurisdictions and agencies 
at a state, county and local level.

    Every child should have a family.

                                 <F-dash>

         Statement of Patricia de Santos, Claremont, California
    I wish to convey my research and experience dealing with the 
children's welfare system. My perspective is especially important 
because despite the enormity of the legislature's efforts and policy 
writings the ultimate policy must be able to affect the proposed 
intent. The children, my great nephews, and myself I have cared for 
over the past ten years are the people this children's welfare policy 
affects. Therefore, I hope my perspective will be of interest to you.

BRIEF BACKGROUND
    In 1994, I took in a sibling group of three infant boys. These 
brothers had been placed in three separate fosters homes, two in the 
State of Hawaii and one child in the State of California. I am the 
boys' maternal great aunt and the placement of the children with me 
achieved unification of the three brothers. Over the following eight 
years I worked diligently not only providing support for the 
reunification services, which ultimately failed, but also for the boys 
special needs as all were later diagnosed with psychological problems 
(ADHD) and mental health disorders (Bipolar). These were extreme needs 
and I was never wavered in my efforts for the children or my intent to 
adopt all three children.
    Nevertheless, in July of 2001, our family was ``blown-up'' by our 
social workers. What is more disturbing is that a false report 
regarding my care of the children was generated and used to prohibit 
the return of the children to me. When the two older boys, then 8 and 9 
years old, were deported by the County of Los Angeles back to their 
jurisdictional State of Hawaii, Hawaii investigated. The investigation 
determined that the allegations in the false DCFS report were 
``unfounded.'' I obtained custody of my two older boys in December of 
2001. Unfortunately, Los Angeles County has not and will not return 
custody of my youngest son, which effectively has separated the three 
brothers.

PURPOSE OF THE SUMMARY
    I bring my story to you because in my search to understand what 
happened to my children and me in July of 2001, I necessarily initiated 
legal proceedings. Through these legal processes I reviewed, for the 
first time, the social workers' reports. Although, for many years the 
reports of my care of the children was favorable it was not complete. 
In fact, the over-simplification of my extreme efforts in caring for 
three special needs children from infancy was an egregious omission of 
the facts necessary to fully evaluate our situation. Moreover, when our 
last social worker began her relationship with us her representations 
and information to me were false based on her reports to the court AND 
her reports to the court were misrepresentations of the truth. Attached 
to this summary are two documents: 1) my research thesis with my 
findings overlaid on my own experiences, entitled, Disrespecting 
Children: Disclosing the Adverse Effects of Children's Public Policies. 
An Autobiographical Case Study, and 2) a copy of a letter addressed to 
Robert R. Walmsley, a children's attorney, describing a chronological 
summary of the events that transpired during my family's relationship 
with our social worker.
    In further research of the problems I was encountering with the Los 
Angeles County Department of Children and Family Services I began to 
uncover horrendous accounts of vile behavior by social workers and the 
children's welfare system. Who would believe that the benevolent 
positions of protectors of children would behave in such ways? Until I 
researched this enigma I had no idea of the autonomous power social 
workers and children's welfare implementers possess. Until I reviewed 
hundreds of case records I did not understand the full extent of 
absolute immunity. Until I pursued public policy in my graduate work I 
did not realize the inherent government failure connected with 
children's public policies. I came to realize the difficulties of 
implementing children's public policy but most importantly, I saw why 
there is such a distortion within the children's welfare system and the 
protection of children.
    The most devastating failure of the children's welfare system is 
that the funding bureaucracies within the system are in direct 
contradiction with the best interest of the child. Social services is 
in a position of serving two masters, the money stream which comes from 
legislators, and, doing what is best for the kids. In any bureaucratic 
system it must remain solvent and therefore social services look to 
these veins of income to remain self-sufficient. Unfortunately, when a 
decision is made based on funding it is inherently done against the 
best interest of the child because you don't put the child first. In 
order to do what is in the best interest of the child the child must be 
first and foremost. Double-talking this pursuit leads to a murky grave 
of this system. Clearly, the purpose of your sub-committee is a 
reflection of this failing.

A SUMMARY OF DISRESPECTING CHILDREN
    My thesis is a dissection of three specific children's policies, 1) 
The Special Education System, 2) The Foster Care System (Dependency), 
and 3) the Juvenile Delinquency System. Although this sub-committee is 
looking specifically at the children's welfare system, I believe, you 
cannot effectively address a problem in one system without affecting 
another system. These systems are the links of a child's life and they 
cannot be addressed in isolation. To do so would be like fixing a 
broken arm while allowing the body to be ravaged by cancer. It is a 
daunting task, to step back and look at the enormity of the effort, but 
if it is not done correctly and completely, the problems you are 
addressing in this hearing are doomed to be repeated with horrendous 
and continued social consequences. The goal is to help and protect 
children. My research, my findings, and my experience determined that 
the bureaucracy itself is also part of the problem.
    The Special Education system is a support system where a majority 
of children placed in Foster Care need to be. Nevertheless, this system 
is burdened and therefore excluding of as many as can be determined to 
fall above the very low standard for learning disability. Children in 
the foster care system often decline in their educational performance, 
but stay at borderline. Not enough to get them special education 
services, but receiving a minimal education at best. And if a foster 
parent were inclined to pursue special education services on behalf of 
the child, the process is delayed (despite statutory requirements) and 
the current Foster Care System is notorious for moving children 
multiple times. If by some luck the child stays in the same home for 
more than one year, the uphill bureaucracy of getting a borderline 
child are impossible as many children who fall below the standard are 
continually declined special education services, procedurally or 
effectively.
    [This segment is a description of the wall of obstacles in the way 
of children in the foster care system to find support for their 
educational needs.]
    The Foster Care System is inherently a brutal system. Children are 
continually removed from a home with little or no evidence. Those 
families who attempt to fight Child Protective Services are immediately 
portrayed as deviant, dysfunctional, combative, or worse. Yet the 
natural instinct for any parent is to protect your child without 
concern for yourself. Many of the families that react in this 
instinctive manner are characterized as abnormal. When an intrusion 
enters the Constitutionally protected domain of the home, there must be 
safeguards to these psychological dynamics. Otherwise, the abuses that 
occurred to my family and me and to many families whose stories are 
told and untold will continue to the detriment of the children the 
system is designed to protect.
    Now, add in the enormous and autonomous power social workers have 
acquired over the years in implementing children's welfare policy. In 
an effort to protect children legislators have provided social workers, 
(fallible human beings) an immune license to tear up, split apart, and 
destroy families without accountability. Why does this happen? Because, 
it is allowed to happen. The basic rule of law is that no one should 
have the absolute power of authority over anyone else without a check 
and balance. The children's welfare system has lost this check and 
balance.
    But most important is the life of the child in foster care. It has 
been well established that children are inherently placed at great risk 
once put in the children's welfare system and they are subjected to 
enormous cruelty while in the child welfare system. Talk to anyone who 
has lived inside the system. The reason for this are many, but one 
major factor is simply that once in the system the child becomes 
anonymous. There is no one who knows the child, (e.g. history, moods, 
problems, fears), that can effectively understand the child's reactions 
and behaviors while in foster care. Psychological care providers do not 
live with the child. And the attention a child is rationed is cruelty 
beyond belief.
    Children are complicated beings and to diminish their individuality 
to the need for food, shelter and school is to ignore the entire basis 
for this Congressional inquiry. And children live life minute by 
minute. The slow moving wheels of the juvenile court system, not to 
mention noteworthy Congressional hearings and public policy-making, 
will leave a child slowly suffering a fate they do not understand. For 
this reason, as this issue is again on the table, please put the time 
in to do a complete job so children will not needless have to suffer 
the waiting of another tragedy to occur to convene another 
subcommittee.
    To understand what is needed from legislators, legislators must 
first re-evaluate the basic structure of what has grown into an 
enormous bureaucratic system, children's welfare. Consider it 
renovation, if you will. This system as it was designed in the middle 
of the 20<SUP>th</SUP> Century no longer stands tall in light of recent 
knowledge of social behavior and social public policy. In an effort to 
protect children we, as a society, have made them prisoners. What other 
victim is taken and incarcerated in a strange location, incommunicado? 
What other victim's voice is muted by those assigned to protect them?
    [This segment is a recount of the malicious and false information 
used by our social workers to affect their goal of removing a child 
from a safe and loving home, against statutory prohibitions, for the 
purpose of punishment and personal gain. Please also see attached 
letter to Mr. Robert R. Walmsley, children's attorney.]
    The Juvenile Delinquency System is the last stop before the 
criminal justice system completely swallows up the life of another 
individual. Sometimes it is justified, sometimes it is a road that one 
lacks the skills to get off of, and sometimes it is both. But for those 
children that come from the Foster Care System, it is an abhorrent 
testament of the children's welfare system. The child does not fail, 
the system fails the child.
    [This segment is the result of the failure of the special education 
and foster care systems.]

CONCLUSION
    I am an educated woman who, through a series of circumstances, 
found herself a single mother of three special needs children. The 
children and I formed a family, by design and direction of the 
Department of Children and Family Services. We lived together for eight 
years. These three children who were injured by their biological 
parents at infancy were later brutalized by their social workers and 
the system designed to protect them. To what end? It was proven that 
the social worker report was false and I was guilty of no wrongdoing. 
My children suffered and continue to suffer from bureaucratic abuse. 

AND, MY STORY IS NOT UNIQUE.
    In the summer of 2001, our social workers portrayed me as a 
negligent, non-caring, self-serving caregiver/mother. At that time 
anyone looking at our case and at the depictions of me by the social 
workers would not have known of the deceptions being waged. It has 
taken over two years to bring these malicious acts by the social 
workers and the system to light. This is in part because the system 
itself refused to acknowledge its own actions.
    To first determine the problem is you must examine the credibility 
of the system. No human being or system is infallible. The system that 
is currently allowing abuses of the authority over children and 
families is also not infallible. In addressing the problems connected 
with the problems in the care of the children in New Jersey look to the 
system and the players as a whole. Any one story is only a symptom of 
the whole system.
    My thesis is my research and my experience based on an academic 
format. I would be willing to stand up to any further scrutiny of the 
facts of my story. I welcome any interest.

                                 <F-dash>

                                       Pompano Beach, Florida 33064
                                                   January 28, 2004
Chairman Wally Herger
Subcommittee on Human Resources
Committee on Ways and Means
Washington, DC 20515

    Dear Sir,

    I have but one voice, one pen, but let it be known to you and your 
committee that my words are uttered in the hearts of every member of my 
family and every generation of family to come ``that we will never 
experience the joy, the laughter, the hope of two wonderful children 
that were ripped from our lives and lineage by the Department of Social 
Services in Massachusetts''.
    If I fail to communicate to you the how this intrusion touches 
their lives and ours, then you sirs, are equally responsible. They have 
not only taken from us our anticipated and expected right to pursue 
life, liberty and happiness, they have taken from us our right to love. 
I ask that you not think of my grandchildren as you read my letter to 
you, I ask only that you think of your own.
    Six years ago, I called to the Department of Social Services. My 
daughter is an addict and for her sake, and the sake of her daughter, I 
called this Agency for help. The records will show that Department of 
Social Services spent nine of their ten days investigating the reporter 
and after one three hour visit to the reported, determined the report 
vindictive in nature. A few months later, a second report was filed and 
substantiated. The child remained in the custody of her mother for the 
next 5 years during which time a second child was born. During her 
pregnancy and under the ``born alive'' statutes in Massachusetts, I 
attempted to get protection from the courts for this unborn child but 
my petition was denied. Three months later this child was born 
prematurely and with chronic asthma due to Placenta Abruption 
associated with drug use. He was then taken into custody by the 
Department of Social Services. My daughter entered several Drug 
Rehabilitation Facilities with her children and in spite of the chronic 
non-compliance and continued drug use, they remained in her care for 
the next five years under the watchful blind eye of DSS. My daughter 
was terminated from one facility for drug use, another for threatening 
a caseworker. She was put out and put up in a hotel in the middle of 
December with two children in tow. She spent the better part of a year 
in several shelters with her children. The incidents that occurred from 
1998 to 2003 included, domestic violence, drug use, rape, threat of 
bodily harm with a weapon (gun), physical abuse, mental abuse and 
abandonment. These incidents are documented in the files and at no time 
was anything done to protect the children. The Agency protected it's 
decision. Compounding the issue of drug use, my daughter was finally 
diagnosed with serious mental disorders yet the Department of Social 
Services having no knowledge of this, once again, returned the children 
to her care and custody. In the process and relying upon the outcome of 
the original complaint and diluted reports of a drug addict, this 
family has had no contact with these children in almost six years. Had 
the Department attempted to contact family members to secure assistance 
with respect to the intervention and care of these children, none of 
this would have happened.
    This Agency continues to stand firm with respect to it's decisions 
regarding the safety and well being of these children. This Agency 
stands firm in spite of the fact that it did not meet six of the seven 
safety and well-being requirements of the Federal Government. This 
Agency is given license, without recourse, to help or harm. This is 
unacceptable.
    The Department will submit that lack of funding, communication and 
data systems is responsible for the problems. There was no lack of 
communication in this case. One should ask, ``How often does this type 
of response happen?'' You won't hear about it or read about it because 
the children didn't die, but they very well could have. It will be 
recorded as another ``success'' story because ultimately the children 
were ``adopted''.
    The problem sir, is this Agency depends upon the ability of human 
beings to handle situations, that for all purposes, was never intended 
to be their responsibility. A State cannot function like a family. They 
are disposed to extreme prejudice and inflated opinions. These 
prejudices and opinions are unavoidable and at no cost to them. With 
this in mind, it can no longer be a matter of ``fixing or correcting'' 
a system that is destined to fail, no matter how much funding, 
computers and data system you provide. The Government, if it intends to 
help at all, would better serve these children by first alerting 
family, keeping in mind that is not and never should be a family's 
obligation to live up to the State's definition of family. Some 
families are poorer than others, but rich in love. Some family's in 
spite of a States preoccupation with size of rooms, and ability to send 
them to college, are more than able to provide these children with what 
they need most, ``familiarity and LOVE''. The State does not love the 
children in their care and no one knows that better than the children 
they serve. The State(s) are rapidly earning themselves a reputation of 
marketing children, sanctioning abuse and held above the law when 
through neglect or omission children are beaten, raped, starved and 
murdered. NOT ONE CHILD should ever be threatened by a system that is 
supposed to protect them. More and more children are dying and it is 
nothing new. The public and the Government have been and continue to be 
aware of the statistics. It has been happening for years, ten maybe 
twenty and all the hearings in the world are not going to change it.
    If we are going to have to endure this intolerable system than at 
least, at minimum, make them accountable. If they were held responsible 
for the decisions they make, no matter what the ``excuse'', I can 
assure sir, that their performance would change dramatically. If 
rewards (Adoption Bonuses) are available then it stands to reason that 
there must be consequence and accountability. The qualifications and 
experience of those who control the quality of care for the children 
would miraculously improve. There is no greater persuasion than risk.
    I hope my voice rings true in your ears for a long time to come and 
the next time you see a picture of a dead child in a newspaper, you 
will either pat yourself on the back for trying to be part of the 
solution, or hang your head in shame.
            Respectfully,
                                             Judith G. Evans-Baxter

                                 <F-dash>

                  Voice Application Specialists International, Inc.
                                           Woodstock, Georgia 30189
                                                   February 6, 2004
The Honorable Wally Herger
2268 Rayburn House Office Building
Washington, DC.

    Dear Mr. Chairman,

    I am writing this letter today to introduce our company Voice 
Application Specialists (VAS) International, Inc. a Georgia based voice 
biometrics company who has developed an application we believe will 
greatly enhance the accountability and overall protection of our 
children nationwide.
    I recently viewed the testimony from your January 28<SUP>th</SUP> 
2004 Subcommittee meeting you held with respect to some of the issues 
regarding the Child Welfare problems in this country, and am sending 
this letter as per the instructions for submittal of written 
statements, and sent a similar letter to Mr. Shay Bilchik.
    As we all know the issues around our children's safety are 
paramount and the purpose of this outreach is to provide a solution we 
developed around our technology, offering some tremendous relief for 
our at-risk children.
    VAS's software application TrueStudentID uses a person's voiceprint 
to verify them, in the same manner as other biometric technology. The 
accuracy rate is over 99.99967% and sadly to write there are some 
children as young as ten years old using this in the State of Florida 
(through our partner Voicevault the world leaders in voice 
verification) but shows how easy and flexible the system is.
    With TrueStudentID the child is enrolled in the system by simply 
dialing into a toll free telephone number asking to speak their name 
and to repeat the numbers 1-10. The whole process takes about 65 
seconds, and the child's voiceprint is enrolled in the voice vault, 
that has the highest security related hardware and software in the 
world.
    In cases where children may be at risk in a home or foster family, 
and where a state Division of Family and Children's Services has placed 
them in one of the ratings assigned by the state, voice verification 
can also be used to check on a child in the interim period. Again, 
nothing replaces the on-site visit by the caseworkers, but is another 
verifier.
    We have gone one step further in this verification process and that 
is with the caseworker. As we know, some caseworkers either from sheer 
overwork or from forgetting to stop by and see an at-risk child, have 
written down on a log that they did in fact visit the child at the 
home, only to find out later they did not but no matter what the case, 
a better control and daily verification process is needed.
    TrueStudent enrolls the caseworker the same as we have done for the 
child, then dials out to the child's home during the day (whether it 
was a pre-determined time to meet or just a drive-by) asks for the 
caseworker by name and ask him/her to repeat a set of 4 numbers 
randomly given and changed by the algorithms each time the user is 
asked their name.
    Once they have been asked to provide the name and numbers the 
caseworker is either positively identified within less than one second, 
and if they are not who they ``say'' they are, an instant notification 
is sent back to a pre-determined number (by telephone, fax, pager, or 
e-mail) to a supervisor in the form of an alert management overview.
    We are currently working with one of the major cell phone 
distributors with their use of camera technology to be able to take a 
picture of the child, upload it to a database and send it along with a 
voiceprint. If the child's parents do not have a telephone, the 
caseworker simply dials into the toll free number and the child is 
asked to repeat his name, and a set of numbers.
    Either way we have a voiceprint of the child who can be accurately 
identified by a caseworker (or a police officer), and by calling out to 
the child's home and using Automatic Numbering Identification (ANI) we 
can also see if the call was trying to be call-forwarded to another 
number or a cell phone.
    This application is used as a trust by verify role, and in the 
event a caseworker has a problem getting to a house, the supervisor 
will have an almost immediate notification, and if needed a third level 
notification can be sent to a local supervisor.
    There is also a latchkey application for the child who may be 
arriving home who may not have a parent/guardian nearby. In this 
instance TrueStudent would dial out to the home during a pre-set time 
period ask for verification of the child, and the parent would then 
receive a notification either through a phone, pager, fax or e-mail of 
the status of the call (and would continue to call up to four times if 
needed until the parent arrived home).
    How do we know this works? We have been working in the voice 
applications business since the late 1980's and wrote some of the 
functional specifications for a very similar application used in home 
detention based environments for low risk prisoners who currently 
number over 170,000 nationwide. We designed TrueStudentID to secure the 
safety of some of the at-risk children and to provide an additional 
layer of accountability.
    This enrollment system uses a tool free number, so a child who has 
been enrolled in one state, who moves to another (due to a parents 
transfer etc. . .) will then be enrolled in the new state without any 
problems. The only change would be in the telephone number being dialed 
and the new caseworker.
    Clearly, our intention with the enrollment process in all the above 
cases is to provide further documentation AFTER a caseworker has 
visited a child's home, and a verification that those parents/guardians 
who may want to try and continue to abuse these at-risk children, that 
there is another verification tool, and random check of the child than 
can be verified within less than a second, and an alert management 
system designed to have a call placed to a local police officer for a 
``drive-by'' if the child's voice does not match the voiceprint.
    Sadly, Mr. Chairman one of the reasons for your meeting was due to 
the recent case in Collingswood, New Jersey, and we presented this 
application to the Speaker of the House of New Jersey 6 months BEFORE 
this case, due to the other problems the state of New Jersey was 
having, and believe could have helped those children as well as to 
verify the caseworker's claims of when they were there.
    What is the cost for this? Since this is a secure hosted 
environment, and no hardware or software is needed, we charge a flat 
$5.00 per day for each person who is verified (with a maximum of four 
in-bound of out-bound calls). The initial enrollment phase can be a 
pilot program of where we would take a high problem area and implement 
a program there, and the $5.00 per day is ONLY spent when calls are in 
fact placed.
Chairman Herger, I am not trying to sell you anything, but to present a 
    proven application that can assist every state agency throughout 
    the U.S. and could be a deterrent to those who continually want to 
    harm children.
    We plan on sending a similar letter to Secretary Tommy Thompson to 
seek funding from the Department of Health and Human Services and other 
institutions, and would welcome any others you may feel can assist.
    Lastly, Chairman Herger, my husband who is the chief architect of 
the TrueStudentID will be in DC during the second week of March, and 
after reading this if you or members of your staff would like to meet 
with him please have someone from your staff reach me directly at 770-
591-3400.
            Sincerely yours,
                                                     Maricriz Nolan
                                          CEO/Chairman of the Board

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
